No. 19-1212

In the Supreme Court of the United States
CHAD WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, ET AL., PETITIONERS
v.
INNOVATION LAW LAB, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX
(VOLUME 2)

JEFFREY B. WALL
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioners

JUDY RABINOVITZ
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, N.Y. 10004
jrabinovitz@aclu.org
(212) 549-2618

Counsel of Record
for Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: APR. 10, 2020
CERTIORARI GRANTED: OCT. 19, 2020

TABLE OF CONTENTS

Page
Volume 1
Court of appeals docket entries (19-15716) .......................... 1
District court docket entries (19-cv-00807-RS) .................. 30
U.S. Immigration and Customs Enforcement, Memorandum from Ronald Vitiello, Deputy Director and
Senior Official Performing the Duties of the
Director, for Executive Associate Directors and
Principal Legal Advisor, Implementation of the
Migrant Protection Protocols (Feb. 12, 2019)
(A.R. 5)† ............................................................................. 57
Aliens Subject to a Bar on Entry Under Certain
Presidential Proclamations; Procedures for
Protection Claims, 83 Fed. Reg. 55,934
(Nov. 9, 2018) (A.R. 37) .................................................... 61
Press Release, Position of Mexico on the U.S. Decision
to Invoke Section 235(b)(2)(C) of its Immigration
and Nationality Act (Dec. 20, 2018) (A.R. 318) ............ 147
U.S. Immigration and Customs Enforcement,
FY 2016-2019 YTD ATD FAMU vs. Non-FAMU
Absconder Rates (A.R. 418) .......................................... 151
Excerpt from U.S. Immigration and Customs
Enforcement, Fiscal Year 2018 ICE Enforcement
and Removal Operations Report (A.R. 419) ................. 152
1

The administrative record included a public notice describing
this document, rather than the document itself. See Pet. App. 164a165a. All parties agree that this document is part of the administrative record.
†

(I)

II
Table of Contents—Continued:

Page

U.S. Citizenship and Immigration Services, Office of
Refugee, Asylum, & Int’l Operations, Asylum Div.,
Asylum Officer Basic Training Course, Lesson
Plan on Reasonable Fear (Feb. 13, 2017)
(A.R. 444) ........................................................................ 172
Excerpt from DHS Office of Immigration Statistics
(OIS), U.S. Customs and Border Protection,
Enforcement Actions – OIS Analysis FY 2018
Q1 – Q3 (A.R. 498) .......................................................... 295
U.S. Citizenship and Immigration Services, Asylum
Division, Briefing Paper on Expedited Removal
and Credible Fear Process (Updated Oct. 5, 2018)
(A.R. 518) ........................................................................ 296
Testimony of Robert E. Perez, Acting Deputy
Commissioner, U.S. Customs and Border Protection re “The Implications of the Reinterpretation
of the Flores Settlement Agreement for Border
Security and Illegal Immigration Incentives”
(Sept. 18, 2018) (A.R. 544) ............................................. 301
Excerpt from Statement of Matthew T. Albence,
Executive Associate Director, Enforcement
and Removal Operations, U.S. Immigration and
Customs Enforcement (Sept. 18, 2018) (A.R. 570) ...... 309
U.S. Immigration and Customs Enforcement, Memorandum for the Record re: U.S. Immigration and
Customs Enforcement Data Regarding Detention,
Alternatives to Detention Enrollment, and Removals as of December 23, 2018, Related to Rulemaking Entitled, Procedures to Implement Section
235(b)(2)(C) of the Immigration and Nationality
Act (A.R. 575, RIN 1651-AB13) ..................................... 317
Executive Office for Immigration Review, Statistics
Yearbook, Fiscal Year 2017 (A.R. 628) ......................... 319

III
Table of Contents—Continued:

Page

Excerpt from Muzaffar Chisti & Faye Hipsman,
Dramatic Surge in the Arrival of Unaccompanied
Children Has Deep Roots and No Simple Solutions, Migration Policy Institute (June 13, 2014)
(A.R. 699) ........................................................................ 366
Excerpt from Geoffrey A. Hoffman, Symposium: The
U.S.-Mexico Relationship in International Law
and Politics, Contiguous Territories: The Expanded Use of “Expedited Removal” in the Trump
Era, 33 Md. J. Int’l Law 268 (2018) (A.R. 712) ............ 370
Excerpt from Nick Miroff & Carolyn Van Houten,
The border is tougher to cross than ever.
But there’s still one way into America,
Wash. Post. (Oct. 24, 2018) (A.R. 730) .......................... 377
Barnini Chakraborty, San Diego non-profits running
out of space for migrant caravan asylum seekers,
Fox News (Dec. 7, 2018) (A.R. 742) .............................. 379
Christopher Sherman, ‘We’re heading north!’
Migrants nix offer to stay in Mexico, Associated
Press (Oct. 27, 2018) (A.R. 770) ..................................... 386
Excerpt from Medecins Sans Frontieres, Forced
to Flee Central America’s Northern Triangle:
A Neglected Humanitarian Crisis (June 14, 2017)
(A.R. 775) ........................................................................ 392
Excerpt from Congressional Research Service,
Unaccompanied Alien Children: Potential Factors
Contributing to Recent Immigration (July 3, 2014)
(A.R. 807) ........................................................................ 417
Letter from Congresswoman Grace Meng, et al. to
President Donald J. Trump re “Remain in Mexico”
(Nov. 30, 2018) (A.R. 834) .............................................. 422

IV
Table of Contents—Continued:

Page

Volume 2
Complaint for declaratory and injunctive relief
(D. Ct. Doc. 1) (Feb. 14, 2019) ....................................... 425
Declaration of John Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-1) (Feb. 15, 2019) .................................... 477
Declaration of Gregory Doe, attached to administrative motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-2) (Feb. 15, 2019) .................................... 487
Declaration of Bianca Doe, attached to administrative motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-3) (Feb. 15, 2019) .................................... 496
Declaration of Dennis Doe, attached to administrative motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-4) (Feb. 15, 2019) .................................... 508
Declaration of Evan Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-7) (Feb. 15, 2019) .................................... 517
Declaration of Frank Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-8) (Feb. 15, 2019) .................................... 525
Declaration of Kevin Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-9) (Feb. 15, 2019) .................................... 535
U.S. Dep’t of State, Mexico 2017 Human Rights
Report, attached to Declaration of Rubi Rodriguez
in support of motion for temporary restraining
order (D. Ct. Doc. 20-3) (Feb. 20, 2019) ........................ 543

V
Table of Contents—Continued:

Page

Amnesty Int’l., Overlooked, Under Protected:
Mexico’s Deadly Refoulement of Central Americans Seeking Asylum (Jan. 2018), attached to
Declaration of Rubi Rodriguez in support of
motion for temporary restraining order
(D. Ct. Doc. 20-3) (Feb. 20, 2019) .................................. 602
Human Rights First, A Sordid Scheme: The Trump
Administration’s Illegal Return of Asylum Seekers
to Mexico (Feb. 2019), attached to Declaration of
Rubi Rodriguez in support of motion for temporary restraining order (D. Ct. Doc. 20-3) (Feb. 20,
2019) ................................................................................ 647
Declaration of Rena Cutlip-Mason, Tahirih Justice
Center, in support of motion for temporary
restraining order (D. Ct. Doc. 20-4) (Feb. 20, 2019).... 683
Declaration of Eleni Wolfe-Roubatis, Centro Legal
de la Raza, in support of motion for temporary
restraining order (D. Ct. Doc. 20-5) (Feb. 20, 2019).... 696
First Declaration of Stephen Manning, Innovation
Law Lab, in support of motion for temporary restraining order (D. Ct. Doc. 20-6) (Feb. 20, 2019) ....... 706
Declaration of Nicole Ramos, Al Otro Lado, in support of motion for temporary restraining order
(D. Ct. Doc. 20-7) (Feb. 20, 2019) .................................. 718
Declaration of Laura Sanchez, CARECEN of Northern California, in support of motion for temporary
restraining order (D. Ct. Doc. 20-8) (Feb. 20, 2019).... 737
Declaration of Jacqueline Brown Scott, University of
San Francisco School of Law Immigration Deportation and Defense Clinic, in support of motion for
temporary restraining order (D. Ct. Doc. 20-9)
(Feb. 20, 2019)................................................................. 750

VI
Table of Contents—Continued:

Page

Declaration of Adam Isacson in support of motion for
temporary restraining order (D. Ct. Doc. 20-10)
(Feb. 20, 2019)................................................................. 760
Declaration of Kathryn Shepherd in support of motion for temporary restraining order (D. Ct. Doc.
20-11) (Feb. 20, 2019) ..................................................... 767
Declaration of Daniella Burgi-Palomino in support of
motion for temporary restraining order (D. Ct.
Doc. 20-13) (Feb. 20, 2019)............................................. 778
Second Declaration of Stephen Manning in support of
motion for temporary restraining order (D. Ct.
Doc. 20-14) (Feb. 20, 2019)............................................. 785
Declaration of Jeremy Slack in support of motion for
temporary restraining order (D. Ct. Doc. 20-17)
(Feb. 20, 2019)................................................................. 790
Excerpt of Notice to Appear – Alex Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 832
Excerpt of Notice to Appear – Bianca Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 845
Excerpt of Notice to Appear – Christopher Doe
(Jan. 30, 2019), attached to administrative motion
to file under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ...... 851
Excerpt of Notice to Appear – Dennis Doe (Jan. 30,
2019), attached to administrative motion to file under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ..................... 861
Excerpt of Notice to Appear – Evan Doe (Jan. 30,
2019), attached to administrative motion to file under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ..................... 874
Excerpt of Notice to Appear – Frank Doe (Feb. 3,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 883

VII
Table of Contents—Continued:

Page

Excerpt of Notice to Appear – Gregory Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 896
Excerpt of Notice to Appear – Howard Doe (Feb. 4,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 909
Excerpt of Notice to Appear – Ian Doe (Feb. 4, 2019),
attached to administrative motion to file under
seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ............................ 919
Excerpt of Notice to Appear – John Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 929
Excerpt of Notice to Appear – Kevin Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 942

425
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No.:
INNOVATION LAW LAB; CENTRAL AMERICAN
RESOURCE CENTER OF NORTHERN CALIFORNIA;
CENTRO LEGAL DE LA RAZA; IMMIGRATION AND
DEPORTATION DEFENSE CLINIC AT THE UNIVERSITY
OF SAN FRANCISCO SCHOOL OF LAW; AL OTRO LADO;
TAHIRIH JUSTICE CENTER; JOHN DOE; GREGORY DOE;
BIANCA DOE; DENNIS DOE; ALEX DOE; CHRISTOPHER
DOE; EVAN DOE; FRANK DOE; KEVIN DOE; HOWARD
DOE; IAN DOE, PLAINTIFFS
v.
KIRSTJEN NIELSEN, SECRETARY OF HOMELAND
SECURITY, IN HER OFFICIAL CAPACITY; U.S.
DEPARTMENT OF HOMELAND SECURITY; LEE FRANCIS
CISSNA, DIRECTOR, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, IN HIS OFFICIAL CAPACITY;
JOHN L. LAFFERTY, CHIEF OF ASYLUM DIVISION,
U.S. CITIZENSHIP AND IMMIGRATION SERVICES, IN
HIS OFFICIAL CAPACITY; U.S. CITIZENSHIP AND
IMMIGRATION SERVICES; KEVIN K. MCALEENAN,
COMMISSIONER, U.S. CUSTOMS AND BORDER
PROTECTION, IN HIS OFFICIAL CAPACITY; TODD C.
OWEN, EXECUTIVE ASSISTANT COMMISSIONER, OFFICE
OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER
PROTECTION, IN HIS OFFICIAL CAPACITY; U.S. CUSTOMS
AND BORDER PROTECTION; RONALD D. VITIELLO,
ACTING DIRECTOR, U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT, IN HIS OFFICIAL CAPACITY; U.S.
IMMIGRATION AND CUSTOMS ENFORCEMENT,
DEFENDANTS

Filed: Feb. 14, 2019

426
COMPLAINT FOR DECLARATORY AND
INJUNCTIVE RELIEF
IMMIGRATION ACTION
INTRODUCTION

1. This case challenges the federal government’s new
policy of forcing asylum seekers to return to danger in
Mexico while they await their removal proceedings, in
violation of the humanitarian protections to which they
are entitled under United States and international law.
2. Plaintiffs are individual asylum seekers from Central America who are now living in fear in Mexico because they were returned there under the new policy, as
well as legal organizations whose missions to provide
representation to such asylum seekers are being thwarted
by the physical removal of those asylum seekers from
the United States.
3. Since the enactment of the 1980 Refugee Act nearly
forty years ago, U.S. law has prohibited the return of
individuals to countries where they are likely to face
persecution, while providing an asylum procedure by
which individuals fleeing persecution can seek and obtain permanent safety. But at the end of January, the
government began to implement a new policy that eviscerates both of these fundamental protections.
4. Under the new policy, immigration authorities are
forcing asylum seekers at the southern border of the
United States to return to Mexico—to regions experiencing record levels of violence—where they must remain for the duration of their asylum proceedings. By
placing them in such danger, and under conditions that
make if difficult if not impossible for them to prepare

427

their cases, Defendants are depriving them of a meaningful opportunity to seek asylum.
5. Moreover, the procedure Defendants have implemented for determining who can be returned under the
policy is wholly inadequate for ensuring that those who
face persecution, torture, or death in Mexico will not be
erroneously returned. Indeed, the procedure is unlike
any that Defendants have previously used to adjudicate
such claims for protection. Yet Defendants’ policy
memoranda contain no explanation for such a departure.
6. Defendants call their new forced return policy the
“Migrant Protection Protocols” (“MPP”). It was first
announced by Secretary of Homeland Security Kirstjen
M. Nielsen on December 20, 2018, and implemented at
the San Ysidro Port of Entry in California on January
28, 2019. Defendants recently announced imminent
expansion of the policy to the Eagle Pass Port of Entry,
with other Texas locations soon to follow.
7. The new policy violates the Immigration and Nationality Act (“INA”) and the Administrative Procedure
Act (“APA”). It violates the INA because the authority
Defendants cite for the policy, INA § 235(b)(2)(C),
8 U.S.C. § 1225(b)(2)(C)—a provision that allows the return pending removal proceedings of certain noncitizens
who arrive by land from a contiguous foreign territory—
cannot be used against the asylum seekers to whom Defendants are applying it. It also violates INA § 208,
8 U.S.C. §1158 (establishing a right to apply for asylum),
and INA § 241(b)(3), 8 U.S.C. § 1231(b)(3) (prohibiting
removal to a country where one would face persecution).
The policy violates the APA, because Defendants failed

428

to comply with the APA’s notice and comment requirements and because the policy is arbitrary, capricious,
and contrary to law.
8. Plaintiffs seek a declaration that the policy is illegal and an injunction enjoining its operation.
JURISDICTION & VENUE

9. This case arises under the United States Constitution; the Administrative Procedure Act (“APA”), 5 U.S.C.
§ 701 et seq.; the Immigration and Nationality Act
(“INA”), 8 U.S.C. § 1101 et seq. and its implementing regulations; and the Convention Against Torture (“CAT”),
see Foreign Affairs Reform and Restructuring Act of
1998 (“FARRA”), Pub. L. No. 105-277, div. G, Title
XXII, § 2242, 112 Stat. 2681, 2681-822 (1998) (codified as
Note to 8 U.S.C. § 1231).
10. This Court has jurisdiction pursuant to 28 U.S.C.
§ 1331 (federal question), the Declaratory Judgment
Act, 28 U.S.C. §§ 2201-2202, and the Alien Tort Statute,
28 U.S.C. § 1350.
11. Venue is proper under 28 U.S.C. § 1391(e)(1) because Defendants are agencies of the United States and
officers of the United States acting in their official capacity; three of the Plaintiff organizations have their
principal residence in this District; and another two
Plaintiff organizations have offices in this District.
PARTIES

12. Plaintiff John Doe fled Guatemala to seek asylum
in the United States. On January 30, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana, where he
fears for his life.

429

13. Plaintiff Gregory Doe fled Honduras to seek asylum in the United States. On January 30, 2019, he was
returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.
14. Plaintiff Bianca Doe fled Honduras to seek asylum
in the United States. On January 30, 2019, she was returned to Mexico pursuant to Defendants’ new forced
return policy. She is currently in Tijuana where she
fears for her life.
15. Plaintiff Dennis Doe fled Honduras to seek asylum
in the United States. On January 30, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.
16. Plaintiff Alex Doe fled Honduras to seek asylum in
the United States. On January 30, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.
17. Plaintiff Christopher Doe fled Honduras to seek
asylum in the United States. On January 30, 2019, he
was returned to Mexico pursuant to Defendants’ new
forced return policy. He is currently in Tijuana where
he fears for his life.
18. Plaintiff Evan Doe fled El Salvador to seek asylum
in the United States. On January 30, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.

430

19. Plaintiff Frank Doe fled Honduras to seek asylum
in the United States. On February 4, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.
20. Plaintiff Kevin Doe fled Honduras to seek asylum
in the United States. On January 30, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.
21. Plaintiff Howard Doe fled Honduras to seek asylum
in the United States. On February 5, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.
22. Plaintiff Ian Doe fled Honduras to seek asylum in
the United States. On February 5, 2019, he was returned to Mexico pursuant to Defendants’ new forced
return policy. He is currently in Tijuana where he
fears for his life.
23. Plaintiff Innovation Law Lab (the “Law Lab”) is a
nonprofit organization that has projects in multiple
states throughout the country, including California, New
Mexico, Texas, Oregon, and North Carolina. The Law
Lab seeks to advance the legal rights of immigrants and
refugees in the United States, with a focus on providing
and facilitating representation to asylum seekers through
innovative, technology-driven models. The Law Lab
has an office in Oakland, California.
24. Plaintiff Central American Resource Center of
Northern California (“CARECEN”) is a nonprofit or-

431

ganization founded in 1986 by Central American refugees, which provides pro bono and low cost immigration
services to primarily low-income, immigrant, Latino,
and monolingual Spanish speakers. A central part of
CARECEN’s mission is to provide legal counseling and
representation to asylum seekers, the vast majority of
whom enter the United States through the southern
border. The organization is incorporated in California
and headquartered in San Francisco, California.
25. Plaintiff Centro Legal de la Raza (“Centro Legal”)
is nonprofit organization incorporated in California.
Centro Legal is a comprehensive immigration services
agency focused on protecting and expanding the rights
of low-income people, particularly Latino immigrants
and asylum seekers. Centro Legal’s comprehensive immigration practice specializes in providing removal defense for asylum seekers and others throughout California, including asylum seekers arriving through the U.S.Mexico border. Centro Legal is the largest provider of
removal defense services in California, and has offices in
Oakland, Hayward, and San Francisco, California.
26. Plaintiff Immigration and Deportation Defense
Clinic at the University of San Francisco School of Law
(the “USF Clinic”) is a nonprofit organization that provides removal defense and engages in advocacy in California. The USF Clinic’s twofold mission is to provide
free legal services to noncitizens in removal proceedings, with an emphasis on asylum, and to train law students to be effective and ethical immigration lawyers in
the area of defensive asylum cases. The USF Clinic is
headquartered in San Francisco, California.
27. Plaintiff Al Otro Lado (“AOL”) is a nonprofit legal
services organization based in Los Angeles, California

432

that serves indigent deportees, migrants, refugees, and
their families in Southern California and Tijuana, Mexico. Al Otro Lado’s mission is to provide screening, advocacy, and legal representation for individuals in asylum and other immigration proceedings; to seek redress
for civil rights violations; and to provide assistance with
other legal and social service needs.
28. Plaintiff Tahirih Justice Center (“Tahirih”) is a
nonprofit and non-partisan organization providing free
legal immigration services to survivors of gender-based
violence. Tahirih’s mission is to provide free holistic
services to immigrant women and girls fleeing violence
such as rape, domestic violence, female genital mutilation/
cutting, forced marriage, and human trafficking, and
who seek legal immigration status under U.S. law. Tahirih offers legal representation and social services for
individuals who seek protection, including asylum, in
their immigration proceedings. Tahirih operates from
five offices across the country and has an office in San
Francisco, California.
29. Defendant Kirstjen M. Nielsen is the Secretary of
Homeland Security. She is sued in her official capacity.
In that capacity, she issued the Migrant Protection Protocols (“MPP”) and related policy guidance. She directs each of the component agencies within the Department of Homeland Security. In her official capacity,
Defendant Nielsen is responsible for the administration
of the immigration laws pursuant to 8 U.S.C.
§ 1103, and is empowered to grant asylum or other relief.
30. Defendant U.S. Department of Homeland Security
(“DHS”) is a cabinet-level department of the U.S. government. Its components include U.S. Citizenship and

433

Immigration Services (“USCIS”), U.S. Customs and
Border Protection (“CBP”), and U.S. Immigration and
Customs Enforcement (“ICE”).
31. Defendant Lee Francis Cissna is the Director of
USCIS. He is sued in his official capacity.
32. Defendant John L. Lafferty is the Chief of the Asylum Division of USCIS. He is sued in his official capacity.
33. Defendant USCIS is the sub-agency of DHS that,
through its asylum officers, conducts interviews of individuals who apply for asylum and other forms of protection. Under Defendants’ new policy and their implementing guidance, USCIS asylum officers are directed to interview noncitizens who are potentially subject to return
to Mexico, and who affirmatively express a fear of such
return, in order to determine whether it is more likely
than not that they would be persecuted or tortured in
Mexico.
34. Defendant Kevin K. McAleenan is the Commissioner
of CBP. He is sued in his official capacity.
35. Defendant Todd C. Owen is the Executive Assistant Commissioner of CBP’s Office of Field Operations
(“OFO”). OFO is the largest component of CBP and is
responsible for border security, including immigration
and travel through U.S. ports of entry.
36. Defendant CBP is the sub-agency of DHS that is
responsible for the initial processing and detention of
noncitizens who are apprehended at or between U.S.
ports of entry.
37. Defendant Ronald D. Vitiello is the Acting Director
of ICE. He is sued in his official capacity.

434

38. Defendant ICE is the sub-agency of DHS that is
responsible for carrying out removal orders and overseeing immigration detention.
BACKGROUND
A.

Asylum Seekers at the U.S.-Mexico Border, Including
the Named Plaintiffs, Are Fleeing Horrendous Violence

39. Asylum seekers who arrive at the southern border
seeking protection in the United States are fleeing some
of the most dangerous countries in the world.
40. Although these asylum seekers come from all over
the world, most come from El Salvador, Guatemala, and
Honduras. According to the United Nations High Commissioner for Refugees (“UNHCR”), these countries
are experiencing epidemic levels of violence. Human
rights groups have compared the levels of violence in
this region to those typically seen in war zones.
41. Those who flee are often escaping life-threatening
situations. In particular, violence by criminal armed
groups has escalated dramatically in Central America,
and those governments have been unable or unwilling to
provide effective protection.
42. The vast majority of the migrants coming to the
southern border have legitimate claims to asylum.
43. Between fiscal years 2014 and 2016, 12,350 people
from El Salvador, Guatemala, and Honduras were granted
asylum. Between fiscal years 2010 and 2016, the percentage of asylum seekers from these countries granted
protection increased by 96 percent.
44. The Individual Plaintiffs sought asylum in the
United States because they have experienced persecution

435

—including brutal beatings, death threats, and rape—in
their countries of origin.
45. For example, Plaintiff Bianca Doe, a lesbian woman
from Honduras, fears returning to her home country
where LGBTQ individuals like her face discrimination,
violence, and death, and receive no protection from the
authorities. In Honduras, Bianca became pregnant by
a man who raped her because of her sexual orientation,
and who was then granted custody of their son by a Honduran judge who cited the fact Bianca was a lesbian as
evidence of her unfitness as a parent. Bianca was
forced to flee Honduras after her partner’s abusive father discovered their relationship, and threatened to kill
them both if Bianca did not leave the country immediately.
46. Plaintiff John Doe is an indigenous man from Guatemala who suffered brutal beatings and death threats
at the hands of a “death squad” that controls his town.
The death squad targeted him for his indigenous identity, frequently taunting him with indigenous slurs when
they attacked him. Some of the attacks left him bloodied and unconscious. John reported the first beating to
the police, but they did nothing to protect him.
47. Plaintiff Ian Doe is a former police officer from Honduras who worked undercover to interdict drug trafficking activity. He fled the country to seek asylum in the
U.S. after his identity was revealed to the drug traffickers and they came after him. Ian narrowly escaped
with his life. After he left the country, the drug traffickers killed his brother, believing that he was Ian.
48. Plaintiff Alex Doe is a youth pastor and organizer
from Honduras who works with young people who are

436

former or current gang members, or at risk of being forcibly recruited by gangs, After he helped organize a
strike to protest the killing of a young member of his
church by a powerful gang, he was featured on the national news denouncing the gang and demanding the
Honduran government provide more security. He was
forced to flee after the gang threatened his life.
B.

Asylum Seekers, Including the Named Plaintiffs,
Face Extreme Danger in Mexico

49. Like the Individual Plaintiffs, many asylum seekers from Central American have no choice but to travel
by land to the United States due to documentation requirements that would be necessary to board a plane, as
well as financial constraints. Although this means they
must cross through Mexico before reaching the United
States, for most, remaining in Mexico is not an option.
50. According to the U.S. Department of State, “violence against migrants by government officers and organized criminal groups” is one of “[t]he most significant
human rights issues” in the Mexico. The State Department also reports that the dangers that forced many
Central American migrants to flee their homes are likewise present in Mexico, as the presence of Central
American gangs has “spread farther into the country
and threatened migrants who had fled the same gangs
in their home countries.”
51. Asylum seekers in Mexico face a heightened risk of
kidnapping, disappearance, trafficking, sexual assault,
and murder, among other harms. Lesbian, gay, bisexual, and transgender persons, as well as people of indigenous heritage, are particularly at risk.

437

52. Even before they were subjected to Defendants
new forced return policy, many of the Individual Plaintiffs had already been the victims of discrimination, robbery, extortion, kidnapping, and assault in Mexico.
53. For example, Mexican police detained Plaintiff Ian
Doe several times and demanded his immigration documents. About a month ago, officers required him to
pay a bribe of 1,500 pesos to avoid being arrested and
taken to jail.
54. Similarly, Plaintiff Christopher Doe was stopped
by the Mexican police who threatened that they would
take him to jail if they saw him on the street again.
55. Plaintiff Howard Doe was robbed at gunpoint by
two Mexican men in Tijuana just days before he presented himself at the port of entry. The robbers said
they knew that he was Honduran, and that if they saw
him again, they would kill him.
56. Plaintiff Gregory Doe was staying at a shelter in
Tijuana when a mob of young men wielding sticks surrounded the shelter and threatened the residents.
57. Plaintiff Alex Doe was staying in the Playas neighborhood of Tijuana when he and other asylum seekers
were forced to flee in the middle of the night after a
group of Mexicans threw stones at them and additional
attackers began to gather with sticks and other weapons.
58. While traveling through Mexico on his way to the
U.S.-Mexico border, Plaintiff Howard Doe was kidnapped and held for more than two weeks by members
of a Mexican drug cartel until he and several others
were able to escape. He fears that the well-connected

438

cartel will find him in the border region and torture and
murder him for escaping.
59. President Trump has himself acknowledged that
Mexico is not a safe place for migrants, tweeting on January 31, 2019: “Very sadly, Murder cases in Mexico in
2018 rose 33% from 2017, to 33,341.” He further stated
that the situation in Mexico is “[w]orse even than Afghanistan.”
60. Moreover, the border regions where asylum seekers subjected to Defendants’ new policy will be returned
are especially dangerous. Tijuana, the city where Individual Plaintiffs and other migrants returned from the
San Ysidro port of entry are being dumped, is one of the
deadliest cities in the world. Tijuana had its highest
number of reported murders ever last year, and Baja
California, the state in which Tijuana is located, was the
state in Mexico with the highest number of reported murders last year. Asylum seekers in Tijuana have been the
direct targets of violence. Among the incidents of violence documented by human rights groups in recent
months, two teenagers from Honduras were kidnapped
and murdered in Tijuana last December.
61. Similar dangers face asylum seekers who will soon
be forced to return from the Eagle Pass Port of Entry
and will be dumped in Coahuila state. The U.S. Department of State advises that Americans reconsider
travel to Coahuila because violent crime and gang activity are common, and U.S. employees traveling in Piedras
Negras, the town across from Eagle Pass, must observe
a nighttime curfew.
62. In addition to fearing discrimination and violence
in Mexico, several of the Individual Plaintiffs fear that

439

Mexico will unlawfully deport them to their home countries where they face persecution.
63. There is no functioning asylum system in Mexico,
and Central American asylum seekers face a substantial
risk of being involuntarily repatriated to the countries
they have fled. Intergovernmental and human rights
organizations have documented widespread instances of
Mexican officials returning Central American migrants
to their home countries despite their fears of persecution or torture, without any meaningful process.
64. The U.S. Department of State’s 2017 Human Rights
Report on Mexico notes “incidents in which immigration
agents had been known to threaten and abuse migrants
to force them to accept voluntary deportation and discourage them from seeking asylum.”
65. For example, when Plaintiff Dennis Doe first entered Mexico en route to the United States, he was apprehended by Mexican officials who deported him without asking him if he wished to apply for asylum or if he
feared returning to his home country.
66. Similarly, Plaintiff Alex Doe witnessed Mexican
authorities deport several immigrants simply for being
in an area where someone had started a fight.
67. Plaintiff Kevin Doe and his wife were arrested by
Mexican immigration authorities after they entered the
country. The authorities separated Kevin from wife
and deported her to Honduras, even though she told
them that she was pregnant and scared to return to
Honduras
68. President Trump recently advocated for Mexico to
deport individuals who arrived on “caravans,” regardless of their claims for asylum and other protection:

440

“Mexico should move the flag waving Migrants, many of
whom are stone cold criminals, back to their countries.
Do it by plane, do it by bus, do it anyway (sic) you want,
but they are NOT coming into the U.S.A. We will close
the Border permanently if need be.”
69. The conditions in Mexico will make it difficult if not
impossible for asylum seekers to meaningfully exercise
their right to apply for asylum. Asylum seekers who
are attacked, kidnapped, or killed in Mexico will be
wholly unable to pursue their asylum applications.
70. For those who escape violence but nonetheless live
in fear of harm, the psychological strains of navigating
danger, necessary limitations on their movement to
avoid violence, lack of a secure place to live, and other
challenges will prevent them from being able to devote
the time needed to meaningfully prepare for their asylum proceedings—a process that, under normal conditions, can require hundreds of hours.
71. Instead of being able to focus on preparing their
cases, asylum seekers forced to return to Mexico will
have to focus on trying to survive. These pressures
may deter even those with the strongest asylum claims
to give up, rather than endure the wait under such conditions.
C.

Asylum Procedures at the U.S.-Mexico Border

72. Until recently, individuals applying for asylum at
the southern border were either placed in expedited removal proceedings under INA § 235(b)(1), 8 U.S.C.
§ 1225(b)(1) or placed in full removal proceedings under
INA § 240, 8 U.S.C. § 1229a. Expedited removal allows
for the immediate removal of noncitizens who lack valid
entry documents or attempt to enter the U.S. through

441

fraud—unless they express a fear removal. See 8 U.S.C.
§ 1225(b)(1)(A)(i).
73. Although most asylum seekers at the southern border lack valid entry documents and are therefore eligible to be placed in expedited removal, it is well established that the government has discretion to decline to
initiate removal proceedings against any individual; to
determine which charges to bring in removal proceedings; and to place individuals amenable to expedited removal in full removal proceedings instead.
74. Regardless of whether they were placed in expedited removal or regular removal proceedings, prior to
Defendants’ new policy asylum seekers went through
these removal proceedings inside the United States.
Those who were placed in expedited removal needed to
pass a credible fear interview with an asylum officer
first. But once they passed this interview—by showing
a “significant possibility” that they could establish eligibility for asylum, 8 U.S.C. § 1225(b)(1)(B)(v), a low
threshold—they were placed in regular removal proceedings.
75. Those who were not placed in expedited removal
were simply placed in regular removal proceedings without going through the credible fear process.
76. Both categories of asylum seekers—those who were
placed in regular removal proceedings after first passing a credible fear interview, and those who were placed
in removal proceedings without such an interview—
could either be held in detention or released pursuant to
parole or bond pending completion of their asylum proceedings.

442

77. Whether detained or released, however, no asylum
seeker could be physically removed from the United
States without an order of removal duly issued by either
an immigration judge in full removal proceedings or, for
those asylum seekers who failed to pass a credible fear
screening, by an immigration adjudicator in expedited
removal proceedings.
D.

Defendants’ New Forced Return Policy

78. On December 20, 2018, DHS Secretary Nielsen announced an “unprecedented” change to the existing policy. In what DHS described as an “historic action to
confront illegal immigration,” Defendant Nielsen announced a new policy, dubbed the “Migrant Protection
Protocols” (“MPP”), under which DHS would begin requiring noncitizens who seek admission from Mexico “illegally or without proper documentation” to be “returned to Mexico for the duration of their immigration
proceedings.”
79. According to DHS, the new policy would address
the problem of noncitizens who allegedly “game the system” and “disappear into the United States,” and deter
migrants from making “false” asylum claims at the border, “while ensuring that vulnerable populations receive
the protections they need.”
80. Subsequently, in a press release justifying the new
policy, DHS cited “[m]isguided court decisions and outdated laws [that] have made it easier for illegal aliens to
enter and remain in the U.S.,” especially “adults who arrive with children, unaccompanied alien children, or individuals who fraudulently claim asylum.” DHS stated
that the new policy “will discourage individuals from attempting illegal entry and making false claims to stay in

443

the U.S. and allow more resources to be dedicated to individuals who legitimately qualify for asylum.”
81. More than a month later, in late January 2019,
DHS issued a handful of memoranda and guidance documents implementing its new forced return policy.
82. On January 25, 2019, a memo issued by Defendant
Nielsen stated that implementation of the forced return
policy would be “on a large scale basis.”
83. A few days later, a memorandum issued by CBP
Commissioner McAleenan announced that Defendants
would begin implementing the new policy at the San
Ysidro Port of Entry on January 28, 2019, and that expansion was anticipated “in the near future.”
84. During the first two weeks the policy was in place
at San Ysidro, the asylum seekers forced to return to
Mexico were all single adults. On February 13, 2019,
several asylum-seeking families were returned to Mexico, one of which included a one-year old child.
85. On February 11, 2019, a DHS official informed the
media that the forced return policy would imminently be
expanded to the Eagle Pass Port of Entry in Texas, and
thereafter throughout Texas.
E.

Purported Legal Authority for Defendants’ Forced
Return Policy

86. Defendants claim that authority for their new forced
return policy comes from INA § 235(b)(2)(C), 8 U.S.C.
§ 1225(b)(2)(C).
87. Section 1225(b)(2)(C) authorizes DHS to “return”
certain individuals who are “arriving on land (whether
or not at a designated port of arrival) from a foreign ter-

444

ritory contiguous to the United States” to that contiguous territory during the pendency of their removal proceedings.
88. The provision was enacted in 1996 at the same time
Congress enacted expedited removal. It specifically
exempts from its coverage those individuals to whom
the expedited removal statute “applies.” 8 U.S.C.
§ 1225(b)(2)(B)(ii).
89. Defendants state that their forced return policy
does not apply to anyone who was “processed for expedited removal.” CBP, MPP Guiding Principles, at *1
(dated Jan. 28, 2019). However, the population that is
expressly targeted by the policy—asylum seekers who
cross the border illegally or who present themselves for
admission at a port of entry without proper documents
—is precisely the population to whom the expedited removal statute applies.
90. Defendants’ broad application of Section
1225(b)(2)(C) to this population constitutes a major departure from the agency’s prior practice.
91. Between 1997 and 2005, the Immigration and Naturalization Service (“INS”), the precursor agency to
DHS, issued a number of memoranda purporting to authorize the use of Section 1225(b)(2)(C) in expedited removal proceedings. However, this authority appears
never to have been exercised, at least not on the “large
scale” that is currently anticipated for the forced return
policy.
92. The INS memoranda specify the limited circumstances in which Section 1225(b)(2)(C) was to be used:
only in the event of “insufficient detention space” and
“as a last resort,” 2001.03, INS Insp. Field Manual

445

17.15, and only for individuals who did not “express[]a
fear of persecution related to Canada or Mexico.”
Memorandum for Regional Directors from Michael A.
Pearson, INS Executive Associate Commissioner of
Field Operations on Detention Guidelines (“Pearson
Memo”) at *3 (Oct. 7, 1998) (“If an alien expresses a fear
of persecution related to Canada or Mexico, the alien
. . . may not be required to wait in that country for a
determination of the claim.”).
93. Other guidance issued in 2005 to authorize use of
the return authority against certain Cubans specifies
that it was limited to 1) individuals who had permission
to legally reside in the contiguous territory to which
they were being returned, and 2) who were ineligible
for release from detention on discretionary parole.
2006.03.27, ICE Detention & Deportation Officers’ Field
Manual, Appx. 16-6.
94. The “MPP Guiding Principles” for Defendants’
forced return policy do not include such constraints.
CBP officers have discretion whether to subject migrants to forced return under the policy, or instead to
process them under regular removal proceedings or expedited removal proceedings. In making this decision,
however, officers are not required to consider the availability of detention space or whether the individual
could be released on parole in lieu of being returned to
Mexico.
95. Nor are officers required to consider whether the
individual has a legal status in Mexico for the duration
of removal proceedings or has a place to reside, nor
whether the individual could be gravely harmed in ways
that may not amount to persecution or torture.

446
F.

Plaintiffs Have Been Harmed by Defendants’ Inadequate Procedures for Determining Whether They
Will Face Persecution or Torture in Mexico.

96. The Guiding Principles do require that Defendants
consider whether an individual is “more likely than not”
to face persecution or torture if returned to Mexico—the
standard required to obtain “withholding of removal” and
one of the few exceptions to the forced return policy.
97. On January 28, 2019, USCIS issued guidance setting forth the procedure for making this determination.
See USCIS Policy Guidance, PM-602-0169, Guidance for
Implementing Section 235(b)(2)(C) of the Immigration
and Nationality Act and the Migrant Protection Protocols, dated Jan. 28, 2019 (“USCIS Guidance”). The
procedure established for making this determination is
extremely truncated and lacking in basic safeguards.
98. First, to receive a determination under the procedure, an asylum seeker must, without notice, affirmatively state a fear of persecution. Then the individual
must establish before an asylum officer that they are entitled to withholding or CAT protection on the merits—
i.e., that it is more likely than not they will be persecuted
or tortured.
99. The asylum seeker is not permitted to consult with
counsel either before or after the interview. In addition,
there is no guarantee of an interpreter to assist at the
interview.
100. The asylum officer’s determination is reviewed by
a supervisory asylum officer. No other appeal or review is available. Moreover, if while in Mexico the individual suffers actual persecution or torture, or other

447

changed circumstances arise that might affect the determination, there is no opportunity to revisit a negative
determination, until the individual returns to the port of
entry for their scheduled removal hearing
101. These procedures are a stark departure from procedures the Executive Branch has adopted to implement
its duty of nonrefoulement. In regular removal proceedings, for example, the decision whether an individual faces persecution or torture is made in a hearing before an immigration judge, with a right to counsel, present evidence, and cross-examine witnesses, and then
with a right to seek administrative and judicial review.
102. Although this new procedure effects a sea change
in the treatment of asylum seekers, Defendants adopted
it without undertaking notice-and-comment rulemaking.
A proposed regulation, “Return to Territory,” appeared
on a list of anticipated rulemaking in the fall of 2017,
spring of 2017, and fall of 2018, but was withdrawn on
December 21, 2018.
103. Moreover, the Individual Plaintiffs’ experiences
demonstrate that asylum seekers are not even being referred to asylum officers despite their real fears of return to Mexico. Instead, Defendants are simply processesing asylum seekers for forced return.
104. Prior to their interviews, the Individual Plaintiffs
were kept overnight in a “hielera” or “ice box,” a small
locked holding cell packed with dozens of other migrants. The Individual Plaintiffs and other migrants
were given only a thin mat to sleep on and an aluminum
emergency blanket. But they got little to no rest before their interviews. The overly crowded cells were
freezing, the bright lights were never turned out, and

448

there was constant activity.
not given sufficient food.

Many of the Plaintiffs were

105. In contrast to other screenings conducted by Defendants, Individual Plaintiffs received no “rest period”
to ensure they were prepared to testify to their fear of
persecution. Indeed, several of the Individual Plaintiffs were even called out and interviewed in the middle
of the night.
106. Moreover, the Individual Plaintiffs’ interviews
were cursory. For example, Kevin Doe’s interview
with CBP lasted all of five minutes, and he was never
asked about his fear of being returned to Mexico.
107. Christopher Doe—who has a first-grade education
and childhood head injury that impairs his learning and
memory—tried to explain that he had been attacked
while in Mexico at his interview, but was abruptly cut off
by the CBP officer and never referred to an asylum officer. Christopher’s interview lasted all of 10 to 15
minutes. The officer was impatient and angry, and frequently interrupted him, repeatedly saying “No!” in response to his answers. At the conclusion of the interview, the officer instructed Christopher to sign forms he
did not understand, including forms that were only provided to him in English.
108. Similarly, Ian Doe was never asked about fear of
return to Mexico, and the CBP officer frequently cut
him off and did not allow him to fully answer his questions. When Ian explained he did not feel safe in Mexico, the officer replied “that it was too bad. He said
that [] Honduras wasn’t safe, Mexico wasn’t safe, and
the U.S. isn’t safe either . . . He told me I’d have to

449

figure out how to survive in Tijuana.” Ian was also directed to sign documents that were written in English,
and he was not offered any interpretation before signing. He later found out the officer had written that Ian
had stated that “Mexico” had offered him asylum, even
though he never said that. Despite expressing a fear of
return, Ian was never referred to an asylum officer.
109. Indeed, almost none of the Individual Plaintiffs
were asked by CBP about their fears of being returned
to Mexico.
110. Although two Plaintiffs, Howard Doe and Frank
Doe, were referred to an asylum officer after expressing
their fear of return, they were summarily returned to
Mexico with no explanation.
111. The CBP officers did not explain the purpose of the
interview to the Individual Plaintiffs. Several Plaintiffs only realized they were being returned to Mexico at
the conclusion of their interviews.
112. In several cases, as with Christopher Doe and Ian
Doe, CBP officers frequently interrupted Plaintiffs and
did not permit them to fully answer questions or provide
additional information.
113. Several CBP officers spoke only limited Spanish
and could not communicate effectively with Plaintiffs
during their interviews. Nor did those officers provide
Plaintiffs with an interpreter. For example, Bianca
Doe was interviewed by an agent who struggled to speak
Spanish.
114. In several cases, as with Christopher Doe and Ian
Doe, Plaintiffs were directed to sign forms in English
that they did not understand and that were not explained
to them.

450
G.

Plaintiffs Are Unable to Meaningfully Access the
Asylum Process From Mexico

115. Many of the Individual Plaintiffs fear they will be
unable to properly prepare their cases from Mexico, access or meaningfully communicate with attorneys, and
access expert or other professional services necessary
to make out their asylum claims. The grave danger and
insecurity the Individual Plaintiffs face in Mexico will
further undermine their ability to prepare for their
cases and meaningfully access the asylum system.
116. The Individual Plaintiffs were not provided enough
information about how to attend their immigration court
hearings in the United States when they were forced to
return to Mexico.
117. Several Individual Plaintiffs have friends or family
members in the United States who had offered to help
support them and find them an attorney. In Mexico,
however, the Individual Plaintiffs do not have any family
to help them through the legal process and they lack the
financial resources to support themselves in Mexico for
months or years.
118. For example, Plaintiff Gregory Doe has a sister in
the United States who had offered to help support him
and obtain the resources he would need to apply for asylum. Gregory worries that, without assistance, he will
not be able to gather the evidence necessary to prove his
case, such as statements from those who witnessed his
persecution. Plaintiff Evan Doe similarly lacks support in Mexico to help him prepare his case.
119. Plaintiff Frank Doe does not know where he will
stay while he prepares his asylum claim. After being
forced to return to Mexico, he attempted to return to the

451

shelter where he resided previously, but officials turned
him away because it was full. He was able to find a different shelter to stay for a couple of nights, but he does
not have a more permanent residence. Plaintiff Ian
Doe was also unable to return to the shelter where he
stayed previously.
H. The Organizational Plaintiffs Are Injured by Defendants’ Forced Return Policy

120. The Organizational Plaintiffs are nonprofit organizations that provide legal assistance to asylum seekers
from Central America and other parts of the world, the
majority of whom arrive through the southern border.
Defendants’ policy of returning asylum seekers to Mexico frustrates each Organizational Plaintiff ’s goals and
requires them to expend resources they otherwise
would spend in other ways.
121. Plaintiff Innovation Law Lab is a nonprofit organization dedicated to advancing the legal rights of immigrants and refugees in the United States, with a focus
on providing legal representation to asylum seekers.
Among other programs and services, the Law Lab has
established various “Centers of Excellence” around the
country, which provide support to asylum seekers and
their pro bono attorneys, including legal, technical, and
strategic assistance in preparing and presenting asylum
claims in removal proceedings. These projects are established in Georgia, Kansas, Missouri, North Carolina,
and Oregon, and the Law Lab is in the process of expanding to sites in Texas, New Mexico, and California.
An important component of the Law Lab’s mission is the
investment in technology resources to support its work.
The Law Lab employs software engineers to maintain
its technology and create software deployments that

452

support its representation models across the United
States.
122. Defendants’ new forced return policy frustrates
Law Lab’s efforts to obtain asylum and other relief for
asylum seekers, and has required and will continue to
require the Law Lab to divert significantly its limited
resources to counteract this frustration. For example,
because the policy makes it more difficult for asylum
seekers to obtain legal representation and to successfully pursue their claims, it threatens to hinder Law
Lab’s ability to provide its core services. The attorneys
and staff who manage those projects, have had to shift
their organizational focus, time, resources to Mexico and
away, from critical, ongoing matters and clients served
by their existing projects. This significant diversion of
the Law Lab’s resources, which has been necessary to
counter the frustration of their mission and meet the
needs of individuals returned to Mexico, vastly diminishes the organization’s operational capacity. Moreover, the process of deploying the Law Lab’s immigration
case technology in a new, remote location has been particularly complicated and will require additional investment of resources.
123. The new policy has also required Law Lab to rework the orientation, training, and resources that it provides to asylum-seeking clients to address the needs of
individuals returned to Mexico. Overhauling these materials is especially challenging in light of the unprecedented circumstances surrounding the new policy. For
example, it is unclear how individuals who have been returned to Mexico will present their cases and at what
time; how they will attend their court hearings; or how,

453

if they are able to obtain counsel, they will exchange documents or information with their attorneys in the
United States. This uncertainty also significantly undermines the effectiveness of the Law Lab’s goal to provide effective representation and help asylum seekers
successfully pursue relief.
124. The new policy also frustrates the Law Lab’s mission and organizational model because, by returning
asylum-seekers to Mexico, fewer pro bono attorneys will
be able to provide representation. Most of the pro bono
attorneys within the Law Lab’s existing network do not
have the time, skill, or capacity to engage in representation for individuals stranded in Mexico, particularly because the organization’s model requires that attorneys
provide a substantial portion of representation through
in-person, face-to-face interactions. In this way, the
policy undermines the Law Lab’s ability to provide a
core service: engaging and supporting pro bono attorneys to provide direct representation to asylum seekers.
125. Plaintiff CARECEN of Northern California provides immigration legal and social services to clients
throughout the San Francisco Bay Area and elsewhere
in California. A central part of the organization’s mission is to provide high-quality legal counseling, representation, and wrap-around social services, such as case
management, mental health therapy, and peer education, to asylum seekers.
126. CARECEN appears on the list of legal services
providers that the federal government has distributed
to migrants returned to Mexico. The organization has
been retained to represent an asylum seeker returned
to Mexico under the policy. Because CARECEN pro-

454

vides a consultation to every person who seeks its assistance, it anticipates serving additional returned individuals in the future.
127. Due to the numerous significant obstacles to providing high-quality legal and social services to asylum
seekers returned to Mexico, the new policy frustrates
CARECEN’s mission of providing such services and accordingly requires the organization to divert significant
organizational resources in response, as CARECEN’s
legal program is neither structured nor envisioned to
represent asylum clients residing in Mexico. The policy also makes it more difficult for CARECEN’s potential clients, who will be stuck in Mexico pursuant to the
policy, to gain access to and participate in the organization’s core services, thereby impairing CARECEN’s
ability to function.
128. For example, CARECEN will not be able to effectively present the claims for protection of returned asylum seekers because the organization will be unable to
provide to clients in Mexico the same critical legal and
social service support needed to assist survivors of
trauma that it provides to clients in the United States.
Because serving individuals in Mexico will be much
more resource intensive, CARECEN will be forced to
divert significant resources away from its core services
for asylum seekers in the United States to attempt to
serve clients while they are in Mexico, or substantially
cut or curtail its current asylum practice, which undermines its organizational goals.
129. CARECEN also will be forced to expend significant resources to change its intake, consultation, and
representation model, all of which are currently predicated on in-person services, and bear the significant

455

costs of frequent travel to Mexico and San Diego. Representing asylum seekers returned to Mexico will require CARECEN to restructure attorney caseloads and
responsibilities, and divert staff time and other resources from other cases. If the policy remains in effect, CARECEN will be able to handle far fewer cases
every year, and its ability to provide mental health and
other supportive services will be severely compromised.
In addition, CARECEN’s asylum representation program is funded by grants from the State of California
and various local governments that require the clients
served to live or have previously resided in the jurisdiction. Accordingly, taking on asylum cases under the
policy will require the organization to divert funding
from its general operating budget and so will undermine
its ability to maintain its various legal and social service
programs. Also, because of the policy, the number of
potential clients who can satisfy the residency requirements of CARECEN’s funders will decline, thus jeopardizing CARECEN’s ability to secure these grants
moving forward.
130. Plaintiff Centro Legal de la Raza (“Centro Legal”)
is a comprehensive immigration legal services agency
that provides legal consultations, limited-scope services,
full representation, and legal referrals to over 10,000 clients annually. As part of its services, Centro Legal
provides direct legal representation to asylum seekers
throughout California, including those in removal proceedings.
131. Centro Legal is included on the list of free legal
services providers provided by the U.S. government to
asylum seekers who are returned to Mexico. It is in the

456

process of being retained by three individuals who were
forced to return to Mexico.
132. Defendants’ policy will frustrate Centro Legal’s
core mission of providing comprehensive and effective
legal representation to asylum seekers. For example,
the resource-intensive nature of assisting asylum seekers located in Mexico will cause Centro Legal to have
fewer resources available to continue its existing program and case work. The new policy will also frustrate
Centro Legal’s mission of providing a high volume of
comprehensive removal defense services to asylum
seekers because it will be nearly impossible for the organization to provide comprehensive services to individuals in Mexico. Centro Legal’s ability to provide effective representation to asylum seekers subjected to the
forced return policy will also be hampered due to the numerous obstacles to counsel access and case preparation
in Mexico. The effective and ethical representation of
clients in Mexico will require Centro Legal to either hire
substantial additional staff or significantly lower the
number of cases of asylum seekers in the United States
that it accepts. Moreover, Centro Legal will have to
use significant resources to research or hire counsel to
advise on the requirements under both U.S. and Mexican law for its attorneys to practice in Mexico.
133. Further, the policy makes it more difficult for Centro Legal’s potential clients, who will be stuck in Mexico
pursuant to the policy, to gain access to and participate
in the organization’s core services, thereby impairing
Centro Legal’s ability to function.
134. Plaintiff the Immigration and Deportation Defense
Clinic of the University of San Francisco School of Law
(“USF Clinic”) provides removal defense and engages in

457

advocacy on behalf of asylum seekers in California.
The USF Clinic was established in 2015 in direct response
to the increase in individuals fleeing violence in Central
America and Mexico and seeking asylum and other relief in the United States. Since that time, 87% of the
USF Clinic’s clients have come from the Northern Triangle countries and entered the United States through
the southern border. A central aim of the USF Clinic
is to train USF law students to be effective and ethical
immigration practitioners in the area of asylum law, and
specifically in removal defense.
135. Defendants’ policy of returning certain asylum seekers to Mexico threatens and frustrates the USF Clinic’s
mission and will require it to divert resources away from
its core services. For example, as greater numbers of
asylum seekers are forced to return to Mexico, the policy will make it more difficult for the USF Clinic to connect with potential clients, who are typically referred to
the clinic through other legal service organizations in
Northern California. Indeed, in response to the new
policy, the USF Clinic has already had to make arrangements to send a team of eleven students and supervisors
to the southern border to assist individuals subject to
Defendants’ policy. As the forced return policy is expanded, in order to serve sufficient clients to train its
students, the USF Clinic will have to shift its model to
focus on representing asylum seekers who are stranded
in Mexico, forcing it to seek out new sources of funding,
rearrange the way that it provides legal services, and
divert significant funds to travel and communications
costs.
136. The USF Clinic’s asylum representation work is
currently entirely funded by grants from the State of

458

California and local governments that require the clients to be physically present in California. As Defendants’ policy expands, the Clinic thus risks losing its existing funding, which could lead to a reduction or termination of their program. Representing asylum seekers
in Mexico would also pose significant obstacles and be
more resource intensive, requiring extensive travel and
other changes to current practice to provide adequate
representation.
137. Defendants’ policy will also significantly harm the
USF Clinic’s core mission of training law students to be
effective advocates. The USF Clinic requires in-person
access to its clients in order to effectively train law students consistent with its mission. However, law students lack the necessary flexibility in their schedules to
travel repeatedly to San Diego for court hearings and
Mexico for the multiple, lengthy client meetings typically required to prepare for an asylum hearing. Shifting the organization’s representation model to provide
services to clients at a distance would be extremely difficult and compromise the Clinic’s ability to effectively
represent clients and train law students.
138. Plaintiff Al Otro Lado is a nonprofit organization
based in Los Angeles that provides legal representation
or other assistance to individuals in asylum and other
immigration proceedings in Southern California. The
organization also provides know-your-rights workshops
and other services to asylum seekers in Tijuana, Mexico.
139. With its policy of returning asylum seekers, Defendants have frustrated Al Otro Lado’s mission and
have forced the organization to divert significant resources away from its other programs. For example,
the organization’s small staff has had to pull its attention

459

from integral projects to identify and respond to the urgent needs of asylum seekers stranded in Mexico.
Since Defendants’ implementation of the new policy, Al
Otro Lado has experienced a significant increase in requests for assistance from individuals who have been returned to Mexico, many of whom do not understand
what has happened to them or why they have been returned. Staff or volunteers must take time away from
other critical tasks to review individuals’ documents, answer questions, and attempt to place them with pro bono
attorneys. The new policy has also required Al Otro
Lado to re-work its volunteer training and know-yourrights presentations and overhaul its training materials
to incorporate new and critical information.
140. Al Otro Lado has also been forced to divert significant staff resources to help returned migrants find safe
housing in Mexico and provide emotional support. Because many returned asylum seekers will be unable to
retain legal counsel from Mexico, Al Otro Lado has had
to begin developing workshops to provide pro se support
to those who need assistance completing the Englishonly asylum application form, which will require significant staff efforts. Providing pro se trainings will also
pull volunteer resources away from outreach efforts and
general know-your-rights workshops.
141. Plaintiff the Tahirih Justice Center (“Tahirih”) is a
nonprofit and non-partisan organization providing free
legal immigration services to survivors of gender-based
violence such as domestic abuse, sexual violence, and human trafficking. Tahirih’s mission is to provide free
holistic services to immigrant women and girls fleeing
violence such as rape, domestic violence, female genital

460

mutilation/cutting, forced marriage, and human trafficking, and who seek legal immigration status under
U.S. law. Tahirih offers legal representation and social
services for individuals who seek protection, including
asylum, in their immigration proceedings. An average
of 78% of Tahirih clients in the past few years were
Latin American survivors of violence, virtually all of
whom would have crossed at Tijuana or other ports of
entry along the southern border.
142. Defendants’ policy will frustrate Tahirih’s mission
and require it to divert significant organizational resources to address the consequences of the policy. Tahirih will not be able to effectively provide holistic legal
services to the asylum seekers fleeing gender-based violence who are returned to Mexico and will be forced to
divert significant resources from its existing services to
attempt to serve those clients. Asylum seekers returned to Mexico will have little to no practical way to
learn that Tahirih exists or that it offers holistic assistance. Tahirih will have to send staff to Mexico to conduct intakes and to effectively represent to these asylum
seekers. This will significantly increate the time and
cost Tahirih spends to develop cases, as working with
survivors of gender-based violence, who are typically
traumatized, requires repeated face-to-face meetings
and consultations. Furthermore, Tahirih will be required to spend additional time and money to represent
individuals returned to Mexico whose cases have been
assigned to the San Diego Immigration Court.
143. Tahirih will have to divert substantial resources to
researching and understanding Mexican law regarding
the practice of law by foreign lawyers, including complicated questions of licensing, reciprocity, the effect of

461

NAFTA, any criminal penalties and visa requirements,
and how all of those issues interact with lawyers’ professional obligations in each state in which a Tahirih attorney or one of its hundreds of pro bono attorneys is
barred. The risk of potential legal sanctions may deter
attorneys from taking on asylum seekers returned to
Mexico, thereby frustrating Tahirih’s mission.
144. Tahirih will also be unable to obtain the expert services, including psychological evaluations, that are necessary to represent many survivors of gender-based violence. Tahirih anticipates needing to transport experts to Mexico for psychological evaluations, again requiring a substantial diversion of time and funds for that
travel. In addition, Tahirih will be required to divert
resources to understanding Mexican laws relating to licensing and the practice of psychology by a foreigner in
Mexico.
145. Finally, Defendants’ new policy will jeopardize Tahirih’s funding streams. Tahirih’s San Francisco office
receives grant funding from Santa Clara County, California to provide immigration-related legal services to
vulnerable individuals who reside in or are employed in
Santa Clara County. Under Defendants’ policy, fewer
individuals will be permitted to enter the United States
pending their removal proceedings, meaning there will
be fewer potential clients for Tahirih to serve in Santa
Clara County.
146. The Organizational Plaintiffs have also been harmed
because they were denied the opportunity to comment
on Defendants’ policy through a notice-and-comment
rulemaking. If Defendants had provided an opportunity for notice and comment before Defendant began
implementing the policy, Plaintiffs could have informed

462

Defendants of their serious objections to the policy, and
they may have convinced Defendants to adopt a different approach.
CAUSES OF ACTION
FIRST CLAIM FOR RELIEF
(VIOLATION OF INA § 235(b)(2)(C),
8 U.S.C. § 1225(b)(2)(C), TREATMENT OF ALIENS
ARRIVING FROM FOREIGN CONTIGUOUS
TERRITORY, AND ADMINISTRATIVE PROCEDURE
ACT, 5 U.S.C. § 706(2)(A))

147. The foregoing allegations are repeated and realleged as if fully set forth herein.
148. INA § 235(b)(2)(C), 8 U.S.C. § 1225(b)(2)(C) permits the return to a contiguous territory only of an “alien described in subparagraph (A) who is arriving on
land (whether or not at a designated port of arrival)
from a foreign territory contiguous to the United
States.” Id. Section 1225(b)(2)(B) further provides
that the return authorized in Section 1225(b)(2)(C) shall
not be applied to any noncitizen “to whom paragraph (1)
[Section 1225(b)(1) expedited removal] applies.” 8 U.S.C.
§ 1225(b)(2)(B)(ii).
149. In addition, Section 1225(b)(2)(C) authorizes return only of those individuals who are “from” the foreign
contiguous territory, and only where return would not
violate the United States’ protection obligations under
domestic and international law, including the prohibition on returning individuals to face persecution, torture, or cruel, inhumane, and degrading treatment the
right to a meaningful opportunity to apply for asylum;
and other restrictions on countries to which a noncitizen
may be removed or returned.

463

150. Defendants are applying their policy of returning
asylum seekers to Mexico (the “forced return policy”) to
individuals, including the individual Plaintiffs, who cannot lawfully be returned under Section 1225(b)(2)(C).
151. As a result, the forced return policy is contrary to
law. See 5 U.S.C. § 706(2)(A).
SECOND CLAIM FOR RELIEF
(VIOLATION OF THE ADMINISTRATIVE
PROCEDURE ACT, 5 U.S.C. § 553(b), (c), (d))

152. The Administrative Procedure Act (“APA”) requires notice and opportunity for comment prior to the
promulgation of a rule. 5 U.S.C. § 553(b), (c).
153. Defendants’ nondiscretionary procedure for determining whether an individual who is more likely than not
to face persecution or torture in Mexico, and thus precluded from being returned to Mexico during the pendency of removal proceedings, constitutes a legislative
rule that requires notice-and-comment rulemaking.
154. Defendants did not promulgate a rule or engage in
notice-and-comment rulemaking before implementing
their procedure for making fear determinations as part
of the forced return policy.
155. The APA requires that a substantive rule be published “no less than 30 days before its effective date.”
5 U.S.C. § 553(d).
156. Defendants failed to appropriately publish the
forced return policy, its screening procedures, and related guidance 30 days before its effective date.
THIRD CLAIM FOR RELIEF

464
(VIOLATION OF THE ADMINISTRATIVE PROCEDURE ACT, 5 U.S.C. § 706(2)(A))

157. The foregoing allegations are repeated and realleged as though fully set forth herein.
158. The APA provides that courts “shall . . . hold
unlawful and set aside agency action” that is “arbitrary,
capricious, an abuse of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2)(A).
159. Defendants’ forced return policy is arbitrary, capricious, and contrary to law. Defendants have not articulated a reasoned explanation for their decision to
adopt this policy; failed to consider relevant factors; relied on factors Congress did not intend to be considered;
and offered explanations for their decision that are
counter to the evidence before the agency.
160. The policy deprives asylum seekers of a meaningful
right to apply for asylum.
161. The policy also permits an individual’s forced return to Mexico unless the individual affirmatively states
a fear of return and establishes before an asylum officer
that it is more likely than not that he or she will face persecution or torture there, without providing basic procedural protections, including: any notice that he or she
must affirmatively express such a fear; any opportunity
to consult with counsel either prior to or during the fear
interview; the guarantee of an interpreter; a written
summary of the interview and written explanation of the
determination; or immigration judge review.
162. The policy is arbitrary, capricious, and contrary to
law because it departs from the agency’s existing policies for determining whether individuals face a likelihood of persecution or torture, as well as prior policies

465

prohibiting the return of individuals to contiguous territories pending their removal proceedings based on a
fear of persecution or torture, without providing a reasoned explanation for departing from these policies.
FOURTH CLAIM FOR RELIEF
(VIOLATION OF INA § 241(b)(3), 8 U.S.C. § 1231(b)(3)
WITHHOLDING OF REMOVAL, AND ADMINISTRATIVE PROCEDURE ACT, 5 U.S.C. § 706(2)(A))

163. The foregoing allegations are repeated and realleged as though fully set forth herein.
164. The 1951 Refugee Convention and the 1967 Protocol relating to the Status of Refugees, to which the
United States is party, requires that the United States
not “expel or return (‘refouler’) a refugee in any manner
whatsoever to the frontiers of territories where his life
or freedom would be threatened on account of his race,
religion, nationality, membership of a particular social
group or political opinion.” United Nations Convention
Relating to the Status of Refugees, art. 33, July 28, 1951,
189 U.N.T.S. 150; see also Protocol Relating to the Status of Refugees, Jan. 31, 1967, 19 U.S.T. 6223, 606
U.N.T.S. 267.
165. The Refugee Convention prohibits the return of individuals to countries where they would directly face
persecution on a protected ground as well as to countries
that would deport them to conditions of persecution.
166. Congress has codified these prohibitions in the
“withholding of removal” provision at INA § 241(b)(3),
8 U.S.C. § 1231(b)(3), which bars the removal of an individual to a country where it is more likely than not that
he or she would face persecution.

466

167. Pursuant to regulation, only an immigration judge
can determine whether an individual faces such a risk of
persecution and is entitled to withholding of removal after full removal proceedings in immigration court.
8 C.F.R. § 1208.16(a).
168. The forced return policy provides none of these
safeguards to ensure the critical protection against nonrefoulement and therefore violates Section 1231(b)(3).
It permits an asylum officer to determine whether it is
more likely than not that an individual faces persecution
in Mexico through a truncated procedure, without any
right to review or a hearing before an immigration
judge. Moreover, the procedure does not assess whether
an individual is at risk of refoulement to his or her country of origin by Mexico, and does not account for whether
an individual will be able to exercise his or her right to
apply for asylum from Mexico.
169. This procedure violates Section 1231(b)(3) and its
implementing regulations.
170. As a result, the forced return policy is contrary to
law. See 5 U.S.C. § 706(2)(A).
FIFTH CLAIM FOR RELIEF
(VIOLATION OF CUSTOMARY INTERNATIONAL
LAW: PROHIBITION ON REFOULEMENT)

171. All of the foregoing allegations are repeated and
realleged as if fully set forth herein.
172. The prohibition on refoulement is a specific, universal, and obligatory norm of customary international
law. That norm prohibits returning an individual to a
country where there exists a threat of subsequent forcible return to a country where the individual would be

467

subject to torture or where the individual’s life or freedom would be threatened on account of their race, religion, nationality, membership of a particular social
group, or political opinion.
173. Defendants have not undertaken a proper evaluation of the risk of refoulement by Mexico. The procedures for carrying out the forced return policy are inadequate to guard against such indirect refoulement in violation of the law of nations.
174. Defendants were aware or reasonably should have
known that indirect refoulement by Mexico was a foreseeable consequence of its forced return policy.
175. Defendants knowingly and purposefully designed
and, directly or through their agents, applied their
forced return policy to the individual Plaintiffs.
176. Defendants’ actions have placed the individual
Plaintiffs at risk of return to their countries of origin,
where their lives or freedom would be threatened on account of their race, religion, nationality, membership in
a particular social group, or political opinion, or where
they face a substantial risk of torture or other cruel, inhumane, and degrading treatment.
177. Defendants’ actions have caused and will continue
to cause a grave and foreseeable injury to Plaintiffs, including a continued risk of refoulement in violation of
the protections afforded to them under international
law.
178. Plaintiffs do not have an adequate damages remedy at law to address the violations alleged herein.
SIXTH CLAIM FOR RELIEF

468
(VIOLATION OF INA § 208(a), 8 U.S.C. § 1108(a),
ASYLUM, AND ADMINISTRATIVE PROCEDURE
ACT, 5 U.S.C. § 706(2)(A))

179. The foregoing allegations are repeated and realleged as though fully set forth herein.
180. The INA provides, with certain exceptions, that
“[a]ny alien who is physically present in the United
States or who arrives in the United States (whether or
not at a designated port of arrival and including an alien
who is brought to the United States after having been
interdicted in international or United States waters), irrespective of such alien’s status, may apply for asylum
in accordance with this section or, where applicable, section 1225(b) of this title.” 8 U.S.C. § 1158(a)(1).
181. The forced return policy is contrary to law, see
5 U.S.C. § 706(2)(A), under 8 U.S.C. § 1158(a)(1), because individuals are returned to conditions that meaningfully deprive them of their right to apply for asylum.
PRAYER FOR RELIEF

WHEREFORE, Plaintiffs respectfully pray this Court to:
a. Declare unlawful the new forced return policy (or
“Migrant Protection Protocols”), including the Secretary’s
January 25, 2019 Memorandum, the USCIS Policy Guidance, and the CBP MPP Guiding Principles, Commissioner’s Memorandum Implementing the MPP, and Field
Operations Memorandum Implementing the MPP;
b.

Enter an order vacating the forced return policy;

c.
Enter an order enjoining Defendants from continuing to apply the forced return policy to third-party nationals seeking humanitarian protection at a port of entry or between ports of entry;

469

d. Enter an order providing relief for the Individual
Plaintiffs by ordering that Defendants return them to
the San Ysidro Port of Entry for reprocessing of their
applications for admission without subjecting them to
the unlawful forced return policy;
e.
Award Plaintiffs’ counsel reasonable attorneys’
fees under the Equal Access to Justice Act, and any
other applicable statute or regulation; and,
f.
Grant such further relief as the Court deems just,
equitable, and appropriate.
Dated:

Feb. 14, 2019

Respectfully submitted,
Judy Rabinovitz*
Michael Tan*
Omar Jadwat*
Lee Gelernt*
Anand Balakrishnan*
Daniel Galindo** (SBN 292854)
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
IMMIGRANTS’ RIGHTS PROJECT
125 Broad St., 18th Floor
New York, NY 10004
T: (212) 549-2660
F: (212) 549-2654
jrabinovitz@aclu.org
mtan@aclu.org
ojadwat@aclu.org
lgelernt@aclu.org
abalakrishnan@aclu.org
dgalindo@aclu.org

470

Melissa Crow*
SOUTHERN POVERTY LAW CENTER
1101 17th Street NW, Suite 705
Washington, D.C. 20036
T: (202) 355-4471
F: (404) 221-5857
melissa.crow@splcenter.org
Mary Bauer*
SOUTHERN POVERTY LAW CENTER
1000 Preston Avenue
Charlottesville, VA 22903
T: (470) 606-9307
F: (404) 221-5857
mary.bauer@splcenter.org
Saira Draper*
Gracie Willis*
SOUTHERN POVERTY LAW CENTER
150 E Ponce de Leon Avenue, Suite 340
Decatur, GA 30030
T: (404) 221-6700
F: (404) 221-5857
saira.draper@splcenter.org
gracie.willis@splcenter.org
Attorneys for Plaintiffs
* Pro hac vice application forthcoming
** Application for admission forthcoming
/s/ JENNIFER CHANG NEWELL
JENNIFER CHANG NEWELL (SBN 233033)
Katrina Eiland (SBN 275701)
Julie Veroff (SBN 310161)_

471

AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
IMMIGRANTS’ RIGHTS PROJECT
39 Drumm Street
San Francisco, CA 94111
T: (415) 343-1198
F: (415) 395-0950
jnewell@aclu.org
keiland@aclu.org
jveroff@aclu.org
Sean Riordan (SBN 255752)
Christine P. Sun (SBN 218701)
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF NORTHERN CALIFORNIA, INC.
39 Drumm Street
San Francisco, CA 94111
T: (415) 621-2493
F: (415) 255-8437
sriordan@aclunc.org
csun@aclunc.org
Blaine Bookey
Karen Musalo
Eunice Lee
Kathryn Jastram
Sayoni Maitra*
CENTER FOR GENDER & REFUGEE STUDIES
200 McAllister St.
San Francisco, CA 94102
T: (415) 565-4877
F: (415) 581-8824
bookeybl@uchastings.edu
musalok@uchastings.edu

472

leeeunice@uchastings.edu
jastramkate@uchastings.edu
maitras@uchastings.edu

473
CERTIFICATION OF INTERESTED
ENTITIES OR PARTIES

Under Civil Local Rule 3-15, the undersigned certifies that as of this date, other than the named parties,
there is no such interest to report.
Dated:

Feb. 14, 2019

Respectfully submitted,
Judy Rabinovitz*
Michael Tan*
Omar Jadwat*
Lee Gelernt*
Anand Balakrishnan*
Daniel Galindo** (SBN 292854)
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
IMMIGRANTS’ RIGHTS PROJECT
125 Broad St., 18th Floor
New York, NY 10004
T: (212) 549-2660
F: (212) 549-2654
jrabinovitz@aclu.org
mtan@aclu.org
ojadwat@aclu.org
lgelernt@aclu.org
abalakrishnan@aclu.org
dgalindo@aclu.org
Melissa Crow*
SOUTHERN POVERTY LAW CENTER
1101 17th Street NW, Suite 705
Washington, D.C. 20036

474

T: (202) 355-4471
F: (404) 221-5857
melissa.crow@splcenter.org
Mary Bauer*
SOUTHERN POVERTY LAW CENTER
1000 Preston Avenue
Charlottesville, VA 22903
T: (470) 606-9307
F: (404) 221-5857
mary.bauer@splcenter.org
Saira Draper*
Gracie Willis*
SOUTHERN POVERTY LAW CENTER
150 E Ponce de Leon Avenue, Suite 340
Decatur, GA 30030
T: (404) 221-6700
F: (404) 221-5857
saira.draper@splcenter.org
gracie.willis@splcenter.org
Steven Watt*
ACLU FOUNDATION
HUMAN RIGHTS PROGRAM
125 Broad Street, 18th Floor
New York, NY 10004
T: (212) 519-7870
F: (212) 549-2654
swatt@aclu.org
Attorneys for Plaintiffs
* Pro hac vice application forthcoming
** Application for admission forthcoming

475

/s/ JENNIFER CHANG NEWELL
JENNIFER CHANG NEWELL (SBN 233033)
Katrina Eiland (SBN 275701)
Julie Veroff (SBN 310161)_
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
IMMIGRANTS’ RIGHTS PROJECT
39 Drumm Street
San Francisco, CA 94111
T: (415) 343-1198
F: (415) 395-0950
jnewell@aclu.org
keiland@aclu.org
jveroff@aclu.org
Sean Riordan (SBN 255752)
Christine P. Sun (SBN 218701)
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF NORTHERN CALIFORNIA, INC.
39 Drumm Street
San Francisco, CA 94111
T: (415) 621-2493
F: (415) 255-8437
sriordan@aclunc.org
csun@aclunc.org
Blaine Bookey
Karen Musalo
Eunice Lee
Kathryn Jastram
Sayoni Maitra*
CENTER FOR GENDER & REFUGEE STUDIES
200 McAllister St.
San Francisco, CA 94102

476

T: (415) 565-4877
F: (415) 581-8824
bookeybl@uchastings.edu
musalok@uchastings.edu
leeeunice@uchastings.edu
jastramkate@uchastings.edu
maitras@uchastings.edu

477
DECLARATION OF JOHN DOE

I, John Doe, hereby declare under the penalty of perjury pursuant to 28 U.S.C. § 1746:
1. I make this declaration based on my personal
knowledge except where I have indicated otherwise. If
called as a witness, I could and would testify competently and truthfully to these matters.
2. I was born in San Juan, Sacatepequez, Guatemala. I am 31 years old and a citizen of Guatemala. I
am an indigenous person and speak the native language
Kaqchikel as well as Spanish. I was raised by my grandparents in Guatemala, where I started working at the
age of approximately eleven years old. I graduated
from evening high school in San Juan while working during the day. I most recently worked as a dog groomer.
My immediate family, including my U.S. citizen siblings,
lives in California.
3. I went to the San Ysidro port of entry to seek
asylum on Tuesday, January 29, 2019 after waiting in Tijuana to seek asylum since approximately mid­December
2018.
4. I fled my home country because I was beaten severely and threatened with death by a group that calls
itself Ronderos de San Juan. Ronderos de San Juan is
a death squad that controls my hometown of San Juan.
Members of the death squad beat me severely on multiple occasions. I would often wake up unconscious and
bloody after they attacked me, and I have several scars
from their attacks. I believe that the death squad targeted me because of my indigenous background, as death
squad members would often taunt me with indigenous
slurs when they threatened and beat me.

478

5. The death squad also believed that I had filed a
report against them for animal cruelty. An animal
rights group filed a report against them because they
often kill and harm stray dogs. Because I am a dog
groomer, I would often leave out water and food for
these animals. This led the death squad to believe that
I complained to the government about them. In October 2018, they killed stray dogs and left them outside my
house to threaten me. They told me that if I continued
to defy them, they would kill me ju.st like they had killed
the dogs. Because of this threat, I fled Guatemala in
fear of losing my life.
6. If I am sent back to my country I fear that the
death squad will kill me, as they threatened to do, or
continue to beat me to the point of severe injury or
death.
7. I do not believe my government could protect me
if I were to return to Guatemala. I filed a police report
against them the first time they beat me, but nothing
ever came of it, and the death squad continued to harm
me. The death squad controls our entire community.
8.

I have no criminal record.

9. I fled Guatemala and crossed into Mexico around
October 30, 2018. When I crossed into Mexico, Mexican immigration officials gave me a green card that they
told me was for permission to pass into Mexico.
10. When I traveled through Mexico, I took a train
from Nayarit to Mexicali. The trip lasted almost three
days. Around the second day, very early in the morning, the train stopped in the middle of nowhere. I peeked
out of the car I was riding in to see what was happening.
About three cars away from me, I saw a bunch of lights

479

and a group of men wearing black face masks and carrying huge guns. They were unloading many big packets off of the train onto the ground, to a few waiting cars.
I had been warned by other travelers that the trains
were used for narcotrafficking, and suspected that the
packets contained drugs.
11. When I saw what was happening, I quickly went
to hide. I must have made some noise while doing so,
however, because the men heard me and started to look
for me with their lights. I had to hide for about five to
six hours. The entire time, I was terrified that they
would find me and kill me. I fear that the narcotraffickers saw me, will find me, and will kill me for having
been a witness to their crime.
12. I arrived in Tijuana around mid-December 2018.
I wanted to seek asylum in the United States but did not
know what the process was.
13. A man in Tijuana to]d me that I had to put my
name on a list in order to seek asylum in the United
States. I wanted to do things correctly, so I went to El
Chaparral to put my name on the list, and I was assigned
number 1,856.
14. I waited about six weeks in Tijuana before I was
told that I could return to the port of entry. During
this time, I stayed in a room where a stranger allowed
me to sleep. I had to eat at shelters and in other places
that offer free food to migrants. I was very afraid in
Tijuana because I thought the narcotraffickers would
find me and kill me for having witnessed their crime.
Out of fear, I kept to myself and was very careful while
waiting for my turn to present myself to seek asylum.

480

Every morning I went to El Chaparral to see what number was being called and if it was my tum.
15. On Tuesday, January 29, 2019, the organizers of
the list finally said that it my number had finally come
up. I was told to present myself at 1 PM. At 1 PM,
the Mexican officers from Grupos Beta put us all in a
line. There were about 45 of us who were called.
While we were waiting in line, a Beta officer came down
and spoke to each of us individually. The Beta officer
asked me to turn over the green card that I had received
from Mexican immigration when I first entered Mexico.
The Beta officer told me that I would no longer need the
card because I was going to cross over to the other side
of the border. Wanting to follow all of the rules, I
turned in my card.
16. At the port of entry, U.S. immigration officials in
blue uniforms told us to place our documents in a plastic
bag, tum off our cell phones, take out our wallets, and
take the shoelaces out of our shoes. Then they asked
us to separate into two lines—one line for people who
had traveled with the migrant caravan, and one line for
people who were not with the caravan. Because I had
traveled alone, I put myself in the line of people who did
not come with the caravan. In that line, an immigration
officer in a blue uniform asked me where I was from.
When I said I was from Guatemala, the officer told me
to go to the back of the line. Another man in line, who
was from Nicaragua, was also told to go to the back of
the line.
17. I waited my turn to talk to an immigration officer, who asked where I intended to travel and scanned
my passport. I was then moved to a different line,

481

where I was asked to provide the name and phone number of the person who would receive me in the United
States, and undergo a clothing check (to make sure I
wasn't wearing multiple shirts or jackets).
18. Next, I was moved to a different hallway, where
a group of us were asked to stand against the wall with
our hands behind our back. A U.S. immigration officer
patted me down and then directed me follow him to a
waiting room where there were other men, women, and
children. There, I was called up to speak with an agent
at a computer. This agent asked me some basic questions like my name, who would receive me in the United
States, and my parents’ names. I answered all of the
agent's questions, and he told me to sit back down.
Later, I was called up again to speak with a female immigration official. She asked me similar questions, but
also took my fingerprints and my picture. After that,
she told me to wait again, and later took my fingerprints
again.
19. While I was waiting, an officer came by with
some food, and then another officer came over with some
papers that had my name on them. The second officer
then called me, along with a group of other people. We
followed him through the hallways to the “hielera” (ice
box). I went into the hielera around 7 PM. I remember that I was held in Hielera #16.
20. Other people in the hielera told me that we were
waiting for our credible fear interviews. I was held in
the hielera overnight. I did not sleep at all because of
the cold and because the lights remained on all night.
21. In the morning, we were fed a small breakfast,
which we ate standing up. An immigration officer in a

482

blue uniform then came and called me by name out of
the hielera to ask for the name of my sponsor in the
United States. I explained to him that I had provided
the names of my mother and her partner, who is a U.S .
citizen.
22. Ten or twenty minutes later, I was again called
out of the hielera. The agent told me to return to the
wall and place my hands behind my back. Several of us
were called out from different hielera cells. We followed the agent to an area where there were offices with
short walls. I was called up to speak with a female immigration officer.
23. The officer had me raise my right hand and
swear to tell the truth. She then asked me some questions in Spanish. I remember that she asked me my
name, if I was married, if I had any problems with the
law, if I had children, and if I had any documents. She
asked me why I was there, and I told her that I had come
to have my credible fear interview. She asked me if I
was afraid of returning to Guatemala, if I was being persecuted in Guatemala, and by whom. She also asked
me how I traveled through Mexico. She did not ask me
if I was afraid to be in Mexico, however.
24. At the end of the interview, the officer asked me
to sign and initial several pieces of paper. I could not
see what the papers said because she covered up each of
the pages with the others. I could only see the space at
the bottom where she told me to sign or initial. I signed
the papers because I trusted the officer and I believed
that this was part of the process of seeking asylum.
25. After I signed and initialed, the officer told me
that I would have a court date on March 19, 2019 at

483

12:30. She then told me that I was being returned to
Mexico. I was very surprised by this news and did not
understand why this was happening to me. Then I was
returned to the hielera
26. About thirty minutes later, I was taken from the
hielera and put in a group of about ten people. All of us
were men except for one woman. U.S. immigration officers in blue uniforms placed us in steel handcuffs with
our hands behind our back. This was the first time I
had been handcuffed in my entire life. We had to carry
our backpacks—with our hands handcuffed—to board a
blue and white bus. The bus left and took us back to El
Chaparral, which was about five minutes away. After
we got off the bus, an officer took off my handcuffs, gave
me some papers, and told me to wait. From there, the
U.S. officers turned us over to a group of Mexican officers.
27. The Mexican officers took us into an office.
There were at least two Mexican officers from Grupos
Beta. I recognized them because of their orange uniforms. There was one other Mexican officer in a white
shirt, and there may have been more. I wasn’t quite
sure who everyone was. A Mexican officer called me
up, took my picture, and photocopied the documents I
had received from U.S. immigration officers. Then a
different officer gave me a piece of paper that the officer
said gave me permission to wait for my court date in
Mexico, but did not allow me to work. They told us that
if we wanted to work, we would have to go through a different process with Mexican immigration. One officer
told me that if I didn’t’ have somewhere to go, I could go
to a shelter on a piece of paper. But he said the shelter
would only be able to offer me somewhere to stay for a

484

night or so. Then the Mexican officers said that we
were free to go.
28. I am afraid to stay in Mexico. Not only do I feel
unsafe here as an asylum seeker, I am afraid that narcotraffickers will fine me and kill me because I saw them
transporting drugs. I also feel that my life is in danger
because Mexico may deport me to Guatemala. I do not
feel confident that the paper Mexican immigration officers gave me would prevent me from being deported.
The officers told me that the paper is valid for only for a
limited number of days. No one explained to me what
the immigration paper means, and I am afraid of being
deported to Mexico while waiting for my immigration
case to move forward.
29. During my entire time on the U.S. side of the
border, no one ever asked me if I was afraid of being
returned to Mexico. I also did not have the opportunity
to tell anyone I was afraid because I was not allowed to
provide any information other than the answers to the
questions I was asked. Had I been asked if I was afraid
to go back to Mexico, I would have told the officer about
the crime that I witnessed and my fear of narcotraffickers.
30. Apart from my fear of being in Mexico, I also am
worried about how I will fight my asylum case. U.S.
immigration officers gave me a list of attorneys, but they
all work in California. No one ever explained how I
could find an attorney or how an attorney in California
would be able to represent me if I am in Mexico. I had
heard that there are lots of organizations in the United
States that help asylum seekers and hoped to find an attorney to represent me. Here in Tijuana, I do not know
how I will find a lawyer to help me with my case. I also

485

think it will be a lot harder to prove my asylum case
without the support of my family. Here, I have no one
to help me understand the process and what I need to
do.
31. No one explained how I will get to my hearing in
the United States. The U.S. officers told me to come to
El Chaparral with my paperwork, and I should walk until I found an immigration officer. They told me to
show my paperwork to an immigration officer, and that
officer would help me get to the judge. Without more
information, I am afraid that I will miss my immigration
court hearing.
32. Given the problems I have had in my country, I
fear that if my identity and my status as an asylum applicant are released to the public, my life and possibly
that of my family will be in danger. I wish that my
identity not be publicly disclosed, and I wish to proceed
with the use of a pseudonym or initials in any federal
action.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct to the best of my knowledge and recollection. This declaration was read back to me in Spanish,
a language in which I am fluent.
Executed on Feb. 2, 2019 at Tijuana, Mexico.
/s/ JOHN DOE
JOHN DOE

486

CERTIFICATION
I, Marie Vincent, declare that I am fluent in the English and Spanish languages.
On February 2, 2019, I read the foregoing declaration
and orally translated it faithfully and accurately into Spanish in the presence of the declarant. After I completed
translating the declaration, the declarant verified that
the contents of the foregoing declaration are true and
accurate.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on Feb. 2, 2019 at Tijuana, Mexico.
/s/ MARIE VINCENT
MARIE VINCENT

[02/01/2019]
Date

487
DECLARATION OF GREGORY DOE

I, Gregory Doe, hereby declare under the penalty of
perjury pursuant to 28 U.S.C. § 1746:
1. I make this declaration based on my personal
knowledge except where I have indicated otherwise. If
called as a witness, I could and would testify competently and truthfully to these matters.
2.

I am a citizen of Honduras.

I am 53 years old.

3. I went to the San Ysidro port of entry to seek
asylum on January 29, 2019. I had waited in Tijuana
for my turn to present at the port of entry since approximately November 18, 2018.
4. I fled Honduras after receiving threats based on
my support for the LIBRE party. After the presidential election in 2017, I began to participate in the widespread protests against the government. This brought
me to the attention of the Honduran military, which began to follow me and even came to my house. In fear
for my life, I fled Honduras in October 2018.
5. If I am sent back to my country, I fear that the
Honduran military will find me and kill me. I do not believe my government would protect me if I were to return to my country because the Honduran military is
part of the government.
6.

I do not have a criminal record.

7. I traveled through Mexico with the migrant caravan. I arrived in Tijuana on or around November 18,
2018. First I stayed at the Benito Juarez shelter, but
heavy rains made the shelter so muddy that it was unusable, and we were moved to tents in El Barretal.

488

8. I did not feel safe at Benito Juarez because the
neighbors kept trying to attack the migrant community.
The people who lived near the shelter tried to hurt us
because they did not want us in their country. On one
occasion, a group of young men gathered around Benito
Juarez with sticks, threatened us and yelled things like
“get out of here, Hondurans, we don't want you here.”
They said that it was unfair that we were receiving benefits from the government.
9. At El Barretal, I felt a little more secure because
we had a high wall surrounding us. Even so, one night
someone threw a tear gas bomb into the shelter. When
I tried to leave the shelter, people in passing cars would
often yell insults at me like “get out of here, you pinches
Hondurans,” and other bad words that I do not want to
repeat.
10. In El Barretal, members of Grupos Beta instructed us to go to El Chaparral to put our names on a
list in order to be able to seek asylum. I went and put
my name on the list in November 2018 and received
number 1828.
11. At the end of my time in El Barretal, the Mexican officers there started to get rough with us. I saw
them take some of my friends out of El Barretal by
force. I saw officers from Grupos Beta, Mexican immigration, and the federal police tell people in the camp
that they had to leave to look for work. The people who
did not want to leave were kicked out of the camp by
force; the Mexican officials simply picked up their tents
and carried them out.
12. I am a dedicated Evangelical Christian and had
been attending a church in Tijuana. Because people

489

were being removed from the camp, I had to move into
the church in December 2018. About fifty of us stayed
at this church together. It was very crowded. We
slept on mats on the floor, there was one bathroom for
all of us and there were two rooms for us to sleep in.
13. While waiting for my number to be called, I tried
to look for work in Tijuana. However, I was told in several places that I needed a Mexican passport in order to
get paid.
14. On January 29, 2019, I arrived at El Chaparral
around 8:00 am. My number was finally called. Several hours later, around 1:00 PM, officers from Grupos
Beta put all of us in a line. They asked us to turn in our
immigration paperwork from Mexico, but I had left my
humanitarian visa behind for safekeeping.
15. Grupos Beta then turned us over to a group of
U.S. immigration officers. The U.S. officers told us
that we should be quiet, and that we would be detained
for maybe months, or years, until our process was complete.
16. The officers had us put all of our possessions, except for the clothes we were wearing, into our luggage
and lined us up against the wall. They told us not to
look around, and then searched each one of us. I had
kept my glasses hooked onto my shirt because I need
them to read. An officer grabbed my glasses from me.
He looked like he might break them. I told him that I
needed my glasses to read and he told me that they had
to go in my bag. This worried me because I wanted to
be able to read any paperwork that was given to me during the asylum process, especially any papers that I had
to sign.

490

17. A U.S. officer then asked the group which of us
had come with the caravan. This question made us all
a little nervous because we were not sure why they were
asking us.
The officer said something like “don't
worry, nothing is going to happen to you, just tell us
which of you came with the caravan.” So people who
had come with the caravan identified ourselves. The
officers then separated us from the rest of the group.
18. After this, I went to a short interview with an
immigration officer who asked me some basic questions
like my nationality, my family status, my name, and my
contacts in the United States. Then I waited for a while
in a waiting room before a different officer took my picture and my fingerprints.
19. Soon afterward, I was taken to a small cell.
There were several people already waiting in the cell.
Many of the people had been there for many days, so I
spent some time praying with them in an attempt to give
them hope in this difficult time.
20. I spent all night in the “hielera,” or ice box as the
migrants call it. The officers gave us aluminum blankets and thin mats for sleeping, but it was impossible to
sleep because the lights were on. In the morning, I was
not given anything to eat. Instead, an officer took me
to a room with a lot of cubicles for another interview.
21. A male officer interviewed me in Spanish. He
asked me to raise my hand and promise to tell the truth.
He first asked me some biographical questions.
22. Then he asked what had happened to me in Honduras. I told him that I was fleeing the governing regime. He asked me how long I had had problems with
the regime. I told him that my problems had started

491

when Juan Orlando Hernandez, the current president,
came to power. The interviewer asked if I had been
persecuted. I told him I had been gathering people to
work in politics, that several of my friends involved in
the same work had been disappeared, and that the military was following me.
23. The interviewing officer spent quite a bit of time
asking questions about the caravan. He wanted to
know the leader of the caravan was, where I learned
about the caravan, why I joined the caravan, where the
idea to have a caravan came from, and if there are plans
to have more caravans. I responded that I had joined
the caravan in an attempt to save my life.
24. When I explained that I was fleeing danger in
Honduras, the officer asked me why I came here, since
the same thing could happen to me in the United States.
I said I was seeking asylum. The officer asked if I knew
what asylum was, and I responded that it means protection.
25. The officer also asked about my fear of returning
to Honduras. I said I was fleeing the current government, which is run by a dictator who has imposed his will
on the entire country. I explained that members of the
Honduran military were looking for me and wanted to
kill me.
26. At one point, the officer repeatedly accused me
of lying. I had told him that I hid at my cousin’s house
for about two months and that I found out about the caravan when it passed in front of his house. This is all
true, but the officer did not believe me.

492

27. I am not sure what I said after that. I was very
hungry, nervous, and tired. I think the interview lasted
around 45 minutes.
28. The officer asked me if I had sought asylum in
Mexico, and I told him that I had, but had not yet received a response. I had gone to a job fair in Tijuana
where I was told that I would only be allowed to work if
I applied for asylum in Mexico. I am afraid to be in
Mexico, but I am even more afraid of being deported to
Honduras.
29. The officer never asked me if I was afraid of being in Mexico or if anything bad had happened to me
here. He said that because I had been living in Tijuana
while waiting to seek asylum, I would continue waiting
in Tijuana for my court date.
30. After the interview, the officer told me I had to
sign some paperwork. I could not read the papers because I did not have my reading glasses, and because
most of them were in English. After I signed, the officer asked me if I knew that my asylum claim could be
rejected. I told him yes.
31. Then I was taken back to the hielera. I stayed
there for about thirty minutes until an officer came back
for me. I was taken to a hallway where the officers made
us line up against the wall, and handcuffed us behind our
backs. They hung our backpacks on hour fingers behind our backs and we had to carry our backpacks to a
caged van, which took us back to El Chaparral.
32. At El Chaparral, the U.S. officers took off our
handcuffs and turned us over to Mexican officials. I
saw officers from Grupos Beta and a man who told us
that he was the head of Mexican immigration.

493

33. The Mexican officials welcomed us and gave us
instructions. They told us to behave ourselves while we
were in Mexico. They asked if we had somewhere to
stay or somewhere to go, and offered to give us rides.
34. The man who had said he was in charge of Mexican immigration directed us to turn in our humanitarian
visas. Most of us did not have our visas with us. He
said that our humanitarian visas had been automatically
invalidated when we crossed the U.S.-Mexico border.
He gave us temporary permits that he said were valid
until March 19, when we had our appointments with the
judge in the United States. He told us not to lose the
permits and to always keep them with us.
35. I feel unsafe in Mexico. Because of the experiences I had while waiting for my number to be called, I
almost never go outside. I have moved back into the
same church I was in before; the conditions are the
same. I stay in the church almost all day in order to
avoid problems and possible violence. I am most afraid
of the Mexicans who don’t want asylum seekers in their
country—like those who threatened violence against us
in the migrant shelters. For that reason, I do not tell
anyone that I am Honduran.
36. I am also afraid that the Honduran government
will find me in Mexico and harm me. Even outside the
country, the Honduran government often works with
gangs and criminal networks to punish those who oppose their policies. I am afraid that they might track
me down.
37. I am afraid that the Mexican government will deport me to Honduras. My immigration status here is

494

temporary, and I am not confident that it protects me
from deportation.
38. I am very concerned about how I will fight my
immigration case from here. I do not know very much
about the process, but I have a U.S. citizen friend in Miami, Florida who had offered to help me. My sister is
also a U.S. citizen, and she was going to support me and
help me find the resources that I need. But I do not
know how they will help from the United States while I
am in Tijuana. I also do not know how I will make arrangements to get evidence that I need to prove my
case, like declarations from people who witnessed what
I went through.
39. Given that I have been targeted in my country, I
fear that if my identity and my status as an asylum applicant are released to the public, my life and possibly
that of my family will be in danger. I wish that my
identity not be publicly disclosed, and I wish to proceed
with the use of a pseudonym in any federal action.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct to the best of my knowledge and recollection. This declaration was read back to me in Spanish,
a language in which I am fluent.
Executed on Feb. 5, 2019 at Tijuana, Mexico.
/s/

GREGORY DOE
GREGORY DOE

495

CERTIFICATION
I, Juan Camilo Mendez Guzman, declare that I am
fluent in the English and Spanish languages.
On February 5, 2019, I read the foregoing declaration
and orally translated it faithfully and accurately into
Spanish in the presence of the declarant. After I completed translating the declaration, the declarant verified
that the contents of the foregoing declaration are true
and accurate.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on Feb. 5, 2019 at Tijuana, Mexico.
/s/ JUAN CAMILO MENDEZ GUZMAN
JUAN CAMILO MENDEZ GUZMAN
[2/5/2019]
Date

496
DECLARATION OF BIANCA DOE

I, Bianca Doe, hereby declare under the penalty of
perjury pursuant to 28 U.S.C. § 1746:
1. I make this declaration based on my personal
knowledge except where I have indicated otherwise. If
called as a witness, I could and would testify competently and truthfully to these matters.
2. I was born in Santa Rosa de Copan, Honduras in
1996. I am 22 years old. I have three brothers that I
have lived with. They are 18, 19, and 8 years old.
They are in Honduras, living with my mother and stepfather. My stepfather is a farmer. My mother cares
for the children. My biological father left my mother
when she was pregnant with me—he has many other
children who are my half siblings but I don’t have a relationship with most of them, nor with my biological dad.
3. I went to school through elementary school. I
stopped going to school at the age of 11 because my stepfather didn’t want to pay for my education and my
mother lacked the funds to keep me in school. I can
read and write in Spanish.
4. In Honduras I worked as a cook in a restaurant
for about three years.
5.

I identify as a woman and a lesbian.

6. I left Honduras on September 10, 2018 because
my life was in danger. Because of my sexual identity as
a lesbian, I was targeted by men in Honduras, and
threatened that I would be killed if I did not leave.
There is no protection in Honduras for people like me.
In Honduras, LGBTQ people like me are harmed and
disappeared all the time because the government and

497

police do not protect us. In fact, the police often target
sexual minorities because of their minority status.
7. I fled from Honduras alone to save my life. I
travelled north through Guatemala; the passage took me
a couple of days.
8. I wanted to reach the United States so that I
could be safe from discrimination and violence on account of my sexuality. Also I know that I have a better
chance of getting my son back because the laws in the
United States are stronger than here in Mexico.
9. I arrived in Mexico in September and stayed in
Tabasco for three months. I had no intention of staying
in Tabasco—I just wanted to save up enough money to
come to get to the U.S/Mexico border.
10. I found it really hard to find a job in Tabasco because of discrimination against people from Honduras.
People would say that we are dirty, unreliable, other
ugly things that are just not true. I would try to explain that not all Hondurans are the same, that I like to
work, and that I work hard. I am an experienced cook
and server. But people would say that they were not
hiring Hondurans. That happened to me many times.
11. Luckily, I finally found work in a bar. I knew
some women who worked there, and they helped me get
the position. But I was afraid to mention that I am a
lesbian and I did not reveal my identity the whole time
I was in Tabasco. I heard lots of people in Mexico say
hateful and frightening things about LGBTQ people,
calling them names like fag and dyke and saying that we
are trash. I heard people say that gay people like me

498

are less than human, and that it is okay to hurt us because we don’t matter. Because of my sexual identity,
I do not feel safe in Mexico.
12. While in Tabasco I was robbed. A man of about
thirty years of age grabbed by bag when I was eating at
a café. They stole my identity card from Honduras, my
phone, and my documents. As a result, I had to go back
to the Mexican border to obtain a replacement visa.
13. I left Tabasco around the 15th of December; I
arrived in Tijuana on or around the 20th of December,
2018.
14. When I arrived in Tijuana, I stayed at a shelter.
I am now staying at an LGBTQ safe house here in Tijuana.
15. The day I got here, I put my name on “La Lista”
or The List, and got my number.
16. I waited over five weeks on The List.
17. It was Tuesday, January 29, 2019 when my number finally came up.
18. I got to the port of entry around 9:00 am. When
we arrived at El Chaparral, U.S. officers put us in cars
and took us to another place. They directed us to get
into lines and leave all of our suitcases. They gave us a
bag to carry our documents and nothing more. We
were allowed to keep the clothes we were wearing, but
that was all.
19. I had with me a letter from my attorney requesting exemption from the “Migrant Protection Protocol”
because I am a lesbian facing discrimination and persecution in Mexico, and a G-28 form indicating that my attorney is Cristian Sanchez. My attorney also gave me

499

an index of documents regarding country conditions in
Honduras to hand to the officers. Two U.S. immigration officers looked at the documents and told me that I
could not take them with me. I had to leave them in my
suitcase, which they took then took away from me. The
immigration officials only allowed me to bring copies of
my visa that I had obtained in Tabasco, and a copy of my
birth certificate. I put all of the information my attorney gave me in my suitcase and did not see it again until
I was processed to leave the port of entry.
20. After taking our things away, the immigration
officers took me to a room, where I stayed for the rest
of the day. They took down my information and took
my fingerprints. I was there until about 4:00pm, I
think. There were many officers.
21. They then separated me from others in the processing room and separated people into different “hieleras” or ice boxes.
22. The ice boxes are small rooms where many, many
people are held. Nearly everyone is sitting or lying on
the floor because there are not enough seats. I was
given a tiny, very thin mat to sleep on, along with an aluminum emergency “blanket.” The room was very, very
cold. It was impossible for me to rest.
23. I was held in the ice box from the time I left the
first processing room until about 1:00 am. I ate very
little—a dry burrito in the morning, a sandwich, and a
cold hamburger later—and was given only water. My
stomach hurt, and still does, from the food they gave us
and the stress.
24. During my time in the ice box, there was constant activity so I never slept. I was woken up at all

500

hours for showering, people mopping the floor, meals
and announcements for people’s other business, like interviews.
25. An immigration officer came and got me at 1:00
am. He took me to a large room where many other people were being interviewed. I could not understand
him because he could barely speak Spanish. He really
struggled to understand me, which is why, I think, in the
record of my interview includes so many errors. Upon
information and belief, the officer’s name was Alonzo
Brooks; that is the name on my documents, and I saw
him sign a document that had his name on it.
26. No one explained to me what the interview was
about or why it was happening. Officer Brooks just
called my name in the ice box and said, “come with me.”
27. When I got to the interview room, he asked me
to raise my hand and swear that I would tell the truth.
28. Officer Brooks then said he was an immigration
official. He was wearing a badge, but I don’t remember
what it said.
29. I could hear the tone of voice of the other immigration officers; many of them were nearly yelling at
people. Thankfully, the immigration officer who did
most of my interview was respectful.
30. The interview lasted over an hour, less than two
hours.
31. Officer Brooks explained to me that he would not
decide my asylum claim. He said that a judge would
decide my asylum claim.

501

32. The interview transcript attached to my Notice
to Appear contains many errors and does not accurately
reflect what I said during my interview.
33. The U.S. immigration officers did not give me
the transcript to review. They only gave me the “Protocolos” document only after the interview, attached as
Exhibit A. I had to sign something that I later learned
stated that I understood what I was signing, but the only
document they gave me to read at the time was the “Protocolos” document in Spanish. I only saw the interview
transcript and the Notice to Appear after the fact. The
officers did not offer translations of any documents
other than the “Protocolos,” that was written in Spanish.
34. The officers gave me a list of attorneys who are
not in California; they are in other parts of the country.
I don’t have the resources to work with attorneys that
far away. The officers never offered me the chance to
show the letter from my attorney or his G-28 form.
35. The immigration officers did not tell me I was
going to be sent back to Mexico. They also did not explain how I was supposed to re-enter the United States
or get to the court on the day of my hearing. They did
not give me contact information for my consulate or offer me a chance to talk to them. All they said was that
a judge would decide my asylum claim.
36. When I read the Protocolos document, I understood that I was going to be sent back to Mexico. I was
terrified because I don’t feel safe here.
37. After the interview, the officers took me back to
the ice box. I remained there until around noon on the
following day, when they took us to a room with only two
tables. There were so many people there, including

502

children, such that hardly anyone could sit while eating,
including me.
38. Then they took me to another room and they
asked me what color my suitcase was they gave me my
suitcase back.
39. The U.S. immigration officials then put me in a
car with about eight other people. They took us back
out of the port of entry and delivered us to Grupos Beta
in Mexico. Grupos Beta gave us a 51-day visa to stay in
Mexico and then took us out of the port of entry and back
out to where The List is. I ended up just where I had
started.
40. By that point, I was exhausted and hungry. As
I left the port of entry, there were many reporters. I
felt terrible and wasn’t ready to talk to them, so I just
kept walking. I went to the LGBTQ safe house where
I had stayed before.
41. I am not sure how my attorney will be able to
help me if I am staying at temporary safe house in another country. I am alone and I also fear for my safety
when I leave the safe house because the border zone is
very dangerous, particularly for women and members of
the LGBTQ community like me.
42. I fear that the Mexican authorities will send me
back to Honduras. When I finally crossed the U.S.Mexico border, Mexican immigration officials told me
that I had entered the country in an illegal manner and
that my stay would be temporary. Right now, I only
have 50 days or so left on my temporary visa. I know I
am not welcome here. The Mexican officials make this
very clear in the way they have interacted with me.

503

43. I suffered a lot in Honduras. The father of my
child raped me, and I became pregnant. He told me
that he did this because I am a lesbian and love women.
I was a virgin at the time.
44. I love my son, and I did everything I could to
provide for him. I worked hard and made enough
money at the restaurant to support us. But the father
of my child sued for custody and won. He said that my
son would grow up to be a “fag” and that a lesbian would
only raise a gay son, and he couldn’t have that.
45. When we went to the Court, the judge said that,
because of my sexual orientation, I am not a fit mother
and would not raise my son correctly. I was only allowed visitation every fifteen days. When my family
found out that I was a lesbian, they supported my son’s
father in the custody battle. I haven’t been able to
speak with my four-year-old son in many months.
46. My mother, my stepfather, and my brothers all
rejected me when they found out that I was a lesbian
and in love with a woman. The only person I have is my
son, and the judge took him away from me because of
who I am, because of my sexual orientation. My family
even helped the man who raped me take custody of my
only child.
47. I was in a relationship with a woman in Honduras. The father of my girlfriend in Honduras was very
abusive and is homophobic. When he discovered our
love, he beat her. On my last day in Honduras, her
father took us to a location close to the Honduras/
Guatemala border. He parked the car and threatened
me that unless I left Honduras, he would kill me and that
he would also kill my partner, his daughter. I had no

504

choice but to leave. I got out of the car and walked
across the border right then and there.
48. In Honduras, if you are a lesbian, you may as
well be dead. Because of the threats I received from
the father of my girlfriend and the father of my son—
the man who raped me—I was terrified that I would, in
fact, lose my life. The Honduran government does nothing to stop violence against women and the LGBTQ community. I was completely alone, and fled to protect
myself.
49. Given the harm I have suffered in my country, I
fear that if my identity and my status as an asylum applicant are released to the public, my life and possibly
that of my son will be in danger. I also fear future discrimination against me for my sexual identity and personal history. I wish that my identity not be publicly
disclosed, and I wish to proceed with the use of a pseudonym or initials in any federal action.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct to the best of my knowledge and recollection. This declaration was read back to me in Spanish,
a language in which I am fluent.
Executed on Feb. 3, 2019 at Tijuana, Mexico.
/s/ BIANCA DOE
BIANCA DOE

505

CERTIFICATION
I, Mayra Lopez, declare that I am fluent in the English and Spanish languages. My first language is Spanish and for the past three and a half years I have worked
in a legal services office in the United States, preparing
court documents, doing oral and written translations,
and serving multi-lingual clientele.
On February 3, 2019, I read the foregoing declaration
and orally translated it faithfully and accurately into
Spanish in the presence of the declarant. After I completed translating the declaration, the declarant verified
that the contents of the foregoing declaration are true
and accurate.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on Feb. 3, 2019 at Tijuana, Baja, Mexico.
/s/ MAYRA LOPEZ
MAYRA LOPEZ

506

EXHIBIT A

507

508
DECLARATION OF DENNIS DOE

I, Dennis Doe, hereby declare under the penalty of
perjury pursuant to 28 U.S.C. § 1746:
1. I make this declaration based on my personal
knowledge except where I have indicated otherwise. If
called as a witness, I could and would testify competently and truthfully to these matters.
2.

I was born in Honduras.

3.

I have no criminal record.

I am 20 years old.

4. I went to the San Ysidro port of entry to seek
asylum on January 29, 2019, after waiting in Tijuana
since late November 2018.
5. In Honduras, I received death threats because I
refused to join MS-13. I tried to escape MS-13 by moving to another part of Honduras but MS-13 found me
and sent me a letter that said they knew where I was
and that my life was in danger. I was afraid that, if MS13 finds me, they won't just hurt me, they'll hurt my family as well.
6. After I fled Honduras, MS-13 killed my friend
because he refused to join them. Before they killed
him, he reached out to me. He told me he was afraid
that he was going to be killed and he asked me for help.
I wanted to help him but wasn't sure how. MS-13 killed
him, his cousin who was in a wheel chair, two other men
and a woman I don’t know.
7. If I am sent back to Honduras I fear that I will
be killed by MS-13 gang members.
8. I do not believe the Honduran government could
protect me if I were to return to my country because the

509

police are corrupt. Sometimes when people file police
reports in Honduras, the police will inform MS-13 of the
report, which puts the people who filed the report in
even more danger. I did not file a report, because I
feared that if I did my life would be in even more danger.
9. When I first arrived in Tijuana around late November 2018, I was told I needed to get a number at El
Chaparral to be able to seek asylum in the United
States. I put my name on the wait list and received the
number 1834. I waited for approximately two months
in Tijuana before I was told that I could return to the
port of entry.
10. While I was waiting, I stayed at the Benito Juarez and El Barretal refugee camps, as well as in rooms
that I had rented. The conditions were very poor.
There was a flood in Benito Juarez, and my belongings
were soaked, leaving me to live and sleep on the street
for about two nights. In El Barretal, I tried to defend
a friend who was being attacked, and I received threats
from the attackers. Both places were very unclean.
The bathrooms were very dirty because too many people
were using them. I slept on the floor, often felt really
cold, and sometimes went entire clays without having
food to eat. The rooms that I rented were usually
shared by approximately four to seven other people.
Some people in Tijuana have been hostile towards us because we are from Honduras. While I was at El Barretal I saw people and police running and shouting. They
said that a bomb had been dropped. It was tear gas. I
saw people crying and a woman had to go to the hospital.
I am afraid that something similar could happen again.
I don't know who threw the tear gas.

510

11. In Tijuana, I have seen people who I believe are
MS-13 gang members on the street and on the beach.
They have tattoos that look like MS-13 tattoos—for instance, I have seen people tattooed with the MS-13
hand, the number 13 tattooed on their forearms, and
even one man with MS tattooed on his forehead—and
they dress like MS-13 members, with short sleeved button up shirts. I know that the MS-13 were searching
for people who tried to escape them with at least one of
the caravans. This makes me afraid that the people
who were trying to kill me in Honduras will find me
here.
12. When my number was called on January 29,
2019, at the San Ysidro port of entry, I was taken to a
place where the other asylum seekers and I were instructed to remove our shoelaces and belts and keep
only our pants, one shirt, and one sweater. U.S. immigration officers asked who had come with the caravan.
One U.S. immigration officer asked me for my identity
documents. Then we walked down some stairs and
were told to line up against a wall in a hallway, with our
hands behind our backs and our heads against the wall.
An officer patted me down and asked me if I consumed
cocaine. I told him that I did not. He was aggressive
and made me feel inferior and intimidated.
13. We were then told to sit down in a room with
computers, and the officers called us one by one. When
my name was called, another officer directed me to stand,
asked me questions, and typed on a computer. He
asked me for information like my name, height, weight,
eye color, and skin color. Then he told me to sit down.
I was called back up two more times so that a female
officer could take my fingerprints twice.

511

14. Then I was placed in a cell until the next day.
The cell had cameras in the comers and a little window
on the door. There was a metal bench and a [2] metal
toilet. An officer gave me a silver paper to use as a
blanket and a very thin mat to use to sleep on the floor.
There were approximately 12 other men in the cell with
me. I felt lonely and desperate. I had never been in
prison before.
15. The next morning, the other migrants and I
were taken to another room to eat. Then the officers put
us back in the cell.
16. Some time later, a female officer called my name
and brought me to a room with many desks. The officer
spoke very little Spanish. I don't know if she understood everything I told her. On our way to one of the
desks, she asked me questions like my name, my age,
and why I had come to the United States. Then she
told me to sit down. There were several other officers
and people like me at the other desks in the room. I
could hear what they were saying. The other officers
were asking similar questions. Some officers were
laughing at the answers the other migrants gave. The
officers talked in English to each other, and they seemed
to be discussing the answers they received with their
colleagues. Because of the lack of privacy, I didn't feel
safe answering the questions. I tried to answer as quietly as I could so that other people wouldn’t hear.
17. The officer asked me several questions, including how, where, and when I left Honduras; when I entered Mexico; whether I was sick; my parents’ names
and where they are from; where I was born; whether I
had entered the United States before; whether I had
used another name; where I was going in the United

512

States; and why I fled Honduras. I was not allowed to
provide any information other than the answers to the
questions I was asked. I expected to be asked more
questions and to have the opportunity to provide more
details. But the interview was fairly short and lasted
only about 30 minutes.
18. No one asked me if I was afraid to return to Mexico, if I had received threats in Mexico, or if I had felt
safe in Mexico.
19. The officer gave me a paper in Spanish. I tried
to read it but I didn’t understand a lot of what it said. I
understood that I had to go back to Mexico and come
back to the United States on March 19, 2019, but I did
not want her to be annoyed with me because I did not
know what she might do with my case. When she asked
me if I understood, I just said yes. I asked the officer
if I had to go back to Mexico because of a new law that
the President made, to wait in Mexico while I fought my
case, and she said “yes.” She didn’t explain why I was
being sent to Mexico and why others were not, how to
get to my March 19 court hearing, or what rights I have.
She did not ask if it was possible or safe for me to wait
in Mexico.
20. The officer gave me a list of lawyers. She said
they were lawyers in Los Angeles that I could call but
she didn’t explain how an attorney in California would
be able to represent me if I am in Mexico. I don’t understand how I can find an attorney if I cannot go to Los
Angeles. Here in Tijuana, I do not know how I will find
a lawyer to help me with my case.
21. The officer told me to sign several papers.
They were in English and I did not understand them.

513

She did not tell me what they were or translate any of
them into Spanish. I didn’t know what I was signing.
I didn’t ask questions for fear that I would be humiliated
or aggressively told to sign.
22. Around the end of the interview, I asked how
long I would be there. The officer told me about three
hours and then I would go back to Tijuana. Then she
put me back in the cell.
23. Some time later, another officer came and took
me to another cell. After a while, I was instructed to
find my luggage in another room and to put it in the hallway. Then I waited in the cell with other people who
were also going back to Tijuana. An officer called us
one by one in the hallway, and handcuffed us with our
hands behind our backs. We had to carry our luggage
with our hands like that. We were told to get into a vehicle with metal seats. It had seat belts, but we couldn’t
put them on. The vehicle took us back to the entrance
to Mexico. An officer called us one by one to remove
the handcuffs and hand us our documents.
24. At the entrance to Mexico, there were officials
from Grupos Beta, Derechos Humanos (Human Rights),
immigration officials, and others. Mexican officials
told us that the Mexican humanitarian visas that we had
were no longer valid and that those who had applied for
papers in Mexico before going to the United States had
abandoned their applications by going to the United
States. I was given a little paper called a Forma Migratoria and told to keep it until my court hearing in the
United States. The Forma Migratoria that was given
to me on January 30, 2019, is valid for 76 days.

514

25. Soon after I was sent back to Tijuana, someone
who speaks English and Spanish translated the questions and answers on the statement I had received from
the U.S. immigration officer. I realized that I was not
asked some of questions on the paper. For example,
the paper says that the officer asked me “Were you in
contact with any of the organizers of the caravan during
your travel,” but the officer never asked me that question.
26. I do not know if the form I received from Mexican immigration on January 30, 2019, gives me permission to work. I asked the officials if I could work and
they told me that I could probably figure it out. I don’t
know if I can work legally and I have been unable to find
regular work in Mexico. I don’t feel safe in public.
There is a lot of discrimination against Honduran migrants, and I am afraid that members of MS-13 might
attack me.
27. During the brief period I was in the United
States, no one asked me if I was afraid to be in Mexico.
I also did not have the opportunity to tell anyone I felt
unsafe in Mexico because I was not allowed to provide
any information other than the answers to the questions
I was asked. Had I been asked if I was afraid to be in
Mexico, I would have said yes.
28. I am also afraid that Mexican officials will deport
me to Honduras while I am waiting here. When I first
entered Mexico after fleeing Honduras, Mexican officers caught and deported me without asking me any
questions at all. The officers did not ask if I wanted
asylum or if I was afraid to go back to my country. If
Mexico decided that they wanted to deport me again, I
don’t think anything would prevent them from doing so.

515

29. Apart from my fear of being in Mexico, I also am
worried about how I will fight my asylum case. I don't
know how I can find a U.S. immigration lawyer while I'm
in Tijuana.
30. I tried calling the immigration court number
that is on the paper, but it is an automated system, so I
couldn’t talk to anyone or ask questions about my case.
I also tried to check the status of my case, but the automated system said that my case is not in the system.
31. I was told to present myself in El Chaparral on
March 19, but I am not sure exactly where. Without
more information, I am afraid that I will miss my immigration court hearing.
32. Given the harm I have experienced in my country, I fear that if my identity and my status as an asylum
applicant are released to the public, my life and possibly
that of my family will be in danger. I wish that my
identity not be publicly disclosed, and I wish to proceed
with the use of a pseudonym in any federal action.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct to the best of my knowledge and recollection. This declaration was read back to me in Spanish,
a language in which I am fluent.
Executed on Feb. 4, 2019 in Tijuana, Mexico.
/s/ DENNIS DOE
DENNIS DOE

516

CERTIFICATION
I, Maria Alejandra Martinez Corral, declare that I
am professionally competent in the English and Spanish
languages.
On February 4, 2019, I read the foregoing declaration
and orally translated it faithfully and accurately into
Spanish in the presence of the declarant. After I completed translating the declaration, the declarant verified
that the contents of the foregoing declaration are true
and accurate.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on Feb. 4, 2019 in Tijuana, Mexico.
/s/ MARIA ALEJANDRA MARTINEZ CORRAL
MARIA ALEJANDRA MARTINEZ CORRAL
Feb. 4, 2019

517
DECLARATION OF EVAN DOE

I, Evan Doe, hereby declare under the penalty of perjury pursuant to 28 U.S.C. § 1746:
1. I make this declaration based on my personal
knowledge except where I have indicated otherwise. If
called as a witness, I could and would testify competently and truthfully to these matters.
2. I am from San Salvador, El Salvador.
thirty years old.

I am

3. I went to the San Ysidro port of entry to seek
asylum on January 29, 2019, after waiting in Tijuana for
my number to be called since Christmas Eve of 2018.
4. I fled El Salvador after receiving threats from
different groups of armed men for speaking out against
the government. Since early 2018, I have spoken out
against the corruption of both major political parties.
In October 2018, I was threatened by armed men in military uniforms. Soon after, armed masked men wearing dark clothing put a gun to my head and threatened
to kill me if I didn’t stop speaking out against the government. I fled the country that week in fear for my
life.
5. If I am sent back to El Salvador, I fear that the
government will try to silence me by killing me and will
threaten and hurt my family to intimidate me.
6. I do not believe the government would protect
me if I were forced to return to my country because government officials were following and threatening me before I left.
7.

I have no criminal record.

518

8. I wanted to seek asylum immediately when I arrived at the U.S.­ Mexico border, but I heard from other
people in Mexico that I had to put my name on a list and
wait for my number to be called. I put my name on the
waiting list and waited about one month in Tijuana before my number was called.
9. I spent my first week in Tijuana in a small room
near the Plaza Amariano. There, I tried to work with a
man selling tacos, but each day I needed to come to El
Chaparral to see what numbers were called. The Plaza
Amariano was far from El Chaparral so I could not work
and also keep track of the numbers. Later, I spent a
few days in the shelter called Ejército Salvación. This
place was very dirty and I would wake up with bites on
my skin. I did not feel safe because of the disorder and
lack of control and security.
10. In Tijuana, I have been stopped many times by
the Mexican authorities and asked for my identification.
It makes me feel like I am here illegally or doing something wrong just because I am from a different place. I
think they stop me because my skin is darker, and because my accent makes it obvious that I am not from
Mexico.
11. My number was finally called in January 2019.
On the morning of January 29, 2019, I reported to El
Chaparral, along with around 20 other migrants. The
Mexican authorities with Grupos Beta asked us to give
them our humanitarian visas from Mexico.
Then
Grupos Beta took our group by van to the port of entry
in San Ysidro, United States.
12. U.S. immigration officers at San Ysidro asked us
to get into two lines, with men on one side and families

519

and women on the other side. They asked if any of us
traveled to the border with the caravan and separated
those who had into a separate group. I myself had not
traveled with the caravan, so I was in the non­caravan
group. The officers ordered us to put our personal belongings in a bag, and also took our shoelaces, or belts,
and any clothes apart from pants, a shirt, and a light
sweatshirt. They asked us for our names, birthdates,
nationalities, and where we were going. I believe that
I was the only Salvadoran there. They brought us
some food. Then they brought us to a white hall with a
bright white light. They lined us up with our hands behind our backs and searched us.
13. After the search, they had us sit in metal chairs
and they called us up for questioning one by one. A female officer first asked me basic questions like whether
I had ever come to the U.S. and where I wanted to stay
in the U.S. Then I was asked to wait again, until a male
officer took my fingerprints and photo.
14. I waited more, and then was called back to speak
with the female officer who initially questioned me. She
asked if I understood English. I said I spoke a little bit,
ands he said something in English that I didn’t understand. I didn’t really understand what was happening
in the moment because I was so nervous. They brought
us hamburgers and let us use the bathroom. Then they
brought us to a cell with several other people in it.
They gave us plastic blankets to sleep on. It was very
difficult to sleep because the floor was so cold, the lights
were on all night, and the floor was packed with people
trying to sleep.

520

15. The next morning, officers took us out of the cell
and gave us some food. Then they started calling people out to be interviewed one by one. When my name
was called, I was brought to a room with cubicles where
several officers were working. I was told to take a seat
in one of the cubicles.
16. The officer in my cubicle was female. I don’t
remember her name but she appeared very serious.
She asked me if I knew why I was there and that she was
going to take my declaration. She told me to raise my
right hand and swear to tell the truth. Then she asked
me several questions like where I was from, if I had ever
tried to enter the U.S., if I had come by myself or with
children, and if I had ever used false documents. She
asked me about my asylum claim and I told her about
the death threats I had received in El Salvador. When
I tried to provide detail in my answers, she would cut me
off and move onto the next question. At certain points
she would say things like “no, we are not going to talk
about that right now” and move onto the next topic.
This made me feel like I could not provide all of the relevant information or any information apart from what
she asked me.
17. The officer did not ask me if I was afraid to return to Mexico. Had she asked me whether I was afraid
to be in Mexico, I would have told her yes, I am afraid
because I feel that I am in danger here. Mexico is a very
dangerous place for asylum seekers like myself. I have
seen many posts on social media where Mexicans asked
that we be deported. A friend of mine who is also from
El Salvador was assaulted and robbed and left without
his documents; now, whenever the police stop him, they
threaten to deport him unless he agrees to pay a bribe.

521

This makes me feel that I am in danger because I could
be deported before my asylum hearing is completed.
18. There were many times that the officer had trouble communicating with me in Spanish. I believe because of all the errors she made, Spanish was not her
first language. I did not understand many of her questions. When I later had a chance to review the transcript of the questions she asked me with someone who
spoke English, I found several errors. She did not ask
me any questions about my time in Mexico or whether I
felt safe here.
19. Near the end of the interview, the officer asked
me to sign some paperwork. She read a document
written in Spanish regarding my rights as a Salvadoran
citizen and she told me I had a right to return to my
country.
20. The officer told me there was a new policy and
that I had to sign a paper saying that I would wait for
my asylum hearing in Mexico. She told me that I
needed to go to the San Ysidro port of entry at 9:00 a.m.
on March 19, 2019 for my court date and that they would
bring me to court for my 12:30 p.m. appearance. She
did not tell me what documents I would need to bring
that day. She said that I could bring an attorney with
me to court if I had one.
21. After the interview, I was brought back to the
cell. About an hour and a half later, officers took me
and several migrants out of the cell, returned our belongings, put us in handcuffs together, and brought us
to a bus. There were maybe 13 of us total. We were
told we had to present ourselves at a court on March 19,

522

2019. Then we were transported back to El Chaparral
in Tijuana and taken to the office of Grupos Beta.
22. Grupos Beta officials told me that because I had
left Mexico to ask for asylum in the United States, my
humanitarian visa was no longer valid in Mexico. They
gave me a paper that says I have permission to be in
Mexico for 79 days.
23. I am scared to be in Tijuana because it is not a
safe place. I saw someone get robbed in the center of
town and have read in the news about the many homicides and kidnappings here. Because the Mexican authorities have stopped me many times for no reason, I
am also afraid that I might be deported from Mexico to
El Salvador while I am waiting for my court date. Because of my darker skin and accent, and because I spend
time in spaces where there are other migrants, I feel
very visible.
24. I have been looking on the internet for lawyers
and have emailed several, but I have not gotten responses.
Here, I have no family support or friends to help me
gather evidence for my case. In the United States, I
have a friend and an uncle who have offered to help, and
I planned to look for an attorney in the United States.
25. Given that I have had problems in my country, I
fear that if my identity and my status as an asylum applicant are released to the public, my life and possibly
that of my parents and siblings will be in danger. I
wish that my identity not be publicly disclosed, and I
wish to proceed with the use of a pseudonym in any federal action.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true

523

and correct to the best of my knowledge and recollection. This declaration was read back to me in Spanish,
a language in which I am fluent.
Executed on Feb. 4, 2019 at Tijuana, Mexico.
/s/ EVAN DOE
EVAN DOE

524

CERTIFICATION
I, Juan Camilo Mendez Guzman, declare that I am
fluent in the English and Spanish languages.
On February 4, 2019, I read the foregoing declaration
and orally translated it faithfully and accurately into
Spanish in the presence of the declarant. After I completed translating the declaration, the declarant verified
that the contents of the foregoing declaration are true
and accurate.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
/s/ JUAN CAMILO MENDEZ GUZMAN
JUAN CAMILO MENDEZ GUZMAN
[2/4/2019]
Date

525
DECLARATION OF FRANK DOE

I, FRANK DOE, hereby declare under the penalty of
perjury pursuant to 28 U.S.C. § 1746:
1. I make this declaration based on my personal
knowledge except where I have indicated otherwise. If
called as a witness, I could and would testify competently and truthfully to these matters.
2.

I was born in Honduras.

I am 28 years old.

3. I went to the San Ysidro port of entry to seek
asylum on Saturday, February 2, 2019.
4. The MS-13 killed several close family members
and threatened to kill me. I fled my home country because I received death threats from MS-13 and Mara 18.
I and other close family members received threats from
both major gangs. After MS-13 killed one family member right by our house their threats continued I was
worried that I would be next. I worked as a driver and
I also received threats from my former boss after I discovered that he was using his business to support both
major gangs. My former boss paid off the police so that
they would not arrest him. A coworker of mine was
killed after he discovered the operation and refused to
join. After my former boss found out that my coworker
knew about the operation, he told MS-13 who picked up
and killed my coworker. I was afraid that I would be
next, so I fled.
5. If I am sent back to Honduras I fear that MS-13,
Mara 18, or my former employer might kill me. The
gangs have threatened my life on multiple occasions,
and my old employer knows that I know about his drug
business.

526

6. I do not believe my government could protect me
because they were unable to protect my family member
and coworker—who were both murdered. I feel that I
would be in danger from the police because my former
employer collaborates with the MS-13, Mara 18 and the
police. I have also seen the police directly cooperating
with my boss and various gang members.
7.

I have no criminal record.

8. I first tried to present myself at the port of entry
on December 26, 2018. However, I was told by Mexican
officers from Grupos Beta that they would not allow me
to access the port of entry until I put my name on a list
and my number was called. I asked them how long I
would have to wait and they told me that they had no
idea and were not in charge of the list. I found the person in charge of the list and got a number. I did not
realize how long it was going to take for my number to
be called.
9. I waited five and a half weeks in Tijuana before
my number was called. During this time, I stayed at a
shelter called Caritas. Caritas is very far from the port
of entry, and it was expensive to travel back and forth to
check on what numbers were being called. At first I
pooled money with some other friends and took a taxi.
The taxi ride was about 20 minutes long. Once we ran
out of money, we had to ask the shelter manager or others for rides.
10. From the shelter, I could not afford to get to the
port of entry every day. I was afraid that my number
would be called when I wasn’t there. Unfortunately,
this happened. While I was at the shelter, a friend who
had been able to make it to the port of entry called to

527

say that my number was called. Anxious, I tried rushing to the port of entry but did not make it on time.
The Grupos Beta said they were done letting people
through on that day. I went the next day and explained
to Grupos Beta that my number had been called but they
refused to let me pass. They said that if I didn’t like
their process, I should find another place to seek asylum. I went back again the next day, and again the refused to let me pass. Finally, four days after they had
called my number, the Grupos Beta allowed me to pass.
11. On February 2, the day they let me through,
Grupo Beta lined up all of us who were allowed to cross
against the wall at El Chaparral. Then they left me
there for several hours. It was about 10:30 am, and
they told me they would be back later. At about 12:00
pm they came back, but then quickly left. A little while
later they came back locked me into a metal cage inside
a van with others. They drove me to an entrance near
where the train crosses the border and then told me to
get out. Then I waited with others outside in the rain
for about one hour.
12. Eventually, U.S. immigration officials came.
Grupos Beta told us to follow the U.S. officials and then
left. The U.S. officials lined us up against a wall and
asked us who had come with the caravan and separated
those out who raised their hands. They told us that the
caravan members were “VIPs.” I didn’t travel with the
caravan, so I did not raise my hand. The U.S. officials
gave us a bag to put our documents and other belongings, and gave us paper to write the phone number of a
person in the United States who could receive us. Then
they asked us who was traveling alone. I raised my

528

hand and they moved me to the line with the caravan
members.
13. They brought the group of caravan members
and people travelling alone in first and asked me basic
questions like my name, where I was from and whether
I had travelled with the caravan. In my group, there
were people from many different countries so the officers separated the Central Americans, like me, from the
rest of the countries.
14. The U.S. officers ordered me to put my hands
behind us as if I were handcuffed. Eventually, they
told us to put our bags down, lined us up against the wall
and searched us. When an officer asked me, I told him
that I was not a part of the caravan, but he did not believe me. The officer told me that he wanted to help
me, but that I had to tell him that I came with the caravan. I explained that I couldn’t tell him something that
wasn’t true. The officer got upset and said that he had
tried to help me but I had not allowed him. He then
took the bag with my documents and belonging.
15. Then the officers escorted me along with others
into a room with chairs lined up and numbers printed on
papers on the wall. They told me to sit, and I spent
several hours waiting there. During this time, I was
not allowed to speak to any of the other migrants. I
was instructed that if I needed to stand up, I had to keep
our hands behind our back. At one point, an officer
called me up and asked me for information like my name,
gender, and city where I was born. He sent me back to
my chair, where I sat for another half hour or so. Then
another officer called me and took my fingerprints and
a photo. After that, I sat down again for what felt like
hours more.

529

16. After waiting in that room for a total of many
hours they moved me to a small crowded cell. Then
they gave me a thin mat to sleep on and thin aluminum
blankets. It was very late by the time they took us to
the cell.
17. In the cell, I began to feel lost. The cell was
very full of people so the only place I could lie down was
in front of the toilet. They kept putting more people in
the cell, to the point where everyone basically had to
sleep on top of each other. I felt like I was sleeping on
top of other people. It was also hard to sleep because
there was a bright light that they never turned off. At
about midnight, they took us out, cleaned the cell, and
put us back inside. About two to three hours later,
they began opening the door and calling people from a
list.
18. I lost track of time, but all night the officials
opened the door and yelled out people’s names for them
to get up and go to an interview. In my interview, the
officer asked for my name, date of birth, and basic personal information. He asked me the names of my
mother and my father, where I’d lived in Honduras,
where I’d worked, and why I had fled. I explained that
I was afraid for my life because of the threats I had received. I explained that I was just trying to save my
own life. The officer asked me how long it had taken
me to get to Mexico from Honduras and didn’t believe
me when I said three days. He then focused on why I
had come to Tijuana and not elsewhere on the border.
I said that I followed the advice of people that I met on
the way, but then he wanted to know exactly who told
me to go to Tijuana. Again I told him the truth—it was
just other migrants I met on the way. He asked me the

530

same questions over and over again. He frequently cut
me off and did not let me fully explain. After a few
more questions, the officer told me that I was going to
complete the application process from Tijuana. I asked
him why, and he said it was the law.
19. He never asked me if I was afraid of returning
to Mexico. At one point, I had to interrupt him to explain that I didn’t feel safe in Mexico. He told me that
it was too bad. He said that that Honduras wasn’t safe,
Mexico wasn’t safe, and the U.S. isn’t safe either. I then
tried to explain that I don’t have anyone to support me
in Mexico but that a family member was waiting for me
in Houston. He asked me where I had lived while I was
in Tijuana. I explained that I had lived in a shelter but
no longer had anywhere to stay. He told me I’d have to
figure out how to survive in Tijuana. The officer said
my court date would be on March 20, 2019. He took my
phone number and said he would call me if my hearing
date changed.
20. When the interview was over , he told me to sign
documents. He only showed me the signature lines. I
asked him to explain the documents and he said that
they explained that I had to wait in Mexico while my
case went forward. He told me that I would have to
come back to the port of entry on the date of my hearing
and that if a judge denied my case, I’d be sent back to
Honduras. I told him I couldn’t go back, and he responded that if I were deported to Honduras, I should
just flee again. He ended the interview and another officer took me back to the cell.
21. I spent about an hour and a half in the cell before
the officer called my name again. I walked out of the
cell and he gave me another paper to sign. He said that

531

it was an agreement that if my asylum application was
denied, I would be deported. Again, I told him that I
did not feel safe in Tijuana, but he just said that if Mexico was not safe I should not have left Honduras to go
there. Nervous, I explained that I was just trying to
get out as quickly as possible. But the officer brushed
me off and said I needed to sign because he had other
things to do. I signed the paper.
22. They sent me back to the cell, where I slept
amongst dozens of other asylum seekers for another
night. We knew that at some point they would come
back to clean the cell, so we did not sleep well. In the
morning, they brought us to eat breakfast. They returned us to our cell but never explained what was going
to happen next. Several hours later, they opened the
door and told us come out in groups of five. They put
us against the wall and then put us in line and brought
us to our bags. I asked for my ID and they told me it
was in my bag but that I couldn’t check inside my bag
yet. The officers led us to vans with cages inside. We
didn’t know where they were taking us. I thought they
were bringing me to San Diego until one of the others in
the van told me that we were going to Tijuana. The
U.S. officials took us back to port of entry and told us to
get in line. Then they turned us over to Grupos Beta.
It was now February 4, 2019.
23. The Grupos Beta gave us a visa to stay in Mexico
for 76 days, until our next court date. After I asked, a
Mexican official told me that this form did not come with
permission to work. After I was released back into Tijuana, I tried to stay at the same shelter I had been staying at before. Unfortunately, they said they no longer

532

had space for me. I found a different shelter for a couple of nights but I don’t know where I will sleep long
term.
24. I don’t feel safe in Tijuana. I don’t know the
laws here and don t trust the police. I have been treated badly by many people, and I don’t feel safe going to
the police. I am afraid of the police here because I
know that they arrest migrants without reason and take
their money. A friend of mine was arrested and robbed
by police on the day his number was called, so he missed
his day and had to put his name on the list again. I have
heard that MS-13 and Mara 18 have ties with gang members in Tijuana, so I am also afraid that they might find
me here. While I was in the shelter, I was so afraid that
I rarely went outside, other than to go to the port of entry. I have heard on the news that some asylum seekers have been killed while waiting to present themselves
at the point of entry. Many others have been hurt or
kidnapped during the trip.
25. I am afraid that I will be deported back to my
country before I have a chance to have my asylum claim
heard. My status here is only temporary and I don’t
trust the Mexican authorities to keep me safe. I have
heard of cases where Mexican immigration officials arrest people, rip up their papers, and deport them anyway.
26. I don’t know how I will work on my case from
Tijuana. I don’t know how I will find a lawyer, gather
evidence, or contact witnesses. I do not even have a
permanent place to stay, because the Caritas shelter no
longer has space for me. Even if I did find a lawyer, I
could not afford to pay them. I am frustrated because

533

if I was able to work on my case from the United States,
I would have family to help me with all of these things.
27. Given that I have been persecuted in my country, I fear that if my identity and my status as an asylum
applicant are released to the public, my life and possibly
that of my family will be in danger. I wish that my
identity not be publicly disclosed, and I wish to proceed
with the use of a pseudonym or initials in any federal
action.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct to the best of my knowledge and recollection. This declaration was read back to me in Spanish,
a language in which I am fluent.
Executed on Feb. 10, 2019 at Tijuana, Mexico.
/s/ FRANK DOE
FRANK DOE

534

CERTIFICATION
I, Jenny Villegas-Garcia, declare that I am fluent in
the English and Spanish languages.
On February 10, 2019, I read the foregoing declaration and orally translated it faithfully and accurately
into Spanish in the presence of the declarant. After I
completed translating the declaration, the declarant verified that the contents of the foregoing declaration are
true and accurate.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on Feb. 10, 2019 at Tijuana, Mexico
/s/ JENNY VILLEGAS-GARCIA
JENNY VILLEGAS-GARCIA
[02/12/2019]
Feb. 10, 2019

535
DECLARATION OF KEVIN DOE

I, Kevin Doe, hereby declare under the penalty of
perjury pursuant to 28 U.S.C. § 1746:
1. I make this declaration based on my personal
knowledge except where I have indicated otherwise. If
called as a witness, I could and would testify competently and truthfully to these matters.
2. I was born in Honduras in 1989. I am 29 years
old. In 2018, my wife and I fled Honduras to escape
violence and threats. We entered Mexico together and
were both arrested by Mexican immigration authorities.
The immigration authorities then separated me from my
wife and my wife was deported to Honduras. My wife
is pregnant and told the Mexican immigration officials
that she was pregnant and scared to return to Honduras, but she was deported any way. She is scared to be
in Honduras. I also have children from a previous marriage who live with my ex-wife.
3. I went to the San Ysidro port of entry to seek
asylum on January 29, 2019.
4. I fled my home country because I received many
threats, including death threats, because of my religious
beliefs and my outspoken role as an Evangelical Christian minister preaching against the MS-13’s violence.
Members of the gang killed other pastors who preached
like I did, and killed my brother-in-law.
5. During sermons and the prayer groups that I
led at the church, I prayed for God to control the gangs
and preached that the gang life was full of vice and led
to hell. The MS-13 gang hated this and sent their members to my services to intimidate me. Several times after my services, they approached me and told me that

536

they would kill me. In or around 2018, the threats
against me and my family intensified after I refused to
tell my parishioners to support the ruling party in Honduras. The MS-13 gang made the threats because the
gang wanted the ruling party to win. I refused to do
this because I believe the government of Honduras is
corrupt and I do not support the ruling party in Honduras.
6. If I am sent back to my country I fear that I will
be killed. The gang has already carried out their
threats against others in my community. They killed
other pastors and my brother-in-law. MS-13 does not
let these things go. They know what I preached, and
for them that is enough to kill over.
7. I do not believe my government could protect me
if I were to return to my country because I reported the
threats to the police and the threats continued and, in fact,
got worse. The police were unable to prevent the gang
from killing the other pastors and could not protect my
brother in law. Police in Honduras are ineffectual and
often corrupted by gangs. I don’t think they could ever
protect me.
8.

I have no criminal record.

9. When I arrived in Tijuana, I learned about “the
list.” I waited about eight days in Tijuana before I was
able to get transportation to the port of entry to put my
name on the list. During this time, I stayed at a local
church, the Iglesia Bautista Camino de Salvación.
Members of the church told me that we had to be very
careful and not travel alone. They explained that I
could be kidnapped, because migrants were seen as potential hostages. We had price tags on our heads, I had

537

heard that many migrants who came along on the caravan had been disappeared, and I don’t know if they were
ever found. Out of fear, I never left the church at night.
At the pastor’s instructions, I walked carefully during
the day and tried not to go too far from the church.
10. On January 29, 2019, my number was called to
turn myself in and request asylum in the US. At the port
of entry, United States officials put me in a line, counted
the people in the line, and separated the men from the
women and children. The officers also asked all of the
people in line, including me, whether anyone of us had
been part of the caravan. I told them that I had joined
the caravan in Tapachula. They separated members of
the caravan from the rest of the group. And I was
placed in the line with the people from the caravan.
11. Then they brought me and the others from the
caravan to a room where they searched me. It was in
the morning. They had me remove my jacket and
sweater, so that I was only wearing my shirt and pants.
Then they had me remove my shoe laces, and they ordered the women to remove their earrings and jewelry.
The officers took my belongings, along with the others,
and moved me to a very bright room with metal benches
that looked like a waiting room. The room was empty
when I arrived. There were only three of us at first
who entered, but over several hours more people were
brought in. At one point there were more than 40 people in that small room. I waited in that room for hours.
It was uncomfortable and disorienting.
12. Eventually, an officer called my name and
brought me to a cell that already had about 26 other people in it. I asked the others in the cell about food, and
they told us I had missed dinner. I believe it was close

538

to 7:00 pm, but it was hard to know what time it was because the lights never went out. In total, I spent two
days in that cell. There were two toilets for 27 people
and they were not private. I tried to rest sitting on the
benches, but it was hard to sleep because the lights were
very bright. The officers didn’t tell me how long I
would be there and I was afraid I would never leave. At
one point, I gave a sermon in the cell and spoke about
God’s will. The other men came close and one of them
was crying. I asked why he was crying and he told me
he had spent 8 days there and had felt like he was losing
touch with God. The officials were watching us through
the cameras and an official cam and interrupted the sermon and told us it was time for food. I was taken to a
cafeteria where I was given a burrito and water.
13. At three in the morning at the beginning of the
second day the US immigration officials woke me up and
took me to do an interview. They asked me to put my
hand up and swear to tell the truth. Then they asked
me why I’d left my country. I tried to explain that I
was a pastor and fleeing threats, but it was very hard to
communicate. The officer who was doing the talking
couldn’t understand me, and I couldn’t understand him
very well because he was rushing me through the interview and I didn’t fully understand his Spanish. The interview lasted about 4 or 5 minutes. At the end, he
took out a packet of documents and started telling me
where to sign. I tried to read the documents but he
would flip the page before I had a chance to review the
papers. He never explained what I was signing. I
saw on one page that it said “Tijuana” but another page
said “San Diego.” I asked him if this meant we were
going to Tijuana. The officer said yes and told me that
there was a new law that meant we would have to return

539

Tijuana and fight my case from there. He never asked
me if I was afraid of returning to Mexico. The officer
said that I would have an appointment with a judge on
March 19, 2019. He showed me the list of pro bono attorneys in Massachusetts and said they would take my
case. He told me that I had to be present for my court
date on March 19, 2019 but did not tell me where I had
to go. I still don’t’ know where I am supposed to go for
my court date. I don’t know who to ask and the officer
did not tell me. The only resource I was given was the
pro bono list for California and Massachusetts.
14. I felt depressed and afraid when I realized I was
being returned to Tijuana.
15. After signing the papers, I was sent back to my
cell. After several more hours, I and 10 others were
brought to a room with a table where they had laid out
my belongings and asked me to identify my belongings.
Then, they brought me back to another cell. The officers came back and put handcuffs on us and told us to
hang our backpacks from our fingers.
16. On January 30, late in the morning, they put me
and others in a van with two benches facing each other
and we rode for about 25 minutes. They dropped me
off on the Mexican side of El Chaparral. I was met by
a large group of reporters with cameras. I was afraid
that my face might show up in the news. Publicizing
my story is dangerous—many people don’t want us here
in Mexico and there has been violence against the migrants. I was afraid that the MS-13 might see my face
in the news. They are a powerful, ruthless gang and
have members Tijuana too.

540

17. I was given a card that I understood was like a
tourist permit saying I could be in Mexico for 76 days,
but without permission to work.
18. I am afraid because migrants are not safe in Tijuana and I have been told that I could be kidnapped for
a ransom. I am afraid of the Zetas who are connected
to the MS-13. I have a friend who is staying in the
church with me who barely survived a kidnapping by the
Zetas.
19. I hope that on March 19, 2019 I will be allowed
to enter the US and stay there to fight my case. I can’t
spend more time than that here in Tijuana. I have no
money and it is very expensive for me to travel around
Tijuana. I am relying on donated food, donates clothes,
and there's no way I can rely on these things for much
longer. I have no money to take the bus. It takes me
two hours to get to the only legal office I know of in Tijuana on two buses. I have to walk about half an hour
from the bus stop to the church where I am staying and
it is very dangerous. I feel like bait for a wolf. I am
worried that the reporters who interviewed me when the
US sent me back used my story in the news. On social
media, I have seen that many people in Tijuana want
asylum seekers like me to die. I am scared because my
face might be in the news, or on social media, and I am
being asked to wait here with no money and no work. I
am vulnerable I don’t understand how I can ask an attorney in Massachusetts to represent me while I am in
Tijuana.
20. Given that I have been harmed in my country, I
fear that if my identity and my status as an asylum applicant are released to the public, my life and possibly
that of my family will be in danger. I wish that my

541

identity not be publicly disclosed, and I wish to proceed
with the use of a pseudonym or initials in any federal
action.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is t rue
and correct to the best of my knowledge and recollection. This declaration was read back to me in Spanish,
a language in which I am fluent.
Executed on Feb. 6, 2019 in Tijuana, Mexico.
/s/ KEVIN DOE
KEVIN DOE

542

CERTIFICATION
I, Juan Camilo Mendez Guzman, declare that I am
fluent in the English and Spanish languages.
On February 6, 2019, I read the foregoing declaration
and orally translated it faithfully and accurately into
Spanish in the presence of the declarant. After I completed translating the declaration, the declarant verified
that the contents of the foregoing declaration are true
and accurate.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on Feb. 6, 2019 at Tijuana, Mexico
/s/ JUAN CAMILO MENDEZ GUZMAN
JUAN CAMILO MENDEZ GUZMAN
[2/6/2019]
Date

543

EXHIBIT Q

544
MEXICO 2017 HUMAN RIGHTS REPORT
EXECUTIVE SUMMARY

Mexico, which has 32 states, is a multiparty federal republic with an elected president and bicameral legislature. In 2012 President Enrique Pena Nieto of the Institutional Revolutionary Party won election to a single
six-year term in elections observers considered free and
fair. Citizens elected members of the Senate in 2012
and members of the Chamber of Deputies in 2015. Observers considered the June 2016 gubernatorial elections free and fair.
Civilian authorities generally maintained effective control over the security forces.
The most significant human rights issues included involvement by police, military, and other state officials,
sometimes in coordination with criminal organizations,
in unlawful killings, disappearances, and torture; harsh
and life-threatening prison conditions in some prisons;
arbitrary arrests and detentions; intimidation and corruption of judges; violence against journalists by government and organized criminal groups; violence against
migrants by government officers and organized criminal
groups; corruption; lethal violence and sexual assault
against institutionalized persons with disabilities; lethal
violence against members of the indigenous population
and against lesbian, gay, bisexual, transgender, and intersex persons; and lethal violence against priests by
criminal organizations.
Impunity for human rights abuses remained a problem,
with extremely low rates of prosecution for all forms of
crimes.

545
Section 1. Respect for the Integrity of the Person, Including Freedom from:
a. Arbitrary Deprivation of Life and Other Unlawful or
Politically Motivated Killings

There were reports the government or its agents committed arbitrary or unlawful killings, often with impunity. Organized criminal groups also were implicated
in numerous killings, acting with impunity and at times
in league with corrupt federal, state, local, and security
officials. The National Human Rights Commission
(CNDH) reported 24 complaints of “deprivation of life”
between January and December 15.
In May the Ministry of National Defense (SEDENA) arrested and immediately transferred to civilian authorities a military police officer accused of the May 3 unlawful killing of a man during a confrontation in Puebla between soldiers and a gang of fuel thieves. No trial date
had been set at year’s end.
The civilian trial that started in 2016 continued for the
commander of the 97th Army Infantry Battalion and
three other military officers who were charged in 2016
for the illegal detention and extrajudicial killing in 2015
of seven suspected members of an organized criminal
group in Calera, Zacatecas.
A federal investigation continued at year’s end in the
2015 Tanhuato, Michoacan, shooting in which federal police were accused of executing 22 persons after a gunfight and of tampering with evidence. An August 2016
CNDH recommendation stated excessive use of force
resulted in the execution of at least 22 individuals. The
CNDH also reported that two persons had been tortured, police gave false reports regarding the event, and

546

the crime scene had been altered. Security Commissioner Renato Sales claimed the use of force by police at
Tanhuato was justified and proportional to the threat
they faced and denied the killings were arbitrary executions. The CNDH called for an investigation by the Attorney General’s Office, expanded human rights training for police, and monetary compensation for the families of the 22 victims. No federal police agents were
charged.
Authorities made no additional arrests in connection with
the 2015 killing of 10 individuals and illegal detentions
and injury to a number of citizens in Apatzingan, Michoacan.
On August 1, a judge ordered federal authorities to investigate whether army commanders played a role in
the 2014 killings of 22 suspected criminals in Tlatlaya,
Mexico State. In his ruling the judge noted that the
federal Attorney General’s Office had failed to investigate a purported military order issued before the incident in which soldiers were urged to “take down criminals under cover of darkness.” In January a civilian
court convicted four Mexico State attorney general’s office investigators on charges of torture, also pertaining
to the Tlatlaya case. In 2016 a civilian federal court acquitted seven military members of murder charges, citing insufficient evidence. In 2015 the Sixth Military
Court convicted one soldier and acquitted six others on
charges of military disobedience pertaining to the same
incident. Nongovernmental organizations (NGOs) expressed concerns regarding the lack of convictions in the
case and the perceived failure to investigate the chain of
command.

547

On October 17, the Federal Police developed a use of
force protocol. The protocol instructs federal police to
use force in a “rational, proportional manner, with full
respect for human rights.”
Criminal organizations carried out human rights abuses
and widespread killings throughout the country, sometimes in coordination with state agents.
As of November 20, according to media reports, families
of disappeared persons and authorities had discovered
more than 1,588 clandestine mass graves in 23 states.
For example, in March, 252 human skulls were found in
a mass grave in Colinas de Santa Fe, Veracruz. From
January 2006 through September 2016, the CNDH reported that more than 850 mass graves were identified
throughout the country. Civil society groups noted
that there were few forensic anthropology efforts underway to identify remains.
b.

Disappearance

There were reports of forced disappearances—the secret abduction or imprisonment of a person—by security forces and of many forced disappearances related to
organized criminal groups, sometimes with allegations
of state collusion. In its data collection, the government
often merged statistics on forcibly disappeared persons
with missing persons not suspected of being victims of
forced disappearance, making it difficult to compile accurate statistics on the extent of the problem.
Federal law prohibits forced disappearances, but laws
relating to forced disappearances vary widely across the
32 states, and not all classify “forced disappearance” as
distinct from kidnapping.

548

Investigation, prosecution, and sentencing for the crime
of forced disappearance were rare. The CNDH registered 19 cases of alleged forced disappearances through
December 15.
There were credible reports of police involvement in
kidnappings for ransom, and federal officials or members of the national defense forces were sometimes accused of perpetrating this crime. The government’s
statistics agency (INEGI) estimated that 94 percent of
crimes were either unreported or not investigated and
that underreporting of kidnapping may have been even
higher.
In January, five sailors were charged by civilian prosecutors for illegal detention of a man in Mexico State.
No trial date had been set at year’s end. In July the
Ministry of the Navy (SEMAR) arrested and transferred to civilian authorities seven sailors for their alleged involvement in a series of kidnappings.
On November 16, the president signed into law the General Law on Forced Disappearances after three years of
congressional debate. The law establishes criminal
penalties for persons convicted, stipulating 40 to 90 years’
imprisonment for those found guilty of the crime of forced
disappearance, and provides for the creation of a National System for the Search of Missing Persons, a National Forensic Data Bank, an Amber Alert System, and
a National Search Commission.
The CNDH registered 19 cases of alleged forced disappearances through December 15. In an April report on
disappearances, the CNDH reported 32,236 registered
cases of disappeared persons through September 2016.

549

According to the CNDH, 83 percent of cases were concentrated in the following states: Tamaulipas, Mexico
State, Sinaloa, Nuevo Leon, Chihuahua, Coahuila, Sonora, Guerrero, Puebla, and Michoacan.
As of April 30, according to the National Registry of
Missing Persons, 31,053 individuals were recorded as
missing or disappeared. Tamaulipas was the state with
the most missing or disappeared persons at 5,657, followed by Mexico State at 3,754 and Jalisco with 2,754.
Men represented 74 percent of those disappeared, according to the database.
As of August the deputy attorney general for human
rights was investigating 943 cases of disappeared persons. The federal Specialized Prosecutor’s Office for
the Search of Missing Persons had opened cases for 747
victims; the Unit for the Investigation of Crimes against
Migrants had opened cases for 143 victims; the Iguala
Case Investigation Office had opened cases for 43 victims; and the special prosecutor for violence against
women and trafficking in persons had opened cases for
10 victims.
At the state level, in March, Jalisco state authorities announced the creation of the specialized attorney general’s office for disappeared persons. As of May 31, the
Jalisco Amber Alert system for missing minors had been
used 964 times (since its inception in 2013). As of May
31, a separate Jalisco Alba Alert system to report the
disappearance of a woman or girl had been employed
more than 1,200 times since its inception in April 2016.
In June the state government of Chihuahua announced
the creation of a specialized attorney general’s office for

550

grave human rights violations, including enforced disappearances. According to a local NGO, the Center for
Women’s Human Rights (CEDEHM), Chihuahua was
one of the states with the highest numbers of enforced
disappearances, with more than 1,870 victims as of May
2016. During the year the state also signed a memorandum of understanding with a group of independent
forensics experts from Argentina to analyze human remains found in the municipalities of Cuauhtemoc, Carichi,
and Cusihuiriachi and to gather DNA.
The Coahuila governor’s office and state attorney general’s office formed a joint working group early in the
year to improve the state’s unit for disappearances, collaborating with the local NGO Fray Juan de Larios to
build the first registry of disappeared persons in Coahuila. The governor met monthly with families of the
disappeared. Coahuila state prosecutors continued to
investigate forced disappearances between 2009 and
2012 by the Zetas transnational criminal organization.
These disappearances, carried out in collusion with
some state officials and municipal police, occurred in the
border towns of Piedras Negras, Allende, and Nava.
State prosecutors executed 18 arrest warrants in the Allende massacre, including 10 for former police officials.
Separately, they issued 19 arrest warrants for officials
from the Piedras Negras state prison accused of allowing a transnational criminal organization to use the
prison as a base to kill and incinerate victims.
Local human rights NGOs criticized the state’s response, saying most of those arrested were set free by
courts after the state erred by filing kidnapping charges
against the accused rather than charges of forced disappearance. A coalition of Coahuila-based human rights

551

NGOs, many of them backed by the Roman Catholic diocese of Saltillo, filed a communique with the International Criminal Court in the Hague stating that statelevel government collusion with transnational criminal
organizations had resulted in massive loss of civilian life
between 2009 and 2012, during the administration of
then governor Humberto Moreira. They further stated
that between 2012 and 2016, during the administration
of then governor Ruben Moreira (brother of Humberto),
state security authorities committed crimes against humanity in their fight against the Zetas, including unjust
detention and torture. In July the state government
disputed these findings and produced evidence of its investigations into these matters.
In a study of forced disappearances in Nuevo Leon released in June, researchers from the Latin American
Faculty of Social Science’s Observatory on Disappearance and Impunity, the University of Minnesota, and
Oxford University found that the 548 documented forced
disappearances in the state between 2005 and 2015 were
almost equally divided between those ordered by state
agents (47 percent) and those ordered by criminal organizations (46 percent). Of the state agents alleged to
be behind these disappearances, 35 were federal or military officials, 30 were state-level officials, and 65 were
municipal officials. The study relied primarily on interviews with incarcerated gang members and family
members of disappeared persons.
In May the Veracruz state government established an
online database of disappearances, documenting 2,500
victims, and began a campaign to gather samples for a
DNA database to assist in identification.

552

In 2016 the Inter-American Commission on Human
Rights (IACHR) launched the follow-up mechanism
agreed to by the government, the IACHR, and the families of the 43 students who disappeared in Iguala, Guerrero, in 2014. The government provided funding for
the mechanism to continue the work of the group of independent experts (GIEI) that supported the investigation of the disappearances and assisted the families of
the victims during their 2015-16 term. At the end of the
GIEI mandate in April 2016, the experts released a final
report critical of the government’s handling of the case.
The federal government reported it had complied with
923 of the experts’ 973 recommendations. In December the government extended the GIEI mandate for an
additional year.
According to information provided by the Attorney General’s Office in August, authorities had indicted 168 individuals and arrested 128, including 73 police officers
from the towns of Cocula and Iguala, and 55 alleged
members of the Guerrero-based drug trafficking organization Guerreros Unidos connected to the Iguala case.
Authorities held many of those arrested on charges related to organized crime rather than on charges related
to the disappearance of the students, according to the
GIEI. In 2016 authorities arrested the former police
chief of Iguala, Felipe Flores, who had been in hiding
since the 2014 disappearances. A 2016 CNDH report
implicated federal and local police officers from nearby
Huitzuco in the killings. Representatives from the Attorney General’s Office, Foreign Ministry, and Interior
Ministry met regularly with the families of the victims
to update them on progress being made in the case.

553

Both federal and state authorities reported they continued to investigate the case, including the whereabouts
of the missing students or their remains.
In April the Follow-Up Mechanism expressed its “concern about the slow pace in the search activities and in
the effective clarification of the various lines of investigation indicated by the GIEI.” The commission also
noted, “Not a single person has been prosecuted in this
case for the crime of forced disappearance, and no new
charges have been filed since December 2015.” The
commission noted progress in “the administrative steps
taken to contract the Light Detection and Ranging (LIDAR) surveying technology to be used in the search for
the students, the progress made in the investigation of
telephone communications, and the establishment of a
timeline for taking statements from those arrested and
other individuals. It also values the progress made in
the investigations into possible involvement of police officers from Huitzuco.” In July the IACHR Office of
the Special Rapporteur for Freedom of Expression expressed concern regarding alleged spying that targeted
“at least one member of the GIEI” along with human
rights defenders and journalists.
c. Torture and Other Cruel, Inhuman, or Degrading
Treatment or Punishment

The law prohibits torture and other cruel, inhuman, or
degrading treatment or punishment, and confessions
obtained through illicit means are not admissible as evidence in court. Despite these prohibitions, there were
reports of torture and other illegal punishments.
As of November 30, the CNDH registered 85 complaints
of torture. NGOs stated that in some cases the CNDH

554

misclassified torture as inhuman or degrading treatment.
Fewer than 1 percent of federal torture investigations
resulted in prosecution and conviction, according to government data. The Attorney General’s Office conducted
13,850 torture investigations between 2006 and 2016,
and authorities reported 31 federal convictions for torture during that period. Congress approved and the
president signed the General Law to Prevent, Investigate, and Punish Torture and Other Cruel, Inhuman, or
Degrading Treatment or Punishment that entered into
force on June 26. Human rights groups and the OHCHR
commended the law, which establishes an “absolute prohibition” on the use of torture “in any circumstance,” assigns command responsibility, sets a sentence of up to
20 years’ imprisonment for convicted government officials and of up to 12 years’ imprisonment for convicted
nonofficials, stipulates measures to prevent obstruction
of internal investigations, and envisions a national mechanism to prevent torture and a national registry maintained by the Office of the Attorney General.
The law also eliminates the requirement that formal
criminal charges be filed before a complaint of torture
may be entered in the national registry, adds higher
penalties for conviction of torturing “vulnerable” classes
of victims (women and persons with disabilities), permits federal investigation of state cases of torture when
an international body has ruled on the case or if the victim so requests, and eliminates requirements that previously prevented judges from ordering investigations
into torture.
In 2015 the Attorney General’s Office created the Detainee Consultation System website to allow the public

555

to track the status of detainees in the federal penitentiary system, including their physical location, in real
time. The office collaborated with all 32 states on implementation of the system at the state and federal level,
and the site was visited on average 476 times a day.
The states that were farthest along in implementing the
system were Campeche, Mexico City, Coahuila, Mexico
State, Jalisco, Nuevo Leon, Michoacan, Puebla, Queretaro,
and Tlaxcala.
On March 30, the Quintana Roo attorney general’s office
apologized to Hector Casique, who was tortured and
wrongly convicted of multiple counts of homicide in 2013
during a previous state administration. In September
2016 Casique was released from prison. On June 9, he
was killed by unknown assailants.
On August 22, a state judge acquitted and ordered the
release of Maria del Sol Vazquez Reyes after nearly five
years of imprisonment for conviction of crimes that the
court found she was forced to confess under torture by
the former investigation agency of the Veracruz state
police. The officers who tortured her had not been
charged by year’s end.
In May in Chihuahua, prosecutor Miguel Angel Luna
Lopez was suspended after a video from 2012 became
public that showed him interrogating two suspects with
bandaged faces. Luna was reinstated as a police agent
while the investigation continued. Also in Chihuahua,
in January a former municipal police officer, Erick Hernandez Mendoza, was formally charged with torturing a
housekeeper who was suspected of stealing from her
employer. Two other police officers who allegedly took
part in her torture were not charged.

556
Prison and Detention Center Conditions

Conditions in prisons and detention centers could be
harsh and life threatening due to corruption; overcrowding; abuse; inmate violence; alcohol and drug addiction;
inadequate health care, sanitation, and food; comingling
of pretrial and convicted persons; and lack of security
and control.
Physical Conditions: According to a CNDH report,
state detention centers suffered from “uncontrolled selfgovernment in aspects such as security and access to
basic services, violence among inmates, lack of medical
attention, a lack of opportunities for social reintegration, a lack of differentiated attention for groups of special concern, abuse by prison staff, and a lack of effective
grievance mechanisms.” Some of the most overcrowded
prisons were plagued by riots, revenge killings, and jailbreaks. Criminal gangs often held de facto control inside prisons.
Health and sanitary conditions were often poor, and
most prisons did not offer psychiatric care. Some prisons were staffed with poorly trained, underpaid, and
corrupt correctional officers, and authorities occasionally placed prisoners in solitary confinement indefinitely.
Authorities held pretrial detainees together with convicted criminals. The CNDH noted the lack of access
to adequate health care was a significant problem. Food
quality and quantity, heating, ventilation, and lighting
varied by facility, with internationally accredited prisons generally having the highest standards.
A CNDH report in June noted many of the prisons, particularly state-run correctional facilities, were unsafe,
overcrowded, and understaffed. It surveyed conditions

557

at more than 190 state, local, and federal facilities and
found inmates often controlled some areas of prisons or
had contraband inside. The report cited insufficient
staff, unsafe procedures, and poor medical care at many
facilities. Inmates staged mass escapes, battled each
other, and engaged in shootouts using guns that police
and guards smuggled into prison. A report released in
March by the National Security Commission stated that
150 federal and state prisons were overcrowded and exceeded capacity by 17,575 prisoners.
On July 31, INEGI released its first National Survey on
Population Deprived of Freedom 2016, based on a survey of 211,000 inmates in the country’s 338 state and federal penitentiaries. The survey revealed that 87 percent of prison inmates reported bribing guards for items
such as food, making telephone calls, or obtaining a
blanket or mattress. Another survey of 64,000 prisoners revealed that 36 percent reported paying bribes to
other inmates, who often controlled parts of penitentiaries.
Fifty percent of prisoners said they paid
bribes to be allowed to have appliances in their cells, and
26 percent said they paid bribes to be allowed to have
electronic communications devices, including cell phones,
which were banned in many prisons.
The CNDH reported conditions for female prisoners
were inferior to those for men, due to a lack of appropriate living facilities and specialized medical care. The
CNDH found several reports of sexual abuse of inmates
in the State of Mexico’s Nezahualcoyotl Bordo de Xochiaca Detention Center. Cases of sexual exploitation
of inmates were also reported in Mexico City and the
states of Chihuahua, Coahuila, Guerrero, Nayarit, Nuevo

558

Leon, Oaxaca, Puebla, Quintana Roo, Sinaloa, Sonora,
Tamaulipas, and Veracruz.
The CNDH reported 86 homicides and 26 suicides in
state and district prisons in 2016. Fourteen states did
not report information regarding homicides and suicides
to the CNDH. The CNDH noted in its 2016 report on
prisons that in general prisons were not prepared to
prevent or address violent situations such as suicides,
homicides, fights, injuries, riots, and jailbreaks.
The state government in Tamaulipas struggled to regain
control of its prisons after decades of ceding authority
to prison gangs, according to media and NGO reports.
Criminal organizations constantly battled for control of
prisons, and numerous riots claimed more than a dozen
prisoners’ lives, including three foreign prisoners in the
past year (two in Nuevo Laredo, one in Ciudad Victoria).
On April 18, an inspection at the prison in Ciudad Victoria uncovered four handguns, two AK-47s, one hand grenade, and 108 knives. On June 6, a riot at the same facility claimed the lives of three state police officers and
four inmates. On July 31, the official in charge of the
prisons in Tamaulipas, Felipe Javier Tellez Ramirez,
was killed in Ciudad Victoria reportedly in retaliation
for challenging the criminal gangs in the state’s prison
system.
Prisoner outbreaks or escape attempts also plagued Tamaulipas’ prisons. On March 22, 29 prisoners escaped
through a tunnel from a prison in Ciudad Victoria, Tamaulipas. On June 19, eight inmates escaped from the
youth detention center in Guemez. On August 10, nine
inmates were killed and 11 injured in an inmate fight at
a prison in Reynosa where a tunnel had previously been
discovered. Guards fired live ammunition to control

559

the situation, which occurred during family visiting
hours.
In June, 28 inmates were killed by their rivals at a prison
in Acapulco. Three prison guards were arrested for
having allowed the attackers to exit their cells to kill
their rivals.
On October 9, a riot at Nuevo Leon’s Cadereyta state
prison was initially contained but flared up again the
next day as inmates set fires. Press reports indicated
one prisoner died in the fires. After three prison guards
were taken hostage, state police were sent into the prison
to control the situation. Official sources reported that at
least 16 inmates died during the riot, some because of
police action to reclaim control of the prison. This was
the fifth lethal riot at a Nuevo Leon prison since 2016.
Civil society groups reported abuses of migrants in some
migrant detention centers. Human rights groups reported many times asylum seekers from the Northern
Triangle of Central America held in detention and migrant transitory centers were subject to abuse when
comingled with other migrants such as MS-13 gang members from the region. In addition migration officials
reportedly discouraged persons potentially needing international assistance from applying for asylum, claiming their applications were unlikely to be approved.
These conditions resulted in many potential asylum
seekers and persons in need of international protection
abandoning their claims (see also section 2.d.).
Administration: While prisoners and detainees could
file complaints regarding human rights violations, ac-

560

cess to justice was inconsistent, and authorities generally did not release the results of investigations to the
public.
Independent Monitoring: The government permitted
independent monitoring of prison conditions by the International Committee of the Red Cross, the CNDH,
and state human rights commissions. Independent
monitors were generally limited to making recommendations to authorities to improve conditions of confinement.
Improvements: State facilities continued to seek international accreditation from the American Correctional Association, which requires demonstrated compliance with a variety of international standards. As of
August 20, an additional 12 correctional facilities achieved
accreditation, raising the total number of state and federal accredited facilities to 70.
d.

Arbitrary Arrest or Detention

The law prohibits arbitrary arrest and detention and provides for the right of any person to challenge the lawfulness of his/her arrest or detention in court, but the government sometimes failed to observe these requirements.
Role of the Police and Security Apparatus

The federal police, as well as state and municipal police,
have primary responsibility for law enforcement and the
maintenance of order. The federal police are under the
authority of the interior secretary and the National Security Commission, state police are under the authority
of the state governors, and municipal police are under
the authority of local mayors. SEDENA and SEMAR

561

also play a role in domestic security, particularly in combatting organized criminal groups. Article 89 of the
constitution grants the president the authority to use
the armed forces for the protection of internal and national security, and the courts have upheld the legality
of the armed forces’ role in undertaking these activities
in support of civilian authorities. The National Migration Institute (INM), under the authority of the Interior
Ministry, is responsible for enforcing migration laws
and protecting migrants.
On December 21, the president signed the Law on Internal Security, which provides a more explicit legal
framework for the role the military had been playing for
many years in public security. The law authorizes the
president to deploy the military to the states at the request of civilian authorities to assist in policing. The
law subordinates civilian law enforcement operations to
military authority in some instances and allows the president to extend deployments indefinitely in cases of
“grave danger.” Upon signing the law, President Pena
Nieto publicly affirmed he would not seek to implement
it until the Supreme Court had the opportunity the review any constitutional challenges to the new law. At
years end, no challenges had been submitted to the Supreme Court. The law passed despite the objections of
the CNDH, the Catholic archdiocese, some civil society
organizations, the IACHR, and various UN bodies and
officials, including the UN High Commissioner for Human Rights, who argued that it could further militarize
citizen security and exacerbate human rights abuses.
The government argued the law would in fact serve to
limit the military’s role in law enforcement by establishing command structures and criteria for deployments.
Military officials had long sought to strengthen the legal

562

framework for the domestic operations they have been
ordered by civilian authorities to undertake. Proponents of the law also argued that since many civilian police organizations were unable to cope with public security challenges unaided, the law merely clarified and
strengthened the legal framework for what was a practical necessity. Many commentators on both sides of
the argument regarding the law contended that the country still had not built civilian law enforcement institutions capable of ensuring citizen security.
The law requires military institutions to transfer all cases
involving civilian victims, including human rights cases,
to civilian prosecutors to pursue in civilian courts.
There are exceptions, as when both the victim and perpetrator are members of the military, in which case the
matter is dealt with by the military justice system.
SEDENA, SEMAR, the federal police, and the Attorney
General’s Office have security protocols for the transfer
of detainees, chain of custody, and use of force. The
protocols, designed to reduce the time arrestees remain
in military custody, outline specific procedures for handling detainees.
As of August the Attorney General’s Office was investigating 138 cases involving SEDENA or SEMAR officials suspected of abuse of authority, torture, homicide,
and arbitrary detention. Military tribunals have no jurisdiction over cases with civilian victims, which are the
exclusive jurisdiction of civilian courts.
Although civilian authorities maintained effective control over security forces and police, impunity, especially
for human rights abuses, remained a serious problem.
The frequency of prosecution for human rights abuse
was extremely low.

563

Military officials withheld evidence from civilian authorities in some cases. Parallel investigations by military
and civilian officials of human rights violations complicated prosecutions due to loopholes in a 2014 law that
granted civilian authorities jurisdiction to investigate violations committed by security forces. Of 505 criminal
proceedings conducted between 2012 and 2016, the Attorney General’s Office won only 16 convictions, according to a November report by the Washington Office on
Latin America citing official figures, which also indicated that human rights violations had increased in tandem with the militarization of internal security. The
Ministry of Foreign Relations acknowledged the report,
stated that the problems stemmed from the conflict with
drug-trafficking organizations, as well as the proliferation of illegal weapons, and emphasized that the military’s role in internal security was only a temporary
measure.
On November 16, women of the Atenco case testified before the Inter-American Court of Human Rights and
called for the court to conduct an investigation into the
case. The 2006 San Salvador Atenco confrontation between local vendors and state and federal police agents
in Mexico State resulted in two individuals being killed
and more than 47 women taken into custody, with many
allegedly sexually tortured by police officials. In 2009
an appeals court reversed the sole conviction of a defendant in the case.
SEDENA’s General Directorate for Human Rights investigates military personnel for violations of human
rights identified by the CNDH and is responsible for
promoting a culture of respect for human rights within
the institution. The directorate, however, has no power

564

to prosecute allegations of rights violations or to take
independent judicial action.
Arrest Procedures and Treatment of Detainees

The constitution allows any person to arrest another if
the crime is committed in his or her presence. A warrant for arrest is not required if an official has direct evidence regarding a person’s involvement in a crime, such
as having witnessed the commission of a crime. This
arrest authority, however, is only applicable in cases involving serious crimes in which there is risk of flight.
Bail is available for most crimes, except for those involving organized crime and a limited number of other offenses. In most cases the law provides for detainees to
appear before a judge for a custody hearing within 48
hours of arrest during which authorities must produce
sufficient evidence to justify continued detention, but
this requirement was not followed in all cases, particularly in remote areas of the country. In cases involving
organized crime, the law allows authorities to hold suspects for up to 96 hours before they must seek judicial
review.
The procedure known in Spanish as “arraigo” (a constitutionally permitted form of detention, employed during
the investigative phase of a criminal case before probable cause is fully established) allows, with a judge’s approval, for certain suspects to be detained for up to 80
days prior to the filing of formal charges. Under the
new accusatory system, arraigo has largely been abandoned.
Some detainees complained of a lack of access to family
members and to counsel after police held persons incommunicado for several days and made arrests arbitrarily

565

without a warrant. Police occasionally failed to provide
impoverished detainees access to counsel during arrest
and investigation as provided for by law, although the
right to public defense during trial was generally respected. Authorities held some detainees under house
arrest.
Arbitrary Arrest: Allegations of arbitrary detentions
persisted throughout the year. The IACHR, the UN
Working Group on Arbitrary Detention, and NGOs expressed concerns regarding arbitrary detention and the
potential for arbitrary detention to lead to other human
rights abuses.
A July report by Amnesty International reported widespread use of arbitrary detention by security forces.
Pretrial Detention: Lengthy pretrial detention was a
problem, although NGOs such as the Institute for Economics and Peace credited the transition to the accusatory justice system (completed in 2016) with reducing
its prevalence. A 2015 IACHR report showed that 42
percent of individuals detained were in pretrial detention. The law provides time limits on pretrial detention, but authorities sometimes failed to comply with
them, since caseloads far exceeded the capacity of the
federal judicial system. Violations of time limits on pretrial detention were also endemic in state judicial systems.
Detainee’s Ability to Challenge Lawfulness of Detention
before a Court: Persons who are arrested or detained,
whether on criminal or other grounds, may challenge
their detention through a writ of habeas corpus. The
defense may argue, among other things, that the ac-

566

cused did not receive proper due process, suffered a human rights abuse, or had his or her basic constitutional
rights violated. By law individuals should be promptly
released and compensated if their detention is found to
be unlawful, but authorities did not always promptly release those unlawfully detained. In addition, under the
criminal justice system, defendants apprehended during
the commission of the crime may challenge the lawfulness of their detention during their court hearing.
e.

Denial of Fair Public Trial

Although the constitution and law provide for an independent judiciary, court decisions were susceptible to
improper influence by both private and public entities,
particularly at the state and local level, as well as by
transnational criminal organizations. Authorities sometimes failed to respect court orders, and arrest warrants
were sometimes ignored. Across the criminal justice
system, many actors lacked the necessary training and
resources to carry out their duties fairly and consistently in line with the principle of equal justice.
Trial Procedures

In 2016 all civilian and military courts officially transitioned from an inquisitorial legal system based primarily upon judicial review of written documents to an accusatory trial system reliant upon oral testimony presented in open court. In some states alternative justice
centers employed mechanisms such as mediation, negotiation, and restorative justice to resolve minor offenses
outside the court system.
Under the accusatory system, all hearings and trials are
conducted by a judge and follow the principles of public
access and cross-examination. Defendants have the

567

right to a presumption of innocence and to a fair and
public trial without undue delay. Defendants have the
right to attend the hearings and to challenge the evidence or testimony presented. Defendants may not be
compelled to testify or confess guilt. The law also provides for the rights of appeal and of bail in many categories of crimes. The law provides defendants with the
right to an attorney of their choice at all stages of criminal proceedings. By law attorneys are required to
meet professional qualifications to represent a defendant. Not all public defenders were qualified, however,
and often the state public defender system was understaffed and underfunded. Administration of public defender services was the responsibility of either the judicial or executive branch, depending on the jurisdiction.
According to the Center for Economic Research and
Economic Teaching, most criminal suspects did not receive representation until after their first custody hearing, thus making individuals vulnerable to coercion to
sign false statements prior to appearing before a judge.
Defendants have the right to free assistance of an interpreter if needed, although interpretation and translation services into indigenous languages at all stages of
the criminal process were not always available. Indigenous defendants who did not speak Spanish sometimes
were unaware of the status of their cases and were convicted without fully understanding the documents they
were instructed to sign.
The lack of federal rules of evidence caused confusion
and led to disparate judicial rulings.

568
Political Prisoners and Detainees

There were no reports of political prisoners or detainees.
Civil Judicial Procedures and Remedies

Citizens have access to an independent judiciary in civil
matters to seek civil remedies for human rights violations. For a plaintiff to secure damages against a defendant, authorities first must find the defendant guilty
in a criminal case, a significant barrier in view of the relatively low number of convictions for civil rights offenses.
f. Arbitrary or Unlawful Interference with Privacy,
Family, Home, or Correspondence

The law prohibits such practices and requires search warrants. There were some complaints of illegal searches
or illegal destruction of private property.
Section 2.
a.

Respect for Civil Liberties, Including:

Freedom of Expression, Including for the Press

The law provides for freedom of expression, including
for the press, and the government generally respected
this right. Most newspapers, television, and radio stations had private ownership. The government had minimal presence in the ownership of news media but remained the main source of advertising revenue, which at
times influenced coverage. Media monopolies, especially in small markets, could constrain freedom of expression.
Violence and Harassment: Journalists were subject to
physical attacks, harassment, and intimidation (espe-

569

cially by state agents and transnational criminal organizations) due to their reporting. This created a chilling
effect that limited media’s ability to investigate and report, since many of the reporters who were killed covered crime, corruption, and local politics. During the
year more journalists were killed because of their reporting than in any previous year. The OHCHR recorded 15 killings of reporters, and Reporters Without
Borders identified evidence that the killing of at least 11
reporters was directly tied to their work.
Perpetrators of violence against journalists acted with
impunity, which fueled further attacks. According to
Article 19, a press freedom NGO, the impunity rate for
crimes against journalists was 99.7 percent. The 276
attacks against journalists in the first six months of the
year represented a 23 percent increase from the same
period in 2016. Since its creation in 2010, the Office of
the Special Prosecutor for Crimes Against Journalists
(FEADLE), a unit of the Attorney General’s Office, won
only two convictions in more than 800 cases it pursued.
During the year there was only one conviction for the
murder of a journalist at the local level. In February a
court in Oaxaca convicted and sentenced a former police
officer to 30 years’ imprisonment for the 2016 murder of
journalist Marcos Hernandez Bautista. The OHCHR
office in Mexico publicly condemned the failure to prosecute crimes against journalists.
Government officials believed organized crime to be behind most of these attacks, but NGOs asserted there
were instances when local government authorities participated in or condoned the acts. An April report by Article 19 noted 53 percent of cases of aggression against
journalists in 2016 originated with public officials.

570

Although 75 percent of those came from state or local
officials, federal officials and members of the armed
forces were also suspected of being behind attacks.
In April the government of Quintana Roo offered a public apology to journalist Pedro Canche, who was falsely
accused by state authorities of sabotage and detained
for nine months in prison.
According to Article 19, 11 journalists were killed between January 1 and October 15. For example, on March
23, Miroslava Breach, correspondent for the daily newspapers La Jornada and El Norte de Chihuahua, was
shot eight times and killed as she was preparing to take
her son to school in Chihuahua City. Many of her publications focused on political corruption, human rights
abuses, attacks against indigenous communities, and organized crime. According to the Committee to Protect
Journalists (CPJ), she was the only national correspondent to cover the troubled Sierra Tarahumara indigenous
region. On December 25, federal police made an arrest
in the case of an individual linked to a branch of the Sinaloa cartel who they stated was the mastermind of the
crime. Breach’s family told La Jornada newspaper
they did not believe the suspect in custody was behind
the killing, which they attributed to local politicians who
had previously threatened the reporter.
On May 15, Javier Valdez, founder of Riodoce newspaper in Sinaloa, winner of a 2011 CPJ prize for heroic
journalism and outspoken defender of press freedom,
was shot and killed near his office in Culiacan, Sinaloa.
During the first six months of the year, the National
Mechanism to Protect Human Rights Defenders and

571

Journalists received 214 requests for protection, an increase of 143 percent from 2016. Since its creation in
2012 through July, the mechanism accepted 589 requests for protection. On August 22, a journalist under
the protection of the mechanism, Candido Rios, was shot
and killed in the state of Veracruz. Following the wave
of killings in early May, the president replaced the special prosecutor for crimes against freedom of expression
at the Attorney General’s Office and held a televised
meeting with state governors and attorneys general to
call for action in cases of violence against journalists.
NGOs welcomed the move but expressed concern regarding shortcomings, including the lack of an official
protocol to handle journalist killings despite the appointment of the special prosecutor. NGOs maintained
that the special prosecutor had not used his office’s authorities to take charge of cases in which state prosecutors had not produced results.
Censorship or Content Restrictions: Human rights
groups reported state and local governments in some
parts of the country worked to censor the media and
threaten journalists. In June the New York Times
newspaper reported 10 Mexican journalists and human
rights defenders were targets of an attempt to infiltrate
their smartphones through an Israeli spyware program
called Pegasus that was sold only to governments, citing
a forensic investigation by Citizen Lab at the University
of Toronto. Officials at the Attorney General’s Office
acknowledged purchasing Pegasus but claimed to have
used it only to monitor criminals.
Journalists reported altering their coverage in response
to a lack of protection from the government, attacks
against members of the media and newsrooms, false

572

charges of “publishing undesirable news,” and threats
or retributions against their families, among other reasons. There were reports of journalists practicing selfcensorship because of threats from criminal groups and
of government officials seeking to influence or pressure
the press, especially in the states of Tamaulipas and Sinaloa.
Libel/Slander Laws: There are no federal laws against
defamation, libel, or slander, but local laws remain in
eight states. Five states have laws that restrict the use
of political caricatures or “memes.” These laws were
seldom applied.
Nongovernmental Impact: Organized criminal groups
exercised a grave and increasing influence over media
outlets and reporters, threatening individuals who published critical views of crime groups. Concerns persisted regarding the use of physical violence by organized
criminal groups in retaliation for information posted online,
which exposed journalists, bloggers, and social media
users to the same level of violence faced by traditional
journalists.
Internet Freedom

The government did not restrict or disrupt access to the
internet or block or filter online content. Freedom
House’s 2016 Freedom on the Net report categorized the
country’s internet as partly free, noting an increase in
government requests to social media companies to remove content.
Some civil society organizations alleged that various
state and federal agencies sought to monitor private
online communications. NGOs alleged that provisions

573

in secondary laws threatened the privacy of internet users by forcing telecommunication companies to retain
data for two years, providing real-time geolocation data
to police, and allowing authorities to obtain metadata
from private communications companies without a court
order. Furthermore, the law does not fully define the
“appropriate authority” to carry out such actions. Despite civil society pressure to nullify the government’s
data retention requirements and real-time geolocation
provisions passed in 2014, the Supreme Court upheld
those mechanisms. The court, however, noted the need
for authorities to obtain a judicial warrant to access users’ metadata.
In June the government stated it was opening a criminal
investigation to determine whether prominent journalists, human rights defenders, and anticorruption activists were subjected to illegal surveillance via sophisticated surveillance malware.
INEGI estimated 59 percent of citizens over age five
had access to the internet.
Academic Freedom and Cultural Events

There were no government restrictions on academic
freedom or cultural events.
b.

Freedoms of Peaceful Assembly and Association

The law provides for the freedoms of peaceful assembly
and association, and the government generally respected these rights. There were some reports of security
forces using excessive force against demonstrators.
Twelve states have laws that restrict public demonstrations.

574
c.

Freedom of Religion

See the Department of State’s International Religious
Freedom Report at www.state.gov/religiousfreedom
report/.
d.

Freedom of Movement

The law provides for freedom of internal movement, foreign travel, emigration, and repatriation, and the government generally respected these rights.
The government cooperated with the Office of the UN
High Commissioner for Refugees (UNHCR) and other
humanitarian organizations in providing protection and
assistance to refugees, returning refugees, asylum seekers, stateless persons, or other persons of concern.
The government and press reports noted a marked increase in refugee and asylum applications during the
previous year. UNHCR projected the National Refugee Commission (COMAR) would receive 20,000 asylum
claims by the end of the year, compared with 8,788 in
2016. COMAR projected lower numbers, noting that
as of June 30, it had received 6,816 petitions.
At the Iztapalapa detention center near Mexico City, the
Twenty-First Century detention center in Chiapas, and
other detention facilities, men were kept separate from
women and children, and there were special living quarters for lesbian, gay, bisexual, transgender, and intersex
(LGBTI) individuals. Migrants had access to medical,
psychological, and dental services, and the Iztapalapa
center had agreements with local hospitals to care for
any urgent cases free of charge. Individuals from countries with consular representation also had access to consular services. COMAR and CNDH representatives visited daily, and other established civil society groups

575

were able to visit the detention facilities on specific days
and hours. Victims of trafficking and other crimes
were housed in specially designated shelters. Human
rights pamphlets were available in many different languages. In addition approximately 35 centers cooperated with UNHCR and allowed it to put up posters and
provide other information on how to access asylum for
those in need of international protection.
Abuse of Migrants, Refugees, and Stateless Persons:
The press and NGOs reported victimization of migrants
by criminal groups and in some cases by police and immigration officers and customs officials. Government
and civil society sources reported Central American gang
presence spread farther into the country and threatened
migrants who had fled the same gangs in their home
countries. An August report by the independent INM
Citizens’ Council found incidents in which immigration
agents had been known to threaten and abuse migrants
to force them to accept voluntary deportation and discourage them from seeking asylum. The council team
visited 17 detention centers across the country and reported threats, violence, and excessive force against undocumented migrants. The INM responded to these
allegations by asserting it treated all migrants with “absolute respect.”
There were media reports that criminal groups kidnapped undocumented migrants to extort money from
migrants’ relatives or force them into committing criminal acts on their behalf.
In March the federal government began operating the
Crimes Investigation Unit for Migrants and the Foreign
Support Mechanism of Search and Investigation. The
International Organization for Migration collaborated

576

with municipal governments to establish offices along
the border with Guatemala to track and assist migrants.
In-country Movement:
There were numerous instances of armed groups limiting the movements of migrants, including by kidnappings and homicides.
Internally Displaced Persons (IDPs)

The Internal Displacement Monitoring Center estimated that as of 2016, there were at least 311,000 IDPs
who had fled their homes and communities in response
to criminal, political, and religiously motivated violence
as well as natural disasters. In 2016 the CNDH released a report stating 35,433 IDPs were displaced due
to drug trafficking violence, interreligious conflicts, and
land disputes. At approximately 20,000, Tamaulipas
reportedly had the highest number of IDPs followed
by 2,165 in Guerrero and 2,008 in Chihuahua. NGOs
estimated hundreds of thousands of citizens, many fleeing areas of armed conflict among organized criminal
groups, or between the government and organized criminal groups, became internally displaced. The government, in conjunction with international organizations,
made efforts to promote the safe, voluntary return, resettlement, or local integration of IDPs.
Protection of Refugees

Access to Asylum: The law provides for the granting of
asylum or refugee status and complementary protection, and the government has an established procedure
for determining refugee status and providing protection
to refugees. As of August COMAR had received 8,703
petitions, of which 1,007 had been accepted for review,
1,433 were marked as abandoned, 1,084 were not accepted as meeting the criteria, and 385 were accepted

577

for protection. According to NGOs, only one—third of
applicants was approved and the remaining two-thirds
classified as economic migrants not meeting the legal requirements for asylum; applicants abandoned some petitions. NGOs reported bribes sometimes influenced
the adjudication of asylum petitions and requests for
transit visas.
The government worked with UNHCR to improve access to asylum and the asylum procedure, reception conditions for vulnerable migrants and asylum seekers, and
integration (access to school and work) for those approved for refugee and complementary protection status. UNHCR also doubled the capacity of COMAR by
funding an additional 36 staff positions.
Section 3.
cess

Freedom to Participate in the Political Pro-

The law provides citizens the ability to choose their government through free and fair periodic elections held by
secret ballot and based on universal and equal suffrage.
Elections and Political Participation

Recent Elections: Observers considered the June gubernatorial races in three states; local races in six states;
and the 2016 gubernatorial, 2015 legislative, and 2012
presidential elections to be free and fair.
Participation of Women and Minorities: No laws limit
participation of women or members of minorities in the
political process, and they did participate. The law
provides for the right of indigenous persons to elect representatives to local office according to “uses and customs” law rather than federal and state electoral law.

578
Section 4.
ernment

Corruption and Lack of Transparency in Gov-

The law provides criminal penalties for conviction of official corruption, but the government did not enforce the
law effectively. There were numerous reports of government corruption during the year. Corruption at the
most basic level involved paying bribes for routine services or in lieu of fines to administrative officials or security forces. More sophisticated and less apparent
forms of corruption included funneling funds to elected
officials and political parties by overpaying for goods
and services.
Although by law elected officials enjoy immunity from
prosecution while holding public office, state and federal
legislatures have the authority to waive an official’s immunity. As of August more than one-half of the 32
states followed this legal procedure to strip immunity,
and almost all other states were taking similar steps.
By law all applicants for federal law enforcement jobs
(and other sensitive positions) must pass an initial vetting process and be recleared every two years. According to the Interior Ministry and the National Center of Certification and Accreditation, most active police
officers at the national, state, and municipal levels underwent at least initial vetting. The press and NGOs
reported that some police officers who failed vetting remained on duty. The CNDH reported that some police
officers, particularly at the state and local level, were involved in kidnapping, extortion, and providing protection for, or acting directly on behalf of, organized crime
and drug traffickers.

579

On July 19, the National Anticorruption System, signed
into law by the president in 2016, entered into force.
The law gives autonomy to federal administrative courts
to investigate and sanction administrative acts of corruption, establishes harsher penalties for government
officials convicted of corruption, provides the Superior
Audit Office (ASF) with real-time auditing authority,
and establishes an oversight commission with civil society participation. Observers hailed the legislation as a
major achievement in the fight against corruption but
criticized a provision that allows public servants an option not to declare their assets. A key feature of the system is the creation of an independent anticorruption
prosecutor and court. The Senate had yet to appoint
the special prosecutor at year’s end.
Corruption: In July the Attorney General’s Office took
custody of former governor of Veracruz Javier Duarte,
who had gone into hiding in Guatemala and was facing
corruption charges. The government was also seeking
the extradition from Panama of former governor of
Quintana Roo Roberto Borge and issued an arrest warrant for former governor of Chihuahua Cesar Duarte.
The ASF filed criminal charges with the Attorney General’s Office against 14 state governments for misappropriating billions of dollars in federal funds. The ASF
was also investigating several state governors, including
former governors of Sonora (Guillermo Padres) and
Nuevo Leon (Rodrigo Medina), both of whom faced
criminal charges for corruption. The Attorney General’s Office also opened an investigation against Nayarit Governor Sandoval for illicit enrichment as a result
of charges brought against him by a citizens group,
which also included some opposing political parties.

580

The NGO Mexicans Against Corruption and Impunity
and media outlet Animal Politico published a report accusing Attorney General Raul Cervantes of involvement
in fraud, revealing that he had registered a Ferrari vehicle valued at more than $200,000 to an unoccupied
house in an apparent effort to avoid taxes. Cervantes’
attorney attributed improper registration to administrative error. On October 16, Cervantes resigned, stating the reason for his resignation was to preserve the
political independence of the new prosecutor’s office
that was to replace the current Attorney General’s Office as part of a constitutional reform.
Financial Disclosure: In 2016 the Congress passed a
law requiring all federal and state-level appointed or
elected officials to provide income and asset disclosure,
statements of any potential conflicts of interests, and tax
returns, but the law includes a provision that allows officials an option to withhold the information from the
public. The Ministry of Public Administration monitors disclosures with support from each agency. Regulations require disclosures at the beginning and end
of employment, as well as annual updates. The law requires declarations be made publicly available unless an
official petitions for a waiver to keep his or her file private. Criminal or administrative sanctions apply for
abuses. In June the Supreme Court declined a petition
by opposition political parties to overturn the provision
for a privacy waiver.

581
Section 5. Governmental Attitude Regarding International and Nongovernmental Investigation of Alleged
Abuses of Human Rights

A variety of domestic and international human rights
groups generally operated without government restriction, investigating and publishing their findings on human rights cases. Government officials were mostly
cooperative and responsive to their views, and the president or cabinet officials met with human rights organizations such as the OHCHR, the IACHR, and the
CNDH. Some NGOs alleged that individuals who organized campaigns to discredit human rights defenders
sometimes acted with tacit support from officials in government.
Government Human Rights Bodies: The CNDH is a
semiautonomous federal agency created by the government and funded by the legislature to monitor and act
on human rights violations and abuses. It may call on
government authorities to impose administrative sanctions or pursue criminal charges against officials, but it
is not authorized to impose penalties or legal sanctions.
If the relevant authority accepts a CNDH recommendation, the CNDH is required to follow up with the authority to verify that it is carrying out the recommendation.
The CNDH sends a request to the authority asking for
evidence of its compliance and includes this follow-up information in its annual report. When authorities fail to
accept a recommendation, the CNDH makes that failure
known publicly and may exercise its power to call before
the Senate government authorities who refuse to accept
or enforce its recommendations.

582

All states have their own human rights commission.
The state commissions are funded by the state legislatures and are semiautonomous. The state commissions
did not have uniform reporting requirements, making it
difficult to compare state data and therefore to compile
nationwide statistics. The CNDH may take cases from
state-level commissions if it receives a complaint that
the commission has not adequately investigated.
Section 6. Discrimination, Societal Abuses, and Trafficking in Persons
Women

Rape and Domestic Violence: Federal law criminalizes
rape of men or women, including spousal rape, and conviction carries penalties of up to 20 years’ imprisonment.
Twenty-four states have laws criminalizing spousal
rape.
The federal penal code prohibits domestic violence and
stipulates penalties for conviction of between six months’
and four years’ imprisonment. Twenty-nine states
stipulate similar penalties, although in practice sentences were often more lenient. Federal law does not
criminalize spousal abuse. State and municipal laws
addressing domestic violence largely failed to meet the
required federal standards and often were unenforced.
According to the law, the crime of femicide is the murder
of a woman committed because of the victim’s gender
and is a federal offense punishable if convicted by 40 to
60 years in prison. It is also a criminal offense in all
states. The Special Prosecutor’s Office for Violence
against Women and Trafficking in Persons of the Attorney General’s Office is responsible for leading govern-

583

ment programs to combat domestic violence and prosecuting federal human trafficking cases involving three
or fewer suspects. The office had 12 federal prosecutors dedicated to federal cases of violence against
women.
In addition to shelters, there were women’s justice centers that provided more services than traditional shelters, including legal services and protection; however,
the number of cases far surpassed institutional capacity.
Sexual Harassment: Federal labor law prohibits sexual harassment and provides for fines from 250 to 5,000
times the minimum daily wage. Sixteen states criminalize sexual harassment, and all states have provisions
for punishment when the perpetrator is in a position of
power. According to the National Women’s Institute
(INMUJERES), the federal institution charged with directing national policy on equal opportunity for men and
women, sexual harassment in the workplace was a significant problem.
Coercion in Population Control: There were few reports of coerced abortion, involuntary sterilization, or
other coercive population control methods; however,
forced, coerced, and involuntary sterilizations were reported, targeting mothers with HIV. Estimates on maternal mortality and contraceptive prevalence are available at: www.who.int/reproductivehealth/publications/
monitoring/maternalmortality-2015/en/.
Discrimination: The law provides women the same legal status and rights as men and “equal pay for equal
work performed in equal jobs, hours of work, and conditions of efficiency.” Women tended to earn substantially less than men did. Women were more likely to

584

experience discrimination in wages, working hours, and
benefits.
Children

Birth Registration: Children derived citizenship both
by birth within the country’s territory and from one’s
parents. Citizens generally registered the births of
newborns with local authorities. Failure to register
births could result in the denial of public services such
as education or health care.
Child Abuse: There were numerous reports of child
abuse. The National Program for the Integral Protection of Children and Adolescents, mandated by law, is
responsible for coordinating the protection of children’s
rights at all levels of government.
Early and Forced Marriage: The legal minimum marriage age is 18. Enforcement, however, was inconsistent across the states, where some civil codes permit
girls to marry at 14 and boys at 16 with parental consent.
With a judge’s consent, children may marry at younger
ages.
Sexual Exploitation of Children: The law prohibits the
commercial sexual exploitation of children, and authorities generally enforced the law. Nonetheless, NGOs
reported sexual exploitation of minors, as well as child
sex tourism in resort towns and northern border areas.
Statutory rape constitutes a crime in the federal criminal code. If an adult is convicted of having sexual relations with a minor ages 15 to 18, the penalty is between
three months and four years in prison. Conviction of
the crime of sexual relations with a minor under age 15
carries a sentence of eight to 30 years’ imprisonment.

585

Laws against corruption of a minor and child pornography apply to victims under age 18. For conviction of
the crimes of selling, distributing, or promoting pornography to a minor, the law stipulates a prison term of six
months to five years and a fine of 300 to 500 times the
daily minimum wage. For conviction of crimes involving minors in acts of sexual exhibitionism or the production, facilitation, reproduction, distribution, sale, and
purchase of child pornography, the law mandates seven
to 12 years’ imprisonment and a fine of 800 to 2,500
times the daily minimum wage.
Perpetrators convicted of promoting, publicizing, or facilitating sexual tourism involving minors face seven to
12 years’ imprisonment and a fine of 800 to 2,000 times
the daily minimum wage. For those convicted of involvement in sexual tourism who commit sexual acts
with minors, the law requires a 12- to 16-year prison sentence and a fine of 2,000 to 3,000 times the daily minimum wage. Conviction of sexual exploitation of a minor carries an eight- to 15-year prison sentence and a
fine of 1,000 to 2,500 times the daily minimum wage.
Institutionalized Children: Civil society groups expressed concerns regarding abuses of children with
mental and physical disabilities in orphanages, migrant
centers, and care facilities.
International Child Abductions: The country is party
to the 1980 Hague Convention on the Civil Aspects of
International Child Abduction. See the Department of
State’s Annual Report on International Parental Child
Abduction at travel.state.gov/content/childabduction/en/
legal/compliance.html.

586
Anti-Semitism

The 67,000-person Jewish community experienced low
levels of anti-Semitism. While an Anti-Defamation
League report described an increase in anti-Semitic attitudes in the country from 24 percent of the population
in 2014 to 35 percent of the population in 2017, Jewish
community representatives reported low levels of antiSemitic acts and good interreligious cooperation both
from the government and civil society organizations in
addressing rare instances of anti-Semitic acts.
Trafficking in Persons

See the Department of State’s Trafficking in Persons
Report at www.state.gov/j/tip/rls/tiprpt/.
Persons with Disabilities

The law prohibits discrimination against persons with
physical, sensory, intellectual, and mental disabilities.
The government did not effectively enforce the law.
The law requires the Ministry of Health to promote the
creation of long-term institutions for persons with disabilities in distress, and the Ministry of Social Development must establish specialized institutions to care for,
protect, and house persons with disabilities in poverty,
neglect, or marginalization. NGOs reported authorities had not implemented programs for community integration. NGOs reported no changes in the mental health
system to create community services nor any efforts by
authorities to have independent experts monitor human
rights violations in psychiatric institutions.
Public buildings and facilities did not comply with the
law requiring access for persons with disabilities. The
education system provided special education for stu-

587

dents with disabilities nationwide. Children with disabilities attended school at a lower rate than those without disabilities. NGOs reported employment discrimination.
Abuses in mental health institutions and care facilities,
including those for children, were a problem. Abuses
of persons with disabilities included lack of access to justice, the use of physical and chemical restraints, physical
and sexual abuse, trafficking, forced labor, disappearances, and illegal adoption of institutionalized children.
Institutionalized persons with disabilities often lacked
adequate medical care and rehabilitation, privacy, and
clothing and often ate, slept, and bathed in unhygienic
conditions. They were vulnerable to abuse from staff
members, other patients, or guests at facilities where
there was inadequate supervision.
Documentation
supporting the person’s identity and origin was lacking,
and there were instances of disappearances.
As of August 25, the NGO Disability Rights International (DRI) reported that most residents had been
moved to other institutions from the privately run institution Casa Esperanza, where they were allegedly victims of pervasive sexual abuse by staff and, in some
cases, human trafficking. Two of the victims died
within the first six months after transfer to other facilities, and the third was sexually abused. DRI stated the
victim was raped repeatedly during a period of seven
months at the Fundacion PARLAS I.A.P. and that another woman was physically abused at an institution in
another state to which she was transferred.
Voting centers for federal elections were generally accessible for persons with disabilities, and ballots were
available with a braille overlay for federal elections.

588

In Mexico City, voting centers for local elections were
also reportedly accessible, including braille overlays,
but these services were inconsistently available for local
elections elsewhere in the country.
Indigenous People

The constitution provides all indigenous peoples the
right to self-determination, autonomy, and education.
Conflicts arose from interpretation of the self-governing
“uses and customs” laws used by indigenous communities. Uses and customs laws apply traditional practices
to resolve disputes, choose local officials, and collect
taxes, with limited federal or state government involvement. Communities and NGOs representing indigenous
groups reported the government often failed to consult
indigenous communities adequately when making decisions regarding the development of projects intended to
exploit the energy, minerals, timber, and other natural
resources on indigenous lands. The CNDH maintained
a formal human rights program to inform and assist
members of indigenous communities.
The CNDH reported indigenous women were among the
most vulnerable groups in society. They often experienced racism and discrimination and were often victims
of violence. Indigenous persons generally had limited
access to health-care and education services.
Thousands of persons from the four indigenous groups
in the Sierra Tarahumara (the Raramuri, Pima, Guarojio, and Tepehuan) were displaced, and several indigenous leaders were killed or threatened, according to local journalists, NGOs, and state officials.
For example, on January 15, Isidro Baldenegro Lopez
was killed in Chihuahua. Lopez was a community leader

589

of the Raramuri indigenous people and an environmental activist who had won the Goldman Environmental
Prize in 2005.
On June 26, Mario Luna, an indigenous leader of the Yaqui tribe in the state of Sonora, was attacked with his
family by unknown assailants in an incident believed to
be harassment in retaliation for his activism in opposition to an aqueduct threatening the tribe’s access to water. Luna began receiving formal protection from federal and state authorities after he was attacked.
Acts of Violence, Discrimination, and Other Abuses
Based on Sexual Orientation and Gender Identity

The law prohibits discrimination based on sexual orientation and against LGBTI individuals.
In Mexico City the law criminalizes hate crimes based
on sexual orientation and gender identity. Civil society
groups claimed police routinely subjected LGBTI persons to mistreatment while in custody.
Discrimination based on sexual orientation and gender
identity was prevalent, despite a gradual increase in
public tolerance of LGBTI individuals, according to public opinion surveys. There were reports that the government did not always investigate and punish those
complicit in abuses, especially outside Mexico City.
On April 18, media reported LGBTI activist Juan Jose
Roldan Avila was beaten to death on April 16 in Calpulalpan, Tlaxcala. His body showed signs of torture.
Other Societal Violence or Discrimination

The Catholic Multimedia Center reported criminal
groups targeted priests and other religious leaders in

590

some parts of the country and subjected them to extortion, death threats, and intimidation. As of August the
center reported four priests killed, two foiled kidnappings, and two attacks against the Metropolitan Cathedral and the Mexican Bishops Office in Mexico City.
Section 7.

Worker Rights

a. Freedom of Association and the Right to Collective
Bargaining

The law provides for the right of workers to form and
join unions, to bargain collectively, and to strike in both
the public and private sectors; however, conflicting law,
regulations, and practice restricted these rights.
The law requires a minimum of 20 workers to form a union. To receive official recognition from the government, unions must file for registration with the appropriate conciliation and arbitration board (CAB) or the
Ministry of Labor and Social Welfare. For the union to
be able to perform its legally determined functions, its
leadership must also register with the appropriate CAB
or the ministry. CABs operated under a tripartite system with government, worker, and employer representatives. Outside observers raised concerns that the
boards did not adequately provide for inclusive worker
representation and often perpetuated a bias against independent unions, in part due to intrinsic conflicts of interest within the structure of the boards exacerbated by
the prevalence of representatives from “protection” (unrepresentative, corporatist) unions.
By law a union may call for a strike or bargain collectively in accordance with its own bylaws. Before a
strike may be considered legal, however, a union must
file a “notice to strike” with the appropriate CAB, which

591

may find that the strike is “nonexistent” or, in other
words, it may not proceed legally. The law prohibits
employers from intervening in union affairs or interfering with union activities, including through implicit or
explicit reprisals against workers. The law allows for
reinstatement of workers if the CAB finds the employer
fired the worker unfairly and the worker requests reinstatement; however, the law also provides for broad exemptions for employers from such reinstatement, including employees of confidence or workers who have
been in the job for less than a year.
Although the law authorizes the coexistence of several
unions in one worksite, it limits collective bargaining to
the union that has “ownership” of a collective bargaining
agreement. When there is only one union present, it
automatically has the exclusive right to bargain with the
employer. Once a collective bargaining agreement is in
place at a company, another union seeking to bargain
with the employer must compete for bargaining rights
through a recuento (bargaining-rights election) administered by the CAB. The union with the largest number of votes goes on to “win” the collective bargaining
rights. It is not mandatory for a union to consult with
workers or have worker support to sign a collective bargaining agreement with an employer. The law establishes that internal union leadership votes may be held
via secret ballot, either directly or indirectly.
The government, including the CABs, did not consistently protect worker rights. The government’s common failure to enforce labor and other laws left workers
with little recourse regarding violations of freedom of
association, poor working conditions, and other labor
problems. The CABs’ frequent failure to impartially

592

and transparently administer and oversee procedures
related to union activity, such as union elections and
strikes, undermined worker efforts to exercise freely
their rights to freedom of association and collective bargaining.
On February 24, labor justice revisions to the constitution were enacted into law. The constitutional reforms
replace the CABs with independent judicial bodies,
which are intended to streamline the labor justice process. Observers contended that additional changes to
the labor law were necessary to provide for the following: workers are able to freely and independently elect
union representatives, there is an expedited recount
process, unions demonstrate union representativeness
prior to filing a collective bargaining agreement, and
workers to be covered by the agreement receive a copy
prior to registration—thus eliminating unrepresentative unions and “protection” contracts.
By law penalties for violations of freedom of association
and collective bargaining laws range from 16,160 pesos
($960) to 161,600 pesos ($9,640). Such penalties were
rarely applied and were insufficient to deter violations.
Administrative and/or judicial procedures were subject
to lengthy delays and appeals.
Workers exercised their rights to freedom of association
and collective bargaining with difficulty. The process
for registration of unions was politicized, and according
to union organizers, the government, including the CABs,
frequently used the process to reward political allies or
punish political opponents. For example, it rejected
registration applications for locals of independent unions, and for unions, based on technicalities.

593

The country’s independent unions and their legal counsel, as well as global and North American trade unions,
continued to encourage the government to ratify the International Labor Organization (ILO) Convention 98 on
collective bargaining, which it delayed doing despite removal of the main obstacle to compliance in the 2012
labor law reform, the exclusion clause for dismissal. By
ratifying the convention, the government would subject
itself to the convention’s oversight and reporting procedures. Ratification would also contribute, according to
the independent unions, to ensuring that the institutions
that are established as a result of the labor justice reform are, in law and practice, independent, transparent,
objective, and impartial, with workers having recourse
to the ILO’s oversight bodies to complain of any failure.
Companies and protection unions (unrepresentative,
corporatist bodies) took advantage of complex divisions
and a lack of coordination between federal and state jurisdictions to manipulate the labor conciliation and arbitration processes. For example, a company might register a collective bargaining agreement at both the federal and the local level and later alternate the jurisdictions when individuals filed and appealed complaints to
gain favorable outcomes. Additionally, union organizers from several sectors raised concerns regarding the
overt and usually hostile involvement of the CABs when
organizers attempted to create independent unions.
Protection unions and “protection contracts”—collective
bargaining agreements signed by employers and these
unions to circumvent meaningful negotiations and preclude labor disputes—was a problem in all sectors.
The prevalence of protection contracts was due, in part,
to the lack of a requirement for workers to demonstrate

594

support for collective bargaining agreements before
they took effect. Protection contracts often were developed before the company hired any workers and
without direct input from or knowledge of the covered
workers.
Independent unions, a few multinational corporations,
and some labor lawyers and academics pressed for complementary legislation, including revisions to the labor
code that would prohibit registration of collective bargaining agreements where the union could not demonstrate support by a majority of workers or where workers had not ratified the content of the agreements.
Many observers noted working conditions of a majority
of workers were under the control of these contracts and
the unrepresentative unions that negotiated them, and
that the protection unions and contracts often prevented
workers from fully exercising their labor rights as defined by law. These same groups advocated for workers to receive hard copies of existing collective bargaining agreements when they are hired.
According to several NGOs and unions, many workers
faced procedural obstacles, violence, and intimidation
around bargaining-rights elections perpetrated by protection union leaders and employers supporting them,
as well as other workers, union leaders, and vigilantes
hired by a company to enforce a preference for a particular union. Some employers attempted to influence
bargaining-rights elections through the illegal hiring of
pseudo employees immediately prior to the election to
vote for the company-controlled union.
Other intimidating and manipulative practices were
common, including dismissal of workers for labor activism. For example, there were reports that a garment

595

factory in Morelos failed to halt workplace sexual harassment and sexual violence and instead fired the whistleblowers that reported the problem to management.
Independent labor activists reported the requirement
that the CABs approve strikes in advance gave boards
power to show favoritism by determining which companies to protect from strikes. Few formal strikes occurred, but protests and informal work stoppages were
common.
b.

Prohibition of Forced or Compulsory Labor

The law prohibits all forms of forced or compulsory labor, but the government did not effectively enforce the
law. Penalties for conviction of forced labor violations
range from five to 30 years’ imprisonment and observers
generally considered them sufficient to deter violations.
Forced labor persisted in the agricultural and industrial
sectors, as well as in the informal sector. Women and
children were subject to domestic servitude. Women,
children, indigenous persons, and migrants (including
men, women, and children) were the most vulnerable to
forced labor. In November authorities freed 81 workers from a situation of forced labor on a commercial farm
in Coahuila. In June federal authorities filed charges
against the owner of an onion and chili pepper farm in
Chihuahua for forced labor and labor exploitation of 80
indigenous workers. The victims, who disappeared following the initial complaint to state authorities, lived in
unhealthy conditions and allegedly earned one-quarter
of the minimum wage.
Also see the Department of State’s Trafficking in Persons Report at www.state.gov/j/tip/rls/tiprpt/.

596
c. Prohibition of Child Labor and Minimum Age for
Employment

The constitution prohibits children under age 15 from
working and allows those ages 15 to 17 to work no more
than six daytime hours in nonhazardous conditions
daily, and only with parental permission. The law requires that children under age 18 must have a medical
certificate in order to work. The minimum age for hazardous work is 18. The law prohibits minors from working in a broad list of hazardous and unhealthy occupations.
The government was reasonably effective in enforcing
child labor laws in large and medium-sized companies,
especially in the maquila sector and other industries under federal jurisdiction. Enforcement was inadequate
in many small companies and in agriculture and construction and nearly absent in the informal sector, in
which most child laborers worked.
At the federal level, the Ministry of Social Development,
Attorney General’s Office, and National System for Integral Family Development share responsibility for inspections to enforce child labor laws and to intervene in
cases in which employers violated such laws. The Ministry of Labor is responsible for carrying out child-labor
inspections. Penalties for violations range from 16,780
pesos ($1,000) to 335,850 pesos ($20,000) but were not
sufficiently enforced to deter violations.
In December 2016 the CNDH alerted national authorities to 240 agricultural workers, including dozens of
child laborers, working in inhuman conditions on a cucumber and chili pepper farm in San Luis Potosi after
state authorities failed to respond to their complaints.

597

According to the 2015 INEGI survey, the most recent
data available on child labor, the number of employed
children ages five to 17 remained at 2.5 million, or approximately 8.4 percent of the 29 million children in the
country. Of these children, 90 percent were engaged in
work at ages or under conditions that violated federal
labor laws. Of employed children 30 percent worked in
the agricultural sector in the harvest of melons, onions,
cucumbers, eggplants, chili peppers, green beans, sugarcane, tobacco, coffee, and tomatoes. Other sectors
with significant child labor included services (25 percent), retail sales (23 percent), manufacturing (14 percent), and construction (7 percent).
d. Discrimination with Respect to Employment and Occupation

The law prohibits discrimination with respect to employment or occupation regarding “race, nationality age, religion, sex, political opinion, social status, handicap (or
challenged capacity), economic status, health, pregnancy, language, sexual preference, or marital status.”
The government did not effectively enforce these laws
and regulations. Penalties for violations of the law included administrative remedies, such as reinstatement,
payment of back wages, and fines (often calculated
based on the employee’s wages), and were not generally
considered sufficient to deter violations. Discrimination
in employment or occupation occurred against women, indigenous groups, persons with disabilities, LGBTI individuals, and migrant workers.
e.

Acceptable Conditions of Work

On November 21, the single general minimum wage rose
from 80.04 pesos per day ($4.76) to 88.36 pesos per day

598

($5.26), short of the official poverty line of 95.24 pesos
per day ($5.67). Most formal-sector workers received
between one and three times the minimum wage. The
tripartite National Minimum Wage Commission, whose
labor representatives largely represented protection
unions and their interests, is responsible for establishing minimum salaries but continued to block increases
that kept pace with inflation.
The law sets six eight-hour days and 48 hours per week
as the legal workweek. Any work over eight hours in a
day is considered overtime, for which a worker is to receive double pay. After accumulating nine hours of
overtime in a week, a worker earns triple the hourly
wage. The law prohibits compulsory overtime. The
law provides for eight paid public holidays and one week
of paid annual leave after completing one year of work.
The law requires employers to observe occupational
safety and health regulations, issued jointly by the Ministry of Labor and Social Welfare and the Institute for
Social Security. Legally mandated joint management
and labor committees set standards and are responsible
for overseeing workplace standards in plants and offices. Individual employees or unions may complain directly to inspectors or safety and health officials. By
law workers may remove themselves from situations
that endanger health or safety without jeopardy to their
employment.
The Ministry of Labor is responsible for enforcing labor
laws and conducting inspections at workplaces. In
2015, the most recent year for which data were available,
there were 946 inspectors nationwide. This was sufficient to enforce compliance, and the ministry carried out
inspections of workplaces throughout the year, using a

599

questionnaire and other means to identify victims of labor exploitation. Penalties for violations of wage, hours
of work, or occupational safety and health laws range
from 17,330 pesos ($1,030) to 335,940 pesos ($20,020)
but generally were not sufficient to deter violations.
Through its DECLARALAB self-evaluation tool, the
ministry provided technical assistance to almost 4,000
registered workplaces to help them meet occupational
safety and health regulations.
According to labor rights NGOs, employers in all sectors
sometimes used the illegal “hours bank” approach—
requiring long hours when the workload is heavy and
cutting hours when it is light—to avoid compensating
workers for overtime. This was a common practice in
the maquila sector, in which employers forced workers
to take leave at low moments in the production cycle and
obliged them to work in peak seasons, including the
Christmas holiday period, without the corresponding
triple pay mandated by law for voluntary overtime on
national holidays.
Additionally, many companies
evaded taxes and social security payments by employing
workers informally or by submitting falsified payroll
records to the Mexican Social Security Institute. In
2013, the latest year for which such data are available,
INEGI estimated 59 percent of the workforce was engaged in the informal economy.
Observers from grassroots labor rights groups, international NGOs, and multinational apparel brands reported
that employers throughout export-oriented supply
chains were increasingly using methods of hiring that
deepened the precariousness of work for employees.
The most common practice reported was that of manu-

600

facturers hiring workers on one- to three-month contracts, and then waiting for a period of days before rehiring them on another short-term contract, to avoid
paying severance and prevent workers from accruing
seniority, while maintaining the exact number of workers needed for fluctuating levels of production. This
practice violates Federal Labor Law and significantly
impacted workers’ social and economic rights, including
elimination of social benefits and protections, restrictions on worker’s rights to freedom of association and
collective bargaining, and minimal ability for workers,
especially women, to manage their family responsibilities. Observers noted it also increased the likelihood of
work-related illness and injury. Combined with outsourcing practices that made it difficult for workers to
identify their legally registered employer, workers were
also more likely to be denied access to justice.
Private recruitment agencies and individual recruiters
violated the rights of temporary migrant workers recruited in the country to work abroad, primarily in the
United States. Although the law requires these agencies to be registered, they often were unregistered.
The Labor Ministry’s registry was outdated and limited
in scope. Although a few large recruitment firms were
registered, the registry included many defunct and nonexistent midsized firms, and few if any of the many
small, independent recruiters. Although the government did not actively monitor or control the recruitment
process, it reportedly was responsive in addressing complaints. There were also reports that registered agencies defrauded workers with impunity. Some temporary migrant workers were regularly charged illegal recruitment fees. According to a 2013 study conducted
by the Migrant Worker Rights Center, 58 percent of 220

601

applicants interviewed had paid recruitment fees; onehalf did not receive a job contract and took out loans to
cover recruitment costs; and 10 percent paid fees for
nonexistent jobs. The recruitment agents placed those
who demanded their rights on blacklists and barred
them from future employment opportunities.
News reports indicated there were poor working conditions in some maquiladoras. These included low wages,
contentious labor management, long work hours, unjustified dismissals, the lack of social security benefits, unsafe workplaces, and the lack of freedom of association.
Many women working in the industry reported suffering
some form of abuse. Most maquilas hired employees
through outsourcing with few social benefits.

602

EXHIBIT U

603

604

605
CONTENTS

GLOSSARY

[606]

1.

[610]

EXECUTIVE SUMMARY

1.1 Methodology
2.

[612]

FALLING THROUGH THE CRACKS: [616]
FAILURES IN SCREENING PROCESSES

2.1 First stage of screening by INM field agents [620]
[623]
2.2 Falling through the cracks:
Second stage of screening in detention
centres
3.

LEGAL LIMBO AND HASTY RETURNS

3.1 Voluntary return papers

[627]
[628]

3.2 The failure to fully inform individuals about [631]
their casefile
3.3 Failures of INM information systems
4.

[631]

ILL-TREATMENT OF MIGRANTS AS [634]
PART OF THE DEPORTIONS MACHINE

4.1 Arbitrary detention of asylum seekers and [639]
its impact on refoulement
5.

RECOMMENDATIONS

[643]

606

GLOSSARY
Term
REFUGEE

Description
A refugee is a person who has
fled from their own country because they have a well-founded
fear of persecution and their
government cannot or will not
protect them. Asylum procedures are designed to determine whether someone meets
the legal definition of a refugee.
When a country recognizes
someone as a refugee, it gives
them international protection as
a substitute for the protection of
their home country.

ASYLUMSEEKER

An asylum-seeker is someone
who has left their country seeking protection but has yet to be
recognized as a refugee. During the time that their asylum
claim is being examined, the
asylum-seeker must not be
forced to return to their country
of origin. Under international
law, being a refugee is a factbased status, and arises before
the official, legal grant of asylum.

MIGRANT

A migrant is a person who
moves from one country to another to live and usually to

607

work, either temporarily or permanently, or to be reunited with
family members. Regular migrants are foreign nationals
who, under domestic law, are
entitled to stay in the country.
Irregular migrants are foreign
nationals whose migration status does not comply with the requirements of domestic immigration legislation and rules.
They are also called “undocumented migrants”. The term
“irregular” refers only to a person’s entry or stay. Amnesty
International does not use the
term “illegal migrant.”
UN REFUGEE
CONVENTION
AND PROTOCOL

The 1951 Convention Relating
to the Status of Refugees is the
core binding international treaty
that serves as the basis for international refugee law. The
1967 Protocol relating to the
Status of Refugees retakes the
entire content of the 1951 Convention and simply adds an extension on its application to all
refugees, not just those arising
from specific time bound conflicts in the 1940s and 50s.
Mexico has ratified both the
Convention and the Protocol
while the USA has ratified the
Protocol, which gives it identical

608

obligations. This treaty, along
with the International Covenant
on Civil and Political Rights of
1966, ratified by both USA and
Mexico, provide a series of fundamental rights to be enjoyed
by all humans.
REFOULEMENT

Refoulement is the forcible return of an individual to a country where they would be at real
risk of serious human rights violations (the terms “persecution” and “serious harm” are alternatively used). Individuals
in this situation are entitled to
international protection; it is
prohibited by international law
to return refugees and asylumseekers to the country they
fled—this is known as the principle of non-refoulement. The
principle also applies to other
people (including irregular migrants) who risk serious human
rights violations such as torture, even if they do not meet
the legal definition of a refugee.
Indirect refoulement occurs
when one country forcibly sends
them to a place where they at
risk of onwards refoulement;
this is also prohibited under international law.

609
MARAS

Colloquial name commonly
given to organized groups from
the Northern Triangle of Central America that are characterized by violent criminal activities and generally associated
with territorial control.

610
1.

EXECUTIVE SUMMARY

Mexico is witnessing a hidden refugee crisis on its doorstep. For a number of years, citizens from nearby countries who formerly passed through Mexico in search of
economic opportunities have been leaving their countries due to fear for their lives and personal liberty.
This briefing analyses the results of a survey carried out
by Amnesty International with 500 responses from migrants and people seeking asylum travelling through
Mexico. The information presented demonstrates that
the Mexican government is routinely failing in its obligations under international law to protect those who are
in need of international protection, as well as repeatedly
violating the non-refoulement principle1, a binding pillar
of international law that prohibits the return of people
to a real risk of persecution or other serious human
rights violations. These failures by the Mexican government in many cases can cost the lives of those returned to the country from which they fled.
The so-called “Northern Triangle” countries of Guatemala, El Salvador and Honduras continue to experience
generalized violence, with homicide rates four to eight
times higher than what the World Health Organization
considers “epidemic” homicide levels. 2 Nearly all of
Article 33 of the 1951 UN Convention Relating to the Status
of Refugees provides that states must not return persons to territories where their “life or freedom” would be threatened. The nonrefoulement principle is also considered a binding principle of international customary law.
2
The World Health Organization (WHO) considers a murder rate
of more than 10 per 100,000 inhabitants to be an epidemic level.
However, in 2016, the murder rate in El Salvador was recorded as
81.2 per 100,000 inhabitants (National Civil Police), in Honduras 58.9
1

611

the respondents to Amnesty International’s survey
came from these three Central American countries. 3
Of those detained by Mexican authorities, 84% (263 out
of 310 that answered the question) did not desire to be
returned to their country. Of these, 54% (167 out of
310) identified violence and fear as a principal reason for
not wanting to go back to their country, and 35% (108
out of 310) identified direct personal threats to their life
back home as the reason for not wanting to return.
Violations by Mexican authorities of the nonrefoulement principle directly affect human lives and
deny protection to those most at need. One man who
came to Mexico seeking asylum after fleeing death
threats in Honduras told Amnesty International he wept
in desperation to try to stop his deportation, yet officials
did not listen to him or inform him of his right to lodge
an asylum claim, and simply deported him back to his
country. This testimony echoes dozens collected by
Amnesty International and contrasts with the official responses received from Mexican authorities, who informed Amnesty International that refoulement cases
were rare.
Amnesty International analysed the 500 responses received and found 120 testimonies that gave solid indications that a refoulement had occurred, which is 24% of

per 100,000 (SEPOL) and in Guatemala 27.3 per 100,000 (National
Civil Police). 2017 figures from these same sources noted 60 per
100,000 for El Salvador, 42.8 per 100,000 for Honduras, and 26.1 per
100,000 for Guatemala.
3
Of the 385 people interviewed, 208 people were from Honduras,
97 from El Salvador, 59 from Guatemala, and a series of other countries represented less than five cases each

612

the total set of responses, and equates to 40% of the responses provided by those individuals who had been detained by the National Institute of Migration (INM).
These testimonies involved people explicitly seeking
asylum or expressing fear for their lives in their country
of origin, yet nevertheless being ignored by the INM
and deported to their country.
In addition, Amnesty International found that 75% of
those people detained by the INM were not informed of
their right to seek asylum in Mexico, despite the fact
that Mexican law expressly requires this and public officials assured Amnesty International that the requirement is complied with. Amnesty International also
found evidence of a number of procedural violations of
the rights that people seeking asylum should be afforded in line with international human rights law.
These violations effectively deny them the possibility to
challenge their deportation and to obtain protection in
Mexico.
1.1 METHODOLOGY

Between May and September 2017 Amnesty International carried out a survey of irregular migrants and
asylum seekers with the aim of understanding how Mexican authorities are implementing their obligations to
ensure the effective enjoyment of the right to seek asylum in Mexico. Surveys were carried out in queues for
government offices, lawyers and UN offices, as well as
in migrant shelters, in the southern states of Chiapas,
Tabasco and the northern state of Coahuila. Surveys
were also carried out in a reception centre for deportees
in Guatemala. Three hundred and eighty-five people
were surveyed in individual interviews responding to a

613

standardized questionnaire that was read out to them.4
Many of these people detailed multiple experiences of
entering Mexico, giving a total of 500 responses to the
questionnaire based on 500 discrete episodes of leaving
one’s country. Many migrants and people seeking asylum cross by land into Mexico more than once, which
means that the data set for this survey was based on
each separate experience of crossing into Mexico. At
times, one interviewee filled out a number of survey responses, based on separate journeys they had made over
the years.
Eighty-two per cent of the interviewees were men, 17%
were women, 1% did not wish to specify their gender and
2 cases identified as transgender. The over-representation of males is reflected in the migratory flow as
noted by officials statistics, with females accounting for
approximately a quarter of the apprehensions of irregular migrants carried out in 2017. 5 Nevertheless, this
official data does not take into account other routes that
may be more precarious or clandestine that women may
be forced to make and precise assessments of womenled migration routes are not readily available.
Of the 385 people surveyed, 208 people were from Honduras, 97
from El Salvador, 59 from Guatemala, and a series of other countries
represented less than five cases each.
5
From January to November 2017, females accounted for 29% of
irregular migrants aprehended by the INM: See: Unit for Migratory Policy, Ministry of the Interior, Unidad de Política Migratoria,
Secretaría de Gobernación, Extranjeros Presentados y Devueltos,
2017 Cuadro 3.1.3: Eventos de extranjeros presentados ante la autoridad migratoria, según grupos de edad, condición de viaje y sexo,
available at: http://www.politicamigratoria.gob.mx/es_mx/SEGOB/
Extranjeros_presentados_y_devueltos. Last accessed XX January
2018
4

614

Of the 500 survey responses collected by Amnesty International, 297 pertained to migrants or people seeking
asylum that had been at one point apprehended by the
INM. The rest had either never been apprehended by
Mexican officials, or had been apprehended by police
(116 responses) the Army (11 responses) or the Navy (4
responses). Further detail on the role of the police in
apprehending migrants (mostly illegally), will be outlined briefly below, however the focus of this briefing is
the role of migration authorities. Survey responses
were anonymous and participants were offered no benefit in their individual cases in return. The data set
gathered is not a randomized sample of the estimated
500,000 irregular migrants that cross Mexico’s southern
border annually.6 As such, the percentages presented
here in graphs, while an indication of wider trends, are
not a statistical sample of the hundreds of thousands of
people that pass through Mexico each year. Nevertheless, the data obtained from the survey provides important information on the common practices of Mexican authorities in order to inform Amnesty International’s recommendations.

United Nations High Commissioner for Refugees, “Factsheet—
Mexico” February 2017—Available at: http://reporting.unhcr.org/
sites/default/files/Mexico%20Fact%20Sheet%20-%20Februrary%202017
.pdf
6

615

616
2. FALLING THROUGH THE CRACKS:
IN SCREENING PROCESSES
“Here we are not interested in your lives.
to deport you.”

FAILURES
Our job is

Mexican INM agent in response to a 27 year old Honduran man who expressed fear of returning to his
country.7
The National Institute of Migration (INM) is the federal
government body responsible for regulating borders,
travel and residence documents and the flow of regular
and irregular migration throughout the country. The
INM is also responsible for apprehending and deporting
irregular migrants. It pertains to the Interior Ministry
and has a staff of close to 6,000.8 The officials of the
INM that have direct contact with people seeking asylum generally fall into two categories: INM field
agents who carry out a first stage of interception and
apprehensions in field activities such as highways or
checkpoints; and INM officials assigned to migration detention centres, of which the INM has 54 throughout the
country.
Amnesty International analysed the 500 survey responses received and found 120 testimonies that gave
solid indications that a refoulement had occurred, which
is 24% of the total set of responses, and equates to 40%
of the responses provided by those individuals that had
Anonymous survey response from a 27 year old Honduran man
interviewed by Amnesty International in the city of Saltillo on 18
September 2017
8
According to the Federal Budget of 2017 (Presupuesto de
Egresos de la Federación, 2017), the INM had a staff of 5,809 employees.
7

617

specifically been detained by the INM. These testimonies involved people seeking asylum more specifically
expressing fear for their lives in their country of origin,
yet despite this being ignored by the INM and deported
to their country of origin.
These failures are more than simply negligent practices,
and each case of refoulement is a human rights violation
that risks costing the lives of people seeking asylum.
The practical experience of an illegal deportation or refoulement involves the return of a person seeking asylum by land to Guatemala, Honduras and El Salvador.
In the case of El Salvador and Honduras, these countries comprise limited amounts of territory where mara
networks stretch across nearly all regions. Deportation centres and highway drop-off points for deportees
are easily trackable places for these powerful and violent networks to operate and persecute deportees from
different parts of the country.

618

Saúl worked in the transport industry as a bus driver in
Honduras. The transport industry has been specifically outlined by the UNHCR as one of five specific categories of at-risk profiles within the context of widespread violence in Honduras, given the grip that maras
have through demanding bus drivers extortions or “war
taxes.” In November 2015 Saúl suffered an armed attack in which two of his sons were seriously wounded.
Fearing for his life, Saúl fled to Mexico and applied for
asylum. The COMAR denied him asylum arguing that
he had options for security in his country, and the INM
subsequently violated the non-refoulement principle by
deporting him within the 15 day legal window in which
he had the right to appeal his claim. Amnesty International researchers interviewed Saúl in Honduras in July
2016, three weeks after he had been deported. He expressed an acute fear for his life and had already suffered an attack in his house on arriving home. A few
days later, Saul was murdered.
Officials of the INM are required by domestic law to
“detect foreigners that, based on their expressions to
the authority, or indeed based on their personal condition, can be presumed to be possible asylum seekers, informing them of their right to request asylum.”9 They
are also required to channel those people that express
their intention to seek asylum to Mexico’s refugee agency,
the Comisión Mexicana de Ayuda a Refugiados

Article 16 of the Reglamento de la Ley sobre Refugiados y Protección Complementaria, available at: http://www.diputados.gob.mx/
LeyesBiblio/regley/Reg_LRPC.pdf
9

619

(COMAR).10 The law and regulations do not distinguish between different categories of INM officials in
relation to this obligation, as all are required to comply
with these requirements, whether they are field agents
or officials in detention centres. A representative of
the INM informed Amnesty International that regardless of whether INM officials carry out activities related
to interception and apprehensions in field operations, or
whether they are in migration detention centres, they
are all given uniform training on human rights and international refugee law.11 Indeed, authorities should
be capable of screening for protection needs in a variety
of settings.12

Article 21 of Mexico’s Refugee Law (Ley de Refugiados y Protección Complementaria) outlines that: “Any authority that becomes aware of the intention of a foreigner to seek refugee status,
must immediately advise in writing to the Ministry of the Interior
[to which the COMAR pertains.] The failure to comply with the requirement will be sanctioned in line with the legal stipulations on
responsibility of public servants. [Own translation].
11
Amnesty International interview with INM delegation in Chiapas, southern Mexico, 16 August 2017
12
The United Nations High Commissioner for Refugees (UNHCR) outlines that “Screening and referral can be conducted at border or coastal entry points, in group reception facilities or in places
where detention takes place (including detention centres). See:
United Nations High Commissioner for Refugees, “The 10-point action plan: Mechanisms for Screening and Referral”, available at:
http://www.refworld.org/pdfid/5804e0f44.pdf, page 119.
10

620
2.1. FIRST STAGE OF SCREENING BY INM FIELD
AGENTS
“The INM agent said to me: now that you've been detained, you’re screwed and you’re gonna get deported
to your country.”

Comments from a Honduran man 13 who had fled
death threats, describing the response he received
from an INM field agent when he expressed his fear
of returning.
The field agents of the INM are often the very first point
of contact with Mexican authorities for a number of migrants and people seeking asylum. Yet, they do not
have their names on their official uniforms, and in many
cases function as a faceless force dedicated to apprehending migrants and asylum seekers and turning them
over to migration detention centres without an individualized assessment of each detainee’s personal circumstances and protection needs.
Amnesty International analysed the conduct of INM
field agents and found that this first stage of screening
during interception and apprehension of migrants displays overt failures to detect people seeking asylum and
act accordingly. Amnesty International noted just 10
cases out of 297 people apprehended by the INM where
field agents responded according to the law, by explaining asylum seekers their right to seek protection in
Mexico and informing them of the procedure they could
undergo in the COMAR. While these are promising
Interview response to survey carried out with Honduran man in
Tapachula, Chiapas state, 14 August 2017
13

621

practices from public officials, the fact that this was the
minority of cases is extremely concerning and points to
grave and systemic failures by the INM to comply with
law and international human rights obligations. The
vast majority of cases involved INM field agents ignoring or at times humiliating people seeking asylum in response to their expressions of fear of return to their
country.
Amnesty International found that 69% of those that had
been apprehended by INM noted that the field agent
never asked them their reasons for having left their
country. This is despite the fact that in the Latin
American Regional Guidelines for the preliminary identification and referral mechanisms for Migrant Populations,14 one of the preliminary questions that should be
asked to irregular migrants is why the person left their
country. While this is one of a series of questions that
can be asked during the first stages of identification of
asylum-seekers and refugees, and Amnesty International recommends more precise questions, 15 the fact
that field agents did not pose even such entry-level questions reveals a lack of adequate attention to their legal
obligations to screen for people seeking asylum. Many
responses to Amnesty International’s questionnaire
noted that INM field agents did not allow migrants and

These guidelines were agreed upon in an IOM and UNHCR sanctioned process that produced this document in 2013: http://rosanjose.
iom.int/site/sites/default/files/LINEAMIENTOS%20ingles.pdf Page
19.
15
See Amnesty International discussion of screening procedures
in Italy: Hotspot Italy: How EU’s flagship approach leads to violations of refugee and migrant rights, 3 November 2016, Index number: EUR 30/5004/2016, p34ff.
14

622

people seeking asylum to speak and simply shouted orders at them and loaded them into vans.
A number of survey responses pointed to the indifference of INM field agents to the comments from people
seeking asylum as to their fear of returning to their
country; comments that by law should detonate a response from the agent that informs asylum authorities
of the intention of the person to seek asylum.16 A number of responses to Amnesty International’s survey outlined a rude or teasing attitude from INM agents.
INM field agents routinely ignored asylum seekers’ concerns, and told asylum seekers they could not do anything and that they should talk to their colleagues once
they arrived at the migration detention centre. This
response, as will be seen below, is inadequate, given the
fact that the processes in the migration detention centres also routinely fail to detect people seeking asylum.
One person seeking asylum told Amnesty International
“I asked [the INM field agents] for asylum, and they
told me that it didn’t exist, and that in Mexico they didn’t
like Hondurans because we commit mischief.” Another
migrant told Amnesty International “the field agents
know that you don’t know your rights. They say whatever they want.”

16

Op Cit. See footnote 9.

623

2.2 FALLING THROUGH THE CRACKS: SECOND
STAGE OF SCREENING IN DETENTION CENTRES

Mexico has 54 migration detention centres, many of
which are highly securitized and controlled facilities resembling prison-style conditions. 17 These detention
centres are the second stage of processing for irregular
migrants and asylum seekers and are run by a different
category of INM officials that interview detainees, prepare a casefile for each, and determine whether they are
to be deported, which in the case of Central Americans,
involves loading them onto buses that leave from the migration detention centres on Mexico’s southern border.
In the case of people seeking asylum, the law requires

The UN Special Rapporteur on Torture and other cruel, inhuman and degrading punishment noted having received reports of
beatings, threats, humiliation and insults experienced by migrants
in Mexico’s migration detention centres in his visit to Mexico in 2014
17

624

that these persons are channelled to COMAR without
delay and are shielded from deportation.18
The INM informed Amnesty International that each migrant or asylum seeker that enters a detention centre is
given at least an hour individually where they are interviewed and explained their rights.19 Nevertheless, only
203 of 297 (68%) of responses from people that passed
through detention centres indicated to Amnesty International they were given an interview when they entered. Of those that said they were given an interview,
57% said that it lasted less than ten minutes. Thirtyfive percent said their interview lasted less than 30
minutes, and only 8% noted that it lasted more than half
an hour. The UNHCR notes that the recommended
time for screening interviews is between 30 minutes and
a few hours per person.20
The data collected by Amnesty International demonstrates a systematic failure to properly inform detained
migrants and people seeking asylum of their rights.
This is a violation of the law by the INM, which aims to
ensure proper protection for asylum seekers and guard
against illegal refoulement of people whose lives are at
risk. It is extremely concerning that 75% of responses
from people who passed through detention centres

Op. cit. see footnote 9.
Representative of the General Directorate for Control and Verification of the INM in an Interview with Amnesty International,
Mexico City, 2 May 2017.
20
United Nations High Commissioner for Refugees, December
2016: “The 10-point action plan: Mechanisms for Screening and
Referral”, available at: http://www.refworld.org/pdfid/5804e0f44.
pdf, page 119
18
19

625

noted that they were not informed of their right to seek
asylum in Mexico.

626
“The INM has not improved in informing people about asylum.
People get the information by word of mouth.”

Lawyer working on asylum and migration cases in Chiapas in the south of Mexico
Also of concern is the fact that in numerous cases, INM
officers told people seeking asylum that their consul was
the person in charge of explaining to them their rights
to asylum in Mexico, thereby indirectly pushing them to
contact their consular authorities. International practice tends to shield asylum-seekers from contact with
their consular authorities, as a form of protection against
the risk of identification, retaliation and human rights
violations at the hands of state agents.21
GIVEN THE RUN-AROUND IN THREE MIGRATION DETENTION CENTERS:

“The people in the migration detention centre did not
advise or direct me well. They told me that it would
be better to return to my country, . . . They gave
me lots of pretexts, “buts”. They said there was no
COMAR office in the state I was in, so it was going to
take months for my claim, so it was better to go back
to my country. At first I was in the migration detention centre [in a northern state of the country].
From that place, and from the very first moment, I
said I wanted asylum. They told me they couldn’t do
anything. On arrival at the next migration detention centre in Mexico City, the official said to me: “I

Article 21 of Mexico’s Refugee Law (Ley de Refugiados y Protección Complementaria) outlines that consuls must not be informed
of their citizens’ asylum claim, only unless the person gives express
consent.
21

627

can’t do anything, you are already on the list to be
returned to your country.” It was not until Tapachula, after speaking to my consul, that I was able to
speak to the COMAR!”
Comments from an El Salvadorian woman interviewed by Amnesty International who passed
through three different detention centres: One in a
state of northern Mexico [location has been omitted
to protect the identity of the interviewee], then Mexico City and then Tapachula, Chiapas, on the southern border. In none of these did the INM properly
inform her and it was only by chance that her consul
informed her of the asylum procedure.
3.

LEGAL LIMBO AND HASTY RETURNS

“I can’t do anything for you—you are already on the list
for the deportation bus.”

Comments by an INM official to a 25-year-old man from
El Salvador who expressed fear for his life if he was returned to his country. He told Amnesty International
that INM officials did not let him read his return papers,
and simply loaded him onto the bus to be deported.22
The detention and return of an irregular migrant or asylum seeker to their country of origin is the default response that the INM takes in relation to Central Americans arriving in Mexico. The INM opens a casefile for
each person detained, taking the form of an administrative legal procedure, in which the person detained has
Anonymous survey responses from an interview carried out with
an El Salvadoran man seeking asylum in Mexico, interviewed in
Tapachula, Chiapas state, 8 August 2017
22

628

15 days to present arguments in their favour and seek
legal counsel.23 Once all of these stages are completed,
or once the person signs papers withdrawing their intention to present arguments within the 15 day window,
the INM prepares a resolution concluding the casefile
and places the irregular migrant on a list to board a bus
headed for their country of origin. The names on this
list are checked off by the consul of the country of origin
who verifies the nationality of each person.
3.1 VOLUNTARY RETURN PAPERS

An alarming aspect of the way the administrative migratory procedure is implemented in practice is that one of
the very first steps in putting together a casefile involves detainees signing a number of papers, accepting
their “voluntary return”24 to their country and waiving
their rights to present legal arguments in their favour
within the stipulated 15-day procedural window. This
is the default process that is carried out in the first interview or “declaration” (comparacencia) of the migrant or asylum-seeker before an INM official in the detention centre. This comparecencia takes place within
the first 24 hours of a migrant or asylum-seeker entering the detention centre, and it is at this time that the
Article 56 of the Federal Law on Administrative Procedures
(Ley Federal de Procedimiento Administrativo) outlines that each
party in an administrative legal process must be formerly notified
with the lodging of a deed as to the opening of the period for arguments and responses. Nevertheless, this does not occur in relation
to the Migratory Administrative Process [Procedimiento Administrativo Migratorio].
24
“Voluntary return” refers to deportations which do not imply administrative sanctions on re-entry in Mexico, as opposed to official
deportations, which have punitive implications upon re-entry.
23

629

INM official is by law required to comprehensively explain to them their right to asylum, among other rights.
In practice, this process often involves the INM official
asking the detainee to sign a number of papers, often
without explaining their contents. It is extremely concerning that the signing of return papers and the waiving of very important procedural rights are the default
steps in this process. Rather than being informed in
detail of the different avenues available to them, including seeking asylum, thereby allowing an informed decision by each person, migrants are routinely asked to
sign “voluntary return” papers, which effectively allow
for their deportation. Since the signing of the “voluntary return” paper is a default step on arriving at a migration detention centre, in order not to be returned to
their country detainees must actively desist from this
return, and only then will it be reversed. Reasons for
desisting on “voluntary return” papers may include the
decision to request asylum, or the decision to open a judicial proceeding to stop one’s deportation. However,
many irregular migrants and asylum seekers are also
asked to sign a paper waiving their rights to present legal arguments in their favour within the stipulated 15
day procedural window.
“The INM official in the detention centre said ‘if you
don’t sign here [my voluntary return paper], we
won’t give you food, you won’t be able to have a
shower. We will treat you like you don’t exist.’ ”

630

Comments from a 23 year old Honduran man 25 to
Amnesty International regarding his experience in
the detention centre in Acayucan, Veracruz, in 2017.
According to the testimonies collected by Amnesty International, people seeking asylum whose lives are at
risk in Central America are very frequently pressured
into signing “voluntary return” deportation papers.
Amnesty International received numerous testimonies
of people in detention centres being hastily asked to sign
voluntary return papers without being explained what
they were, as well as a number of cases where people
desired to seek asylum yet were ignored and told to sign
their return papers. In some cases, INM officials in
immigration detention centres were verbally forceful
with asylum seekers or even pressured them into signing papers through coercive tactics. These overt displays of illegality on the part of INM officials are demonstrative of an institutional culture that enables systematic failures in complying with the non-refoulement principle.
“The lady from INM told me ‘I’m not even going to
talk with you.’ She got angry with me because I
didn’t sign my deportation.”
Comments from a Guatemalan woman who had asked
for asylum but was refused access to the procedure
while in immigration detention

Anonymous survey interview carried out in Saltillo, Coahuila
state, 19 September 2017
25

631
3.2 THE FAILURE TO FULLY INFORM INDIVIDUALS ABOUT THEIR CASEFILE

People seeking asylum and migrants are made even
more vulnerable by the fact that they are never given a
copy of their “voluntary return” paper or the casefile
that pertains to them. This undermines their ability to
understand the process they are being subjected to or
to oppose any of the decisions made about their case.
In the case of “voluntary return” papers, a public official
co-signs each of these papers alongside the detainee.
Denying rights-holders a copy of these papers strips
them of any possibility for redress in light of arbitrary
or illegal actions by authorities.
A lawyer working on dozens of cases of detained migrants and asylum seekers in the state of Chiapas told
Amnesty International it is even very difficult for her to
access casefiles. The fact that legal representatives also
battle to access such information gravely undermines
asylum seekers’ rights to effective legal counsel.26
3.3 FAILURES OF INM INFORMATION SYSTEMS

In addition, internal systems within the INM enable repeated breaches of the non-refoulement principle. In
an interview with Amnesty International, an INM chief

In line with article 8(1) and (2) of the American Convention of
Human Rights, those people before an administrative legal process,
as is the case with detained migrants and asylum seekers subject to
deportation, have the right to be heard before competent authority;
to have access to a legal representative and interpreter at no charge;
and the right to appeal the decision that affects them (including deportation or “voluntary return”).
26

632

in the southern state of Chiapas27 admitted that the internal INM computer registries do not have a field on
each person’s individual file as to whether they are an
asylum seeker or not. This is a grave oversight from
the INM, the very same body that is able to control a
sophisticated system of biodata, travel permissions and
entry permits for each passport holder on its computer
database. The fact that no unified system exists within
INM databases that indicates whether a person is an
asylum seeker or not is extremely concerning and leaves
open the possibility that these at risk populations fall
through the cracks. Amnesty International has received
a number of reports of people seeking asylum being deported despite being in a current process of an asylum
claim before the COMAR. Amnesty International has
also received a number of reports of INM field agents
apprehending asylum seekers and then ripping up their
official paper from COMAR. This paper specifically
calls on the INM to refrain from deporting them and
asylum seekers carry it on them with their name and
photo.

Amnesty International interview with INM delegation in Chiapas, southern Mexico, 16 August 2017
27

633

Emilia fled El Salvador and arrived in Mexico in late
2016 with her seven children, 28 after two of her other
children and her brother had been killed by the mara in
El Salvador. Her teenage daughter had also been attacked by the mara and the family couldn’t take it anymore and fled the country. On arrival to Mexico, Emilia’s eldest daughter went in to labor and had to be
rushed to a hospital on entry into Mexico in order to give
birth to Emilia’s first grandchild, a baby girl. The family rented a small hotel room in southern Mexico in the
For the full story of threats and persecution against Emilia and
her family, see: Amnesty International Facing Walls: USA and Mexico’s Violation of the Rights of Asylum Seekers. June 15, 2017. AMR
01/6426/2017. Available at: https://www.amnesty.org/es/documents/
amr01/6426/2017/en/
28

634

days following, and soon afterwards Emilia had to take
a bus back to the hospital to carry out paperwork for the
vaccinations of the newborn baby. On her way to the
regional hospital in Tapachula, Chiapas state, Emilia
was stopped at an INM checkpoint alongside her teenage son who was accompanying her. Emilia pleaded
with the INM agents not to return her to El Salvador
where her life was at risk, and through tears, told them
that she was on her way to the hospital for the paperwork for her newborn granddaughter. INM agents ignored her pleas, and detained her and her son in the
nearby detention centre where they were separated and
deported a few days later. By sheer luck, on arriving
in El Salvador, Emilia was able to find her son and a
willing citizen lent her some money to quickly return to
Mexico. She found the rest of her family on return to
Mexico, and remained living in a cramped room on the
border, all together, for months on end while they
awaited their asylum claim outcome. Emilia and her
family were granted international protection in Mexico
in April 2017. After a few months, the family organized
themselves to move to northern Mexico where they currently live. Emilia’s children are now attending school
and her baby granddaughter is now walking. Her eldest daughter is working in a local shop and the elder
sons have obtained agricultural work. The family told
Amnesty International they feel safe and out of harm’s
way.
4. ILL-TREATMENT OF MIGRANTS AS PART OF
THE DEPORTATION MACHINE

The almost automatic response by federal authorities to
irregular migrants is to apprehend them and turn them
over to migration detention centres. As outlined above,

635

the INM is the authority responsible for this function,
nevertheless Mexico’s Migration Law specifically allows
for the Federal Police to act in an auxiliary function
alongside the INM in migratory verification exercises.29
Notwithstanding this stipulation, the involvement of the
Federal Police must respond to an express request by
the INM, and police cannot simply pick up migrants in
different parts of the country as part of their daily functions.30 Unfortunately, irregular migrants and people
seeking asylum are often subjected to arbitrary detentions by federal, state and municipal police.
POLICE VIOLENCE AND ILL-TREATMENT

A total of 68% of those 116 responses that detailed a
detention by the police described their treatment as
“bad” or “very bad”.
Federal and municipal police were most commonly
mentioned as being involved in apprehensions that
very frequently involved robbery or extortion of migrants by police. On a limited number of occasions
police handed migrants over to migration detention
centres.

Mexico’s Migration Law (Ley de Migración) outlines in its Article 81: The revision of documents of people entering and leaving
the country, as well as the inspection of transport lines entering and
leaving the country, are considered actions of migratory control. In
these actions, the Federal Police will act in an auxiliary function, in
coordination with the National Institute of Migration.
30
Mexico’s Migration Law (Ley de Migración) outlines in its Article 96: Authorities will collaborate with the National Institute of
Migration in the exercise of its functions, when the Institute requests it, without this implying that authorities can independently
carry out functions of migratory control, verification and revision.
29

636

Some testimonies noted torture or ill-treatment by
police: One migrant told Amnesty International:
“They beat me and applied electric
shocks to me and they took my money.
I told them I had rights, but they tortured me with a pistol that they had on
their waist. They gave me electric
shocks for 10 minutes”31

The treatment by INM agents in apprehensions did not
rate as poorly as the police in the response to Amnesty
International’s survey. While this is promising to note,
the fact that the INM did not present such overwhelmingly poor ratings as police does not mean there is no
cause for concern.
Amnesty International received a number of reports of
grave human rights violations committed by INM officials during the moments of apprehension as well as in
detention centres. One Honduran man32 told Amnesty
International that on entering Mexico in the southern
state of Tabasco, he was apprehended by INM agents
who tied him up and beat him with a tennis ball wrapped
inside a wet sock in order to avoid leaving marks on his
body. A number of other migrants and asylum seekers
mentioned beatings and forceful treatment during their

Amnesty International has received a number of reports about
the use of Tasers against migrants and asylum seekers throughout
Mexico. The reports focus on the use of these instruments by federal agents, yet it is not clear in testimonies whether the INM also
carries these instruments.
32
Honduran man interviewed in an anonymous survey response
in the city of Saltillo, Coahuila state, on 18 September 2017
31

637

apprehension by INM agents, as well as racist and humiliating remarks. One young Honduran man told
Amnesty International that an INM agent offered to let
him go free in return for sexual favours.33 This chain
of ill treatment against people seeking asylum and migrants is replicated during the time in immigration detention. While a number of migrants and asylum seekers told Amnesty International that the treatment in immigration detention centers was “fine”, a number of responses pointed to ill-treatment. In addition, Amnesty
International has documented a number of instances of
prolonged detentions for months or even up to a year,
including the detention of small children and babies in
detention centers. A citizen advisory body of the INM
recently released a comprehensive report based on site
visits and inspections of migration detention centres,
which signalled the commonplace use of practices that
undermine the physical and mental health of detainees
and go against international standards that call for the
non-detention of people seeking asylum.34
In addition, Amnesty International has received a number or reports from lawyers and civil society organizations of solitary confinement in “punishment cells” in
migration detention centres, where detainees can be
kept for weeks on end. In at least three testimonies,

Survey interview—anonymous response from a 20 year old man
from Honduras interviewed in Tenosique, Tabasco State, 29 May
2017
34
Citizen Council of the National Institute of Migration, (Consejo
Ciudadano del Instituto Nacional de Migración). Personas en detención migratoria en México: Misión de Monitoreo de Estaciones
Migratorias y Estancias Provisionales del Instituto Nacional de Migración, July 2017
33

638

Amnesty International was informed by detainees that
they had been separated and placed in a small cell with
very little light, where they remained all day and were
not able to join other detainees during meal times. The
reasons for placing detainees in these cells were in two
cases in response to a fight or scuffle that guards
claimed the detainee had been part of, and in the third
case the confinement was a response to a woman who
had experienced a psychotic episode while inside the detention centre.
Amnesty International questioned the INM on the existence of these solitary confinement cells. After an initial denial of their existence, officials admitted that
their installations did in fact allow for this sort of imposed segregation of certain individuals.35 While there
are no doubt security concerns inside migration detention centres that may warrant limited disciplinary
measures, the conditions reported in these “punishment
cells” appear disproportionate in relation to international standards on the deprivation of liberty and rights
of detainees.36 In addition, it is important to emphasize
that irregular migrants and asylum seekers have not
committed a crime and are not being detained on criminal charges, as would be the case in prisons.

Amnesty International interview with INM delegation in Chiapas, southern Mexico, 16 August 2017.
36
The United Nations Standard Minimum Rules for the Treatment
of Prisoners (the Nelson Mandela Rules) prohibits solitary confinement under a variety of circumstances. For more information,
see: https://www.unodc.org/documents/justice-and-prison-reform/
GARESOLUTION/E_ebook.pdf
35

639
4.1 ARBITRARY DETENTION OF ASYLUM SEEKERS
AND ITS IMPACT ON REFOULEMENT

Migrants, asylum seekers and refugees should not suffer any restriction on their liberty or other rights (either
detention or so-called alternatives to detention) unless
such a restriction is (a) prescribed by law; (b) necessary
in the specific circumstances; and (c) proportionate to
the legitimate aim pursued. In particular, any measure
(either custodial or noncustodial) restricting the right to
liberty of migrants, asylum-seekers and refugees must
be exceptional and based on a case-by-case assessment
of the personal situation of the individual concerned, including their age, history, need for identification and
risk of absconding, if any. The individual concerned
should be provided with a reasoned decision in a lan-

640

guage they understand. Children, both those unaccompanied and those who migrate with their family,
should never be detained, as detention is never in their
best interests.37
In the case of Mexico, the decision to detain an irregular
migrant or asylum seeker is almost completely devoid of
any individualized assessment. Detention is the automatic response, and all irregular migrants apprehended
by INM are detained, even if they express a wish to seek
asylum. This flies in the face of international law under
Article 9 of the International Covenant on Civil and Political Rights (ICCPR) which prohibits arbitrary detention.38 In addition, due to the failures in the screening
system discussed above, asylum-seekers end up being
unlawfully detained together with the migrants.
Under the UN Refugee Convention and its 1967 Protocol, states are not allowed to apply punitive measures to
those seeking asylum.39 The detention of people seek-

See also: “UNHCR’s position regarding the detention of refugee and migrant children in the migration context” (January 2017)
clarifying that “children should not be detained for immigration
purposes, irrespective of their legal/migratory status or that of their
parents, and detention is never in their best interests.: http://www.
refworld.org/docid/503489533b8.html
38
In addition, The UN Working Group on Arbitrary Detention has
explicitly stated that where the detention of unauthorized immigrants is mandatory, regardless of their personal circumstances, it
violates the prohibition of arbitrary detention in Article 9 of the
UDHR and Article 9 of the ICCPR. See Report of the Working
Group on Arbitrary Detention on its visit to the United Kingdom, E/
CN.4/1999/63/Add.3, 18 December 1998, Paragraph33
39
1951 UN Convention on Refugees, Article 31. Full text of the
Convention available at: http://www.unhcr.org/3b66c2aa10
37

641

ing asylum can be seen as a punitive measure that undermines their intention to seek protection. In Mexico,
the prospect of being unlawfully detained often pushes
asylum-seekers to return to their country of origin, despite the risks they face upon return.
There may be a correlation between periods in migration detention and refoulement of asylum seekers from
Mexico. Of 49 responses that noted that they wished to
return to their country, eight that had been apprehended by INM said that the reason they wanted to return to their country was because they did not want to remain in migration detention. In the case of Emilia* (see
Section 3), despite the fact that her life was at grave risk
in El Salvador, she told Amnesty International that she
could not bear to be locked up and separated from her son
in detention, so she decided to risk her life and sign her
voluntary return paper that would allow her to get out of
detention, yet at the same time risk her life in the hope of
being released and reunited with her son and family.
Such examples demonstrate that the failures in screening
processes for asylum seekers, coupled with the failures of
the migration detention system, end up enabling further
violations by Mexico of the nonrefoulement principle.
A recent promising development from the INM has
been the implementation of the Programme of Alternatives to Detention (Programa de Alternativas a la
Detención) since August 2016, as a result of an agreement between COMAR, INM and the UNCHR.
Amnesty has observed that a number of asylum seekers are being released as a result of this programme,
yet many failures remain. Before August 2016, asylum seekers making claims from inside a migration
detention centre remained in detention for up to 3

642

months or more. Since late 2016, the majority of
asylum seekers in detention centres are now being
released within a matter of weeks due to the Programme of Alternatives to Detention that places
them in migrant shelters run by civil society organizations.
Nevertheless, it is concerning that this programme is
not institutionalized or published officially and thus
risks being simply an act of good faith that could disappear at any moment.
In 2016, 24% of asylum claims commenced with COMAR were abandoned by the asylum seeker before
the procedure was concluded. The 2017 rate of
abandonment of asylum claims had dropped to 16%
by August, according to figures published by the COMAR. These figures demonstrate that the fact that
asylum seekers are no longer being detained for such
prolonged periods could be having an impact on their
adherence to the asylum procedure in Mexico and
possibilities for obtaining protection rather than being returned to their country.

643
5.

RECOMMENDATIONS

TO THE PRESIDENT:

•

Urgently order a review of screening processes implemented by the National Institute of Migration
(INM). This review must have the aim of:
•

Ensuring irregular migrants who are apprehended and detained are properly informed of
their right to seek asylum in Mexico;

•

Guaranteeing that their access to asylum procedures faces no obstacles; and

•

Curbing illegal practices of refoulement and ensuring they are met with administrative sanction.

TO THE NATIONAL INSTITUTE OF MIGRATION
(INM):

•

Urgently implement a review of screening processes implemented by the National Institute of Migration (INM). This review must have the aim of:
•

Implementing a pro-active screening system
that improves identification of potential asylum
seekers within the first moments of contact with
the INM;

•

Ensuring irregular migrants who are apprehended and detained are properly informed of
their right to seek asylum in Mexico;

•

Guaranteeing their access to asylum procedures faces no obstacles;

•

Curbing illegal practices of refoulement and ensure they are met with administrative sanction.

644

•

Improve internal coordination databases and processes to ensure that asylum seekers are clearly
identified in official registries to avoid oversights
that enable unlawful deportations.

•

Publish and institutionalize the Programa de Alternativas a la Detención in the Official Gazette (Diario
Official de la Federacion).

•

Provide all detained migrants and asylum seekers,
as well as their legal representatives, with a full
photocopy of their casefile papers on entry to a detention centre as well as a copy of their voluntary
return paper and resolution in their administrative
migratory procedure.

645

AMNESTY INTERNATIONAL IS A GLOBAL
MOVEMENT FOR HUMAN RIGHTS. WHEN
INJUSTICE HAPPENS TO ONE PERSON, IT
MATTERS TO US ALL.

646
OVERLOOKED,
UNDER-PROTECTED

MEXICO’S DEADLY REFOULEMENT OF CENTRAL AMERICANS SEEKING ASYLUM
Mexico is witnessing a hidden refugee crisis on its doorstep. Citizens from nearby countries who formerly left
Guatemala, Honduras and El Salvador and passed
through Mexico in search of economic opportunities
have for a number of years been leaving their countries
due to fear for their lives and personal liberty. This
briefing outlines the results of a questionnaire carried
out by Amnesty International with 500 responses from
migrants and people seeking asylum travelling through
Mexico. The information presented demonstrates that
the Mexican government is routinely failing in its treaty
obligations under international law to protect those who
are in need of international protection, as well as repeatedly violating the non-refoulement principle, a binding
pillar of international law that prohibits the return of
people to life-threatening situations.

647

EXHIBIT V

648

A Sordid Scheme: The Trump Administration’s Illegal
Return of Asylum Seekers to Mexico

On January 29, 2019, the Trump Administration began
implementing its perversely dubbed “Migration Protection Protocols.” In reality, this policy is about denying
—not providing—protection to refugees, and is not a
“protocol,” but an attempt to circumvent the Protocol
Relating to the Status of Refugees and the laws passed
by Congress. The latest in a series of efforts to ban,
block, and deter refugees from seeking asylum in the
United States, this “Remain in Mexico” scheme violates
U.S. and international law, returns asylum seekers to
danger in Mexico, creates disorder at the border, and
makes a mockery of American due process and legal
counsel laws.
This report is based on Human Rights First’s field observations, legal analysis, meetings with U.S. and Mexican government officials and NGOs, interviews and communications with attorneys, legal organizations, and
asylum seekers, as well as review of documents provided
by the U.S. and Mexican governments to asylum seekers
stranded in Mexico. Human Rights First’s legal teams
conducted research at the U.S.-Mexico border in November and December 2018, and again in January and
early February 2019. Our teams were in Tijuana both
before and as the Trump Administration began returning asylum seekers to Mexico.

649

Human Rights First’s principal findings include:
☑

The Remain in Mexico plan violates asylum provisions in the Immigration and Nationality Act
(INA) as well as U.S. treaty obligations to protect refugees.

☑

At least 36 asylum seekers had been returned to
Mexico as of February 7, 2019. The people returned so far had sought asylum from El Salvador, Guatemala, and Honduras, and include an
LGBTQ asylum seeker and an individual with a
serious medical condition.

☑

Implementing Remain in Mexico at the San
Ysidro port of entry has not increased “efficiency” but created disorder and will likely encourage attempts to cross the border between
ports of entry as have other disruptive and illegal efforts to block or reduce asylum requests at
ports of entry.

☑

Remain in Mexico makes a mockery of legal representation and due process rights of asylum
seekers, undermines their ability to prepare or
even file an application for asylum, and ignores
the protection screening safeguards created by
Congress, instead inventing a farcical “procedure” to screen asylum seekers for fear of return
to Mexico.

☑

The United States has returned asylum seekers
to acute dangers in Mexico and to potential deportation to the countries where they fear persecution. According to the administration, Remain in Mexico will expand to return more asylum seekers, including families, to Mexico—

650

including to some of the most dangerous Mexican states on the U.S.-Mexico border, where
murders and kidnappings of asylum seekers
have occurred.
☑

Mexico has participated in the implementation
of this policy. While Mexico insists it has no
“agreement” with the United States, Mexican
immigration officers are helping American officers block ports of entry and return asylum seekers to Mexico.

Human Rights First continues to urge the Trump Administration to:
☑

Cease all efforts that violate U.S. asylum and immigration law and U.S. Refugee Protocol obligations including the return of asylum seekers and

the orchestrated restrictions on asylum processing at ports of entry.
☑

Direct U.S. Customs and Border Protection
(CBP) to deploy more officers to U.S. ports of entry to restore timely and orderly asylum pro-

cessing.

Illegal Returns to Tijuana Begin

On January 29, 2019, CPB began implementing the Remain in Mexico scheme in coordination with officials
from the Mexican Instituto Nacional de Migración (National Migration Institute—INM). As Mexican immigration officers continued to control access of asylum
seekers to the San Ysidro port of entry, they also began
to oversee their return to Tijuana.
Asylum seekers returned to Tijuana under Remain in
Mexico (as of the date of this report) had all sought to

651

request protection at the San Ysidro port of entry.
Their names had been inscribed and called from a waiting “list” that developed as a result of CBP’s illegal practice of restricting the number of asylum seekers accepted each day at ports across the southern border.
While asylum seekers take turns taking down names
and information from fellow asylum seekers and calling
“numbers” from this highly flawed “list,” INM officers
essentially manage the “list” at the behest of CBP,
which tells them how many asylum seekers CBP will
process each day. Mexican migration officials have enforced and facilitated the U.S. policy of “metering” by
preventing asylum seekers from approaching the port of
entry unless they have been called from the “list.”
During the period Human Rights First observed the
port, Mexican officials allowed an average of 41 asylum
seekers each day from the “list” to approach the U.S.
port of entry—a decline from late November and early
December 2018 when researchers saw around 60 asylum
seekers processed per day. This is far below CBP’s
acknowledged capacity to process 90 to 100 people per
day. On average, these people had waited 5-6 weeks in
Tijuana to seek asylum. After their names were called
and they lined up to approach the port of entry, officers
of Grupo Beta, the INM body responsible for migrant
care, verified the identity documents of asylum seekers
before transporting them to the U.S. port of entry for
CBP processing.
Between January 29 and February 7, CBP returned 36
asylum seekers to Mexico. All were single adults from
El Salvador, Guatemala, and Honduras. CBP escorted
the first, a man from Honduras, out of the west pedes-

652

trian entrance of the San Ysidro port of entry to the border line, where INM officers brought him back to the
Chaparral plaza on the Mexican side of the port of entry.
After reporters swarmed him, INM officials hurtled him
into a waiting vehicle and apparently deposited him at a
Tijuana migrant shelter. INM has continued to escort
returnees to Chaparral and transport some of them to
shelters.
The accounts of asylum seekers returned to Tijuana,
U.S. government documents provided to asylum seekers, and the Department of Homeland Security’s (DHS)
own written descriptions of its policies reveal that the
entire process is a farce. CBP officers have conducted
interviews in the middle of the night and asylum seekers
reported that they were not asked if they fear return to
Mexico. This scheme interferes with basic due process
and legal counsel protections both in immigration court
proceedings and because it prevents asylum seekers
from being represented by counsel during fear screening interviews—interviews that have life and death consequences.
Indeed, despite DHS’s “Migrant Protection Protocol
Guiding Principles” and assurances from the INM Commissioner that vulnerable individuals, including those
with medical problems, would not be returned, Human
Rights First found that, among others:
◼

An LGBTQ Central American asylum seeker
was returned to Tijuana despite widely reported
dangers for LGBTQ asylum seekers in Mexico.

◼

A Honduran man suffering from epilepsy was returned to Mexico without his medication, which

653

CBP had confiscated—making clear that the
agency was aware of his condition.
As discussed in detail in the legal appendix, returning
asylum seekers to Mexico violates the specific requirements Congress created under the INA to protect individuals seeking refugee protection at U.S. borders.
Further, this scheme contravenes U.S. obligations under the Refugee Convention, the Protocol Relating to
the Status of Refugees, and the Convention against Torture. These treaties prohibit the return of individuals
to persecution or torture, including return to a county
that would subsequently expel the person to such harm.
In Mexico, asylum seekers face both potentially deadly
harm and the risk of deportation to the countries they
fled in search of refuge in the United States. A leaked
draft memorandum prepared by DHS and commented
on by a Department of Justice (DOJ) official prior to the
program’s rollout concedes that the plan “would implicate refugee treaties and international law.”
Despite Remain in Mexico’s evident and potentially fatal
flaws, the Trump Administration plans to implement the
scheme in additional areas of the border reportedly next
expanding to Texas, reportedly beginning with Eagle
Pass and El Paso.

654
Who Will DHS Attempt to Return?

The DHS memoranda and policy documents give CBP
officers wide latitude to return arriving noncitizens (at
ports of entry or after crossing the border) who lack
“proper documentation,” including asylum seeking
adults and family units, unless certain limited exceptions apply. The exceptions are outlined in an unsigned document, rather than an official memorandum, entitled “MPP Guiding Principles.” Under
these vague “principles,” the categories of asylum
seekers not “amendable” to Remain in Mexico, include
Mexican nationals, unaccompanied children, those
with “known physical/mental health issues,” “criminals/
history of violence,” previously deported individuals,
and others as identified at the discretion of the U.S. or
Mexican government and CBP port of entry directors.
While the head of INM reportedly stated that Mexico
will not accept children under 18 or adults over 60, the
“principles” document does not exempt these categories. DHS has made clear that it will expand returns
to families with children in the near future.
Return of Asylum Seekers to Dangers and Risk of Deportation

The Trump Administration knows there is no safe way
to return asylum seekers to Mexico. The leaked DHS/
DOJ memorandum reveals that the Trump Administration recognizes that it cannot legally enter into a “safe
third country” agreement with Mexico. Under the
INA such agreements allow the United States to return
asylum seekers to a country they crossed on the way to
the United States if that country guarantees protection
from persecution and provides a “full and fair” asylum

655

procedure. The memo states that a safe third country
agreement is “years” away, as Mexico must still “improve its capacity to accept and adjudicate asylum claims
and improve its human rights situation.” Yet, the
Trump Administration has pushed ahead with its plan to
return asylum seekers to Mexico, knowing full well that
it places refugees in mortal danger and at serious risk
of deportation by Mexican migration authorities.
The asylum seekers returned to Tijuana face grave dangers. Although Tijuana was previously regarded as a
somewhat safer area on the U.S.-Mexico border, the city
is now one of the deadliest in the world—with over 2,500
murders in 2018. The state of Baja California, where
Tijuana lies, had the largest number of reported murders in Mexico in 2018. This follows “a record increase
in homicides in 2017” as well as an increase in reported
rapes in all five of the state’s municipalities—Tijuana,
Mexicali, Ensenada, Rosarito, and Tecate. The U.S.
State Department acknowledges that “[c]riminal activity and violence, including homicide, remain a primary
concern throughout the state.” 2019 has seen no abatement in violence, with 196 murders in the first 29 days
of the year.
Asylum seekers have been the direct targets of violence
in Tijuana. In late December 2018 two teenagers from
Honduras were kidnapped and murdered in Tijuana.
The case underscores the particular vulnerability of unaccompanied children forced to wait in Mexico to seek
asylum—a friend who escaped the attack was scheduled
to be escorted by Members of Congress to a port of entry to request asylum with other refugee youth, but was
subsequently placed in protective custody after their

656

murders. Earlier in May 2018, a shelter for transgender asylum seekers in Tijuana was attacked and set
on fire.
Human Rights First researchers interviewed asylum
seekers in Tijuana in November and December 2018
who faced violence in the city, including:
◼

A transgender Mexican woman was robbed of
her documents and possessions and nearly sexually assaulted in Tijuana while waiting to seek
asylum.

◼

A Cameroonian asylum seeker was stabbed in
the hand and robbed in Tijuana. He did not report the incident to the police because he feared
he could be arrested and deported.

In late January and early February 2019, asylum seekers in Tijuana reported additional dangers there:
◼

A Mexican asylum seeker fled with her husband
from the state of Michoacán to Tijuana after being threatened by an armed criminal group.
Since late December when her husband disappeared, she had not left the shelter where she
has been staying, fearing that she and her two
children—one and three years old—could also
be kidnapped or killed.

◼

An indigenous Guatemalan asylum seeker with
two black eyes and a broken arm told a Human
Rights First researcher that he had been threatened and attacked by groups of Guatemalan and
Mexican criminals while he waited to request
asylum at the San Ysidro port of entry.

657

◼

A man from Honduras waiting to seek asylum in
the United States after the murder of his brother
reported that he had been repeatedly stopped
and harassed by the police in Tijuana and that a
Salvadoran asylum seeker with him had been
robbed by the police there.

◼

A staff member from a shelter in Tijuana reported that in the week prior, three migrants
had been robbed outside the shelter—two at
gunpoint and one at knifepoint.

Asylum seekers returned have not been guaranteed
housing or other support by the Mexican government:
◼

In a January 2019 meeting before the implementation of Remain in Mexico, the INM Commissioner told Human Rights First that his agency
had no system in place to house, care for, or otherwise ensure the safety non-Mexican asylum
seekers returned from the United States and
had no plans to study how to implement such
support.

◼

A joint letter by a network of 31 migrant shelters
along the U.S.-Mexico border makes clear that
their facilities lack capacity to safely house the
potentially large numbers of returned asylum
seekers for the months they are likely to remain
in Mexico.

◼

A Grupo Beta official overseeing the closure of
the local government-run Barretal shelter, which
resulted in the eviction of nearly 100 asylum
seekers, told a Human Rights First researcher
that he was not aware of any additional plans to
provide housing to large numbers of migrants,

658

whether they be caravan arrivals or those who
are returned to Mexico.
Asylum seekers forced to remain in Mexico are also at
risk of refoulement, or illegal return to countries that
threaten their lives or freedom, because Mexican migration authorities routinely fail to provide humanitarian
protection to asylum seekers as required under domestic and international law. The U.S. State Department’s
2017 human rights report on Mexico noted that an independent Mexican advisory body found “incidents in
which immigration agents had been known to threaten
and abuse migrants to force them to accept voluntary
deportation and discourage them from seeking asylum.”
A 2018 report by Amnesty International found that, of a
survey of 500 asylum seekers traveling through Mexico,
24 percent had indicated fear of persecution to Mexican
officials but were ignored and arbitrarily deported back
to their countries of persecution.
Human Rights First researchers recently documented
the arbitrary detention and deportation of asylum seekers in Mexico, including:
◼

Three gay men from El Salvador, Honduras, and
Guatemala who were detained in Tijuana in late
November 2018. Police officers illegally trans-

ferred them to the custody of Mexican migration
authorities, despite their lawyer’s efforts to bail
them out. During a visit, the attorney confirmed
that at least two of the men wished to request
asylum in Mexico to prevent their deportation to
persecution. However, the Mexican National
Human Rights Commission informed the lawyer
that the men were sent to Mexico City and deported.

659

◼

A Honduran asylum seeker staying at Casa del
Migrante, one of the largest migrant shelters in
Tijuana, who was arrested on a minor infraction
in early October. After his arrest, police trans-

ferred him to Mexican migration authorities for
deportation. Despite the attorney’s request to
the local representative of the Mexican migration agency to halt the asylum seeker’s deportation, the man was swiftly deported before the attorney for Casa del Migrante could visit him in
the detention facility.
False Justifications

The administration has also premised the Remain in
Mexico scheme on inaccurate assertions that asylum
seekers do not meet their court hearing obligations
and lack meritorious claims for protection. DHS has
erroneously stated that many of those who have filed
asylum claims in the past few years “have disappeared
into the country before a judge denies their claim.”
This rationale is false. Statistics from the DOJ
demonstrate that, between 2013 and 2017, 92 percent
of asylum seekers appeared in court to receive a final
decision on their claims. Additionally, while the
DHS Press Release on the so-called Migrant Protection Protocols contends that “approximately 9 out of
10 asylum claims from Northern Triangle countries”
are denied by immigration judges, statistical analysis
shows that asylum seekers from these countries won
their cases 26 percent of the time in fiscal years 2016
and 2017.

660
Confusion and Encouraging Crossings Between Ports of
Entry

DHS claims that Remain in Mexico “will provide a safer
and more orderly process that will discourage individuals from attempting illegal entry,” but the rollout of the
scheme demonstrates precisely the opposite.
In reality, it puts returned asylum seekers at risk and
disrupts the processing of asylum seekers:
◼

On January 29, Secretary Nielsen visited the
San Ysidro port of entry in an evident effort to
generate maximum media attention to the return of asylum seekers as processing began.
That afternoon Human Rights First researchers
observed a swarm of reporters surround the
first individual returned, attempting to interview him. Although he quickly left the area after providing his nationality and first name, Mexican government officials released his full name.
Media outlets later published photographs that
included his face and as well as his name, raising
concerns that his persecutors would be easily
able to identify and locate him in Mexico.

◼

After Secretary Nielsen’s visit Human Rights
First observed a steep decline in processing of
asylum seekers, with 20 or fewer asylum seekers
processed each day for the next three days.
The day of her visit, with international media
present and perhaps in an attempt to generate a
pool of potential returnees, CBP processed 80
asylum seekers—more than the agency had processed in a day in nearly a year, according to legal observers.

661

◼

Because of these wide swings in processing and
commotion at the plaza, several asylum seekers
missed their names being called from the asylum
seeker wait “list.” One was a pregnant asylum
seeker from Mexico. She reported to Human
Rights First that she was uncertain if the shelter
where she was staying would continue to house
her and her children while they wait to be called
again.

Further, processing of asylum claims at San Ysidro remains well below U.S. capacity. During the first week
of Remain in Mexico, CBP allowed approximately 41
asylum seekers per day to approach the port of entry at
San Ysidro—well below CBP’s acknowledged capacity
to process 90 to 100 asylum seekers per day there. Indeed, administration assertions that Remain in Mexico
is a response to capacity constraints in processing asylum seekers at ports of entry are simply not credible.
As Human Rights First previously documented, the
number of asylum seekers accepted at ports of entry has
fallen sharply, often to levels well-below capacity, and
administration officials have failed to deploy staff and
resources to process asylum claims. For instance, Customs and Border Protection (CBP) in the San Diego region processed more asylum seekers in fiscal year (FY)
2014 under President Obama than in FY 2018 under the
Trump Administration and handled twice as many cases
in FY 2015 than in the last fiscal year.1 Based on these
See, Exhibit 2, Docket No. 192-4, Al Otro Lado v. Nielsen, 3:17cv-02366-BAS-KSC (S.D. Cal Nov. 29, 2018) (showing that the San
Diego CBP Field Office processed approximately 15,000 fear claims
in FY 2014 and 24,923 in FY 2015); Customs and Border Protection,
“Office of Field Operations Claims of Credible Fear Inadmissibles
1

662

figures, CBP processed 68 asylum seekers on average
per day, every day in FY 2015. Yet Human Rights
First researchers observed CBP process an average of
41 asylum seekers per day at San Ysidro—40% fewer
than in 2015. Analyses of CBP’s data by Human
Rights First, the Cato Institute, WOLA and others
make clear that processing slowdowns at ports of entry
reflect a deliberate choice by the administration to reduce the number of asylum seekers who can request protection at the southern border.
Restrictions on seeking asylum at ports of entry encourage asylum seekers to cross the border between ports of
entry. In 2018, a CBP official confirmed to the Office
of Inspector General for DHS that the “backlogs” created by these policies “likely resulted in additional illegal border crossings.” Indeed, some asylum seekers
planning to seek protection at the port of entry reported
to Human Rights First in early February that they were
considering crossing the border because they feared
danger in Tijuana if they were returned to Mexico by
the United States and they did not have the resources to
survive the potentially months-long wait in Mexico.
◼

On February 2, Human Right First spoke with a
Honduran asylum-seeking couple and their two
young children in Tijuana. Concerned by insecurity in the migrant shelter where they had
been staying, they found lodging far from the
port of entry. They worried they could not
safely wait in Tijuana if returned to Mexico and

By Field Office,” available at https://www.cbp.gov/newsroom/stats/
sw-border-migration/claims-fear/inadmissibles-field-office (stating
that the San Diego CBP Field Office processed 12,432 fear claims in
FY 2018).

663

wondered whether they “should just cross outside of the gate.”
Due Process Mockery

Asylum seekers involuntarily returned to Mexico face
significant barriers in exercising their right to be represented by a lawyer as well as in preparing and presenting their asylum claims. These obstructions to asylum
seekers’ due process rights are likely to diminish their
chances of being granted asylum. Indeed, asylum seekers with lawyers are four times more likely to be granted
asylum than those without legal counsel.
Section 292 of INA guarantees individuals in immigration removal proceedings “the privilege of being represented (at no expense to the Government) by such counsel, authorized to practice in such proceedings, as [t]he[y]
shall choose.” Yet, Remain in Mexico imposes numerous barriers for returned asylum seekers to find or effectively work with legal counsel. Returned asylum
seekers cannot enter the United States to search for or
meet with an attorney, yet CBP has provided asylum
seekers returned at San Ysidro with lists of legal service
providers (in English) located in California and the state
of their intended destination. An “Initial Processing
Information” sheet provided by CBP to returned asylum seekers advises that they exercise the privilege of
being represented by an attorney:
◼

“by telephone, email, video conference, or any
other remote communication method”

◼

“in person at a location in Mexico” or

◼

“[o]n the day of your immigration hearing, you
may arrange to meet with your counsel in-person,

664

in the United States, at your assigned court facility, prior to that hearing.”
These cynical suggestions do not provide asylum seekers who are allowed back into the United States only on
the day of their immigration court hearings meaningful
access to attorneys authorized to practice law in U.S. immigration court:
☑

Remote communication is costly, insecure, difficult and insufficient: Indigent asylum seekers

marooned in Mexico will have great difficulty
even contacting attorneys in the United States.
Remote communication presents multiple concerns including confidentiality, costs, and barriers in forming the kind of trusting attorneyclient relationship necessary to uncover crucial
information that traumatized individuals may be
reluctant to share over the phone or by email.
Nor will a remote attorney be able to review
original documents and other evidence with the
client, have the client’s affidavit signed before a
U.S.-authorized notary, or prepare the client in
person to give testimony in court.
☑

Barriers to U.S. attorneys operating in Mexico:

Meeting in person with counsel in Mexico raises
questions surrounding the legal authorization of
U.S. lawyers to practice in Mexico. Very few
non-profit legal services organizations with
U.S.-qualified lawyers operate along the Mexican side of the U.S.-Mexico border. For instance, the San Diego based organizations on the
list of legal service providers given to returned
asylum seekers do not have locations in or and
do not currently practice in Mexico.

665

☑

Absurd to expect asylum seekers to prepare their
cases at immigration court: Conferring with an

attorney for a few minutes or even hours prior to
a hearing is not sufficient to receive adequate legal representation. An attorney cannot reasonably interview a client, examine and identify
errors in immigration documents, or complete
and review the 12-page asylum application, let
alone draft and finalize a client’s affidavit or
prepare a client to offer testify and be crossexamined. Asylum cases in immigration court
often take hundreds of hours to prepare. Further, many immigration courts, including the
San Diego immigration court, do not provide
space for individuals to meet with their attorneys in a private and confidential manner. Because returnees will be transported to the immigration court from the port of entry under the
custody of DHS, they may be shackled. Suggesting that shackled asylum seekers meet with
an attorney in the corridor outside the courtroom in the moments before an immigration
hearing to prepare their cases makes a mockery
of the INA’s guarantee of access to counsel.
U.S. citizen attorneys who have crossed into Tijuana to
provide assistance to asylum seekers face the risk of
high levels of violence. In addition, attorneys from Al
Otro Lado, a migrants-rights organization with a location in Tijuana, were refused entry to Mexico in late January 2019 as Remain in Mexico was implemented and
deported to the United States raising serious concerns
they were targeted for assisting and advocating on behalf of asylum seekers. Recent reports recount targeting, including extensive search and questioning by CBP,

666

of U.S. citizens volunteering with humanitarian groups
as well as journalists interviewing migrants and asylum
seekers.
Screening Farce

The screening process created by DHS to determine
whether an asylum seeker is returned to Mexico is a farce
designed to evade the credible fear process created by
Congress to protect arriving asylum seekers. Remain
in Mexico’s procedures elevate “efficiency” in returning
asylum seekers to Mexico over ensuring that they receive an even minimally adequate assessment of whether
they face persecution or torture there—a higher and different standard than the credible fear screening Congress established.
CBP officers are required to refer asylum seekers potentially subject to Remain in Mexico for a screening by
a United States Citizenship and Immigration Services
(USCIS) asylum officer of their fear of return to Mexico,
but procedures under the new plan provide this interview only if the person affirmatively express a fear.
This practice diverges from the requirement that CBP
officers read arriving asylum seekers a summary of their
rights and specifically question them about their fear of
return before deporting them through the expedited removal procedures. The DHS memoranda do not require CBP officers to ask asylum seekers if they fear return to Mexico and, in practice, they have often not informed asylum seekers of the need to affirmatively express a fear of return to Mexico to trigger the full assessment nor screened asylum seekers for such fear.

667

◼

Human Rights First asylum legal experts reviewed the sworn statements (Form I-877, Record of Sworn Statement in Administrative Proceedings) recorded by CBP officers that include
questions asked to and responses of several asylum seekers requesting protection at the San
Ysidro port of entry in January 2019. They reported that CBP failed to ask about danger they
could face if returned to Mexico. In these documents the CBP officers did not record having
explained the Mexico fear screening or having
asked any questions about feared harm in Mexico. Rather, CBP officers’ questions focused on
whether the asylum seekers had hired smugglers or knew the names and contact information
of the individuals who organize migrant caravans.

◼

An attorney with Al Otro Lado who has consulted with several returned asylum seekers reported that CBP officials are “not routinely asking people” whether they have a fear of returning to Mexico.

◼

Multiple returned asylum seekers reported to
Human Rights First and other observers that
they were awoken while in CBP custody and interviewed in the middle of the night. One asylum seekers reported having been questioned at
around 1am and another was interviewed at 3am.
Documents reviewed by Human Rights First
confirm that a third individual received an information sheet regarding Remain in Mexico at 1
o’clock in the morning.

668

The USCIS screening imposes an extraordinarily high
standard to establish a likelihood of harm in Mexico and
eliminates due process protections for fear screenings.
The January 25 Nielsen memorandum states that asylum seekers can be returned to Mexico unless they
would “more likely than not be persecuted on account of
race, religion, nationality, membership in a particular
social group, or political opinion . . . or would more
likely than not be tortured”—the “same standard used
for withholding of removal and CAT [Convention
against Torture] protection determinations” normally
applied after a full hearing in immigration court to make
a final decision.
☑

Extraordinarily High Legal Requirement:

Under the INA, asylum seekers placed in expedited
removal must be referred for a fear screening.
Asylum seekers must show a credible fear of persecution in the country they fled—meaning a significant possibility that they can establish ultimate eligibility for asylum after a full immigration court hearing. They are not required to
actually prove their asylum cases at this stage—
as Congress created a screening standard purposefully lower than the asylum standard. But
under Remain in Mexico, asylum seekers must
establish full legal eligibility for withholding of
removal or CAT protection during this initial
screening interview to avoid being returned to
Mexico. Not only is the standard to qualify
higher than for asylum itself, but asylum seekers
must establish they qualify without an attorney
or a chance to present in an evidentiary hearing
in immigration court. Under Remain in Mexico,
asylum seekers must prove that they have an even

669
greater fear in Mexico than in their home country
in order to come into the United States to pursue
their asylum claims.

☑

Lack of immigration judge review: U.S. immigration law allows asylum seekers to request review by an immigration judge of a negative credible fear determination. Yet under Remain in
Mexico, asylum seekers are not entitled to immigration judge review of the asylum officer determination regarding their fear of harm in Mexico.
The lack of a review mechanism contravenes
Congress’s intent for immigration judges to conduct an “independent review that will serve as
an important though expedited check on the initial decisions of asylum officers.”

☑

Denial of representation:

U.S. immigration law
guarantees asylum seekers the right to consult
with an individual, including a lawyer, of their
choosing prior to a credible fear interview and to
have that person attend the interview. Yet the
USCIS policy memo states that “DHS is currently unable to provide access to counsel during
the assessments given the limited capacity and
resources at ports-of-entry and Border Patrol
stations as well as the need for the orderly and
efficient processing of individuals.” Restricting access to counsel for asylum seekers detained in DHS custody undermines the ability of
asylum seekers to prepare for interviews and
present evidence that demonstrates the danger(s) they face in Mexico. Further, these restrictions may violate the Orantes injunction,

670

which guarantees certain rights, including access to counsel, for Salvadoran asylum seekers
in DHS custody.
☑

Denial of Rest:

Asylum officers have also reportedly been instructed to deny “rest periods”
—the 48-hour respite asylum seekers are offered before a fear interview. These rest periods are crucial to ensuring due process because
they allow asylum seekers who may be hungry
and sleep-deprived after arduous and difficult
journeys to recuperate before undergoing a
screening interview about the persecution they
fear.

Mexico Complicit in Asylum Return Scheme

While the Mexican government has repeatedly characterized the Remain in Mexico plan as a “unilateral” action by the United States, Mexico is facilitating and assisting in the effort to block asylum seekers from approaching U.S. ports of entry. Mexico has already accepted the return of dozens of Central American asylum
seekers in Tijuana. The January 25 Nielsen memo describing the exchange of messages between the two governments claims that Mexico will “allow” asylum seekers returned a “stay for humanitarian reasons,” permit
them to enter and exit Mexico for court hearings in the
United States, and give returned asylum seekers an “opportunity to apply for a work permit.”
Although Mexican regulations provide that so-called
“humanitarian visas” are good for one year, renewable
periods, the INM Commissioner, one of the officials with

671

discretion to issue and renew such visas, reportedly indicated that humanitarian visas for returned asylum
seekers would be valid for only four months and expressed his understanding the immigration proceedings
in the United States would conclude within 90 days.
However, visas issued by INM to several individuals and
reviewed by Human Rights First were general visitor
visas—the box for the humanitarian visa was not
checked—with a 76-day validity period and did not provide authorization to take paid work. Recent changes
in policy reflect the uncertainty and discretionary nature of the humanitarian visa program. In January
2019, Mexican President Andres Manuel Lopez Obrador
implemented changes to the humanitarian visa process
to facilitate access to the visa for Central Americans in
need of humanitarian protection, but the program was
cancelled less than two weeks later.
As discussed above, Mexico has repeatedly deported
Central American asylum seekers to potential persecution without accepting or considering their requests for
protection. Deportation by Mexico of individuals in
need of protection has resulted in grave consequences.
For instance, in December 2018, a young Honduran man
was murdered in Tegucigalpa, Honduras after being deported from Tijuana the previous week by INM. Even
if Mexico were to follow through on its supposed offer of
humanitarian visas to asylum seekers, asylum seekers
in Mexico remain at risk of deportation to persecution,
as Amnesty International found in its 2018 report documenting Mexico’s refoulement of asylum seekers.

672
An Address to Nowhere

The DHS memoranda and guiding principles do not
explain how asylum seekers will receive hearing notifications from the immigration court. These notices
are crucial to inform individuals in removal proceedings of changes in hearing dates, which occur frequently including tens of thousands of hearings that
must be rescheduled due to the partial government
shutdown in December 2018 and January 2019. Immigration judges may order asylum seekers who fail
to appear at a hearing removed in their absence.
In order to receive hearing notices, individuals in immigration court must provide their address, but asylum seekers returned are unlikely to have a place to
live in Mexico, let alone a readily available mailing address to supply. For example, one of the returned
asylum seekers Human Rights First spoke with had
been staying in the temporary shelter established in
December 2018 at the former Barretal nightclub that
closed suddenly on January 30, 2019. Further, notices to appear served on returned asylum seekers
failed to record addresses in Mexico where mail can
be received. On three notices to appear reviewed by
Human Rights First, CBP officers recorded asylum
seekers’ addresses as merely “domicilio conocido”
(literally “known address”) in Tijuana.
Asylum seekers who attempt to update their addresses, as required by the immigration regulations,
will not be able to deliver that form in person at the
immigration court because they are not able to enter

673

the United States. Instead, to send mail internationally they must rely on Correos de Mexico, the unreliable government postal system in decay due to a lack
of federal resources and suffering from sluggish international delivery times of up to a month. While theoretically an alternative, the use of a private international courier services such as DHL or FedEx is likely
prohibitively expensive for most indigent asylum seekers.
Plans to Expand Remain in Mexico Despite Dangers

Although returns to date have occurred only at the San
Ysidro port of entry, a CBP memo implementing Remain in Mexico makes clear that DHS believes it has authority to return asylum seekers along the entire border
both from ports of entry and those who cross between
the ports of entry. Despite the violence and other grave
harms asylum seekers could face if returned to other
parts of the U.S.-Mexico border, DHS officials plan to
expand the scheme “in the near future” and are reportedly considering El Paso and Eagle Pass as two possible
implementation sites. As Human Rights First has documented in reports and analyses, asylum seekers south
of the U.S.-Mexican border face acute risks of kidnapping, disappearance, sexual assault, trafficking, and violent crimes.
The U.S. State Department 2017 human rights report
on Mexico lists “violence against migrants by government officers and organized criminal groups” as one of
the “most significant human rights issues.” It notes
that the dangers for Central American refugees in the
country has grown as “Central American gang presence

674

spread farther into the country and threatened migrants who had fled the same gangs in their home countries.” Migrants are also targets for kidnappers, making up a disproportionately large percentage of reported
disappearances—approximately 1 in 6—despite representing a tiny fraction of Mexico’s total population.
Refugees in Mexico are targeted due to their inherent
vulnerabilities as refugees but also on account of their
race, nationality, gender, sexual orientation, gender
identity, and other reasons. Certain groups—“including the LGBTQ community, people with indigenous heritage, and foreigners in general”—face consistent persecution in Mexico and are often forced to seek protection outside of the country. Gay men and transgender
women, for example, flee discrimination, beatings, attacks, and a lack of protection by police in Mexico. A
January 2019 survey conducted by the American Immigration Council, AILA, and the Catholic Legal Immigration Network, Inc. among 500 detained asylum seeking
women and children in Texas found that 46% of respondents reported that they or their child experienced at
least one type of harm while crossing through Mexico,
and 38.1% of respondents stated that Mexican police
mistreated them. Amnesty International reports that
criminal investigations of massacres and crimes against
migrants remain “shrouded by impunity.”
Violence across Mexico has been climbing: 2018 was
the deadliest year in the country’s recorded history, averaging 91 homicides per day and surpassing the previous record in 2017 by 15 percent. The northern border
states, where refugees forced to return to Mexico are
likely to stay, all experienced jumps in homicide rates in
2018 making them among the most dangerous in the

675

country. President Trump tweeted in January 2019
that the murder rate in Mexico had risen substantially
making the country “[w]orse even than Afghanistan.”
Research by Human Rights First, reports by the U.S.
and Mexican governments as well as media accounts
demonstrate the dangers migrants face in the Mexican
states bordering the United States where CBP appears
to be planning to return asylum seekers through ports
of entry:
TAMAULIPAS
U.S. ports of entry:

Laredo, McAllen & Brownsville, TX

Tamaulipas, the Mexican state that shares a long border
with Texas, is “notoriously violent” and “one of the most
lawless states in the country,” riven by cartel violence.
Tamaulipas was the state with the largest registered
number of missing or disappeared people in Mexico according to the U.S. State Department 2017 human
rights report. The U.S. State Department ranks Tamaulipas as a category four level—“Do Not Travel”—
the same threat assessment that applies to travel to Afghanistan, Iraq, and Syria. In Tamaulipas:
Violent crime, such as murder, armed robbery, carjacking, kidnapping, extortion, and sexual assault, is common. Gang activity, including gun battles and blockades, is widespread. Armed criminal groups target
public and private passenger buses as well as private automobiles traveling through Tamaulipas, often taking
passengers hostage and demanding ransom payments.
Federal and state security forces have limited capability
to respond to violence in many parts of the state.

676

U.S. government employees are restricted from intrastate highways in Tamaulipas and under evening curfew
in the cities of Matamoros (across from the Brownsville
port of entry) and Nuevo Laredo (across from the Laredo port). The U.S. State Department’s bureau of
diplomatic security ranks “corruption of police and rule
of law officials” as “the most serious concern” in its report on security in Nuevo Laredo. According to the
bureau, “the municipal police force in Nuevo Laredo was
disbanded among allegations of large-scale corruption”
in July 2011 and as of January 2019 still had not been
reconstituted. Mexican marines deployed to Nuevo
Laredo to address cartel violence in the city have themselves been accused of disappearances and murder.
In the city of Reynosa (across from the McAllen port of
entry), disappearances, kidnapping, ransom, and murder of migrants by criminal groups have become so frequent that at least one migrant shelter forbids any migrants from leaving the premises. In December 2018,
a Mexican television network reported that three Yemeni asylum seekers were kidnapped by men in vehicles
marked “police” in Reynosa while en route to seek asylum in the United States. Taken to a house and stripped
to their underwear, the men were held with other kidnapping victims from El Salvador, Guatemala, and Honduras. The kidnappers beat them, threatened to cut
off their fingers and toes and extorted thousands of dollars from family members in Yemen. The group escaped only when another criminal gang attacked the
house and released the three in exchange for additional
extortion payments. The recent rescue of 22 Central
American migrants held in a house in Reynosa suggests
that the number of kidnappings remains high.

677
SONORA
U.S. ports of entry:

San Luis & Nogales, AZ

For the state of Sonora, the U.S. State Department recommends that U.S. citizens “reconsider travel due to
crime”—the same level of caution urged for travel to El
Salvador and Honduras. According to the warning,
“Sonora is a key location used by the international drug
trade and human trafficking networks.” On the Mexican side of the border in the city of Nogales (across from
the U.S. port of the same name), U.S. government employees are not permitted to use taxi services. Further, long-distance intrastate travel is limited to the
daytime, and U.S. government employees may not venture outside of the city limits in the border-region towns
of San Luis Colorado (across from the San Luis port),
Cananea and Agua Prieta. In its 2018 report on security in Nogales, the U.S. State Department’s diplomatic
security bureau notes that “[a]nyone who projects the
perception of wealth and is unfamiliar with the area can
easily become a target of opportunity by being in the
“‘wrong place at the wrong time.’ ” The bureau recommends against the use of public transportation including
taxis, given the “depth of narco-trafficking influence
over the taxis.”
CHIHUAHUA
U.S. ports of entry:

El Paso, TX

The U.S. State Department warns travelers to “reconsider travel due to” “widespread” “[v]iolent crime and
gang activity” in the Chihuahua. In fact, U.S. govern-

678

ment employees are limited to travel to a handful of cities and largely prohibited from traveling at night or
away from major highway routes. On January 17,
2019, the State Department’s diplomatic security bureau warned of a series of attacks on police officers in
Ciudad Juarez (across from the U.S. ports in El Paso)
and Chihuahua City carried out by organized criminal
groups, “which [we]re expected to continue” and warned
its personnel “to avoid police stations and other law enforcement facilities in both cities to the extent possible
until further notice. Earlier in October 2018, the diplomatic security bureau had warned that criminal
groups in Ciudad Juarez were “actively trying to obtain
armored vehicles” and had “made a brazen attempt to
carjack a police armored vehicle.” In August 2018, the
security bureau extended restrictions on travel to downtown Ciudad Juarez “[b]ecause the higher rates of homicides during daylight hours that prompted [a July 2018]
restriction [had] not decreased.” As of February 2019,
those restrictions had not been lifted.
Asylum seekers in Ciudad Juarez fear for their lives
while waiting to be processed in the United States particularly with the arrival of the Jalisco New Generation
cartel there. By mid-January 2019, the city had already had 46 homicides since the beginning of the year.
Residents fear the potential for another vicious cartel
fight: inter-cartel violence reportedly resulted in some
10,000 deaths between 2008 and 2012.

679
COAHUILA
U.S. ports of entry:

Del Rio & Eagle Pass, TX

The U.S. State Department warns travelers to “reconsider travel due to” “[v]iolent crime and gang activity
[which] are common in parts of Coahuila state.” Employees of the U.S. government travelling in the border
towns of Piedras Negras (across from the Eagle Pass
port) and Ciudad Acuña (across from the Del Rio port)
are subject to a nighttime curfew. In June 2018, the
mayor of Piedras Negras who had taken a hardline
stance against crime was assassinated while campaigning for a seat in the Chamber of Deputies. Drug cartels in Coahuila have reportedly long sought to influence
Mexican officials through bribes to policemen and politicians. In November 2018, a wave of kidnappings hit
Piedras Negras with four women disappeared in a week.
Overall, homicides rose in the state by 20 percent between 2017 and 2018. LGBTQ rights activists in the
state have complained that murders of LGBTQ persons
have gone uninvestigated and registered dozens of complaints of physical violence by police officers in the towns
of Monclova, Frontera, Castaños, Piedras Negras, Acuña,
San Pedro, Viesca, Torreón and Saltillo.
Migrants are targets of violence and discrimination in
Coahuila. Migrant women and children are reportedly
at high risk of forced labor on farms in Coahuila. In
2018, a hotel in Piedras Negras kicked out a family of
Honduran asylum seekers in the middle of the night because the owner refused to accommodate “foreigners.”
Asylum seekers in migrant shelters in Piedras Negras
have been threatened by smugglers who threaten to kidnap and kill the migrants and their family members, if
they do not pay them. In February 2019, a Honduran

680

migrant managed to escape from a house where he was
being held by kidnappers.
Legal Appendix: Remain in Mexico Violates U.S. Laws
and Treaty Obligations

U.S. law makes clear—in both Sections 208 and 235 of
the INA—that people can seek asylum at a U.S. port of
entry or after crossing in to the United States. The
Trump Administration has already taken steps to block
or turn away asylum seekers at ports of entry and to ban
those who seek protection after crossing between ports
of entry. Remain in Mexico is an attempt to circumvent the asylum laws passed by Congress in order to return some asylum seekers to Mexico.
Launched through a January 25, 2019 DHS action memorandum, Secretary Kirstjen Nielsen purported to invoke authority under Section 235(b)(2)(C) of the INA to
return non-Mexican nationals, including asylum seekers, requesting admission at a U.S.-Mexico land port of
entry or who have crossed that border “without proper
documentation” to Mexico.2 Asylum seekers subject to
the scheme are issued a Notice to Appear (NTA) and returned to Mexico. While they are permitted to physically reenter the United States to attend immigration
court proceedings, they are not allowed to enter in advance to attempt to secure, meet with and work with
In a January 31, 2019 email, an official from the Office of Management and Budget (OMB) informed Human Rights First that on
January 29, 2019, DHS officially withdrew an interim final review to
implement the Migrant Protection Protocol submitted for review to
OMB’s Office of Information and Regulatory Affairs, the authority
established by statute to review executive branch regulations.
2

681

U.S. attorneys who can represent them in immigration
court.
The use of this provision to return asylum seekers to
Mexico directly contradicts the statutory scheme Congress laid out in the INA. First, Section 208 of the INA
makes clear that asylum seekers who arrive at official
border posts can apply for asylum. Second, Section
235(b)(1) establishes specific “expedited removal” procedures for individuals who lack visas or other entry
documents (at ports of entry or stopped after crossing
the border), which includes most asylum seekers on the
southern border. The provision further provides that
asylum seekers be given a credible fear interview and
that those who pass the screening be held in U.S. detention or released on parole—under INA 212(b)(5)—
during consideration of their applications. Returning
refugees to Mexico directly contradicts Congress’ clear
and specific instruction that asylum seekers remain in
the United States while their asylum claims are pending.

Indeed, Section 235(b)(2)(C)—the very provision DHS
relies on for Remain in Mexico—incorporates an explicit
exception at 235(b)(2)(B) for individuals covered by Section 235(b)(1), i.e. the asylum seekers the agency now
attempts to return to Mexico.

The safe third country provision of the INA does allow
the United States to return some asylum seekers to a
contiguous country they passed through, Mexico does
not meet the legal criteria. Specifically, to be a safe
third country, Mexico would have to (1) guarantee asylum seekers protection from persecution; (2) provide access to “full and fair” procedures to assess asylum requests; and (3) enter into an agreement to be designated

682

a safe third country.
met.

None of these conditions has been

Congress passed the 1980 Refugee Act to bring domestic law in line with U.S. obligations under the Refugee
Convention. Article 33 of the Refugee Convention,
which the United States is bound to respect, prohibits
states from returning refugees “in any manner whatsoever” to territories where they face a threat to their life
or freedom. Returning Central American and other
refugees to a country—such as Mexico—violates Article
33 as it puts refugees at risk of return to their country
of persecution as well as the prohibition on returning individuals to any country where they may face persecution. The United States has also adopted the U.N.
Convention against Torture (CAT), which prohibits returning a person to any country where that person
would face torture. This obligation has been interpreted to prohibit a country from deporting someone
who faces torture to a third country that would subsequently expel the person to a place where he or she faces
torture. Returning individuals to Mexico also violates
U.S. obligations under CAT as it puts returned asylum
seekers at risk of expulsion by Mexico to their countries
where they face torture. As outlined below, Mexican
officers often return asylum seekers to their countries
of persecution despite prohibitions in Mexican law, the
Refugee Convention and CAT.

683
DECLARATION OF RENA CUTLIP-MASON CHIEF
OF PROGRAMS FOR THE TAHIRIH JUSTICE CENTER

1. I, Rená Cutlip-Mason, make the following declaration based on my personal knowledge and declare under the penalty of perjury pursuant to 28 U.S.C. § 1746
that the following is true and correct.
2. Since December 2017, I have served as the Chief
of Programs of the Tahirih Justice Center (Tahirih), a
nonprofit and non-partisan organization providing free
legal immigration services to survivors of gender-based
violence such as domestic abuse, sexual violence, and human trafficking. In my role I oversee the functioning
of Tahirih’s five offices across the country and the legal
and social service work conducted by our staff. I am
also responsible for the organization’s national quality
control, coordination, process management, and strategic programmatic initiatives.
3. I previously worked at Tahirih from 2004 to 2010
as Staff Attorney, Managing Attorney, and Director of
Legal Services.
4. From 2010 to 2015, I served as Chief of Casework and Senior Advisor at the Office of the U.S. Citizenship and Immigration Services Ombudsman at the
Department of Homeland Security. From January
2015 through May 2017, I was Counsel to the Director
at the Department of Justice, Executive Office for Immigration Review (EOIR). From June 2017 to December 2017, I served as Associate General Counsel in the
Office of General Counsel at EOIR.

684
Tahirih’s Mission and Scope

5. Tahirih’s mission is to provide free holistic services to immigrant women and girls fleeing violence such
as rape, domestic violence, female genital mutilation/
cutting, forced marriage, and human trafficking, and
who seek legal immigration status under U.S. law. We
thoroughly screen each service seeker and offer legal
representation and social services for individuals who
seek protection, including asylum, in their immigration
proceedings.
6. In addition to free legal direct services and social
services case management, Tahirih also advocates for its
clients more broadly. Through administrative advocacy, legislative campaigns, and outreach, Tahirih aims
to increase the efficiency and fairness of the asylum system.
7. Tahirih also provides training and education services to professionals in a position to assist immigrant
victims of violence. We provided training to 18,479 professionals and community members, including attorneys,
judges, police officers, healthcare staff, and social service providers, in 2018 alone. In addition, Tahirih provides information to immigrants through Know-YourRights presentations as well as asylum and other immigration clinics.
8. We execute our mission and serve clients out of
our five offices across the country: San Francisco, California; the greater Washington DC area; Baltimore,
Maryland; Houston, Texas; and Atlanta, Georgia.
9. Since Tahirih’s founding in 1997, we have provided immigration legal services to more than 25,000
people. In 2018, we provided legal representation and

685

other services to 1,974 clients, and to more than 1,500 of
their family members. In our San Francisco office specifically, we served 271 clients and 129 additional children and other family members.
10. More of our clients seek asylum than any other
form of immigration relief, and currently, nearly 4 in 10
of our cases include asylum claims: 38% in 2017 and
38.6% in 2018. Among these, the vast majority are in a
defensive posture, meaning our clients typically are
seeking asylum in a removal proceeding in immigration
court.
How Tahirih Works

11. Because we assist immigrant victims of violence,
most of our clients have experienced significant trauma.
To competently represent such clients, our attorneys
provide trauma-informed professional legal services.
We also work closely with social workers, psychologists,
doctors, and other professionals to ensure that our clients receive the medical and psycho-social services necessary to cope with the ongoing and recurring manifestations of their trauma while they work with attorneys
on their asylum claims.
12. To that end, in every office we directly employ
social services professionals with expertise in working
with victims of trauma. These staff work as needed
with Tahirih clients to help them stabilize their day-today lives, promote their safety and well-being, and recover from trauma as they pursue justice in the legal
system. These staff also make referrals to trusted,
trained professionals in the community who can help

686

support our clients as they continue through the legal
process of seeking asylum.
13. In addition to our legal and social services staff,
Tahirih leverages its expertise by working directly in a
co-counsel relationship with pro bono attorneys on some
of its cases.
14. Particularly in our San Francisco office, funding
for our asylum work is based, in part, on grants that require asylum-seekers to be physically present in the
United States.
15. Although we have clients from all over the globe,
Tahirih’s clients in recent years have come primarily
from Latin America and especially from Central America. In the past two years, an average of 69.1 % of our
nearly 4,000 full-representation clients were from Latin
America: 77% in 2017 and 61.2% in 2018. Most were
from the Northern Triangle countries: in 2018, 21.4%
were from Honduras, 18.6% were from El Salvador, and
8.4% from Guatemala. Based on our experience, the
vast majority of these clients entered the United States
across the southern border with Mexico.
16. Recently, in response to the administration’s
proposed asylum ban—which would have rendered migrants who cross the border between ports of entry ineligible for asylum—and concerns about vulnerable survivors at the border, Tahirih sent several staff members
to Mexico. Average travel costs for two-day trips were
approximately $815 per trip, giving us a basis for forecasting expenses for future trips to Mexico necessitated
by the Migrant Protection Protocols (MPP), as explained below. During these trips, Tahirih staff met

687

with survivors of violence, provided immigration-related
information, and interviewed potential clients.
Harms Inflicted by the MPP Policy

17. The policy requiring asylum seekers, and specifically our potential clients, to return to Mexico while
awaiting their immigration court hearings will significantly frustrate Tahirih’s mission and require us to divert significant organizational resources to address the
consequences of the policy. For the reasons discussed
below, Tahirih will not be able to effectively provide holistic legal services to asylum seekers fleeing genderbased violence who are subject to the new policies. We
will not be able to provide the critical legal and social
service support needed to assist survivors of trauma in
effectively presenting their claims for protection. We
will also be forced to divert significant resources to attempt to serve clients while they are in Mexico, or substantially cut or curtail our current asylum practice.
18. First, as noted, an average of 78% of our clients
in the past few years were Latin American survivors,
virtually all of whom would have crossed at Tijuana or
other ports of entry along our southern border. And of
the 349 full representation asylum cases Tahirih had
open last year, 187 of them were on behalf of Latin
American clients. If those Latin American clients we
have historically served are now forced to remain in
Mexico while their cases are pending, Tahirih’s ability
to provide representation will be frustrated for the following reasons:
a.

Our clients will not be able to find us. Though
the numbers of people who are eligible to seek

688

asylum will not change as a result of this policy,
we will be severely hampered in locating those
clients who need our help. Our clients in the
United States are often referred to us by first
responders, social services organizations, and
other front line personnel who serve in the geographic areas in which we are located and with
whom we have spent years building trust and
collaborative relationships. Clients forced to
return to Mexico will have little to no practical
way to learn that Tahirih exists or that it offers
holistic assistance.
b.

We will have to send staff to Mexico to even
begin to provide services to survivors. By forcing vulnerable women asylum seekers to return
to Mexico pending their immigration court proceedings, MPP is frustrating Tahirih’s mission
of providing comprehensive services to those
women. In response, Tahirih staff must now
travel to Mexico to connect with women before
and after they are returned, and must educate
vulnerable women and girls about the policy.
Tahirih has already set aside (and diverted) resources to cover trips for six people in the next
few weeks to conduct interviews, provide information to potential Tahirih clients, and investigate conditions so that we can evaluate how best
to reach the women we serve. Based on our average cost of $815 per staff member per trip
taken in November and December, we expect to
incur, at a minimum, direct costs of approximately $4,900 to cover these immediate costs, in
addition to the value of employee services. All
of these resources will be diverted from our

689

usual work, as a result of the MPP policy, and
will directly affect and harm our ability to take
on new cases, as we would otherwise expect to
do.
c.

Significant time/costs for intakes. Because we
serve the vulnerable population of survivors of
gender-based violence who are typically traumatized, our intake processes take more time and
require repeated face-to-face meetings to establish trust and safety. Once that has been established, Tahirih attorneys must confirm credibility and eligibility for asylum before agreeing to
representation. Just to complete the intake
process would require us to send attorneys and
social service providers to Mexico to meet with
prospective clients for hours or days per prospective client. The time and additional travel
funds would substantially increase Tahirih’s costs
of providing asylum representation and may
make it impossible for us to continue to represent asylum seekers who are returned to Mexico
under the MPP.

d.

Significantly higher travel costs and staff time
to develop cases. Once a case is accepted, trying to litigate a complex asylum case with a client located in Mexico would raise even more formidable difficulties. Again, to competently and
ethically represent the vulnerable clients we
serve would require multiple face-to-face meetings and consultations in order to prepare oral
and written testimony, locate evidence, secure
witnesses, and prepare legal arguments. The
cost and time commitments for that travel and

690

for obtaining the resources needed in Mexico to
facilitate meetings, to gather evidence, and to establish facts, would be far greater than what Tahirih currently expends and likely far beyond
our capacity. Assuming a minimum of just
three trips per client at a modest $815 per trip (a
low estimate for complex cases), the travel costs
alone to cover the number of asylum cases for
Latin American survivors we currently serve
would total $457 ,215 per year. And those costs
do not even include the other costs necessitated
by the policy, including but not limited to space
to meet and confer, transportation and possibly
lodging for the clients, funds for international
communication, and the like. For an organization whose operating budget was approximately
$9 million in 2018, those travel costs would require Tahirih to divert 5% of its operating
budget to cover just the added costs of sending
counsel to clients in Mexico. Likewise, at Tahirih, the average time spent in-house on a defensive asylum case has historically been approximately 73.25 hours. If travel time of getting to and from Mexico is added to each case,
assuming the bare minimum of 10 hours of travel
time (5 hours each way) multiplied by 3 trips per
case, the average time per case would jump by
30 hours—a 40% increase.
Even assuming
some level of work on cases while travelling, Tahirih would still be diverting significant staff
time to these cases from other Tahirih cases, as
a result of the MPP.
e.

Risk Related to Practicing Law in Mexico.
Even assuming that Tahirih can cover the costs

691

of transporting its attorneys to Mexico to consult
with clients, there are serious concerns as to
whether those professionals can legally and ethically advise clients there. Many states, including California, forbid their barred attorneys
from practicing law in jurisdictions “where to do
so would be in violation of the regulations of that
jurisdiction.” E.g., Ca. Rules of Professional
Conduct 1-300(b). As a result of the MPP, Tahirih will have to divert substantial resources
into researching and understanding Mexican law
and regulation regarding the practice of law by
foreign lawyers, including complicated questions
of licensing, reciprocity, the effect of NAFTA
(and of any replacement now being negotiated),
and how all of those issues interact with lawyers’
professional obligations in every state in which
any Tahirih attorney or one of its many hundreds of pro bono attorneys is barred. Moreover, there appear to be criminal penalties in
Mexico, including imprisonment, for foreigners
who exercise a regulated profession without
proper authorization.1 And there may be visa
requirements. The risk of professional sanctions at best, and a Mexican prison at worst, may
deter the hardiest of attorneys in a grey legal
area. If Tahirih cannot send enough qualified,
trauma-informed attorneys to work with clients
forced to return to Mexico as a result of the
MPP, we cannot fulfill our mission.
Federal Criminal Code of Mexico, Article 250. There are similar
provisions at various state levels. See e.g. Criminal Code for the
State of Nuevo Leon, Article 255.
1

692

f.

Diversion of resources necessary to attend multiple immigration court hearings in San Diego.
Excluding bond hearings, the typical defensive
asylum case involves at least two, and often four
or more, court hearings. Those hearings require
at least an attorney, often a psychological expert, and sometimes a country conditions expert
to travel and prepare for the court appearance.
When clients live in a community where Tahirih
attorneys are located and are able to have their
cases heard nearby—instead of being forced to
stay in Mexico and litigate their cases near the
border—those travel costs and time are unnecessary. Under MPP as currently implemented,
individuals subjected to MPP are assigned to the
San Diego immigration court, so counsel and witnesses will have to travel to San Diego for every
hearing.

g.

Inability to obtain necessary expert services.
Competent representation of a survivor of genderbased violence often requires obtaining a psychological evaluation. These evaluations are
especially important in asylum cases as they are
relevant to credibility, to corroboration, to giving context for affect and testimony, and to establishing fear of future violence. Tahirih has
a network of professionals who can provide these
services in its various locations. But the MPP
policy would create practically insurmountable
obstacles to obtaining such evaluations for a client forced to remain in Mexico. As traumainformed attorneys, we recognize the critical importance of in-person evaluation for trauma survivors. Therefore, we would need to transport

693

experts to Mexico for those evaluations, again
requiring a substantial diversion of time and
funds for that travel. (Few, if any, of the experts Tahirih uses would agree to evaluate a
trauma survivor remotely, given their professional and ethical obligations, nor would Tahirih
seek out such an evaluation.) In addition, similar foreign professional practice concerns apply
to psychologists as apply to lawyers, requiring
Tahirih to again divert resources to understanding Mexican laws relating to licensing and the
practice of psychology by a foreigner in Mexico.
In short, Tahirih’s mission would be substantially frustrated by the unavailability of professional evidence necessary to establish eligibility
for asylum.
19. Tahirih has also been harmed by the government’s failure to promulgate a new rule or provide an
opportunity for notice and comment before implementing the MPP. To meet its mission of advocating for
survivors of violence, Tahirih routinely submits comments relating to rulemakings on issues that affect our
clients. For example, Tahirih recently submitted comments responding to the administration’s proposed asylum ban, as well as the proposed rulemaking on inadmissibility on public charge grounds. If the government
had engaged in rulemaking, Tahirih would have submitted comments explaining why the MPP is unlawful and
unnecessary.
20. The new policy would also jeopardize some of
Tahirih’s funding streams. Our San Francisco office
receives grant funding from Santa Clara County to provide immigration-related legal services to vulnerable

694

populations. In 2018, that grant totaled more than
$120,000 of available funds; Tahirih receives funds
based on the case services Tahirih provides, and asylum
work is done under that grant. However, the grant
funds can only be used on behalf of individuals who reside in or are employed in Santa Clara County. Under
MPP, fewer individuals will be permitted to enter the
United States pending their removal proceedings,
meaning there will be fewer potential clients for Tahirih
to serve in Santa Clara County.
21. As a result of these new policies, we would have
to significantly alter the way in which we provide services, and we would have to divert significant resources
to do that. To protect the legal rights of the survivors
we serve, we would have to essentially operate on a regular basis in a foreign country, diverting enormous resources from our current structure to develop a legal
and ethical framework to do so with the professionals we
employ and the pro bono lawyers with whom we work.
Likewise, we would be forced to divert funds from our
usual cases to cover the significantly increased expenses
necessary to represent clients in Mexico. Indeed, to
ethically represent our existing client load and meet the
need for services in the communities where we operate,
we would have to hire additional staff or contract attorneys with expertise in providing trauma-informed immigration services to survivors of violence—all of which
would require resources that Tahirih does not have.
We would also have to re-tool our efficient and effective
pro-bono network to search out law firm lawyers willing
to incur the additional time, inconvenience, and professional risk of travel to Mexico for client consultations
and representations, another diversion of resources
from our mission.

695

22. If MPP remains in effect, Tahirih would be able
to handle far fewer asylum cases going forward. In addition to the added costs of serving clients in Mexico, the
additional time required to assist clients subject to MPP
will significantly limit the ability of Tahirih attorneys to
serve additional clients in the United States. By burdening Tahirih’s access to the clients we were established to serve, MPP frustrates Tahirih’s core mission of
providing legal services to survivors of violence and
leaves them stranded in dangerous conditions in Mexico.
/s/

RENA CUTLIP-MASON
RENA CUTLIP-MASON
Executed this 12th day of Feb., 2019

696
DECLARATION OF ELENI WOLFE-ROUBATIS, ESQ.

1. I make this declaration based on my personal
knowledge and declare under the penalty of perjury
pursuant to 28 U.S.C. § 1746 that the following is true
and correct.
2. I am a U.S. licensed attorney practicing in the areas
of immigration law and human rights. I am barred by
the State of Illinois.
3. I am the Immigrant Rights Directing Attorney at
Centro Legal de la Raza (“Centro Legal”), a position I
have held since October 2013. Prior to joining Centro
Legal, I was the Supervising Attorney for the Detention
Project at the National Immigrant Justice Center
(“NIJC”) in Chicago, Illinois, and a Staff Attorney at
NIJC for a combination of eight years.
4. In my current role as Immigrant Rights Directing
Attorney, I oversee Centro Legal’s immigration legal
services, advocacy, and litigation efforts, and I supervise
a team of 18 attorneys who represent detained and nondetained immigrants in removal proceedings. I have
over 11 years of experience representing individuals in
removal proceedings and in immigration nonprofit legal
services program management.
Centro Legal’s Immigration Program

5. Centro Legal is a comprehensive immigration legal
services agency focused on protecting and expanding
the rights of low-income people, particularly Latino immigrants and asylum seekers. Centro Legal provides
legal consultations, limited-scope services, full representation, and legal referrals to over 10,000 clients an-

697

nually in the areas of immigration, housing, and employment. Centro Legal has offices located in Oakland, Hayward, and San Francisco, California.
6. Centro Legal’s immigration practice includes comprehensive, full-service direct representation before
U.S. Citizenship and Immigration Services, the immigration courts (Executive Office for Immigration Review), and federal district courts and courts of appeals;
litigation; legal rights education; local and national advocacy. We specialize in detained and non-detained removal defense, with a particular focus on asylum seekers and the intersection of immigration and criminal law.
Centro Legal provides legal representation for the duration of an individual’s removal case before the Immigration Judge, Board of Immigration Appeals, and the
Courts of Appeal. Additionally, Centro Legal has dedicated partnerships for our clients to access mental
health support and expert reports, clinics, and other social service needs.
7. Centro Legal’s expertise in removal defense and in
working with trauma survivors has allowed us to immediately respond to the need to provide legal representation to asylum seekers in California with a focus on the
East Bay and the Central Valley. Many of our asylum
clients are survivors of domestic violence, family abuse,
child labor, and gang violence.
8. In order to be able to quickly respond to the need
for removal defense for those in immigration proceedings, Centro Legal worked with community groups to
launch the Alameda County Immigration Legal and Education Partnership (“ACILEP”). Through ACILEP,
we represent hundreds of recently arrived asylum seek-

698

ers throughout Northern California and are able to connect them to additional social services. ACILEP is in
line with a core program goal of increasing access to
counsel for asylum seekers in California.
9. Although most of our clients reside in the East Bay
and Central Valley, Centro Legal represents asylum
seekers throughout California, including asylum seekers whose cases are venued in the San Diego Immigration Court and other parts of the state. We also occasionally provide representation to asylum seekers who
live in states outside of California.
10. In 2018, with 38 immigration staff (including 18 immigration attorneys and over 300 pro bono attorneys),
Centro Legal conducted over 8,000 consultations and
provided full scope representation in 3,238 cases. Of
those cases, Centro provided full scope representation
to 1,234 asylum seekers with 1,149 of them being in removal proceedings. Therefore, asylum seekers in removal proceedings accounted for 35% of our cases in the
past year.
11. While Centro Legal represents clients from all
parts of the world, the majority of asylum seekers we
serve are from Central America. In 2018, of the 1,234
asylum seekers Centro Legal represented, 822 are from
El Salvador, Honduras and Guatemala, meaning 67% of
all our 2018 asylum-seeking clients are from the Northern Triangle. The vast majority entered the U.S. on
land through the southern border with Mexico.
12. Centro Legal has a detailed intake process for case
acceptance of defensive asylum cases (i.e., asylum cases
that are being heard in immigration court). After an

699

initial client meeting, at a minimum we hold a second client meeting to verify information with the client. We
also work on securing additional corroborating evidence
and work closely with local service providers to do so.
13. Our Program further conducts bi-monthly legal orientation programs for those detained at the Mesa Verde
Detention Facility in Bakersfield, California, and provides individualized consultations on available relief to
over 1,000 individuals in detention per year. Similar to
our non-detained case acceptance, Centro attorneys
speak with clients at least twice prior to case acceptance
and spend significant time gathering supporting documentation.
14. In Centro Legal’s experience, for both detained and
non-detained clients, our attorneys having access to clients inside the United States is critical for ethical and
effective representation in asylum cases.
15. To further Centro Legal’s mission of providing comprehensive and effective legal representation to asylum
seekers, Centro Legal regularly assesses the needs of
our target population (i.e., asylum seekers and other immigrants) and develops strategies to ensure those needs
are being met.
16. For example, since 2014, in response to the dramatic
increase Central American asylum seekers traveling to
the U.S., Centro Legal has provided representation,
consults, and legal advice to recently-arrived asylum
seekers in high volume.
17. Moreover, being responsive to community needs
may entail our staff traveling to our target population to
provide services when they are unable to come to Centro

700

Legal themselves. This is a primary reason why Centro Legal prioritizes the representation of detained asylum seekers and has served as the main legal service
provider at the Mesa Verde Detention Facility in Bakersfield.
18. Similarly, after recent changes in the processing of
asylum seekers resulted in large numbers of asylum
seekers having to wait for months in Tijuana, Mexico for
their credible fear interviews, Centro Legal sent a group
of attorneys and legal assistants to Tijuana to assist with
providing asylum seekers with know your rights presentations and case consultations.
19. On average, per staff member the cost per day of
this time in Tijuana was about an average of $630 a day.
Impact of the MPP

20. Centro Legal is included on the list of free legal services providers available to asylum seekers who are returned to Mexico pursuant to MPP.
21. Centro Legal has been retained by three individuals
who are subject to the Migrant Protection Protocols
(“MPP”).
22. The MPP requires that we significantly restructure
our program to meet the needs of asylum seekers returned to Mexico. As noted above, in 2018, 67% of our
asylum in proceedings clients came from El Salvador,
Honduras and Guatemala, and the vast majority entered
through ports of entry on the U.S. southern border.
Serving this population already takes significant resources when clients are within the U.S., and we have
structured our program accordingly to be able to do so.
If Central American asylum seekers are now returned

701

to Mexico pending their immigration proceedings, Centro Legal will not be able to continue our historically
comprehensive representation of this population due to
the strain this policy puts on our resources. As MPP is
expanded to the entire southern border, the MPP will
frustrate our core mission of providing high volume,
comprehensive removal defense representation to asylum seekers because it is practically impossible for us to
do so for clients who are returned to Mexico.
23. At the same time, the MPP will also undermine our
mission by forcing Centro Legal to divert resources
away from our representation of asylum seekers who are
in the United States. As MPP expands, it will cause Centro Legal to substantially limit our representation of
asylum seekers in the United States because of the additional resources required to effectively represent the
increasing numbers of clients who are returned to Mexico.
24. First, forcing asylum seekers to remain in Mexico
frustrates Centro Legal’s ability to know of asylum
seekers in need. Although asylum seekers subject to
the MPP have been provided Centro Legal’s contact information, even if asylum seekers have the funds to call
Centro Legal long distance, they will not be able to participate in Centro’s current intake process. We hold a
monthly intake clinic at which new clients must come in
person for an initial intake to be considered for representation. For detained clients, we conduct intake at
detention facilities in person. Asylum seekers subject
to the MPP cannot participate in our current intake processes. But because asylum seekers subject to the
MPP have been provided with Centro Legal’s contact
information, in order to serve these clients, we would

702

have to divert resources to create a new phone intake
process for those who call us from Mexico.
25. Second, the MPP requires a prohibitively expensive
diversion of resources to meet and work with asylum
seekers returned to in Mexico. Since 2014, Centro Legal primarily has conducted intake through Know-YourRights presentations and intake clinics, where we meet
with asylum seekers and other immigrants in person.
This work already requires the time of 15 staff members
every month. Attempting to meet the needs of asylum
seekers returned pursuant to the MPP will require that
Centro Legal expend significant resources to travel to
Mexico to conduct intakes and initial consultations.
26. Representing asylum seekers returned to Mexico
also will require significant additional resources. A defensive asylum case, including intake and case preparation, requires at a minimum 5 in-person client meetings
and likely more. In our experience, in person meetings
with asylum seekers are required to elicit the extremely
personal and often upsetting detailed information needed
for asylum cases. This is challenging for all clients but
even more so for traumatized asylum seekers who have
to inform their attorneys of the often painful details of
past harm and future fear in the course of their case
preparation.
27. As noted above, the average cost of sending an attorney to Tijuana is on average $630 per day. In addition to the cost of those meetings, we will have to cover
our attorneys’ trips to San Diego to appear at the immigration court for master calendar and merits hearings.
On average we anticipate this will cost about $300 per

703

day. For one client with an average of 5 client meetings and 3 court hearings, that is about $3,150 in direct
additional costs.
28. In addition to these direct costs, Centro will have to
absorb the loss of staff time. Having to divert so many
resources from Centro Legal’s already under-resourced
team will likely make it impossible for us to represent a
high volume of asylum seekers who are awaiting proceedings while physically in Mexico. Given the client
and other commitments by existing Centro attorneys
and staff, effective and ethical representation of clients
in Mexico will require Centro to either hire substantial
additional staff or significantly lower the number of
cases of asylum seekers in the United States that we accept.
29. Third, for Centro staff to engage in ongoing work in
Mexico, Centro Legal will have to use significant resources to research or hire counsel to advise us on the
requirements under both U.S. and Mexican law for our
attorneys to practice in Mexico.
30. Fourth, the MPP frustrates Centro Legal’s ability
to obtain critical psychological experts for the proper
presentation of asylum claims. Such evaluations are
often critical in asylum cases to assist with corroboration requirements, can be relevant to credibility determinations, often assist the judge in understanding the
impact of trauma on an applicant’s presentation and testimony, and speak to the required element of subjective
fear. Once we have accepted an asylum case for representation, we connect our clients to our existing network
of pro bono service providers for social and psychological needs. These connections are critical for clients to
be able to fully participate in their case preparation and

704

to assist our attorneys in obtaining corroborating evidence for submission in support of our clients’ asylum
claims. We have established a network of pro bono
providers of such services throughout Northern California and the Central Valley. Even if some of our pro
bono psychologists would be willing to travel to Mexico
to meet with clients, it is a significant diversion of resources for Centro Legal to cover costs for an expert’s
travel, lodging, meeting space and related needs for
each case. Furthermore, Centro Legal would need to
dedicate additional resources to work with psychologists
on researching what additional licensing or visa requirements they would need to be able to conduct work in
Mexico.
31. Fourth, the MPP will undermine Centro Legal’s pro
bono program. Centro Legal has a robust pro bono
program with about 500 pro bono attorneys at about 32
national law firms. We place asylum cases for representation with pro bono teams and provide ongoing
training and mentorship throughout the case. If clients are not able to be in the United States while their
court hearings are pending, we will not be able to place
their cases with pro bono counsel. This would frustrate our entire pro bono program which is one of the
core manners in which we are able to provide a high volume of representation to asylum seekers in proceedings.
32. Finally, in addition, the resources Centro will have
to divert to serving clients returned to Mexico will detract from our work with clients living in the U.S. If
staff have to travel to Mexico to represent asylum seekers, that is time taken away from work that includes legal work on our current client cases, client meetings, in-

705

take with new potential clients in the U.S., and the education or advocacy work that our staff is also responsible
for. Having to divert resources and staff time to clients in Mexico who are subject to the MPP will result in
Centro Legal having to accept many fewer defensive
asylum cases for representation for clients who reside
within the U.S.. This is a direct frustration of Centro
Legal’s Immigration Program’s mission to increase the
number of individuals who have access to removal defense services.
Lack of Notice and Opportunity to Comment

33. Because of MPP’s profound impact on Centro Legal’s mission, ability to function as an organization, and
resources, we would have submitted detailed comments
to explain why the rule would threaten our work and
harm our clients had we be given notice and an opportunity to respond. Centro Legal has previously submitted comments on the proposed rule public charge
rule.
34. However, because MPP was announced through
policy guidance documents, and not as a rule, there was
no public comment period, and we were not able to participate in this way.
Dated:

2/16/19

/s/

ELENI WOLFE-ROUBATIS
ELENI WOLFE-ROUBATIS, ESQ.

706
FIRST DECLARATION OF STEPHEN W. MANNING,
ESQ.

I, Stephen W. Manning, declare as follows:
1. I am an attorney licensed to practice in the State
of Oregon and am a member in good standing of the bars
of the U.S. District Court for the District of Oregon, the
U.S. Court of Appeals for the Ninth Circuit, and the Supreme Court of the United States. I am a member of
the American Immigration Lawyers Association (AILA),
a former member of the Board of Governors of AILA,
and a former Chair of the Oregon Chapter of AILA. I
am over 18 and have personal knowledge of the facts described herein.
2. I am the Executive Director of the Innovation
Law Lab (“the Law Lab”), a nonprofit that I founded to
improve the legal rights and well-being of immigrants
and refugees by combining technology, data analysis,
and legal representation. The Law Lab seeks to advance the legal rights of immigrants and refugees in the
United States, with a focus on providing and facilitating
representation to asylum seekers through innovative,
technology-drive models. The Law Lab operates sites
in Portland, Oregon; Oakland, California; San Diego,
California; San Antonio, Texas; Kansas City, Missouri;
Charlotte, North Carolina; and Atlanta, Georgia.
3. In my role at the Law Lab, I led the organizing
of the Artesia Pro Bono Project in 2014 and the Dilley
Pro Bono Project in 2015, both of which are detentionbased projects that provided universal representation to
detained families in rapid removal proceedings. I designed the model for the Southeast Immigrant Freedom
Initiative, a project run by the Southern Poverty Law

707

Center in collaboration with the Law Lab, to provide
representation to adult noncitizens detained at immigration facilities in the Southeastern United States in 2017.
4. In 2015, I was awarded the AILA Founder
Award as a person who had the most substantial impact
on the field of immigration law or policy in relation to
my work. In 2017, I was named the most innovative
lawyer in North America by Financial Times for my
work in creating these immigrant and refugee representation detention-based projects.
In 2018, I was
awarded the international Child 10 prize for contributions related to my work representing the legal rights
and interests of migrant children and families seeking
asylum.
5. In support of our mission, the Law Lab has focused on building representation projects around the
United States using its innovative model. I designed
and direct the pro bono representation project called the
Centers of Excellence, which provide support to noncitizens and their pro bono attorneys including legal, technical, and strategic assistance in the preparation and
presentation of asylum claims in immigration proceedings. Through the Centers of Excellence, I direct representation projects in Georgia, Kansas, Missouri, North
Carolina, and Oregon. For example, in Oregon, under
my direction, approximately 125 pro bono lawyers have
been trained on asylum and removal defense. I am currently expanding the pro bono Centers of Excellence to
sites in Texas, New Mexico, and California.
6. Much of our work has involved designing and implementing collaborative legal representation programs
for noncitizens in detained and non-detained settings
across the United States. To do so, the Law Lab uses

708

its technology for data-modeling to estimate when and
how long attorneys and other legal workers must interview, confer with, and consult with clients in order to
provide critical, successful representation. These estimates provide a foundation for the design of the Law
Lab’s representation models, which have proven successful when measured by client outcomes: most individuals served by our programs ultimately are able to
obtain the relief that they seek.
7. The Law Lab’s work in Oregon, South Carolina,
Kansas, and Georgia is illustrative of how our organization directs the use of its resources in order to achieve
its mission. In Oregon, for example, the Law Lab recently created a representation project around the civil
detention of asylum-seeking immigrant men at the Federal Detention Center in Sheridan, Oregon. I directed
the use of Law Lab resources to create, implement and
sustain the project. This included investment in technology resources, providing adequate staffing for representation and technical assistance, and staffing to create
training systems and to provide training and support to
almost 200 legal advocates and community members.
Through the Oregon Center of Excellence, the Law Lab
deploys its resources to train, engage and support pro
bono attorneys to provide direct representation, uses its
staffing resources to train and supervise community
navigators to provide community-based access to legal
resources for asylum-seekers and others, and uses its
staffing resources to engage in supported pro se assistance for individuals queued for an attorney placement.
8. In Georgia, under my direction, the Atlanta Center of Excellence has trained more than 55 pro bono law-

709

yers on asylum and removal defense and dozens of individual cases have been placed for representation at the
Atlanta Immigration Court and before the Department
of Homeland Security (DHS) immigration component
offices within the jurisdiction. We have invested time,
dedicated staff, and money to managing the pro bono
lawyers and the client cohort. Using dedicated staff,
Law Lab has developed an innovative model for pro se
assistance that provides basic legal information to asylum seekers so they can comply with the requirements
of immigration court while they are queued for legal
representation. In 2019, under my direction, the Law
Lab organized pro se asylum workshops in Georgia, and
manages regularly occurring workshops for asylum
seekers in Atlanta’s immigration court. In addition to
organizing and managing the workshops, the Law Lab
has developed comprehensive syllabi for training attorneys to provide pro se services.
9. In Kansas and Missouri, the Kansas City Center
of Excellence has deployed a technology tool called the
“Navigator Portal” to advocates, service providers, community organizers, local attorneys, and others in order
to create a streamlined intake mechanism to associate
pro bono counsel and asylum-seekers in immigration
proceedings needing representation.
We have invested in the technology, dedicated staff—both legal
and operations staff as well as software engineers—to
our programming in the jurisdiction. Like Atlanta and
Oregon, we have dedicated time, money, and staff to developing training materials, presenting trainings, managing attorney on-boarding and client on-boarding in order to provide representation. The Law Lab has deployed, with staff, time, and resources, its pro se legal

710

services model to asylum-seekers while they seek representation for potential placement within our network.
We have also designed and worked closely with local
partner nonprofit organizations to launch a large-scale
pro bono bond representation clearinghouse which locates detained individuals through the use of Law Lab
trained hotline dispatchers or community referrals via
our technology. The Law Lab then provides a basic legal orientation to detained individuals and their loved
ones and works closely with volunteers to screen cases
for potential pro bono placement for that individual’s
bond hearing. In addition to this work, in 2019, under
my direction, the Law Lab is committed to launching
monthly pro se asylum workshops for asylum-seekers in
Kansas and Missouri as well as continuing to design and
implement a decentralized Legal Orientation Program
at U.S. Immigration and Customs Enforcementcontracted Missouri and Kansas county jails.
10. In North and South Carolina, the Law Lab operates the Charlotte Center of Excellence to provide pro
bono placements, trainings, and support to several attorneys and clients appearing before the Charlotte Immigration Court. In South Carolina, the Law Lab has
invested time and resources and dedicated substantial
staff time to a pro bono representation project for individuals in the credible fear process at a detention site in
Charleston.
11. From the Law Lab’s Oakland, California site,
the Law Lab collaborates with advocates throughout
northern California to provide support for detained representation at the San Francisco Immigration Court.

711

12. An important component of our work that drives
our mission and requires an investment is our technology resources. The Law Lab employs software engineers to maintain its technology and create software deployments that support our models across the United
States.
13. The “Migrant Protection Protocols” (MPP),
originally termed the “Remain in Mexico” policy, under
which asylum seekers are sent back to Mexico during
the pendency of their immigration proceedings, have
frustrated our mission to obtain asylum and other relief
for asylum seekers, and have forced us to respond by
diverting the Law Lab’s resources away from our core
services.
14. At the time the MPP was put into place, the Law
Lab’s staff were already engaged in the work described
above in Oregon, California, New Mexico, South Carolina, and other parts of the United States—developing
service models at existing detentions centers, building
relationships, attending to client needs, meeting deadlines, developing facts and case theories, and making
timely contacts with witnesses and community partners.
Each of these time- and resource-intensive services is
required in order to meet the needs of potential and actual clients seeking asylum and in immigration proceedings in the United States.
15. Since the Department of Homeland Security began implementation of the MPP on January 25, 2019, the
Law Lab’s projects, and the attorneys and staff who
manage those projects, have shifted their organizational
focus, time, resources—and themselves, physically—to
Tijuana, Mexico, far from critical, ongoing matters and
clients in detention spaces across the United States.

712

In the time that the MPP has been in effect, the Law
Lab has had a significant portion of its attorneys and
staff members in Tijuana, attending to the needs of individuals who have been returned to Mexico and are in
need of legal representation. The Law Lab has had to
do so because the MPP makes it more difficult for asylum seekers to obtain legal representation and to successfully pursue their claims, and therefore threatens to
hinder the Law Lab’s ability to provide its core services.
16. This significant diversion of the Law Lab’s resources, which has been necessary to counter the frustration of our mission and meet the needs of individuals
returned to Mexico, vastly diminishes our operational
capacity on both sides of the border.
17. Asylum seekers who have been returned to Mexico would be served in a more effective, less costly, and
timelier fashion had they instead been processed and allowed into the United States for the pendency of their
immigration proceedings. They would also avoid danger and the risk of harm at shelters and refugee camps
in Mexico. And, had they been allowed to remain in the
United States, they could leverage local contacts and resources to gather evidence, contact witnesses, and translate essential documents from a safe location and in
close proximity to the Law Lab and similar programs
that can provide them with the orientation and technical
assistance they need. But because these asylum seekers are instead detained in Mexico, the Law Lab staff
must spend precious resources coordinating those essential tasks while abroad. By shifting organizational
focus to Tijuana, the Law Lab and other programs will
spend more money, time, and staff resources, at greater
personal risk, to assist individuals who would otherwise

713

have qualified for and received assistance in the United
States with greater ease.
18. No duplicative or equivalent services are available to asylum seekers in Tijuana. There are relatively
few U.S. attorneys who are practicing law in Tijuana and
are accessible to the individuals who have been subject
to the MPP, and even fewer who are capable of taking
on individual asylum cases. The Law Lab and our collaborating partners in the United States provide virtually the only chance for the increasing number of asylum
seekers in Tijuana to obtain legal assistance for their
immigration proceedings.
19. To provide effective client intake, a majority of
the Law Lab legal program staff has been required to
travel abroad to Tijuana and/or provide remote legal,
technical, or operational support to ensure access to legal services for the asylum seekers who have been returned. This travel, combined with the investment
that has been necessary to build and operate a representation project abroad, has been extraordinarily expensive, particularly on our nonprofit organization’s already limited budget. The process of deploying the
Law Lab’s immigration case technology in a new, remote location has been especially complicated.
20. On the ground, the Law Lab must make timeand resource-intensive arrangements to ensure staff
and client safety in Tijuana, where people—including
foreign and humanitarian aid workers—routinely face
significant danger and violence in the streets. This includes traveling only in groups, making special travel
arrangements, traveling only at certain times of the day,
and spending additional resources to ensure data privacy and security in the event of theft or kidnapping.

714

Taking additional precautions costs money and attention, focus, and time away from the critical legal services
that our clients need.
21. The necessary diversion of resources to Tijuana
to respond to the MPP has had a broad, negative impact
on our ability to deliver critical legal services to our existing clients, through our existing programs, which in
turn impacts our effectiveness as an organization.
Since Law Lab’s resources have been almost entirely diverted to Mexico, legal service providers and asylumseeking clients in California, New Mexico, Texas, Oregon, and South Carolina have seen a significant reduction in our service abilities as a direct result of the MPP.
22. The Law Lab’s attorneys and legal staff are also
unfamiliar with the laws of Mexico, including those laws
relating to the legal status of migrants, and in particular
asylum seekers who have been returned to Mexico under MPP. This makes it virtually impossible for the
Law Lab to fully represent its clients without significant
investment into outside legal resources, as the Law
Lab’s attorneys and staff are unable to advise them of
any changes to their legal status in Mexico, conduct or
circumstances that might give rise to a change in legal
status in Mexico, or how that status impacts their pending proceedings in U.S. immigration court.
23. The challenges have only increased since February 13, 2019, when DHS began to return families seeking asylum at the San Ysidro port of entry to Mexico
pursuant to the MPP—including a family with a oneyear-old child. Prior to that date, DHS had only applied its new return policy to adults traveling individually. On February 14, 2019, the very next day, we be-

715

gan to receive referrals for families who had been returned to Mexico under the MPP. In collaboration
with partners, we are reaching out to at least two families who we believe were returned to Mexico under MPP
in the past week. Addressing the complex legal issues
and unique vulnerabilities of asylum-seeking parents
and children returned to Mexico will take significant resources and staff time.
24. In sum, every single one of Law Lab’s existing
programs has been and will be significantly affected by
the extraordinary diversion of resources that has been
necessary to respond to the MPP. The MPP has caused,
and will continue to cause, significant barriers to our
ability to fully and effectively serve our clients, frustrating our mission and putting at risk the likelihood that
our clients will be able to obtain the relief that they seek.
The Law Lab’s resources have been strained, and will
continue to be strained, because of the procedural and
logistical barriers that the MPP has imposed on our ability to conduct our legal representation programs. The
MPP operates only to put asylum seekers even further
away from the critical legal services they need and the
due process protections that our Constitution demands.
25. The MPP has frustrated our mission and will
harm our organizational model. A primary component
of our work is training pro bono attorneys to maximize
the number of individuals represented in immigration
proceedings. Statistics plainly indicate that a represented individual has a significantly better chance at a
positive outcome in removal proceedings than an unrepresented individual. The MPP frustrates our model
because by returning asylum seekers to Mexico, fewer
pro bono attorneys will be able to engage in the process

716

of representation. The pro bono attorneys within our
trained network do not have the time, skill, or capacity
to represent an individual returned to Mexico who is in
removal proceedings. Even though we make limited
use of video or telephone communications, our model requires that attorneys provide a substantial portion of
their representation through in-person face-to-face interactions. The Law Lab experience indicates that
face-to-face interactions between a client and lawyer
significantly improve the client outcomes and create improved efficiencies in the representation process. However, because the MPP return asylum-seekers to Mexico, our ability to recruit and retain pro bono lawyers
will be compromised and the Law Lab mission and
model will be frustrated.
26. Had the government engaged in notice-andcomment rulemaking implementing the MPP, the Law
Lab would have submitted comments explaining why
the MPP is unlawful and harmful. The Law Lab is
committed to providing well-researched, data-driven
public comment and legal analysis of regulations affecting our organization and our clients. For example, the
Law Lab co-leads an initiative called Protect Oregon’s
Immigrant Families to respond to the proposed “public
charge” regulation change. The Law Lab collected
data, drafted sample materials, provided targeted research, and engaged in outreach to diverse organizations and individuals in promoting public knowledge and
discussion about the public charge proposed rule. The
Law Lab provided its own comments, and also supported individuals and organizations in submitting their
own. Similarly, the Law Lab provided legal analysis
and support to over 35 local organizations commenting
on the proposed Flores rule. Law Lab staff filed their

717

own comments and public opposition to the proposed
Flores regulation changes with the Federal Register.
Finally, last month the Law Lab filed a comment, along
with other organizations, on the asylum ban rule, Aliens
Subject to a Bar on Entry Under Certain Presidential
Proclamations.
I hereby declare under the penalty of perjury pursuant to the laws of the United States that the above is
true and correct to the best of my knowledge.
EXECUTED this 18th day of Feb. 2019.
/s/

STEPHEN W. MANNING
STEPHEN W. MANNING, OSB # 013373

718
DECLARATION OF NICOLE RAMOS

I, Nicole Ramos, declare under the penalty of perjury
pursuant to 28 U.S.C. § 1746:
1.

I make this declaration based on my personal
knowledge except where I have indicated otherwise. If called as a witness, I would testify competently and truthfully to these matters.

2.

I am a U.S. licensed attorney practicing in the
areas of immigration law and human rights. I
am barred by the State of New York, and I am a
former Assistant Federal Public Defender. I
am over the age of 18.

3.

I am the Project Director for the Border Rights
Project of Al Otro Lado, a nonprofit legal services organization based in Los Angeles. Al
Otro Lado’s mission is to provide screening, advocacy, and legal representation for individuals
in asylum and other immigration proceedings, to
seek redress for civil rights violations, and to assist deportees, refugees, and other indigent immigrants with legal and social service needs.

4.

Through its Border Rights Project, Al Otro
Lado hosts legal orientation workshops in migrant shelters in Tijuana, Mexico, and provides
legal representation to detained asylum seekers
in Southern California. As part of this representation, our staff accompany some asylum
seekers who wish to present themselves to Customs and Border Protection (CBP) officers at
the San Ysidro Port of Entry and represent
them at their credible or reasonable fear inter-

719

views before asylum officers with U.S. Citizenship and Immigration Services (USCIS). To
expand our capacity, Al Otro Lado frequently recruits and trains pro bono attorneys to assist
with legal orientation workshops in Tijuana
migrant shelters, border accompaniment, and
credible/reasonable fear representation. We
also work with asylum seekers and other community advocates to document human rights violations by both U.S. and Mexican immigration
authorities against asylum seekers.
5.

Al Otro Lado routinely provides representation
to individuals, including asylum seekers, who are
in Tijuana. On average, Al Otro Lado and our
volunteer attorneys provide representation to
dozens of individuals per year in their credible
or reasonable fear interviews. Through our
shelter clinics, we help an additional 1,000 people
per year prepare for their credible fear interviews. If an individual becomes eligible for bond
or parole after passing a credible or reasonable
fear interview, Al Otro Lado often provides representation in bond proceedings or through a
written request for parole. Al Otro Lado has
an impressive success rate on bond, with the vast
majority of clients represented securing release
from detention. If an individual remains in the
Los Angeles area following release, our Los Angeles office continues to represent him or her in
removal proceedings before the Los Angeles immigration court. If the client moves to another
jurisdiction, Al Otro Lado makes diligent efforts
to connect the client with local pro bono counsel.

720

6.

Al Otro Lado’s Los Angeles office also provides
legal representation and other advocacy for
chronically and terminally ill immigrants. This
includes filing affirmative asylum applications
with USCIS, assisting them in seeking other
types of immigration relief, and helping them replace lawful permanent resident cards that have
been lost.

7.

The implementation of the Remain in Mexico
policy has stretched Al Otro Lado’s capacity beyond the breaking point. Our already-strained
staff has been forced to pull their attention from
integral projects to identify and respond to the
urgent needs of asylum seekers indefinitely
stranded in Mexico.

Processing of Asylum Seekers at the Southern Border

8.

In December 2017, the Assistant Port Director
for the San Ysidro Port of Entry, Sally Carrillo,
informed me that CBP had capacity to process
up to 319 people per day. Since that time, the
port of entry underwent construction for an expansion. However, since November 2018, CBP
has been processing only an average of 30-50
people per day. Individuals who want to seek
asylum must add their names to a waiting list
(“The List”) that is managed by another asylum
seeker, the “list supervisor,” under the direction
of Grupo Beta, a division of the Mexican Instituto Nacional de Migración (INM). Only asylum seekers whose names are on the list are able
to present themselves at the Port of Entry, but
not all migrants have access to The List. Asylum seekers are assigned a number and told to

721

come back when their number is called to present themselves. There is no easily-accessible
source of information for estimating when certain numbers will be called.
9.

Our office has had significant contact with certain individuals who have been involved in managing The List. Based on conversations with
INM officials and statement in the Mexican
press, we understand that CBP officials inform
Grupos Beta on a daily basis of the number of
individuals they can process that day. Grupos
Beta then gives that number to the list supervisor. Every morning in Plaza Chaparral, which
is outside the Pedestrian West bridge at the San
Ysidro Port of Entry, the list supervisor announces the number of people who can be processed that day and then begins to read numbers, along with the ten names attached to each
of those numbers. For instance, if CBP has indicated that they can process 20 people, the list
supervisor will read names until 20 people come
forward.

10. The list manager does not progress through the
numbers in a manner that makes it possible to
predict when a number will be called because
daily capacity changes. In addition, Al Otro
Lado is aware of bribery to get names moved
up on The List. In order to determine what number is up, individuals must travel to the San
Ysidro Port of Entry to hear the names and numbers read.

722

11. If individuals are not at the Port of Entry when
their numbers are called, they miss their opportunity and they must receive a new number at
the bottom of the list. At this time, Al Otro Lado
estimates that over 21,0001 names have been on
The List since its inception and that the waitlist
currently contains approximately 2,400 names.
12. At present, the estimated time that individuals
are waiting for their numbers to be called is between four and six weeks.
13. On January 28, 2019, the government began implementing the Remain in Mexico plan, or “Migration Protection Protocols” (“MPP”). As before, individuals whose numbers are called are
able to approach the port of entry to seek asylum. However, under MPP, some of the individuals processed by CBP receive a Notice to
Appear (“NTA”) for immigration proceedings in
San Diego, and are returned to Mexico to await
their hearing dates.
Harm to Al Otro Lado

14. The implementation of Remain in Mexico has expanded Al Otro Lado’s workload exponentially.
Over the past two years, Al Otro Lado staff and
volunteers have spent countless hours attending
to the emotional and mental health needs of individuals who have been waiting in Mexico for
their numbers to be called. These needs will
only multiply as individuals are forced to return

This includes individuals who have added their names multiple
times because they missed the day when their numbers were called.
1

723

to Tijuana for the duration of their immigration
court proceedings because the affected population will expand.
15. Al Otro Lado is well-known among asylum seekers in Tijuana as a source of information and
support. As individuals are returned to Mexico
through MPP, they have begun coming directly
to our office to seek assistance, with the result
that the number of requests for our assistance
has increased. Individuals who have been subject to MPP generally do not know what has happened to them and often report to volunteers
that they have been deported. As a result,
AOL staff or volunteers must take time away
from other critical tasks to review their documents, answer their questions, interview them
regarding their interactions with U.S. immigration officers and the conditions of detention they
endured, and assess their underlying asylum
claims for placement with pro bono attorneys.
16. The implementation of MPP has required us to
overhaul our workshop programming. We routinely conduct workshops in our office to explain
the credible fear process, the possibility of family separation by DHS, harsh conditions of detention in CBP and ICE custody, and the likelihood of long-term detention in the United States.
The workshop information is reinforced through
videos, a mobile-friendly PowerPoint, and printed
materials. Since MPP started, we have had to
update the workshop curriculum to incorporate
information regarding this new process, including the requirement that asylum seekers must

724

affirmatively state a fear of persecution Mexico
in order to obtain a screening interview that
might preclude their return to Mexico. This
has required us to update our volunteer training
and know-your-rights presentations, and overhaul our training materials, a process which is
still underway.
17. MPP has been a source of confusion for both our
volunteers and the migrants in our workshops.
The questions are often complicated and require
significant staff time to ensure that volunteers
have a sufficient grasp of the issues to provide
an informed response.
18. As the only immigration legal service providers
in Tijuana, it is AOL’s responsibility to ensure
that individuals returned under MPP have access to at least basic orientation information
about asylum, immigration court proceedings,
and MPP itself. For this reason, we are endeavoring to conduct intakes with all the individuals who have been returned under the MPP.
Every day, we send between six and ten volunteers to the port of entry to assist individuals being returned. Due to the sensitivity of those interactions, AOL staff spend precious time carefully selecting volunteers for this task and providing those volunteers with training on traumainformed interviewing. This takes take away
from other important work.
19. Since the Remain in Mexico policy was implemented, Al Otro Lado has been forced to divert
significant staff resources to helping returned
migrants in Tijuana to find safe housing and

725

providing emotional support. At times, staff
are unable to respond to requests for legal advice and other information because they are focusing on meeting the urgent security and psychological needs of many vulnerable asylum
seekers who are in great danger in Mexico.
20. Al Otro Lado also sends volunteers to Plaza
Chaparral in the mornings when the list manager reads the names and numbers. Because
many individuals waiting to seek asylum are unfamiliar with MPP, we attempt to speak with
them before they are taken to the port of entry
to ensure that they know their rights. This requires our staff time to train the volunteers to
have rapid conversations about MPP with individuals whose numbers are called.
21. Most returned asylum seekers will not be able to
retain legal counsel from Mexico because they
do not have funds to make international calls or
regular internet access, which would also make
ongoing attorney-client communication very difficult, if not impossible. Receiving confidential
attorney-client correspondence at a public internet cafe also presents security risks. For example, if members of transnational criminal organizations intercept such documents, the asylum seeker could be at even greater risk. Moreover, U.S.-based private attorneys generally do
not have the time or resources to travel to Tijuana to meet with their clients and prepare
them for their hearings in immigration court.
22. For these reasons, we are beginning to develop
workshops to provide pro se support to those

726

who do not understand how to complete the asylum application, which is written entirely in English. This will require our staff efforts to create
a new curriculum and volunteer training materials. It will also pull volunteer resources away
from outreach efforts and general know-yourrights workshops. In order to accommodate
the large groups we anticipate, we may have to
stop providing any other services on certain days
of the week.
23. As a result of our ongoing emergency response
to MPP, AOL staff have been unable to complete
work for existing clients in removal proceedings.
Because of volunteers’ frequent need to consult
with staff regarding difficult questions raised
during workshops or other interactions with asylum seekers, staff are constantly interrupted
while attempting to do case work. I have personally struggled enormously to finish briefs for
clients with upcoming hearings.
24. AOL is currently unable to take on any new clients due not only to lack of staff resources but
also to the lack of space for confidential client
meetings.
Meetings with returned asylum
seekers, and those who may be returned, have
taken what was left of our available office space.
To the extent that nonprofit legal service providers are willing to provide representation to returned asylum seekers in Tijuana, our office will
become even more overcrowded.
25. Al Otro Lado has historically attempted to play
asylum cases with pro bono attorneys for clients
we are unable to represent. However, most

727

private attorneys providing pro bono support do
not have the time or resources to come to Tijuana or other parts of Mexico to meet with returned asylum seekers.
26. If MPP continues and the population of asylum
seekers in Tijuana continues to grow, our five
staff members in our Los Angeles office will
have to start making regular trips to Tijuana to
provide support for workshops, assist in monitoring the port of entry, and undertake individual case work as it arises. This will divert resources from the services Al Otro Lado provides
to chronically and terminally ill immigrants in
Los Angeles and prevent us from fulfilling a critical part of our mission.
Dangers in Mexico for Asylum Seekers

27. Individuals who arrive at the southern border to
seek asylum in the United States are fleeing
some of the most dangerous countries in the
world.
28. Although asylum seekers come to the southern
border from all over the world, the vast majority
come from El Salvador, Guatemala, and Honduras, an area often referred to as Central America’s “Northern Triangle.” A 2015 UNHCR report described those countries as having “epidemic levels of violence.”2 Their murder rates

UNHCR, Women on the Run: First-Hand Accounts of Refugees Fleeing El Salvador, Guatemala, Honduras, and Mexico, (October 26, 2015), https://www.unher.org/en-us/publications/operations/
5630f24c6women-run.html (“Women of the Run”).
2

728

register as among the highest in the world. 3
The degree of violence suffered by people in the
Northern Triangle has been compared to that
experienced in war zones.4
29. Those who leave the Northern Triangle often
are running from life-or-death situations, leaving everything behind to make a dangerous journey. In particular, violence against women by
criminal armed groups has escalated dramatically, and home governments have been unable
or unwilling to provide effective protection.5
30. Asylum seekers fleeing their home countries in
Central America face an arduous journey to the
United States, involving a high risk of violence,
including sexual assault, along the way. 6 In
2015 and 2016, 68% of migrants from the North-

3
The Wall Street Journal, “Why are People Fleeing Central
America? A New Breed of Gangs is Taking Over,” (Nov. 2, 2018)
(“With the highest homicide rate of all countries in the world, El Salvador is a nation held hostage.”: NBC News, “Amid political unrest, violence in Honduras, TPS holders in U.S. worry about their
fate,” (Feb. 22, 2018). https://www.nbcnews.com/news/latino/amidpolitical-unrest-violence-honduras-tps-holders-u-s-worry-n850241
(“Honduras is among the countries with the world’s highest rates for
murder, violence and corruption”).
4
Médicins San Frontiéres (Doctors Without Borders), Forced to
Flee Central America’s Northern Triangle: A Neglected Humanitarian Crisis, (May 2017, https://www.msf.org/sites/msf.org/files/
msf_forced-to-flee-central-americas-northern-triangel_e.pdf (“Forced
to Flee”).
5
See, e.g., Women on the Run at 16, 23.
6
Forced to Flee at 11, Women on the Run at 43-45.

729

ern Triangle region experienced violence, including sexual assault, on their journeys through
Central America and Mexico.7
31. Although those traveling by land cross through
Mexico before reaching the United States, for
many, remaining in Mexico is not an option.
Rates of violence in Mexico have been increasing
as of late; 2018 was the deadliest year on record,
surpassing the previous record number of homicides in 2017 by 15%.8
32. Migrants and refugees in Mexico are at risk of
kidnapping, disappearance, trafficking, and sexual assault, among other harms.9 Lesbian, gay,
bisexual, and transgender persons, as well as
people with indigenous heritage, regularly have
been subject to persecution in Mexico.10 Perpetrators of violence against migrants “include[]

Forced to Flee at 11.
See CNN, “Mexico sets record with more than 33,000 homicides
in 2018” (Jan. 22, 2019) https://www.cnn.com/2019/01/22/americas/
mexico-murder-rate-2018/index.html (citing to a report released by
Mexico’s Secretariat of Security and Citizen Protection).
9
Human Rights First, Mexico: Still Not Safe for Migrants and
Refugees (Mar. 2018), https://www.humanrightsfirst.org/sites/ default/files/Mexico_Not_Safe.pdf (“Mexico: Still Not Safe”) at 1.
10
The San Diego Union Tribune, “Should asylum seekers heading
to the U.S. stay in Mexico?” (May 21, 2018), http://www.sandiegounion
tribune.com/news/immigration/sd-me-safe-country-20180518-story.
html.
7
8

730

members of gangs and other criminal organizations, as well as members of the Mexican security forces.”11
33. Mexico’s northern border region is particularly
plagued with crime and violence, presenting renewed dangers for asylum seekers just as they
approach their destinations.12
34. In my experience, a significant proportion of migrants coming to the southern border have credible claims to asylum.
35. According to the United Nations High Commissioner for Refugees, in fiscal year 2015, 82 percent of women from El Salvador, Guatemala,

Forced to Flee at 5; see also Refugees Int’l, Closing Off Asylum
at the U.S.-Mexico Border 9 (2018), https://static1.squrespace.com/
static/506c8eale4b01d9450dd53f5/t/5b86d0a18825lbbfd495ca3b/1535
561890743/U.S.-Mexico+Border+Report+August+2018+FINAL.
pdf (explaining that when crossing Mexico, migrants suffer “abuses
at the hands of organized crime, exploitative smugglers, and predatory state security and police”).
12
See Mexico Travel Advisory, (reporting violent crime and an increase in homicide in the state of Baja California (encompassing border towns Tijuana and Mexicali) compared to 2016; widespread violent crime and gang activity in the state of Chihuahua (encompassing
border town Ciudad Juarez); widespread violent crime and limited
law enforcement capacity to prevent and respond to crime in the state
of Coahuila (particularly in the northern part of the state); that the
state of Sonora (encompassing border town Nogales) is a key region
in the international and human trafficking trades; and common violent crime, including homicide, armed robbery, carjacking, kidnapping, extortion, and sexual assault in the state of Tamaulipas (encompassing border towns Matamoros, Nuevo Laredo, and Reynosa), where
law enforcement capacity to respond to violence is limited throughout the state).
11

731

Honduras, and Mexico who were subject to a credible fear screening by an asylum officer were
found to have a significant possibility of establishing eligibility for asylum or protection under
the Convention Against Torture.13
36. Between fiscal years 2014 and 2016, 8,848 people
from El Salvador, Guatemala, and Honduras were
granted asylum affirmatively, and 3,502 people
from those countries were granted asylum defensively.14
37. Mexico is not a safe place for asylum seekers to
wait for their hearings. The region of Mexico
near the border with the United States is in a
particularly violent area with limited law enforcement capacity.15 Tijuana, in particular, is
experiencing record levels of violence; 2017 saw
the highest annual number of homicides ever
recorded,16 with a murder rate higher than many

Women on the Run at 2, n.2.
U.S. Dep’t of Homeland Security, Table 17. Individuals Granted
Asylum Affirmative By Region and Country of Nationality: Fiscal
Years 2014 to 2016, https://www.dhs.gov/immigration-statistics/
yearbook/2016/table17; U.S. Dep’t of Homeland Secutiy, Table 19.
Individuals Granted Asylum Defensively By Region and Country
of Nationality: Fiscal Years 2014 to 2016, https://www.dhs.gov/
immigration-statistics /yearbook/2016/table19.
15
U.S. Dep’t of State, Mexico Travel Advisory (Aug. 22, 2018),
https://travel.state.gov/content/travel/en/traveladvisories/mexicotravel-advisory.html.
16
San Diego Union Tribune, Control for street drug trade pushes
Tijuana to grisly new records: 1,744 homicides (Jan. 14, 2018), https://
www.sandiegouniontribune.com/news/border-baja-california/sd-mehomicides-tijuana-20180102-story.html.
13
14

732

Central American cities from which asylum seekers are fleeing.17 The numbers were even higher
in 2018: there were more than 2,500 killings in
Tijuana last year. 18 The marked increase in
homicides in recent years has been stark, jumping from 493 in 2014 to 670 in 2015, 910 in 2016,
1,744 in 2017, and the new record, 2,506 in 2018.19
38. Asylum seekers turned back from a port of entry
have been kidnapped and held ransom by cartel
members waiting outside.20 Even shelters outside ports of entry are not always safe, as cartels
often infiltrate them.21 Asylum seekers waiting
in Tijuana shelters are subject to threats and intimidation by transnational criminal groups who
seek to coerce them into paying fees to cross between ports of entry. Over the past few months,
Al Otro Lado has spoken with several families
who were subject to such coercion.
39. Particularly vulnerable are LGBT asylum seekers, children and families with young children,
In 2017, Tijuana was the 5th most dangerous city in the world.
Business Insider, These were the 50 most violent cities in the world
in 2017 (March 6, 2018), https://www.businessinsider.com/most-violentcities-in-the-world-2018-3.
18
Sandra Dribble, San Diego Tribune, Drug trade rivalries pushed
Tijuana homicides to new record in 2018 (Jan 2, 2019), https://
www.sandiegouniontribune.com/news/border-baja-california/sd-mehomicides-tijuana-record-20181226-story.html.
19
Id.
20
Human Rights First, Crossing the Line: U.S. Border Agents Illegally Reject Asylum Seekers, (May 2017), https://www.humanrights
first.org/sites/default/files/hrf-crossing-the-line-report pdf.
21
Id. at 17.
17

733

young women, those seeking asylum based on
political activism in their home countries, and
witnesses to crimes committed by transnational
criminal organizations.22 Delays in processing
asylum seekers can be life-threatening, as individuals are often vulnerable to violence and exploitation while they wait to be processed.23 Al
Otro Lado estimates that 75% of the individuals
we have interviewed have expressed fear of immediate harm in Mexico.
40. LGBT asylum seekers are regularly threatened
and attacked. In May 2018, an unknown person
attempted to burn down a shelter where a group
of LGBT asylum seekers, including several unaccompanied LGBT youth, were known to be
staying and blocked the door to prevent those inside from escaping.
On another occasion,
armed community members pointed a gun at the
LGBT shelter residents while shouting “we do
not want any faggots here.” In addition, a dual
U.S.-Mexican national who was helping LGBT
See Human Rights First, Is Mexico Safe for Refugees and Asylum Seekers? 11 (2018), https://www.humanrightsfirst.org/sites/default/
files/MEXICO_ FACT_SHEET_PDF.pdf (“Gay men and transgender women, for example, flee discrimination, beatings, attacks,
and a lack of protection by police in Mexico.”).
23
See See Blockading Asylum Seekers at POE. (“When asylumseekers are turned away by US authorities, they return to areas
around the Mexican-side POEs. These are characteristically busy
zones of businesses, restaurants, bars, discos, drug sellers, hustlers,
and commercial sex work, although each border port has its own
characteristics. They are areas that increase the vulnerability and
exploitability of non-Mexican migrants with little knowledge and few
resources.”).
22

734

asylum seekers access the wait list near the San
Ysidro port of entry was beaten unconscious by
unknown male assailants and had to be transported to San Diego to receive urgent medical
care.
41. Young women in Tijuana are at high risk of being
trafficked into the sex work industry. Many cannot find jobs, even if they have work authorization from the Mexican government. Numerous
teenagers have been lured by older men or transnational criminal groups in Tijuana into clubs
where they waitress, dance, and eventually are
forced to sell sex.
42. Many cannot find jobs despite being theoretically eligible for employment. Even when individuals waiting in Mexico are able to work to
earn money, they are doing so at their own risk.
Recently, twenty migrants were kidnapped outside Benito Juarez Sports Complex. Despite
promises of paid work, those individuals were
transported to another state where they were
held against their will for several days. During
this period, they were forced to clean blood and
other biological waste from a warehouse. They
finally escaped through a window and made their
way to a shelter, where many members of the
group were recaptured. The kidnappers then
sought to extort money from the victims’ families.
43. Asylum seekers frequently inform us that their
persecutors have found them in Tijuana, and we
do whatever we can to help them find safe places

735

to stay. Victims of domestic violence often report that their abusive partners have traveled to
Tijuana from both Central America and other
parts of Mexico, and are looking for them in the
limited number of shelters. Those who have
fled targeted gang threats or other harm similarly report that their persecutors have located
them in Tijuana.
44. Other migrants are held for ransom by transnational criminal groups near the border some are
kidnapped when they attempt to cross without
paying bribes. I have personally spoken with
asylum seekers who were kidnapped, raped, or
beaten by transnational criminal groups operating on or near the border. In at least two cases,
asylum seekers were forced to watch as members of these groups raped and killed other migrants.
45. If individuals are forced to remain in Mexico for
longer periods of time, their needs will increase
as their security decreases. Al Otro Lado’s
goal is to provide legal services and support that
accompanies asylum seekers from the time they
arrive in Tijuana, through presentation at the
port of entry, detention and resettlement with
family after release, to the culmination of their
legal proceedings in the United States. Remain in Mexico forces our resources from that
progressive model to a state of emergency in Tijuana.
46. Al Otro Lado has also been harmed by the government’s failure to promulgate a new rule or
provide an opportunity for notice and comment

736

before implementing the MPP. If the government had engaged in rulemaking, Al Otro Lado
would have submitted comments explaining why
the MPP is unlawful and unnecessary.
/s/ NICOLE RAMOS
NICOLE RAMOS
Executed on this [13] day of Feb., 2019.

737
DECLARATION OF LAURA SANCHEZ, ESQ.

1. I, Laura Victoria Sanchez, make the following declaration based on my personal knowledge and declare
under the penalty of perjury pursuant to 28 U.S.C.
§ 1746 that the following is true and correct.
2. Since 2010 I have served as the legal director of the
Immigration Legal Program at the Central American
Resource Center of Northern California (CARECEN of
Northern CA), a nonprofit organization that provides
pro bono and low bono immigration services to primarily
low-income, immigrant, Latino, and monolingual Spanish speakers.
3. CARECEN of Northern CA is incorporated in and
has its principal office in San Francisco, California.
4. In my role I oversee the functioning of the Immigration Legal Program. I am responsible for the program’s coordination, process management, and strategic programmatic initiatives. Lastly, I also have my own
caseload that consists of affirmative and defensive immigration cases.
5. I previously worked at CARECEN from 2008 to
2010 as a staff attorney.
CARECEN of Northern CA’s Mission and Scope

6. CARECEN empowers and responds to the needs,
rights, and aspirations of Latino, immigrant, and underresourced families in the San Francisco Bay Area—building leadership to pursue self-determination and justice.
7. Rooted in its cultural strengths and inspired by the
Central American justice struggles, CARECEN envisions our diverse immigrant community as thriving:

738

where families prosper, build effective community institutions, and participate confidently in civic life.
8. CARECEN was founded in 1986 by Central American refugees seeking asylum and other immigration legal services. Since then, we have provided legal counseling and pro se asylum application assistance to thousands of individuals, while providing direct representation to hundreds. A central part of CARECEN’s mission is to provide high-quality legal counseling, representation, and wrap-around social services, such as case
management, mental health therapy, and peer education, to asylum seekers.
9. The vast majority of the individuals we serve entered the United States through the Southern border by
foot. A significant portion of our client population
therefore will be affected by the Migrant Protection
Protocols (MPP).
10. Over the past thirty years, CARECEN has grown
to become a pillar multi-service and advocacy organization, with a transnational vision that aims to impact the
root causes of migration. Our Immigration Legal Program provides full-scope legal representation, legal
counseling, deportation defense, and form processing
assistance. Through our Family Wellness & Health
Promotion, families participate in intensive case management (crisis intervention) and are connected to other
needed services such as housing and employment training. Our community health promotion program offers
health education workshops, parent-child activities, and
other health content that we develop in partnership with
the University of California, San Francisco to provide
families health science knowledge in a culturally in-

739

formed manner and improve health outcomes for Latinos in Northern California. Our Second Chance Youth
Program & Tattoo Removal Clinic, in partnership with
San Francisco’s Department of Public Health, targets
in-risk/system touched youth for wrap-around and intensive case management, stigma/violence-related tattoo removal services, summer programming, and leadership development.
11. In addition to providing a comprehensive set of social services, CARECEN advocates at the local, state,
national, and international level for immigrant rights,
Latino health, and juvenile justice. All of CARECEN’s programs are bilingual and informed by cultural,
scientific, and community needs. We foster leadership,
civic engagement and community building to support
the healthy integration of immigrants into the socioeconomic fabric of their new communities.
12. We believe that our communities and migrants from
around the globe are often forced to migrate due to
structural and systemic challenges that need to be addressed in a comprehensive and sustained manner so
families and individuals can live and thrive in their own
countries first, and so migration can become a choice rather than a necessity.
CARECEN'S Immigration Legal Program

13. In 2018 our Immigration Legal Program served
2,196 individuals, with close to half of these program
participants receiving legal document processing support and 146 participants receiving legal representation
before U.S. Citizenship and Immigration Services and/
or the Executive Office for Immigration Review. This

740

is a volume of work we are equipped to carry successfully with our team of five immigration attorneys, five
paralegals, one legal assistant, interns, and referrals to
our collaborative partners, pro-bono attorneys, and lowbono attorneys. Each attorney doing deportation defense cases can carry an average of 30-40 active cases at
any one time, while attorneys focusing primarily on affirmative representation can carry far larger caseloads.
14. Moreover, our attorneys participate on a regular
basis in the Attorney of the Day Program (AOD) at the
San Francisco Immigration Court for the non-detained
and detained docket. As part of AOD, CARECEN attorneys offer pro bono friend of the court services to unrepresented clients, who include children, families, and
adults.
15. As part of our 30 years of experience we have developed a proven track record and a collaborative approach
to capacity building.
16. CARECEN is the fiscal and grant compliance lead
for the San Francisco Immigration Legal Defense Collaborative (SFILDC), a partnership with the San Francisco Mayor’s Office born in 2014 that has connected
over 1,050 cases to community-based attorneys. This
collaboration includes ten community-based organizations, the University of San Francisco, the Immigrant
Legal Referral Center (ILRC), the Center for Gender
and Refugee Studies, the Bar Association of San Francisco (BASF).
17. At CARECEN, our best practices include referring
clients in need of services beyond legal support to the
other social service programs within CARECEN described above. These programs are staffed with case

741

managers, mental health specialists, peer educators,
and health promoters. These programs combine leadership development and community building to reduce
isolation, stabilize families, and assist them in navigating systems with the goal of eliminating barriers to
self-sufficiency.
Harms Inflicted by the Migrant Protection Protocols
(MPP)

18. CARECEN of Northern CA is on the list of legal
services providers that the federal government is distributing to migrants who are returned to Mexico pending their immigration court proceedings pursuant to
MPP.
19. CARECEN has recently been retained as counsel
by an asylum seeker returned to Mexico pursuant to the
MPP, and anticipates representing additional asylum
seekers subject to the MPP going forward.
20. The MPP will significantly frustrate CARECEN’s
mission of providing high-quality legal counseling, representation, and wrap-around services to asylum seekers and will require us to divert significant organizational resources to address the consequences of the policy. For the reasons discussed below, CARECEN will
not be able to effectively provide high quality legal and
social services to asylum seekers who are subject to the
MPP. We will not be able to effectively present their
claims for protection because we will be unable to provide the same critical legal and social service support
needed to assist survivors of trauma that we provide our
clients in the United States. CARECEN will also be
forced to divert significant resources away from our
core services for asylum seekers in the United States to

742

attempt to serve clients while they are in Mexico, or substantially cut or curtail our current asylum practice.
Practically speaking, our legal program is neither structured nor envisioned to represent asylum clients residing in Mexico, and will require significant changes and
the additional expenditures to do so. These changes
will impinge on the core immigration legal and social
services that we currently provide our clients. The policy will also make it more difficult for our potential clients, who will be stuck in Mexico pursuant to the policy,
to gain access to and participate in the organization’s
core services, thereby impairing CARECEN’s ability to
function.
A.

Risks Related to Practicing Law in Mexico.

21. As an initial matter, CARECEN will have to research whether our attorneys can legally and ethically
advise clients residing Mexico. Many states, including
California, forbid their barred attorneys from practicing
law in jurisdictions “where to do so would be in violation
of the regulations of that jurisdiction.” E.g., Ca. Rules
of Professional Conduct 1-300(b). As a result of the
MPP, CARECEN will have to divert resources into researching and understanding Mexican law and regulations regarding the practice of law by foreign lawyers,
and how all of those issues interact with lawyers’ professional obligations in every state in which any CARECEN attorney is barred. Moreover, there may be visa
requirements that CARECEN will need to research and
navigate to serve its clients subject to the MPP.

743
B. None of CARECEN’s Existing Grants Will Cover
Legal Services to Asylum Seekers Subject to the
MPP.

22. None of the existing grants that fund CARECEN’s
Immigration Legal Program will pay for the services we
provide asylum seekers subject to the MPP. The program is funded by various grants through the City of
San Francisco and State of California, both of which require that the client reside or have previously resided in
a California county. Because MPP forces asylum seekers to remain in Mexico pending their removal proceedings, CARECEN cannot use its grant money to provide
legal services for this population.
23. Therefore, taking on asylum cases under MPP will
require CARECEN to provide services that we do not
have funding for. As a result, the costs of providing
services to MPP clients—which, as explained below, are
significant—will come out of CARECEN’s general operating budget. But because we received no advance
notice of the rollout of the MPP, we have not budgeted
to provide these services. Thus, these additional costs
will undermine CARECEN’s ability to maintain its various legal and social service programs.
24. In addition, the policy jeopardizes CARECEN’s
ability to secure these grants moving forward, for two
reasons. First, the number of potential clients who can
satisfy the residency requirements of CARECEN’s funders will decline under the policy, as more asylum seekers will be forced to wait in Mexico and so will not reside
in California. Second, CARECEN strives to and has a
proven track record of meeting our grant deliverables.
However, if we are forced to redirect legal services to
represent individuals in Mexico because of MPP, thus

744

representing fewer clients overall, this will put in jeopardy our ability to meet our grant deliverables for clients who reside in California.
C. CARECEN will be required to create a new consultation system for asylum seekers returned to Mexico.

25. The MPP will require that CARECEN expend significant resources to change its intake and consultation
system to accommodate asylum seekers who have been
returned to Mexico.
26. As part of carrying out its mission, CARECEN
guarantees a consultation to every person who contacts
our office in search of assistance that falls within our areas of expertise. CARECEN conducts its initial consultations in person because we have determined that
in-person consultations are the most effective. The
vast majority of our asylum clients come through our
consultation walk-in hours. We have set hours every
day for in-person consultations, Monday through Friday, from 9:00am to 11:00am. During these sessions
we screen for eligibility and issue spot for any potential
immigration options, including asylum and other forms
of immigration relief, through speaking directly with clients and their families, and reviewing their documentation. Depending on capacity, CARECEN may consider their case for representation or at minimum will
give a referral to other community-based organizations
or the private bar.
27. Because it is not our practice to provide consultations over the phone, when we receive a request for assistance from an individual in a state other than California, we look up the legal services providers in their state

745

and refer them. However, because we are unaware of
comparable legal service providers in Mexico to whom
we can refer asylum seekers subject to MPP, we will
have to provide them with consultations ourselves.
28. CARECEN will need to restructure how we conduct
consultations when asylum seekers who are returned to
Mexico call our office for legal assistance. These calls
will likely not happen during our consult hours, which
are not listed on the list of legal services providers being
given distributed to individuals returned pursuant to the
MPP, and therefore will require additional staff time
outside those time periods. The logistics and additional staff time required to have a person available by
phone to respond to consultations with individuals subject to the MPP will be burdensome for staff and impinge on their time to work on their cases and provide
other legal services.
29. Additionally, we will incur additional financial costs
by responding to these consults. We will have to financially cover the long distance charges or fees from collect calls. The additional costs will also include sending
faxes or postal mail to individuals in Mexico. During
our in-person consultation process, it is common for our
staff to give out informational material like handouts on
different immigration programs, lists of other non-profit
providers, and know your rights flyers to individuals
seeking our services. In order to adequately serve
these individuals, we would do the same for those residing in Mexico.
30. Moreover, we will be limited in our ability to provide
the same quality of work in our consultations. Conducting phone consultations severely limits the intake
process, the review of documentation, translating and

746

interpreting documentation, and building trust with the
individual.
D. The MPP will impose significant burdens and financial costs on CARECEN and frustrate its mission
of providing high-quality, wrap-around services to
asylum seekers.

31. The majority of CARECEN’s clients in removal
proceedings entered the United States at the southern
border. Because of the MPP, a large portion of our
removal-defense client population will no longer reside
in California pending their immigration court proceedings. The MPP thus will frustrate our ability to connect with new clients via our normal walk-in consultation process described above, and will force us to reorient to serving clients in Mexico.
32. Representing asylum seekers in Mexico will impose
a significant financial, administrative, and other burdens
on our organization, and force us to divert resources from
our existing legal services program.
33. Many of the asylum seekers subject to the MPP lack
the funds to call our offices or send us their documentation from abroad. We therefore likely will need to set
up a new system where individuals returned to Mexico
can call us collect and email or fax us their documentation free of charge, which will impose new financial costs
on our organization that we are not covered by our existing budget.
34. In order to represent asylum seekers effectively,
our staff also will be required to travel to Mexico to meet
with our clients. However, CARECEN does not have
budgetary means to send staff on a regular basis to Mexico. For example, in the last 12 months CARECEN

747

has sent a delegation of staff twice to Tijuana, Mexico in
response to recent changes in policies for processing
asylum applicants at the Mexico/United States border.
During these trips, CARECEN staff met with survivors
of violence, provided immigration-related information,
conducted legal observation, and dropped off donations.
The average travel costs for the four-day trips were approximately $1,100 per trip. The last two delegations
were financially supported by crowd-funding efforts because we did not have funds or grants identified to provide financial support for this type of work.
35. The MPP will also require that CARECEN represent asylum seekers outside the jurisdiction of the San
Francisco Immigration Court, as their immigration cases
are currently venued in the San Diego Immigration
Court. CARECEN historically has only taken cases
venued in the San Francisco Immigration Court and is
best equipped to represent and meet the needs of clients
connected to the Bay Area. Thus, our program will
have to develop an entirely new plan to address the logistics, new court procedures and practices, and other
challenges of preparing cases and representing Clients
effectively in a new and unfamiliar venue.
36. Because of the additional time that will be required
to represent clients in Mexico, we will be forced to divert
resources from work being performed in the United
States or substantially reduce our overall caseload.
For example, an attorney representing a client in Mexico will have to travel to Mexico to meet and prepare
with the client. The attorney will have to travel to appear at the Immigration Court in San Diego, which also
requires air travel. Lastly, because asylum applicants
have suffered and dealt with traumatic experiences,

748

they are best served when we work with them in-person.
But the MPP will necessarily require that a significant
portion of the legal work be done over the phone, which
will mean additional time for case-preparation.
37. The MPP will also frustrate CARECEN’s mission
of providing comprehensive, wraparound services to
asylum seekers as part of the representation. It is effectively impossible for CARACEN to offer asylum
seekers returned to Mexico the services that we provide
in-house, including case management, mental health
therapy, and peer education. Moreover, when possible, CARECEN connects the client to external mental
health support during case preparation because we find
this additional support helps the client during the process and makes the representation as effective as possible. But finding adequate and affordable mental health
support for our clients in Mexico will be extremely difficult, if not practically impossible. This is particularly
concerning for clients who reside in Mexico but are fearful of remaining throughout their case. These clients
will have even more of a need to connect to safe and stable housing and receive mental health support than our
clients who reside in the United States. Yet to attempt
to provide these essential services to clients residing in
Mexico would require a huge expenditure of resources
and an enormous amount of time to research and investigate services along the Mexican border.
Lack of Notice and Opportunity to Comment

38. Because of MPP’s profound impact on CARECEN’s
mission, ability to function as an organization, and resources, we would have submitted detailed comments to
explain why the rule would threaten our work and harm

749

our clients had we be given notice and an opportunity to
respond.
39. However, because MPP was announced through
policy guidance documents, and not as a rule, there was
no public comment period, and we were not able to participate in this way.
40. We have an active practice of commenting on similar agency rules. For example, we recently submitted
comments on the proposed rule on the public charge
ground of inadmissibility. See Dep't of Homeland Security, Notice of Proposed Rulemaking, Inadmissibility
on Public Charge Grounds, 83 Fed. Reg. 51114 (Oct. 10,
2018). We also commented on the proposed Flores regulation. This regulation would dismantle the Flores
Settlement Agreement, the rules set in place in 1997 to
protect children in immigration detention, and would
lead to the indefinite detention of children and families.
See Dep't of Homeland Security, Notice of Proposed
Rulemaking, Apprehension, Processing, Care, and Custody of Alien Minors and Unaccompanied Alien Children, 83 Fed. Reg. 174 (Sept. 7, 2018).
Date: [02/19/2019]

/s/

LAURA SANCHEZ
LAURA SANCHEZ, ESQ.

750
DECLARATION OF JACQUELINE
BROWN SCOTT, ESQ.

1. I, Jacqueline Brown Scott, make the following declaration based on my personal knowledge and declare
under the penalty of perjury pursuant to 28 U.S.C.
§ 1746 that the following is true and correct.
2. Since January 2015, I have served as an Assistant
Professor and as the Supervising Attorney of the Immigration and Deportation Defense Clinic at the University of San Francisco School of Law (Deportation Defense Clinic or the Clinic). We are a nonprofit organization providing free legal immigration services to immigrants in deportation and removal proceedings
mainly under the jurisdiction of the San Francisco Immigration Court. In my role as Supervising Attorney,
I have the responsibilities of representing a majority of
our current clients, managing our caseload, supervising
our staff, and training our law students through our Immigration Clinic class.
3. From 2008 to 2016, I ran my own law firm, The Law
Offices of Jacqueline Brown Scott, which was focused on
removal defense and asylum law.
4. From 2009 to 2010, I worked as an attorney with the
Catholic Legal Immigration Network’s National Pro
Bono Project for Children.
5. From 2005 to 2007, I served as an Attorney Advisor
at the Executive Office for Immigration Review (EOIR),
San Francisco Immigration Court.

751
The Deportation Defense Clinic’s Mission and Scope

6. The Deportation Defense Clinic was founded in 2015
in direct response to the increase in children and families fleeing violence in Central America and Mexico at
that time and entering the United States through the
Southern Border. The Clinic was formed and received
funding to represent recent arrivals, especially asylum
seekers, who have been fast tracked by the U.S. government and largely placed on expedited and emergency
dockets. We continue to receive funding to respond to
changing immigrant enforcement priorities for clients
residing in various counties in California.
7. The Deportation Defense Clinic's mission is twofold:
First, we provide free legal services to adults, children,
and families in removal proceedings, with an emphasis
on asylum. Second, it is also part of our mission to
train law students and newer attorneys to be effective
and ethical immigration lawyers in the area of asylum
law.
8. In addition to free legal direct services and social
services case management, the Deportation Defense
Clinic also advocates for asylum seekers more widely.
Both individually and through other collaboratives we
belong to, we participate in legislative campaigns and
outreach to protect the rights of asylum seekers. In
addition, we provide information to immigrants through
Know-Your-Rights presentations as well as through
asylum clinics in California's underserved communities.
9. We execute our mission and serve clients out of our
offices in San Francisco, California and Sonoma County,
California. We are headquartered in San Francisco,
California.

752

10. Since our founding just a few years ago, we have
provided immigration legal services to more than 400
people.
11. The vast majority of our clients seek asylum.
How the Deportation Defense Clinic Works

12. The Deportation Defense Clinic currently has a
staff of six full time attorneys and paralegals. We typically have approximately ten law students per year
working with us as well. Our law students work as student lawyers on asylum cases and are required to meet
with clients and prepare their cases so that they will be
able to represent their clients in their individual hearings in Immigration Court.
13. Because our clients are asylum seekers who have
escaped violence in their home countries, the great majority of them have also experienced significant trauma.
We have an in-house Social Services Coordinator and we
also work closely with others social workers, psychologists, and medical doctors to ensure that our clients receive the care and services needed to cope with ongoing
trauma related to their asylum claims and to the transition to living in the United States.
14. Except for two individuals, our clients come exclusively from Mexico and the Northern Triangle in Central America. Of our current open cases, 40% are from
El Salvador, 32% are from Guatemala, 15% are from
Honduras, and 12% are from Mexico.
15. All of our clients entered the United States across
the southern border with Mexico.
16. In support of its mission to provide legal services to
asylum seekers, the Clinic routinely organizes trips for

753

staff and law students to serve asylum seekers located
outside the Bay Area as critical needs arise. Examples
include trips the Clinic has made to detention centers in
Artesia, New Mexico and Dilley, Texas to respond to the
increasing number of families seeking asylum in the
U.S., as well as pro se asylum clinics we have conducted
in the Central Valley to respond to the lack of low cost
or pro bono legal services for immigrants living there,
especially for those who are in removal proceedings.
17. In response to concerns about asylum seekers stuck
at the border due to the Migrant Protection Protocols
(MPP), the Clinic has planned a trip for a group of 11
staff and law students to Tijuana. The three-day trip
is costing approximately $5,000. We will be assisting
other on-the-ground attorneys in credible fear interview
preparation as well as monitoring conditions and identifying potential clients. We also hope to assist in preparing individuals on the list for their inspections where
they will be screened under the MPP. For the reasons
explained below, we anticipate having to make future
trips to represent clients who are subject to the MPP.
Harms Inflicted by the MPP Policy

18. The policy requiring asylum seekers, and specifically our potential clients, to return to Mexico while awaiting their immigration court hearings will hinder our
ability to provide legal representation to asylum seekers
and train law students to do so, and therefore significantly frustrate the Deportation Defense Clinic’s mission and require us to divert resources away from our
core services in response.

754

19. As noted, above the Clinic’s core mission is to represents asylum seekers, in particular in removal proceedings, and train law students to become effective advocates in asylum law. As the MPP expands across the
southern border, and increasing numbers of asylum seekers are returned pursuant to the program, the Clinic will
need to shift its resources to attempt to respond to their
needs and serve individuals in Mexico.
20. However, as a practical matter, it will be impossible
for the Clinic to do so effectively. As noted above, 87%
of our clients have been from the Northern Triangle and
all entered the United States through the southern border. If the clients we have served in the past are now
forced to remain in Mexico while their cases are pending, our two-fold mission will be frustrated for the following reasons:
a. Our clients will be much less likely to find us. Our
clients are typically referred to us from other legal service organizations or social service providers in Northern California. If they are forced to remain in Mexico,
they will be much less likely to find out about our organization and even less likely to be able to contact us from
shelters and unstable residences in Tijuana.
b. We will have to send staff to Mexico to even begin to
provide services to and legal representation of asylum
seekers, which will involve significate staff time and
cost. Effective legal representation begins at the initial
consultation and intake stage. Because MPP will hinder our ability to connect with clients through our typical channels described above, our staff will be forced to
travel regularly to Mexico to interview and evaluate clients just to determine eligibility for relief in removal
proceedings.

755

In addition, staff would be required to continuously
travel to Mexico in order to develop our clients’ cases
and additionally to attend their preliminary and individual hearings in the San Diego Immigration Court. Our
practice is to work closely with our clients throughout
their immigration case both because it is necessary in
order to be effective, but also due to the trauma that our
clients face and the time it consequently takes to develop their claims due to this trauma. A typical case
involves:
i.

an initial consultation to determine eligibility;

ii. a meeting to prepare, review and sign an asylum
application;
iii. two to three meetings to draft and finalize a client’s declaration;
iv. at least two meetings to prepare a client for their
individual hearing.
Therefore, ideally an attorney would be able to meet
with a client approximately seven times during their
representation. Even if we could reduce meetings to
approximately half our typical number, we would be
forced to spend approximately $900 in travel expenses
alone per client. Since we formed in 2015, we have
opened approximately 100 cases per year. We thus
would we have to spend almost $100,000 per year to provide representation at the most basic level.
Shifting our representation model to provide services
at a distance would be very difficult, and would compromise our mission. The tasks involved in the intake stage
are not well-suited to be conducted remotely. The intake process typically includes a long consultation and a
review of immigration, identity, and other documents.

756

This is often the first occasion that an asylum seeker,
often traumatized, has to fully tell her story. It can be
free flowing, lengthy, and necessitates a certain amount
of trust that can really only be obtained in a face-to-face
encounter. Similarly, the preparation stage also involves tasks that are ill-suited for a remote relationship.
As noted, the follow up meetings are to ensure that a
client's lengthy personal history has been obtained and
described accurately in a declaration. These meetings
are also used to prepare clients for direct and crossexamination. To create the full courtroom experience,
attorneys typically utilize an interpreter for these sessions as well. Doing all of this on the phone—hours of
preparation with up to four individuals participating—
should rarely if ever be done.
c. Inability to provide law students effective training.
Training law students to be effective and ethical immigration advocates is core to our mission. Our law students need access to their clients in order to be properly
trained consistent with our mission. They do not have
the flexibility to travel to Mexico due to their school
commitments, nor could we expect that they would be
permitted by the school to regularly travel to Mexico.
If our practice shifts to having to defend asylum seekers
in Tijuana and San Diego, we will not be able to effectively and meaningfully train our law students. They
would not be provided the opportunity to practice locally
in the San Francisco Immigration Court and because of
the difficulties involved in traveling to Tijuana, there
would be much fewer removal defense cases to assign to
them. It is likely that within a few years, the Clinic
would not be able to provide law students with enough
of the hands-on training that is required for a clinical

757

program. This would at the very least result in a drastic reduction in the number of students we could accept
into the program, and the School of Law could consequentially end our program.
d. Barriers to finding psychologists. Due to the
trauma that most of our clients face, a psychological
evaluation is often required. This necessitates face-toface meetings with clients that have historically been
conducted in our office by local practitioners. It is unlikely that these practitioners would be willing able to
travel to Tijuana or even San Diego to provide these
much-needed evaluations. While there may be psychologists and other medical professionals in San Diego
and Tijuana that the Clinic would eventually connect
with, the process of finding and building relationships
with them would be resource-intensive. In addition,
other immigration attorneys and agencies would also be
searching for the same small pool of psychologists and
doctors, which would make it harder for the Clinic to retain these professionals.
e. Risk Related to Practicing Law in Mexico. The
Deportation Defense Clinic is unfamiliar with Mexican
law, including immigration law. If we need to serve
asylum seekers in Mexico, then we would have to ascertain whether we, as U.S. attorneys and law students,
would be legally and ethically permitted to provide legal
advice to individuals who are not in the United States.
The Clinic would have to devote resources to figuring
out whether and to what extent our attorneys and law
students are able to practice in Mexico. If we determine that we are not able to do in-person work in Mex-

758

ico, and the number of asylum seekers residing in California is consequently reduced, there will be serious implications for the Clinic.
21. Significantly, the new policy would jeopardize almost all of the Deportation Defense Clinic’s funding
sources. Funding for our asylum work is completely
based on grant funding that requires our clients to be
physically present in the United States. We have
grants from the counties of San Francisco, San Mateo,
and Sonoma, all of which require asylum seekers to live
or work in those counties. We have additional grants
that require our clients to live or work in the five Bay
Area counties, as well as state funding which can only be
used to assist California residents.
22. As increasing numbers of our clients are forced to
remain in Mexico pursuant to the MPP, and prevented
from residing in California pending their cases, we
would have to find other funding sources to support that
work. We also would likely not have future access to
any of our current funding, as those grants require that
we open new grant-eligible cases every year.
23. If MPP remains in effect, the Deportation Defense
Clinic could cease to exist in a few years due to our inability to receive funding. We would have to secure different grants that are not conditioned on our clients residing in various counties in California.
24. As a result of the negative impact on our funding
streams, our staff would likely be reduced.
25. We would also likely face challenges in retaining
staff and attracting new staff in light of the substantial

759

regular travel that would be necessary in order to provide effective legal representation to asylum seekers residing in Tijuana and attending court in San Diego.
26. As a result of these new policies, the Deportation
Defense Clinic would have to completely rearrange the
way in which it provides legal services, and it would have
to both divert and find new resources to do that.
Lack of Notice and Opportunity to Comment

27. Because of MPP’s profound impact on the Clinic’s
mission, ability to function as an organization, and resources, we would have submitted detailed comments to
explain why the rule would threaten our work and harm
our clients had we be given notice and an opportunity to
respond. In the past the Clinic submitted comments on
the proposed regulations related to the public charge
ground of inadmissibility, fee waivers, and the proposed
Flores regulation related to migrant children in detention.
28. However, because MPP was announced through
policy guidance documents, and not as a rule, there was
no public comment period, and we were not able to participate in this way.
Dated:

[2-18-2019]

/s/ JACQUELINE BROWN SCOTT
JACQUELINE BROWN SCOTT, ESQ.

760
DECLARATION OF ADAM ISACSON

I, Adam Isacson, declare as follows:
1. I am over 18 and have personal knowledge of the
facts described herein.
2. I am the Director for Defense Oversight at the
Washington Office on Latin America (“WOLA”), a nonprofit research and advocacy organization based in
Washington, D.C., that is committed to advancing human rights in the Americas. Since 2011, a significant
part of my work has been focused on border security in
the United States. I have visited the U.S.-Mexico border approximately 20 times. Together with the Border
Security and Migration program at WOLA, I have published dozens of reports, memos, and multimedia projects about the security efforts of U.S. agencies at the
border and the resulting human impact. I earned a
B.A. in Social Science from Hampshire College and an
M.A. in International Relations from Yale University.
3. The number of migrants coming to the U.S.Mexico border is far lower today than in recent years.
In almost every fiscal year between 1983 and 2006, the
number of migrants apprehended by U.S. Border Patrol
agents along the southern border exceeded one million.1
Since fiscal year 2010, the number of apprehensions
along the southern border each fiscal year has been less
than 500,000.2

U.S. Border Patrol, Southwest Border Sectors, https://www.cbp.gov/
sites/default/files/assets/documents/2017-Dec/BP%20Southwest%20
Border%20Sector%20Apps%20FY1960%20-%20FY2017.pdf (last accessed Feb. 9, 2019).
2
Id.
1

761

4. The number of migrants apprehended by U.S.
Border Patrol officials at the U.S.-Mexico border in fiscal year 2017 is the lowest annual number since fiscal
year 1972.3
5. In fiscal year 2017, the average U.S. Border Patrol agent apprehended 18 migrants along the U.S.Mexico border all year, or one migrant every 20 days.4
6. In fiscal year 2018, the number of apprehensions
was lower than in fiscal years 2016, 2014, and 2013.5 It
was the fifth-lowest total since 1973.
7. In fiscal year 2018, Border Patrol apprehended
1.25 million fewer people at the U.S.-Mexico border than
it did in fiscal year 2000.6 Whereas federal agents apprehended between 71,000 and 220,000 migrants each
month in fiscal year 2000, the figures are far lower,
ranging from 25,500 to 41,500 people per month, in fiscal
year 2018.7

Id.
U.S. Border Patrol, Southwest Border Sectors, supra note 1;
U.S. Border Patrol, Border Patrol Agent Nationwide Staffing by
Fiscal Year, https://www.cbp.gov/sites/default/files/assets/documents/
2017-Dec/BP%20Staffing%20FY1992-FY2017.pdf (last accessed
Nov. 8, 2018).
5
Id.; U.S. Customs and Border Protection, Southwest Border Migration FY2018, https://www.cbp.gov/newsroom/stats/sw-bordermigration/fy-2018 (last accessed Feb. 9, 2019) (396,579 apprehensions in FY 2018).
6
U.S. Border Patrol, Southwest Border Sectors, supra note 1;
U.S. Customs and Border Protection, Southwest Border Migration
FY2018, supra note 5.
7
U.S. Border Patrol Monthly Apprehensions (FY2000-FY2017),
https://www.cbp.gov/sites/default/files/assets/documents/2017-Dec/
BP%20Total%20Monthly%20Apps%20by%20Sector%20and%20Area
3
4

762

8. According to CBP’s own estimates, the number
of migrants who evade apprehension at the U.S.-Mexico
border has also been shrinking significantly, with the
2016 figure just one-sixth of the 2006 figure.8
9. Even though fewer people overall are arriving at
the U.S.-Mexico border than in the past, CBP’s budget
is now twice what it was in 2000. Whereas the Border
Patrol’s budget in 2000 was $1.055 billion, its budget in
2016 was $3.801 billion. 9 Even adjusted for inflation,
this 2016 budget is more than twice the 2000 budget.10
10. CBP’s staffing has also increased. The number
of Border Patrol agents at the U.S.-Mexico border is almost double the number in 2000.11 There were 16,605
Border Patrol agents at the southwest border in fiscal
year 2017, compared to 8,580 agents in fiscal year 2000,
when the number of apprehensions was four times
higher.12 Nationwide, there were 19,437 Border Patrol
%2C%20FY2000-FY2017.pdf (last accessed Feb. 9, 2019); U.S. Customs and Border Protection, Southwest Border Migration FY2018,
supra note 5.
8
U.S. Department of Homeland Security, Office of Immigration
Statistics, Efforts by DHS to Estimate Southwest Border Security
between Ports of Entry 16 (Sept. 2017), https://www.dhs.gov/sites/
default/files/publications/17_0914_estimates-of-border-security.pdf.
9
American Immigration Council, The Cost of Immigration Enforcement and Border Security, https://www.americanimmigrationcouncil.
org/sites/default/files/research/the_cost_of_immigration_enforcement_and_border_security.pdf (last accessed Feb. 9, 2018).
10
See CPI Inflation Calculator, https://data.bls.gov/cgi-bin/
cpicalc.pl? (last accessed Feb. 9, 2018).
11
U.S. Border Patrol, Border Patrol Agent Nationwide Staffing by
Fiscal Year, supra note 4.
12
Id.; see also U.S. Border Patrol, Southwest Border Sectors, supra note 1.

763

agents in fiscal year 2017, compared with 9,212 in fiscal
year 2000.13
11. The United States currently hosts the lowest
number of undocumented immigrants since 2004, which
is the result of a significant drop in the number of new
undocumented immigrants.14
12. There is a rising backlog of individuals waiting
to present themselves for asylum at ports of entry. In
Tijuana, as of December 2018, 5,000 people were on a
waiting list, and CBP was accepting 20 to 80 people per
day for processing, yielding an estimated 12 week wait
time.15 In Nogales, service providers told me in September 2018 that families are waiting 14 days for a
chance to approach CBP. Hundreds of people have
slept on the Paso del Norte bridge between Ciudad Juárez and El Paso, where there are far fewer shelters.
Similar waits are the norm on the bridges connecting
Reynosa and Hidalgo/McAllen, and Matamoros and
Brownsville.
13. This backlog creates dangerous conditions for
asylum seekers, who are forced to wait days to weeks,
often without adequate shelter, and sometimes in dangerous border towns where organized crime preys on

U.S. Border Patrol, Border Patrol Agent Nationwide Staffing
by Fiscal Year, supra note 4.
14
Jeffrey S. Passel & D’Vera Cohn, U.S. Unauthorized Immigrant Total Dips to Lowest Level in a Decade, Pew Research Ctr.
(Nov. 27, 2018), http://www.pewhispanic.org/2018/11/27/u-s-unauthorizedimmigrant-total-dips-to-lowest-level-in-a-decade.
15
Asylum Processing and Waitlists at the U.S.-Mexico Border 5,
7, Robert Strauss Center et al. (Dec. 2018), https://www.strauss
center.org/images/MSI/AsylumReport_MSI.pdf.
13

764

vulnerable people, for a chance to seek protection in the
United States.
14. The security conditions in many border towns
are precarious. Asylum seekers who must wait in a
backlogged line are vulnerable to kidnapping and other
violence. Although shelters provide a place to sleep,
they are increasingly unsafe, having been infiltrated by
gangs and cartels. In some instances, shelters have
been vandalized, and the residents have been kidnapped
and extorted.
15. Tijuana broke its own record for homicides in
2018. Across the whole of Mexico, prosecutors opened
nearly 29,000 murder cases in 2018, 15% more than the
previous year. Tijuana was the Mexican city with the
most killings: more than 2,500, or 126 per 100,000 inhabitants.16
16. The risk of harm is also extreme in the border
towns across from south Texas, the area of heaviest flow
of Central American child and family migrants. There—
the border zone of the state of Tamaulipas, Mexico—
factions of the Gulf and Zetas cartels are fighting each
other on a constant basis. CBP and Border Patrol
agents have told me of witnessing running gun battles
from the U.S. side of the border. Migrants in that zone
have told me that they risk murder if they attempt to
cross the Rio Grande in this area without an approved
smuggler. Kidnapping for ransom is also common: in

Ed Vulliamy, Migrants flee violence only to find more in Tijuana
—Mexico’s murder capital, The Guardian, Jan. 26, 2019, https://www.
theguardian.com/world/2019/jan/26/migrants-violence-tijuana-murdercapital.
16

765

2010, in San Fernando, Tamaulipas, the Zetas massacred 72 mostly Central American migrants whom they
had kidnapped.
17. In my opinion, given the serious risk of harm, no
migrant can be safely returned to Tamaulipas pursuant
to the Migrant Protection Protocols.
18. Based on my research and experience, there are
strong reasons why Mexico cannot be designated a “safe
third country.” Migrants in transit through Mexico
are frequently subject to crimes and abuse, including
kidnapping, extortion, robbery, trafficking and sexual
assault. These crimes almost never result in a conviction of the person responsible. Corruption in Mexico’s
security and migration authorities makes the situation
worse; only 1% of reported crimes against migrants result in a conviction of the responsible party. 17 Additionally, one reason migrant smugglers thrive is the relationships they maintain with corrupt officials, including localities where organized crime has infiltrated government positions.
19. According to news reports citing the UN refugee
agency, almost 4,000 migrants have died or gone missing

See Ximena Suárez et al., Wash. Office on Latin Am., Access to
Justice for Migrants in Mexico: A Right That Exists Only on the
Books, 24-27, 30-31 (2017), https://www.wola.org/wpcontent/uploads/
2017/07/Access-to-Justice-for-Migrants_July-2017.pdf (documenting Mexican authorities’ unwillingness to investigate crimes against
migrants); Adam Isacson, Maureen Meyer and Adeline Hite, WOLA
Report: Come Back Later: Challenges from Asylum Seekers Waiting At Ports of Entry, 10 (2018). Washington Office on Latin America. https://www.wola.org/wp-content/uploads/2018/08/Ports-of-EntryReport_PDFvers-3.pdf.
17

766

while traveling from Central America through Mexico to
the U.S.18
I hereby declare under the penalty of perjury pursuant to the laws of the United States that the above is
true and correct to the best of my knowledge.
/s/ ADAM ISACSON
ADAM ISACSON
Executed on this 10th day of Feb., 2019

Associated Press, At least 4,000 migrants on way to U.S. have died
or gone missing in last four years, Dec. 5, 2018, https://www.nbcnews.
eom/news/latino/least-4-000-migrants-way-u-s-have-died-or-n944046.
18

767
DECLARATION OF KATHRYN SHEPHERD

I, Kathryn Shepherd, declare as follows:
I make this declaration based on my own personal
knowledge and declare under penalty of perjury pursuant to 28 U.S.C. § 1746 that the following is true and correct:
1. I am the National Advocacy Counsel for the Immigration Justice Campaign at the American Immigration
Council (“Council”). The Immigration Justice Campaign is a joint initiative between the Council, the American Immigration Lawyers Association (“AILA”) and
the American Immigrant Representative Project (“AIRP”)
which seeks to protect due process and justice for detained immigrants. I focus on legal advocacy and policy related to individuals held in ICE custody and asylumseeking women and children detained in family detention centers around the country. Prior to joining the
Council, I was the Managing Attorney of the CARA Pro
Bono Project (now the “Dilley Pro Bono Project,” or
“DPBP”1) in Dilley, Texas. I previously ran a private
practice in Houston, Texas, focused exclusively on asylum cases. I hold a J.D. from St. John’s University
School of Law and am licensed to practice law in Texas
and New York.
2. I was involved in a survey created for the purpose
of collecting information on the extent to which asylumseeking migrants had experienced or witnessed harm in
Mexico before crossing our southern border. I oversaw the creation of the survey and provided guidance to
The Dilley Pro Bono Project is a joint initiative of the Council,
AILA, Catholic Legal Immigration Network, Inc. (CLINIC), and
other partners.
1

768

the DPBP staff who disseminated the survey to detained
families in the South Texas Family Residential Center
(STFRC). Five hundred female asylum seekers detained with their minor children responded in writing in
Spanish to the survey. All detained families doing a legal services intake with the DPBP between January 16
and January 29, 2019, were presented with the opportunity to complete the survey, but were advised that survey participation was optional. Participants were instructed to limit their answers to what they had experienced and witnessed while traveling through Mexico on
their way to the United States. Of the respondents,
54.6% were Honduran, 27.4% Guatemalan, 15.5% Salvadoran, and 2.5% from other Latin American countries.
3. Additionally, ten mothers detained at the STFRC
who took part in the survey also provided detailed sworn
statements to DPBP staff regarding the harm they experienced in Mexico. They provided first-hand accounts of the grave violence encountered by themselves,
their children, and other vulnerable asylum seekers,
which could befall thousands of migrants if the government’s policy of forcibly returning migrants to Mexico
continues and is expanded. These statements are representative of the hundreds of examples reported in the
above survey.
4. The Council, AILA, and the Catholic Legal Immigration Network submitted the results of the survey, including the sworn statements, to Homeland Security
Secretary Nielsen in a letter dated February 6, 2019. I
was the primary author of the letter and coordinated the
collection of sworn statements and analysis of the data
for its incorporation into the letter.

769

5. The key findings of the survey, as well as the key
points communicated to Secretary Nielsen, are as follows:
Increasing Levels of Violence and Instability in the
Mexico Border Region
6. Mexican border towns are not safe places for asylum
seekers—and especially migrant vulnerable families —to
wait for an immigration court hearing in the United
States. U.S. law has adopted the international legal
principle of non-refoulement, which requires that governments do not return individuals to a country where
their life or freedom would be threatened. 2 Importantly, this mandate refers to any country where an individual’s life or freedom may be at risk, not just a person’s country of origin. For this reason, current conditions in Mexico are extremely relevant to any analysis of
the appropriateness and legality of implementing the
Migrant Protection Protocols (“MPP”).
7. The violence and instability that migrants face on
the Mexican side of the U.S.-Mexico border are welldocumented. Some regions of the U.S.-Mexico border
are considered by the State Department to be among
the most dangerous locations in the world. For example, the border state of Tamaulipas, through which tens
of thousands of asylum seekers travel each year on their
way to the United States, has been designated a Level 4

UNHCR, States Parties to the 1951 Convention relating to the
Status of Refugees and the 1967 Protocol, https://www.unhcr.org/
protection/basic/3b73b0d63/states-parties-1951-convention-its-1967protocol.html.
2

770

“Do Not Travel” risk by the State Department.3 As of
January 2019, only 12 countries in the world are designated at Level 4, including Afghanistan, North Korea,
Syria, and Yemen.4
8. The State Department has also documented numerous risks to Central American migrants in Mexico. In
the 2017 Country Report on Human Rights Practices for
Mexico, the State Department listed “violence against
migrants by government officers and organized criminal
groups” as one of the “most significant human rights issues” in Mexico.5 The report also lists major threats to
migrants from kidnappings and homicides.
These
threats come not just from Mexican criminal organizations and corrupt government officials, but also from the
very organizations that many Central American migrants are fleeing. As the State Department observed,
“Central American gang presence spread farther into
the country [in 2017] and threatened migrants who had
fled the same gangs in their home countries.”6
9. Tijuana—the Mexican city where the MPP has first
been implemented—was the site of 2,518 murders last
year, a record high and nearly seven times the total in
U.S. Dep’t of State, Bureau of Consular Affairs, Mexico Travel
Advisory, TRAVEL.STATE.GOV, November 15, 2018, https://travel.
state.gov/content/travel/en/traveladvisories/traveladvisories/mexicotraveladvisory.html.
4
U.S. Dep’t of State, Travel Advisories, TRAVEL.STATE.GOV (last
accessed Feb. 5, 2019), https://travel.state.gov/content/travel/en/
travel-advisories/traveladvisories.html/.
5
U.S. Dep’t of State, Country Reports on Human Rights Practices for 2017: Mexico (2018), http://www.state.gov/j/drl/rls/hrrpt/
humanrightsreport/index.htm?year=2017&dlid=277345.
6
Id.
3

771

2012.7 Last year, the State Department’s Overseas Security Advisory Council observed that “Tijuana is an important and lucrative location for Transnational Criminal Organizations, narco-traffickers, and human smuggling organizations,” and that in 2017, the state of Baja
California saw an overall 84% increase in murders. 8
Not surprisingly, many asylum seekers have already
suffered significant violence while being forced to wait
in Tijuana; in December 2018, two Honduran children
were murdered while forced to wait their turn to request
asylum at the San Ysidro Port of Entry.9
Evidence of Harm to Asylum Seekers in Mexico
10. According to the results of the survey, the asylum
seekers reported overwhelmingly that Mexico was a
dangerous place for them and their children: 90.3% of
respondents said that they did not feel safe in Mexico,
and 46% reported that they or their child experienced at
least one type of harm while in Mexico, with some reporting multiple types of harm.

Kate Linthicum, Meth and murder: a new kind of drug war has
made Tijuana one of the deadliest cities on Earth, L.A. Times (January 30, 2019), https://www.latimes.com/world/mexico-americas/la-fgmexico-tijuana-drug-violence-20190130-htmlstory.html.
8
U.S. Dep’t of State, Bureau of Diplomatic Security, Mexico 2018
Crime and Safety Report: Tijuana, United States, OSAC.GOV,
https://www.osac.gov/pages/ContentReportDetails.aspx?cid=23376
(last accessed Feb. 4, 2019).
9
Wendy Fry, Two migrant caravan teens killed in Tijuana,
The San Diego Union-Tribune (Dec. 18, 2018), https://www.sandiego
uniontribune.com/news/border-baja-california/sd-me-migrant-childrenkilled-1218 2018-story.html.
7

772

● Robbery or attempted robbery (32.8%)
● Threats (17.2%)
● Physical Harm (12.6%)
● Kidnapping or attempted kidnapping (5.1%)
● Sexual assault (2%)
11. Many respondents also reported fearing for their
safety in Mexico because they had witnessed incidents
of harm that happened to others: 48% of respondents
reported that they witnessed at least one type of harm
to another person while in Mexico.
● Robbery or attempted robbery (29.4%)
● Threats (20.4%)
● Physical Harm (17.2%)
● Kidnapping or attempted kidnapping (7.2%)
● Sexual assault (6.3%)
12. Furthermore, asylum seekers reported that not only
did the Mexican government fail to protect them from
these dangers, but government officials were often the
perpetrators of crimes against migrants: 38.1% of respondents stated that a Mexican official mistreated
them in at least one way.
● Demanded bribes (28.2%)
● Verbal intimidation (18%)
● Made them feel uncomfortable (15.5%)
● Threatened them (9.5%)
● Harmed them physically or sexually (1.5%)

773

First-Hand Accounts of Violence Faced by Asylum
Seekers in Mexico
13. The following are case summaries from the ten
sworn statements described above. Pseudonyms are
used for the safety of the participants.
14. Rape and Threats to Her Child—Concepción fled
through Mexico from Honduras with her 5-year old son.
While traveling through Mexico, they stayed with a
group of other women and children in a house to avoid
sleeping on the street. One night, a cartel member
grabbed her while she lay in bed with her 5-year-old son
and raped her. She recounts: “He threatened me,
saying he would kidnap me to sell me in prostitution and
would take my child to sell his organs if I did not have
sex with him. He said that he had connections in the
Gulf Cartel [and] that white women like me sold the
best, and that children’s organs also sold very well.”
She does not trust that Mexican police would protect her
from this type of harm because they required bribes of
her and other migrants when they were stopped at a
road checkpoint, and strip searched those who did not
pay.
15. Kidnapped and Sold by Police and Held for Ransom
—Aracely and Fatima fled Mexico separately with their
4-year-old daughter and 6-year-old son, respectively.
They were both kidnapped by Mexican police a few days
apart and sold to a cartel who held them for ransom.
Mexican police regularly operate in concert with criminal gangs and cartels by targeting migrants and selling
them to the gangs and cartels for money. Aracely reported: “A man told us that they were from a cartel
and that everything would be fine if our families paid the
ransom. They took everything we had and they made

774

us call our families and have them send $7,000 dollars
[for each of us]. I heard the men saying that . . .
the police who guard the river, had sold us to them.”
Fatima stated: “We saw some people there who had
been beat up. I saw a man whose whole face and arm
were bruised and swollen, and he was vomiting blood.
. . . My son has been shaking and can’t sleep because
of what happened to us. He frequently tells me that he
is still afraid.”
16. Sexual Assault and Police Extortion—While fleeing
from Honduras through Mexico, Viviana stayed for four
nights in a room with three other women. The man
who was supposed to be guarding them sexually assaulted her on three occasions while her 10-year-old son
slept next to her. She stated: “I didn’t have anywhere else to go to be safe, and I didn’t feel that I could
ask for help from the Mexican police because every time
we took a bus, Mexican police would demand money
from migrants on the bus. If a woman didn’t have
money, they would tell her that they were going to deport her and take her child.”
17. Sexual Assault—Maybelin and her 2-year-old
daughter were persecuted in her native Guatemala due
to her membership in an indigenous group. On her
way to safety in the United States, she was repeatedly
sexually assaulted at a house in Mexico where she was
staying. She recalls: “I felt that I could not leave that
unsafe situation, because I had nowhere to go in Mexico,
and I had heard that the Mexican police did not protect
migrants and might even deport me back to danger in
Guatemala.” She therefore had to continue staying
there until she could enter the United States.

775

18. Extortion and Death Threats by Mexican Police—
Luisa escaped gang threats in El Salvador with her 15year-old daughter. While traveling through Mexico,
they were forced to pay the Mexican police three times.
The final time, they didn’t have the amount of money the
police demanded. She states: “They grabbed my
daughter, who was crying, and took her off the bus.
Then they order[ed] me to get off the bus in the middle
of nowhere. The uniformed men said to give them
7,000 pesos for each of us or we would both die there.
The men said that if we didn’t pay, he would tell the
driver to leave and we would be kidnapped and killed.”
19. Extortion and Threats to Children by Mexican Police/
Witnessed Sexual Assault—Carolina fled Guatemala
with her 9-year-old son, her sister, and her nephew.
She was extorted and threatened twice by armed Mexican federal police. During one of these incidents, the
police entered a house in which she was staying. She
reports: “The officers were wearing black uniforms,
bullet-proof vests, with their faces covered except for
their eyes. . . . They said that if we did not pay, they
would take our children from us and tie and lock them
up.” Carolina and her son then witnessed the sexual
assault of another woman who did not have enough
money to pay.
20. Witnessed Extortion/Threats/Apprehension by Mexican
Police—Belkis fled domestic violence in Guatemala with
her 11-year-old son. She was terrified her husband
was following them and could find them in Mexico, and
felt she would only be safe from him once she arrived to
the U.S. One day, the Mexican state police approached
them in a group of about 40 migrants, and randomly selected 26 people to go with them on a bus. They said

776

that they would extort those migrants’ families and beat
them, including the children, if the families did not cooperate. Belkis says: “The people were crying, and
begging God for help. The officials ordered them onto
the bus. I do not know what happened to those people.”
21. Attempted Kidnapping—Valery escaped domestic
violence in Honduras to seek asylum in the United
States with her 10-year-old son. On her way through
Mexico, they narrowly escaped attempted kidnapping
by two unknown men, who tried to force a group of migrants they were a part of into a car. She states: “I
felt unsafe the entire time I was traveling [in Mexico].
I knew that the threat of kidnapping was real because I
had seen it happen before. Once, . . . a car pulled
up next to a young woman . . . [a man] forced a
woman into a car while she screamed. . . . I do not
know what happened to her.”
Conclusion

22. As the survey results described above demonstrate,
the MPP will put asylum seekers at grave risk of harm
by forcing them to remain in Mexico pending their immigration court proceedings. It threatens to jeopardize meaningful access to asylum and other humanitarian
protections under our immigration laws.
23. The MPP also will exacerbate a humanitarian crisis
on our southern border. For example, thirty-one migrant shelters along the border recently signed a joint
letter signaling their lack of capacity to safely house the
potentially large number of individuals to be returned
under the MPP for the lengths of time they will need to

777

wait in Mexico. 10 These shelters warn that asylum
seekers will be forced to live in limbo, exposed to fear
and uncertainty, without the means to address basic
needs.
Dated:

Feb. 18, 2019

/s/

KATHRYN SHEPHARD
KATHRYN SHEPHARD

See Red Zona Norte de Casas y Centros de Derechos Humanos
para Migrantes, Postura de la Red Zona Norte sobre los Protocolos
de Protección a Migrantes, Feb. 8, 2019, https://www.kinoborder
initiative.org/wp-content/uploads/2019/02/Red-Zona-Norte-Statementon-MPP.pdf (last accessed Feb. 16, 2019).
10

778
DECLARATION OF DANIELLA BURGI-PALOMINO

I, Daniella Burgi-Palomino, declare pursuant to 28
U.S.C. § 1746 and subject to the penalty of perjury, that
the following is true and correct:
1. I am the Senior Associate on Mexico, Migrant
Rights and Border Issues at the Latin America Working
Group (LAWG). I am over 18 and have personal knowledge of the facts described herein.
2. Prior to joining LAWG, I worked for six years
on the protection of migrant rights in the U.S.-MexicoCentral America corridor with a variety of civil society
organizations and foundations. I was the first coordinator of the Central America and Mexico Migration Alliance (CAMMINA) from 2011-2013, a Fulbright Garcia
Robles Fellow in Mexico from 2010-2011, and a Program
Associate at Oxfam America from 2007-2010. I earned
a Bachelor of Arts from Tufts University in International Relations and History with a focus in Latin American studies and a Master of Arts in Law and Diplomacy
from the Fletcher School of Law and Diplomacy, where
I focused on human security and migration.
3. In my capacity as the Senior Associate on Mexico, Migrant Rights and Border Issues at LAWG, I lead
our advocacy on the protection of migrant and refugee
rights, and U.S. immigration and foreign policy affecting the region. I conduct advocacy with both U.S. policymakers and foreign governments, and lead transnational civil society campaigns, documentation, and research on various human rights issues.
4. Since the Trump administration announced its
intention to adopt a new policy that has misleadingly
been called the “Migrant Protection Protocols” (MPP),

779

I have been working closely with numerous other civil
society organizations to monitor its implementation.
Risks for Asylum-seekers in Mexico

5. The MPP assumes that conditions in Mexico,
and particularly along Mexico’s northern border, are
safe for asylum seekers while they wait for their immigration proceedings. However, there is substantial evidence documented by civil society organizations, the
U.S. State Department, and the Mexican government to
refute this assumption and to point to a situation of extreme violence and insecurity along Mexico's northern
border.1
6. Tijuana, the city where asylum seekers are being sent to wait for their proceedings in the first phase
of the MPP, has seen a dramatic increase in homicides
for the last five years, reaching record levels in 2018 and
making it one of the deadliest cities in the world currently.2 Mexico's northern border states, such as Tamaulipas, Coahuila, Nuevo Leon, and Chihuahua, also
continue to rank among the states with the highest number of registered disappearances in the country.3 The

Secretariado Ejecutivo del Sistema Nacional de Seguridad Pública, Acciones y Programas: Incidencia delictiva, January 24, 2019,
https://www.google.com/url?g=https://www.gob.mx/sesnsp/acciones y-programas/incidencia­delictiva-87005?idiom%3Des&sa=D&ust=1
549570783790000&usg=AFOjCNEwXZkafcsOtFIoh-oZNuK_1GU_gO.
2
Kate Linthicum, “Meth and murder: A new kind of drug has made
Tijuana one of the deadliest cities on Earth”, January 30, 2019 https://
www.latimes.com/world/mexico-americas/la-fg-mexico-tijuana-drugviolence-20190130-htmlstory.html.
3
Lily Folkerts, Annie Gallivan, Latin America Working Group,
Trouble for Turn Backs: Risks for Migrants in Mexico’s Northern
1

780

U.S. State Department currently has travel warnings on
all six of Mexico’s northern border states, urging citizens not to travel to Tamaulipas; to reconsider travel to
Coahuila, Chihuahua, Nuevo Leon, and Sonora; and to
exercise increased caution in travel to Baja California,
all due to high levels of violent crime. 4 The violence
perpetuated in these cities comes not only from organized crime but also from systemic corruption and
abuses within Mexican law and migration enforcement
agencies who at times work in collusion with criminal
groups. Over thirty disappearances were attributed to
the Mexican Navy, for example, in Nuevo Laredo, Tamaulipas in 2018.5 In addition, the 2017 U.S. State Department human rights country report on Mexico highlighted collusion between the state government of Coahuila and organized crime in carrying out disappearances.6
7. While the information above demonstrates a
broader situation of violence, corruption, and impunity
along some of Mexico’s northern border states and cities, asylum seekers and migrants in particular have long
Border States, 2018, https://www.lawg.org/trouble-for-turn-backsrisks-for-migrants-in­mexicos-northern-border-states/.
4
U.S. Department of State, Mexico International Travel Information, November 15, 2018, https://travel.state.gov/content/travel/
en/international-travel/International-Travel-Country-Information­
Pages/Mexico.html.
5
Office of the UN High Commissioner for Human Rights, Zeid
urges Mexico to act to end wave of disappearance in Nuevo Laredo,
May 30, 2018, https://www.ohchr.org/EN/NewsEvents/Pages/Display
News.aspx?NewsID=23157&LangID=E.
6
U.S. Department of State, Country Reports on Human Rights
Practices for 2017, 2017, https://www.state.gov/j/drl/rls/hrrpt/human
rightsreport/index.htm#wrapper.

781

faced human rights violations and crimes in their transit
through Mexico. Civil society organizations and migrant
shelters have documented multiple cases of torture,
murder, disappearances, kidnappings, robbery, extortion, and sexual and gender-based violence that migrants
and asylum seekers suffer at the hands of criminal
groups in Mexico. The perpetrators of this persecution
often act in collusion with Mexican migration and law
enforcement. Multiple reports, issued by U.S. and Mexican organizations and migrant shelters in Mexico, illustrate that, while many crimes against migrants occur in
the southern part of Mexico, migrants are victims of
abuse throughout the country, including in northern
border states. 7 The Inter-American Commission on
Human Rights (IACHR) has previously noted crimes
against migrants in its reports, and NGOs have noted
the specific risks migrants face in each of Mexico’s border states in documents submitted to the IACHR.8 As
the MPP will force asylum seekers to wait in Mexico for
Red Migrante Sonora (RMS), Y la impunidad continúa. Segundo informe de la Red Migrante Sonora, June 2017, https://www.
kinoborderinitiative.org/wp-content/uploads/2017/12/Informe-RMS.
pdf, and José Knippen, Clay Boggs, and Maureen Meyer, An Uncertain Path, November 2015, https://www.wola.org/sites/default/files/
An%20Uncertain%20Path Nov2015.pdf.
8
Daniella Burgi-Palomino, Latin America Working Group (LAWG),
Maureen Meyer, Washington Office on Latin America (WOLA), Joanna Williams, Kino Border Initiative, Situation of Impunity and Violence in Mexico’s Northern Border Region, March 2017, https://
www.wola.org/wp-content/uploads/2017/04/Situation-of-Impunity­
and-Violence-in-Mexicos-northern-border-LAWG-WOLA-KBI.pdf
and Inter-American Commission on Human Rights (IACHR), Organization of American States (OAS), The Human Rights Situation
in Mexico, December 31, 2015, http://www.oas.org/en/iachr/reports/
pdfs/Mexico2016-en.pdf.
7

782

prolonged periods of time, it is likely that more migrants
would be exposed to such risks and violence, or would
turn to smugglers to cross the border between ports of
entry and under more precarious conditions.
8. The murders of two unaccompanied Honduran
children in Tijuana in December 2018 demonstrate the
vulnerability of asylum seekers trapped in border cities
and towns.9 Many asylum seekers are fleeing extreme
sexual and gender-based violence or threats from gangs
in their home countries. By the time they arrive in
northern Mexico, they are severely traumatized. The
vulnerability of asylum seekers forced to wait in Mexico
is compounded by the Mexican government’s consistent
failure to investigate and prosecute crimes against asylum seekers and migrants. According to one NGO report, the perpetrators of 99 percent of the crimes migrants face in Mexico are never held accountable.10 Civil
society shelters operating along Mexico’s northern border have limited capacity to assist migrants who have
been victims of crime or offer them shelter for extended
periods of time, and often are also directly threatened
for their work protecting migrants.11

Wendy Fry, “Two migrant caravan teens slain in Tijuana”, December 18, 2018, https://www.latimes.com/local/lanow/la-me-ln-migrant-caravan-teens-killed-tijuana-20181218-story.html.
10
Ximena Suarez, Andrés Díaz, José Knippen, and Maureen
Meyer, Access to Justice For Migrants in Mexico, July 2017, https://
www.wola.org/wp-content/uploads/2017/07/Access-to-Justice-forMigrants July-2017.pdf.
11
Red Zona Norte, Postura de la Red Zona Norte sobre los Protocolos de Protección a Migrantes, January 24, 2019, https://www.kin
oborderinitiative.org/wp-content/uploads/2019/02/Red-Zona-NorteStatement-on-MPP.pdf.
9

783

9. Asylum seekers fleeing to the U.S. who are
forced to remain in Mexico will be unable to access their
support networks, thereby intensifying their trauma.
One of the most valuable resources survivors of violence
have to help in their recovery is the support of friends,
family, and fellow countrymen. Many of the individuals who choose to flee to the United States do so because
they have connections through friends or family.
These contacts can prove invaluable for asylum seekers
and survivors of torture or other trauma, as their contacts help them navigate within a new culture and language.
10. Asylum seekers returned under the MPP would
also face challenges in accessing broader services while
waiting in Mexico. This has been made evident by civil
society reports documenting the lack of access to services and shelter faced by migrants in the city of Tijuana
since November 2018.12 These risks are compounded
for women, unaccompanied children, and the LGBTI
community. Even with the issuing of humanitarian visas, migrants face difficulty in accessing employment
and housing.
11. Initial reports from the media13 and civil society
representatives who interviewed asylum seekers returned under the MPP indicate that the information
12
American Friends Service Committee, Latinoamérica Y el
Caribe, Universidad lberoamericana de México—Tijuana, Misión
de Observación, November 2018, http://tijuana.ibero.mx/?doc=/
guienessomos/observacion.html.
13
Sarah Kinosian, “ ‘They’re playing with our lives’ say the first
migrants returned under new Mexico policy”, February 5, 2019,
https://www.pri.org/stories/2019-02-05/they-re-playing-our-livessay-first-migrants-returned­ under-new-mexico-policy.

784

provided to them by U.S. immigration officials on how
to seek legal counsel for their immigration cases was
wholly insufficient and that they were not questioned
regarding their potential fear to return to Mexico, leading to potential violations of the principle of nonrefoulement. This is compounded by the obstacles in
seeking legal counsel for U.S. immigration proceedings
from Mexico to begin with, asylum seekers’ limited resources, and their ability to navigate removal proceedings in a foreign language.
12. The MPP will not address the “security and humanitarian crisis” on the U.S.-Mexico border as the Department of Homeland Security asserts. Rather, the
program will cause great harm and unnecessarily expose asylum seekers to human rights violations and violence.
Executed on this 13 day of Feb. 2019.
/s/

DANIELLA BURGI-PALOMINO
DANIELLA BURGI-PALOMINO
Latin American Working Group

785
SECOND DECLARATION OF
STEPHEN W. MANNING, ESQ.

I, Stephen W. Manning, declare as follows:
1. I am an attorney licensed to practice in the State
of Oregon and am a member in good standing of the bars
of the U.S. District Court for the District of Oregon, the
U.S. Court of Appeals for the Ninth Circuit, and the Supreme Court of the United States. I am a member of
the American Immigration Lawyers Association (AILA),
a former member of the Board of Governors of AILA,
and a former Chair of the Oregon Chapter of AILA. I
am over 18 and have personal knowledge of the facts described herein.
2. I am the Executive Director of the Innovation
Law Lab (“the Law Lab”), a nonprofit that I founded to
improve the legal rights and well-being of immigrants
and refugees by combining technology, data analysis,
and legal representation. The Law Lab operates sites
in Portland, Oregon; Oakland, California; San Diego,
California; San Antonio, Texas; Kansas City, Missouri;
Charlotte, North Carolina; and Atlanta, Georgia.
3. Between January 28, 2019 and February 12,
2019, under my direction, Law Lab staff and volunteers
were in Tijuana, Mexico interviewing persons who had
applied for asylum at the San Ysidro port of entry and
were returned to Mexico under the Migrant Protection
Protocols (“MPP”), including the Individual Plaintiffs in
this case.
4. During the interviews, the Individual Plaintiffs
presented documents to our staff and volunteers given
to them by DHS officials about the MPP and their particular cases. Our staff and volunteers collected the

786

documents, copied the documents, and stored the copies
for later retrieval. I have retrieved these copies and
have attached the documents described below to this
declaration.
5. I have attached as Exhibit A true and correct
copies of the MPP Assessment Notices provided to the
Law Lab staff and volunteers by the Individual Plaintiffs Ian Doe and Howard Doe. Upon information and
belief, the MPP Assessment Notice is given only to those
individuals who are interviewed by an asylum officer to
determine whether they are more likely than not to be
persecuted on a protected ground or tortured in Mexico.
Because Individual Plaintiffs Ian Doe and Howard Doe
were the only Individual Plaintiffs to be interviewed by
an asylum officer, no other Individual Plaintiff received
an MPP Assessment Notice.
6. The documents contain personally identifiable
information as well as information that if publicly released could easily led to the discovery of personally
identifiable information. I have redacted the following
information from each document, where applicable:
first, middle and last names; and alien numbers.
I hereby declare under the penalty of perjury pursuant to the laws of the United States that the above is
true and correct to the best of my knowledge.
EXECUTED this 18th day of Feb. 2019.
/s/

STEPHEN W. MANNING
STEPHEN W. MANNING, OSB # 013373

787

EXHIBIT A

788

789

790
DECLARATION OF JEREMY SLACK, Ph.D.

I, Jeremy Slack, pursuant to 28 USC § 1746, declare
that the following is true and correct:
1. I submit this declaration, based on my personal
knowledge and extensive empirical research, to describe
the grave dangers migrants from Central America face
from Mexican and Central American gangs—frequently
aided or ignored by Mexican authorities—while waiting
to pursue asylum in the United States, a danger that is
exacerbated the longer those migrants remain on the
Mexican side of border. My CV is attached as Exhibit A.
My Research and Expertise

2. I am an Assistant Professor of Human Geography at the University of Texas at El Paso with more than
fifteen years of research experience in Mexico and along
the U.S.-Mexico border. Human geography explores
the interaction between human beings and their environments. My areas of expertise and publication focus
on drug violence, drug trafficking, undocumented migration, corruption, and U.S. Mexico border enforcement. In particular, I am interested in the questions
about how drug violence moves and how and where violence affects people as they change their location. My
research investigates different patterns of violence associated with who is living where, which reveals a great
deal about drug cartels, violence in Mexico, and the potential danger for people in border cities.
3. I received my B.A. from the University of Arizona in 2005 in Spanish and International Studies. I received an M.A in Latin American Studies in 2008 at the
University of Arizona. I received my Ph.D. from the

791

School of Geography and Development, also at the University of Arizona in 2015.
4. I have testified in court over fifty times as an expert regarding drug smuggling, drug violence, and corruption along the border and throughout Mexico in both
criminal cases and in immigration court. I was the lead
client on an amicus brief that was presented at the Supreme Court (Hernandez v. Mesa).
5. I have published approximately fifteen peerreviewed journal articles and numerous essays, book
chapters, and scholarly reports. I have written two
books about the impacts of drug violence on migrants.
The first book, The Shadow of the Wall, was released in
April 2018 by the University of Arizona Press. 1 The
second book, Deported to Death: How Drug Violence
in Changing Migration in Mexico, which will be released in early 2019 by the University of California
Press, explores the ways organized crime has targeted
migrants through kidnapping, extortion, and coerced recruitment. 2 It contains years of research about the
dangers facing people stuck on the Mexican side of the
border and I can definitively say that there is little hope
that Central Americans could safely wait for their trials
to conclude without facing serious violence.

Slack, J., D.E. Martinez, and S. Whiteford, eds. The Shadow of
the Wall: Violence and Migration on the US-Mexico Border.
2018, University of Arizona Press: Tucson, Arizona.
2
Slack, J. Deported to Death: How drug violence is changing migration in Mexico. 2019, University of California Press: Berkeley, California. Vol 45. California Series on Public Anthropology.
https://www.ucpress.edu/ebook/9780520969711/deported-to-death
1

792

6. I have received over $1,000,000 in research
grants from foundations, universities and federal agencies to support my research activities. This includes
funding from the Department of Homeland Security, the
National Science Foundation, Ford Foundation, the
Open Society Foundation, and the Social Science Research Council among others. I have conducted research along the U.S.-Mexico border since 2003 and
have travelled and worked extensively throughout Mexico, living and working in migrant shelters in some of the
areas of the country hardest hit by drug cartel violence.
7. I have published about drug cartels in Mexico
with particular emphasis on processes of kidnapping
and extortion,3 as well as political corruption, and how
cartels use their power to influence and control territory. 4 These publications explore the question about
why cartels would target relatively poor individuals for
kidnapping and torture. The answer lies in the extreme vulnerability of people in transit who are neglected by local authorities with little to no hope that
friends and family would be able to locate them anytime
soon. Moreover, members of organized crime also
know that migrants have contacts in the United States
who can come up with several thousand dollars to pay
ransom.

Slack, J., Captive bodies: migrant kidnapping and deportation
in Mexico. Area, 2015. 48(3).
4
Slack, J. and H. Campbell, On Narco-coyotaje: Illicit Regimes
and Their Impacts on the US­Mexico Border. Antipode, 2016.
Boyce, G.A., J.M. Banister, and J. Slack, You and What Army? Violence, The State, and Mexico’s War on Drugs. Territory, Politics,
Governance, 2015. 3(4): p. 446-468.
3

793
The Security Situation in Mexico

8. The major Mexican cartels—the Juárez Cartel
(aka La Linea), Gulf Cartel, Zetas (Los Zetas), Sinaloa
Cartel, Tijuana Cartel, La Familia Michoacana/Los Caballeros Templarios, and the Cartel Jalisco Nueva Generación (CJNG)—are currently locked in violent intercartel (and intra-cartel) disputes and a struggle with the
Mexican military and police that has cost over 200,000
lives since 2001. The Mexican government is no longer
able to protect its people and in many cases law enforcement officers or military officials—affiliated with drug
cartels-actually commit acts of murder or torture on behalf of the cartels. 5 In certain localities, the cartels
wield such significant authority, and have become so
closely intertwined with the government, as to be considered a part of the state. In 2016, violence in Mexico
skyrocketed, placing the Mexican drug war as the second most violent conflict in the world (behind Syria).6
It has remained one of the most vicious and bloody conflicts in the world. Some analysts thought that, as a result of this violence, Mexico has become or is on the
verge of becoming a “failed state.”7
9. However, in the years since the conflict began
the character has changed. Rather than concentrated
hotspots—such as Ciudad Juarez, Chihuahua, where
Gibler, J., To die in Mexico : dispatches from inside the drug
war. 2011, San Francisco, CA: City Lights Books.
6
IISS, Armed Conflict Survey 2017, I.I.f.S. Studies, Editor.
2017: Washington, D.C.
7
Longmire, S., Cartel : the coming invasion of Mexico’s drug
wars. 2011, New York: Palgrave Macmillan. Grayson, G.W.,
Mexico : narco-violence and a failed state? 2010, New Brunswick,
N.J.: Transaction Publishers.
5

794

10,000 people were murdered between 2007 and 2010the violence has spread out across the country. This is
because the major cartels have fractured, leading to conflict between cartels, but also within these organizations
themselves. This has been described by scholars as a
“balkanization” effect in Mexico 8 —a reference to the
fragmentation of the former Yugoslavian Republic.
The internal strife and complex allegiances between and
within the cartels makes the security situation in Mexico
complex, dynamic, and chaotic as violence has spread to
areas that were previously considered safe such as Mexico City and Cancun.
10. In addition to the dangers posed by Mexican cartels, Central American gangs have established relationships with Mexican gangs that heighten the vulnerability of Central American migrants traveling through
Mexico. In our research we found members of Central
American gangs, MS-13 and Barrio 18 working for the
Mexican Zetas and other organizations, as they would
often be involved with kidnapping, extorting, and charging a toll for migrants to pass through certain areas.
Central American gangs would patrol the train routes
used by migrants traveling North, collecting tolls, killing people who refused or could not pay, and giving a cut
of the profits to local criminal actors and the police.
They would also investigate who people were and why
they were migrating. The vast majority of Central
American asylum seekers are fleeing gang violence,9 yet
the very same groups they are fleeing have a presence
Beittel, J., Mexico : Organized crime and drug trafficking organizations. Washington: Congressional Research Service, 2015.
9
Wolf, S., Mano Dura: The Politics of Gang Control in El Salvador. 2017: University of Texas Press.
8

795

in Mexico and particularly along the border. Given the
immense power of the major cartels as governmental actors in the Mexican state, migrants have nowhere to
turn in Mexico when the same harm from which they are
fleeing finds them on their journeys. It thus makes
most border towns on the Mexican side, an extremely
perilous place to wait.
11. The Mexican side of the U.S.-Mexican border as
a region has experienced high levels of turmoil and violence in recent years. From 2007-2012 the most dangerous place was the border town of Ciudad Juarez, on
the other side of El Paso, Texas, with over 10,000 murders. Northeastern Mexico has more recently experienced lower levels of murders, but higher levels of disappearances and kidnappings, making it one of the most
feared regions of the border. Mass graves containing
over 200 bodies were recovered in the area the following
years. 10 Multiple mass graves throughout the region
have been discovered, often with clear ties to Central
American migrants.11 The largest documented kidnapping of migrants occurred in the far Northeast city of
Matamoros-across from Brownsville, TX, with 480 people being kidnapped simultaneously in 2018.12 Other regions have experienced high levels of violence as well.

Ureste, M., A 5 anos de massacre de 72 migrantes en San Fernando, caso sigue impune: Armistia Internacional, in Animal Politico. 2015: Mexico City.
11
Slack, J., Captive bodies: migrant kidnapping and deportation in Mexico. Area, 2015. 48(3).
12
Jimenez, M., Suman 480 migrantes rescatados en Matamoros,
in El Manana de Matamoros. 2018: Matamoros.
10

796

Recently, the number of murders in Tijuana nearly doubled from 909 in 201613 to 1,897 in 2017. Then it skyrocketed to approximately 2,506 in 2018.14 In the nearby
northwestern state of Sonora, a region that has avoided
much of the cartel bloodshed, large groups of migrants
were abducted and disappeared or forced to cross the
border due to large amounts of marijuana smuggling
through the desert by drug cartels.15 In Ciudad Juárez
deported migrants were found decapitated over the
summer of 2017.16 While there have been ebbs and flows
in the level of violence along the border, the chaotic situation, lawlessness and the violent outbursts against
Central American migrants have created a dangerous
precedent which will likely continue to escalate in the
months and years to come.
12. In the following sections I will expand on the
types of violence people are likely to experience if forced
to wait in Mexican border cities, why they are targeted
and the potential torture, persecution, and death.
Dangers Present for Central Americans in Mexico

13. Kidnapping has become a pandemic in Mexico,
and no population is under more threat than Central
American migrants. These kidnappings often involve
13
Staff, Horror; 762 homicidios dolosos en seis meses Tijuana, in
El Debate. 2017: Tijuana.
14
Staff, Baja California vivió su ano mas violento: 2,500 muertos
solo en Tijuana, in Vanguardia. 2019: Tijuana.
15
Slack, J. and H. Campbell, On Narco-coyotaje: Illicit Regimes
and Their Impacts on the US­Mexico Border. Antipode, 2016. 48(5).
Slack , J. and S. Whiteford, Violence and migration on the ArizonaSonora border. Human organization, 2011. 70(1): p. 11-21.
16
Staff, Decapitados en Juarez eran deportados de EU, in El
Tiempo. 2017: Ciudad Juarez.

797

ransom, but are frequently more complex as members
of organized crime are looking for information from migrants who might be fleeing from rival or affiliated gangs.
Furthermore, criminal organizations use torture as a
way to recruit individuals, giving them the option to join
the gang, or torture or kill fellow captives and escape
this fate. This has become common as a way to forcibly
recruit kidnapped migrants who are unwilling to torture
or kill their way out of gang membership.17
14. In 2016 alone, a rough estimate of over 69,000
kidnappings occurred in Mexico.18 Other sources have
documented over ten thousand cases of kidnapping of
migrants in a six­month period in 2011. 19 However,
these statistics should be taken as highly conservative
since this only relies on reported kidnappings and not
the overwhelming majority of kidnappings that go unreported. This is known as the “cifra negra” or the black
statistic, because Mexico's census bureau (INEGI) has
estimated that 98% of kidnappings go unreported because people do not think the police will help or are
afraid to do so.20
15. Unfortunately, there are no exact figures for the
kidnapping and torture of Central American migrants in
17
Slack, J., Captive bodies: migrant kidnapping and deportation in
Mexico. Area, 2015. 48(3).
18
INEGI, Encuesta Nacional de Victimización y Percepción sobre
Seguridad Publica (ENVIPE), in ENVIPE, I.N.d.E.y. Geografia,
Editor. 2017, INEGI: Mexico, D.F..
19
CNDH, Informe Especial Sobre el Secuestro de Migrantes en
Mexico, C.N.d.l.D. Humanos, Editor. 2011, CNDH: Mexico, DF.
20
INEGI, Encuesta Nacional de Victimización y Percepci6n sobre Seguridad Publica (ENVIPE), in ENVIPE, I.N.d.E.y. Geografia, Editor. 2017, INEGI: Mexico, D.F..

798

Mexico since many are “disappeared” and killed, or flee
Mexico as fast as possible. Moreover, the lethality of
kidnapping has grown since Mexico enacted tougher
laws on kidnapping that sentence people to 80 years in
prison in 2014. It has become easier to simply kill people than to let them go.21
16. These kidnappings usually involve the explicit
aid of the police or, at the very least, the knowledge that
the police will do nothing to prevent the kidnappers
from carrying out their gory reprisals.22 Police in Mexico are highly corrupt and frequently work hand in hand
with the drug cartels.23 Officers that do not work with
the cartels are hindered by this corruption and are unable to speak out or investigate crimes against Central
American migrants.24 Local police are underpaid and
have to share guns, purchase their own ammunition, and
sometimes are not even certified to carry weapons.

Slack, J., Captive bodies: migrant kidnapping and deportation in Mexico. Area, 2015. 48(3).
22
Ibid. Slack, J. and H. Campbell, On Narco-coyotaje: Illicit Regimes and Their Impacts on the US­Mexico Border. Antipode,
2016. 48(5).
23
Sicario, M. Molloy, and C. Bowden, El Sicario : the autobiography of a Mexican assassin. 2011, New York: Nation Books.
Hernandez, A., Los senores del narco. 2010, Mexico, D.F.: Grijalbo. Hernandez, A., Narcoland: The Mexican drug lords and
their godfathers. 2013: Verso Books.
24
Grillo, I., El Narco: inside Mexico’s criminal insurgency.
2011, New York: Bloomsbury Press. Vulliamy, E., Amexica:
war along the borderline. 2010, New York: Farrar, Straus and
Giroux. Bowden, C., Down by the river: drugs, money, murder,
and family. 2002, New York: Simon & Schuster. Bowden, C. and
J.n. Cardona, Murder city: Ciudad Juárez and the global economy’s new killing fields. 2010, New York: Nation Books.
21

799

Federal police are better equipped but are generally focused on high profile busts and arresting famous drug
kingpins.
17. On the Mexican border specifically, there are
lookouts, known as halcones, who are concentrated
there and are tasked with investigating who is coming
and going into new areas. This is partly because they
are worried about incursions from rival cartels, but also
because they are interested in determining which migrants would be able to pay a high ransom, or which
might be targeted by affiliated gangs from Central
America. The need to understand who has arrived in
any given area of the border has become an obsession
for organized crime. Because there are so many fractures within these criminal organizations, they are no
longer enjoying absolute supremacy and must remain
vigilant against incursions from rival groups (or even
other members of the same drug cartel). Because of
this, lookouts or even people posing as migrants or coyotes, often living or working in migrant shelters, are
constantly collecting information about who is arriving.
In addition, agents from the Instituto Nacional de Migración have also engaged in high levels of corruption
and pass information about migrants along to organized
crime. 25 Should Mexican immigration authorities be
increasingly involved in the process of making people
apply for asylum from Mexico, it is likely that they will

Slack, J., Captive bodies: migrant kidnapping and deportation in Mexico. Area, 2015. 48(3). Paris, M.D., et al., Un análisis
de los actores políticos y sociales en el diseño y la implementación
de la política y la gestión migratoria en México. 2015, El Colegio
de la Frontera Norte Tijuana, México.
25

800

pass information about who is waiting over to organized
crime.
18. In addition to corrupt authorities passing information to organized crime or participating in kidnapping, the lack of protection for Central American migrants has been a huge problem.26 Mexico has conflicting laws about how to control and police immigration
from Central America. This is the root of the fluctuations in treatment by Mexican authorities, at times allowing Central Americans free passage or cracking down,
apprehending and deporting migrants. One thing is
clear though; the greater the restrictions, the higher the
incidences of violence, extortion, torture and murder.
19. Based on my research into migration and violence in Mexico, I am certain that few migrants will find
either short- or long-term secure shelter in Mexico while
they await their hearings.
20. Migrants are targeted along the border because
of their distance from both destination and home. In
my forthcoming book I explore in-depth why targeting
migrants is so common and lucrative. They can be extorted, tortured, killed, forced to work for drug smugglers, and no one will speak up for them. If people are
forced to wait weeks or months along the border they
will face numerous threats, from police demanding extortion to kidnappings and forced recruitment by gangs
and drug cartels. Few people will be able to live in this
limbo. One family I worked with began to get intensi-

Vogt, Wendy A. Lives in Transit: Violence and Intimacy on
the Migrant Journey. (2018) University of California Press. Vol.
42. California Series in Public Anthropology.
26

801

fied threats, especially to the father, who was being accused of belonging to a rival gang and the only way for
them to be assured that he was not working against
them, would be to join the cartel. Despite already having fled El Salvador, they were forced to flee to border
region yet again because of these dangerous threats, itself a dangerous and difficult proposition.
I declare under penalty of perjury that the foregoing is
true and correct to the best of my knowledge and understanding.
/s/
Dated:

JEREMY SLACK
JEREMY SLACK
Feb. 15, 2019
El Paso, Texas

802

EXHIBIT A

803

Jeremy Slack
Phone: (915) 747-6530
• www.jeremyslack.net
• E-Mail: jmslack@utep.edu
Education

Ph.D. Geography, The University of Arizona, May
2015
M.A. Latin American Studies, The University of Arizona, May 2007
B.A. International Studies/Spanish and Portuguese,
The University of Arizona, December 2005
Research Interests

Violence, Trauma, Migration, Health, Borders, State
Theory, Urbanization, Human Rights, Drugs and
Drug Trafficking, Kidnapping, Political Geography,
Urban Geography, Latin America with a special focus on Mexico and Brazil, Research Methodology,
Activist and Participatory Scholarship
Work Experience
• Assistant Professor, De- Aug, 2015 –

partment of Sociology
and Anthropology. The
University of Texas, El
Paso

Visiting Assistant Professor, Aug, 2014 – May,

Department of Sociology 2015
and Anthropology. The
University of Texas, El
Paso.

804

• Drugs, Security and De- Aug, 2013 – Aug,
mocracy
Dissertation 2014
Fellow, the Social Science Research Council
and the Open Society
Foundation
• Research Specialist, Cen- Aug, 2007 – Aug
ter for Latin American 2014
Studies, The University
of Arizona
• Research Assistant, The Aug, 2009 – Aug,
Udall Center, The Uni- 2010
versity of Arizona
• Research Assistant, The May, 2004 – Aug,

Bureau of Applied Re- 2007
search in Anthropology,
The University of Arizona

Awards, Fellowships and Grants

• Human Trafficking Hubs.

$150,000

Department of Homeland
Co-PI with
Security.

Louise Shelley, Desmond Arias, José Miguel
Cruz.

• Research Experience for Undergraduates (REU)
Site:
Collaborative Research: Immigration Policy

$468,176

805

and
US-Mexico
Border Communities. The National
Science
Foundation. Co-PI with

Neil Harvey.

• Deported to Death:
How drug violence
is reshaping migration.
California Center for Public Anthropology International CompeWinner.
tition.

University of California Press

• National

Institute
of Health: BUILDing Scholars Summer Sabbatical Fellow at the Univer-

$14,000

• The Intersection of
Criminal and Immigration
Law.

$5,000

sity of Texas, Austin

Summer
Grant
Writing Fellowship.

University of Texas
at El Paso.
• “Deporting Youth:
The Emotional and

$40,000

806

Physical Effects of
Violence
and
Trauma in Contemporary Undocumented
Migration.”
Research
Program on Migration and Health–
PIMSA.
Univer-

sity of California,
Berkeley.
(PIs)
Scott
Whiteford,
Sonia Bass, Jeremy
Slack, Oscar Misael
Hernández.
• Drugs, Security and

$23,800

Democracy Dissertation Fellowship

(2013-2014) by the
Social Science Research Council and
the Open Society
Foundation
• “Immigration and
Violence on the
Border:
Increasing Impact through
Public
Scholarship”
FY2013.
The Ford Foundation, Mexico and
Central American

$142,500

807
Office.
(PIs) Jeremy Slack, Scott

Whiteford,
Martinez.

Daniel

• “Border Militarization and Health:
Violence,
Death
and Security on the
U.S. Mexico Border.” (2013) The

$6,000

Puentes
Consor(PIs) Jertium.
emy Slack, Alison

Elizabeth
Lee,
Daniel
Martinez
and Scott Whiteford.

• Richard
Public
Award.

Morrill
Outreach

(2013)
From the Political
Geography
Specialty Group of the
Association of American Geographers.
• “Border
Field
Trips and Experiential Learning.”
(2012-2013) Magellan
Foundations,
Faculty Student Interaction Grant.

$1000

808

• “Forging Research
Collaboration Under Fire of Border
Security Debates
and
Violence.”
(2012) The Puentes
Consortium
(PIs)
Jeremy Slack, Alison Elizabeth Lee,
Scott
Whiteford,
Sonia Bass Zavala.

$12,500

• “Collaborative
Steps in Sharing
Research:
Data
Driven Policy from
the Mexico United
States
Border.”
FY2011. The Ford

$60,000

Foundation, Mexico
and Central American Office. (PIs)
Jeremy Slack, Scott

Whiteford,
Martinez.

Daniel

• “Migration,
Violence and Security
on the U.S./Mexico
Border:
Critical
Policy
Issues.”
FY2010. The Ford
Foundation, Mexico
and Central Ameri(PIs)
can Office.

$115,000

809

Scott

Whiteford,
Jeremy Slack, Daniel Martinez.
• “Corruption at the
Border:
Violence
and Security Concerns.” (2009) The

$7,000

Puentes
Consortium. (PIs) Jorge

Manuel
Aguirre
Hernández, Jeremy
Slack, Scott Whiteford.

•

“Migration and Violence: A New Research and Policy
Challenge on the
Mexico/United
States
Border.”
FY2009. The Ford

$25,000

Foundation, Mexico
and Central Ameri(PI)
can Office.

Scott
Whiteford.
(Co-PI)
Jeremy
Slack.

•

“Community, Identity and Notoriety
in the City of God.”
(2007)
Summer
Travel Award, The
Tinker Foundation.

$700

810
Publications/Presentations
Books:

1. (Forthcoming - July 2019) Slack, Jeremy.
Deported to Death: How Drug Violence
has Reshaped Migration on the U.S. Mexico Border. The University of Califor-

nia Press. Volume 45. California Series
on Public Anthropology.
http://www.
publicanthropology.org/books-book-series/
california-book-series/internationalcompetition/2016-competition-winners-b/

2. (2018) Slack, Jeremy; Martínez, Daniel E.;
Whiteford, Scott. (eds) The Shadow of the
Wall: Violence and Migration on the U.S.
Mexico Border. University of Arizona

Press.

Tucson, Arizona.

Scholarly Articles:

1. (Forthcoming) Heyman, Josiah; Slack,
Jeremy; Guerra, Emily. Bordering a “Crisis”: Central American Asylum Seekers
and the Reproduction of Dominant Border
Enforcement Practices. Journal of the

Southwest.

2. (2018) Martínez, Daniel; Slack, Jeremy;
Martinez-Schultz, Ricardo. Repeat Migration in the Age of Unauthorized Permanent Residents: A Quantitative Assessment
of Migration Intentions Post-Deportation.

International Migration Review.
54. Vol 4. 1186 – 1217.

No.

811

3. (2018) Slack, Jeremy; Martínez, Daniel.
What makes a good human smuggler?
The differences between satisfaction and
recommendation of coyotes on the U.S.
Mexico Border.
The Annals of the

American Academy of Political and Social Science. No 676 Vol 1. 152 – 173.

4. (2017) Abrego, Leisy; Coleman, Mathew;
Martínez, Daniel; Menjivar, Cecilia;
Slack, Jeremy.
Making Immigrants
Criminals: Legal Processed of Criminalization in the Post-IIRIRA Era.
The

Journal of Migration and Human Security. Vol. 5 No. 3

5. (2017) Campbell, Howard; Slack, Jeremy;
Diedrich, Brian. Mexican Immigrants, Anthropology and U.S. Law: The Pragmatics and Ethics of Expert Witness Testimony. Human Organization. Vol. 76

No. 4

6. (2017) Martinez, Daniel; Slack, Jeremy;
Beyerlein, Kraig. The Migrant Border
Crossing Study: A Methodological OverPopulation Studies.
DOI:
view.

10.1080/00324728.2017.1306093

7. (2016) Slack, Jeremy; Campbell, Howard.
On Narcocoyotaje: Illicit Regimes and
their Impacts on the U.S. Mexico Border.

Antipode. 48 (5) 1380-1399

8. (2016) Slack, Jeremy; Martínez, Daniel;
Lee, Alison; Whiteford, Scott. The Ge-

812
ography of Border Militarization: Violence, and Death in Mexico and the United
States. The Journal of Latin American

Geography. Vol. 15 (1):

7-32.

9. (2016) Slack, Jeremy.

Captive Bodies:
Migrant Kidnapping on the U.S. Mexico
Border. Area. 48 (3), 271 - 277

10. (2015) Banister, Jeffery; Boyce, Geoff;
Slack, Jeremy.
Illicit Economies and
State (less) Geographies: The Politics of
Illegality. Territory, Politics, Govern-

ance. Vol 3 (4): 446-468:

1-4

11. (2015) Boyce, Geoff; Banister, Jeffrey;
Slack, Jeremy.
You and What Army?
Wikileaks and the Mexican Drug War.

Territory, Politics, Governance.
(4): 446-468

Vol 3

12. (2015) Slack, Jeremy; Martinez, Daniel;
Whiteford, Scott; Peiffer, Emily. In
Harm’s Way: Family Separation, Deportation, and Immigration Enforcement.

The Journal of Migration and Human
Security. Vol. 3 No. 2

13. (2013) Martinez, Daniel; Slack, Jeremy.
What part of illegal DO you understand?
The Criminalization of Migrants and Border Violence. Social and Legal Studies..

Vol 22.

No.

14. (2011) Slack, Jeremy; Whiteford, Scott.
Violence and Migration on the Arizona SoHuman Organization.
nora Border.

Vol. 70, no. 1.

813

15. (2011) Slack, Jeremy; Martinez, Daniel;
Vandervoet, Prescott. Methods of Violence: Researcher Safety and Adaptability in Times of Conflict. Practicing An-

thropology.

Vol. 22. No. 1.

16. (2010) Slack, Jeremy; Whiteford, Scott.
Viajes Violentos: la transformación de la
migración clandestine hacia Sonora y AriNorteamérica: la revista de
zona.

UNAM.

Vol 2. No. 2.

17. (2007) Slack, Jeremy; Gaines, Justin; BroFrom Students to Recious, Ariana.
searchers and Pupils to Partners. Practicing Anthropology. Vol 29. No. 3.
18. (2007) Sheehan, Megan; Burke, Brian;
Slack, Jeremy.
Graduate Education
Grounded in Community Based ParticipaPracticing Anthropoltory Research.

ogy. Vol 29. No. 3.
• Book Chapters:

1. (In Press) Slack, Jeremy; Martínez, Daniel. The Geography of Migrant Death.
In. Mitchell K; Jones, R; Fluri, J. (eds)
Handbook on Critical Geographies of Migration. Routledge.

2. (Under Review) Heyman, Josiah; Slack,
Jeremy; Guerra, Emily. Bordering Processes:
Contestation and Outcomes
around Central American Migration in
South Texas, 2013 – Present. CIESAS

814

3. (2018) Martínez, Daniel; Slack, Jeremy;
Martínez-Schultz, Ricardo.
Deportation. Ramiro Martinez; Jacob Stowell;
Megan Hollis. (eds) The Handbook of
Race, Ethnicity, Crime and Justice.
Wiley Blackwell.
4. (2016) Slack, Jeremy; Whiteford, Scott;
Bass, Sonia; Lee, Alison. The Use of Social Media as a Tool for Collaborative Research on the U.S. Mexico Border. In
Hans Buechler and June Nash (eds) Collaborative Exchanges in Global Places:
An Anthology. Palgrave Press.

5. (2016) Martinez, Daniel;
Walking Toward, and
“American Dream.” In
(eds). Latino, American
A & M Press.

Slack, Jeremy.
Deporting the
Hanson, Sandy
Dream. Texas

6. (2013). Slack, Jeremy; Whiteford, Scott.
Caught in the Middle: Undocumented
Migrant’s Experiences with Drug VioPayan, T., Staudt, K., &
lence. In:
Kruszewski, Z. A. (Eds.). A War that
Can’t Be Won: Binational Perspectives
on the War on Drugs. University of Ari-

zona Press.

Tucson, AZ.

7. (2013) Martinez, Daniel; Slack, Jeremy;
Methodological
Vandervoet, Prescott.
Challenges and Ethical Concerns of Researching Marginalized and Vulnerable
Populations: Evidence from Firsthand
Experience Working with Undocumented

815
Migrants.

In:
Whiteford, S.

O’leary, A; Deeds, C;

Uncharted Terrains:
New Directions in Border Research Methodology, Ethics and Practice. University

of Arizona Press.

Tucson, AZ.

8. (2013) Slack, Jeremy; Wilder, Margaret.
Aceso al agua urbana durante una epoca de
cambio climático. In: Córdova, G; Dutram, J; Lara, B; Rodriguez, J. Desarrollo
humano transfronterizo: Retos y oportunidades en la region Sonora-Arizona.

El Colegio de Sonora. Hermosillo, Sonora.

• Reports, White Papers and Miscellaneous Publications:
1. (2018) Slack, Jeremy; Martínez, Daniel;
Heyman, Josiah. Immigration Authorities Systematically Deny Medical Care to
Migrants who Speak Indigenous Languages. Center for Migration Studies.

New York, New York. http://cmsny.org/
publications/slackmartinezheyman-medicalcare-denial/

2. (2018) Heyman, Josiah; Slack, Jeremy.
Blockading Asylum Seekers at Ports of
Entry at the U.S. – Mexico Border Puts
Them at Increased Risk of Exploitation,
Violence and Death. Center for Migra-

tion Studies.

New York, New York.

http://cmsny.org/publications/heyman-slackasylum-poe/

816

3. (2016) Slack, Jeremy; Martínez, Daniel.
What makes a good coyote? Mexican migrants’ satisfaction with human smugglers. Allegra Law Lab. http://allegra

laboratory.net/what-makes-a-good-coyotemexican-migrants-satisfaction-with-humansmugglers/

4. (2014) Slack, Jeremy; Martínez, Daniel;
Whiteford, Scott; Peiffer, Emily; Velasco,
Paola. La Sombra del Muro: Separación Familiar, Inmigración y Seguridad.
Report Prepared for the Ford Foundation. Available at http://las.arizona.
edu/mbcs
5. (2013) Martinez, Daniel; Slack, Jeremy;
Heyman, Josiah. Part II: Possessions
Taken and Not Returned. in “Bordering on
Criminal:
The Routine Abuse of Migrants in the Removal System.” Report

released by the Immigration Policy Center, Washington, D.C.

6. (2013) Martinez, Daniel; Slack, Jeremy;
Heyman, Josiah. Part I: Migrant Mistreatment While in U.S. Custody. in “Bordering on Criminal: The Routine Abuse
of Migrants in the Removal System.” Re-

port released by the Immigration Policy
Center, Washington, D.C.
7. (2013) Slack, Jeremy; Martinez, Daniel;
Lee, Alison; Whiteford, Scott. Border
Militarization and Migrant Health.

817

Working Paper for The Puentes Consortium. Rice University, Houston.
8. (2013) Slack, Jeremy; Martinez, D. Families or Workers?

Criminals or Migrants?

North American Congress on Latin
America.
9. (2013) Slack, Jeremy; Martinez, D; Whiteford, S; Peiffer, E. In the Shadow of the
Wall: Family Separation, Immigration
Enforcement and Security. Report Pre-

pared for the Ford Foundation. Available at http://las.arizona.edu/mbcs
10. (2012) Slack, Jeremy; Whiteford, Scott;
Bass, Sonia; Lee, Alison. The Use of Social Media as a Tool for Collaborative Research on the U.S. Mexico Border. Work-

ing Paper for The Puentes Consortium.
Rice University.

11. (2011) Wilder, Margaret, Jeremy Slack,
and Gregg M. Garfin. “Urban water vulnerability and institutional challenges in
Ambos Nogales. 50.” Udall Center for

the Environment.

University of Arizona

12. (2011) Slack, Jeremy; Martinez, Daniel.
Migration and the Production of (In) Security on the U.S. Mexico Border. So-

narida.

Vol 29. (English and Spanish)

13. (2008) Austin, Diane; Owen, Bonnie Jean;
Mosher, Sara Curtin; Sheehan, Megan;
Slack, Jeremy; Cuellar, Olga; Abela,
Maya; Molina, Paola; Burke, Brian;
McMahan, Ben. “Evaluation of Small

818
Scale Burning of Waste and Wood in
Final Report preNogales Sonora.”

pared at the Bureau of Applied Research
in Anthropology, University of Arizona
for the Arizona Department of Environmental Quality.
14. (2008) Slack, Jeremy; Helmus, Andrea;
Conrad, Claire.
“Argentina and Uruguay’s Pulp Friction.”
Arizona Daily
Star. June 21. Pg. A4.
15. (2006) Austin, Diane E., Brian Burke,
Krisna Ruette, Jeremy Slack, Ronald H.
Villanueva. “Thermal Construction and
Alternative Heating and Cooking Technologies: Final Report.” Report prepared

at the Bureau of Applied Research in Anthropology, University of Arizona for the
Arizona Department of Environmental
Quality.

16. (2006) Diamente, Daniela and Diane Austin. Contributing Authors: Jeremy Slack
et al. “Ambos Nogales Soil Stabilization
Through Revegetation:

Final Report.”

Report prepared at the Bureau of Applied
Research in Anthropology, University of
Arizona on behalf of the Asociación de Reforestación en Ambos Nogales for the U.S.
Environmental Protection Agency.

819
Conference Papers (selected):

1.

2018.

Scales of Conflict: Post-deportation mobilities along the U.S. Mexico Border. Social Science
and History Association. Phoenix, AZ. November, 2018.

2.

2017.

Border and Immigration Enforcement in the
Age of Trump. Association of American Geography
Annual Meeting. Boston, MA.

3.

2016.

From Advocate Researchers to Researchers
for Advocates. Latin American Studies Association. New York.

4.

2016.

Fear, Mobility and the Violence of Forced
Movement: Developing a Post-Deportation Studies. Latin American Studies Association. New
York.

5.

2016.

What makes a good coyote? Customer Satisfaction Among Migrants. Changing the Narrative on Human Smuggling Workshop. Florence, Italy. European University Institute. (With Daniel Martinez).

6.

2016.
Deportation Diasporas:
Undocumented
Permanent Residents and the New Migration
Home. Association of American Geography Annual
Meeting. San Francisco.

7.

2016.

On Narco-Coyotaje: Illicit Regimes and
their impacts on the U.S. Mexico Border. Political
Geography Specialty Group Preconference of the Association of American Geography. San Francisco

8

2015.

you:

Te van a levanter—They are going to kidnap
Post-Deportation Mobilities and the Con-

820

flicting Geographies of Deporation and Drug Violence.
Latin American Studies Association.
Puerto Rico.
9.

2015.

Insecurity, Trauma and Aftercare: Researcher Reflections Off the Field. Latin American Studies Association. Puerto Rico (Round Table Discussion)

10. 2014. Migrando al Hogar: la migración de retorno de las nuevas politicas de control migratoria.
Presented at the Colegio de la Frontera Norte, Cultural Studies Seminar. Tijuana, Baja California,
Mexico. (June, 2014)
11. 2014. Dangerous Deportation: State Sponsored
Vulnerability. Annual Meeting for the Society for
Applied Anthropology. Albuquerque, NM. (CHAIR)
(March, 2014)
12. 2014. U.S. Authority Verbal and Physical Mistreatment of Unauthorized Migrants: New Evidence from Wave II of the Migrant Border Crossing
Study. Annual Meeting for the Society for Applied
Anthropology. Albuquerque, NM. With Daniel
Martínez and Scott Whiteford. (March, 2014)
13. 2013. El sistema de entrega de consecuencias de la
patrulla fronteriza:
Tamaulipas dentro esta
nueva dinamica. Tamaulipas Studies Series. Colegio de la Frontera Norte, Matamoros, Tamaulipas.
(December 2013).
14. 2013. Immigration and Deportation: Challenging the Myths” Latin American Studies Association,
Washington D.C. (May 2013) with Scott Whiteford

821

15. 2013. Dirty War or Drug War? Is this State Violence? Association of American Geography: Annual Meeting, Los Angeles, CA. (April 2013)
16. 2013. The Consequences Delivery System: Data
from the Migrant Border Crossing Study. Political Geography Specialty Group, Los Angeles, CA.
(April 2013
17. 2012. Captive Bodies: A Topology of Kidnapping on the U.S. Mexico Border. Political Geography Specialty Group: Pre-Conference, Poughkeepsie, New York (Feb, 2012)
18. 2012. The Migrant Border Crossing Study: Preliminary Data and Trends. Inter-University Program for Latino Research, New York, New York
(Feb 2012) with Daniel Martinez
19. 2012. Captive Bodies: Migration and Kidnapping on the U.S. Mexico Border. Association of
American Geography: Annual Meeting, New York,
New York (Feb 2012)
20. 2011. Datos preliminares de migracion, violencia
y inseguridad en la frontera. Desarrollo Humano en
la Frontera. Nogales, Sonora, Mexico. (December 2011)
21. 2011. Datos preliminares de migracion, violencia
y inseguridad en la frontera. Ciudades Fronterizos, Ciudad Juárez, Chihuahua, Mexico. November 2011.
22. 2011. Amanecen Muertos: They wake up dead on
the border. Annual Meeting for the Association of
Seattle, Washington.
American Geographers.
(April 2011)

822

23. 2011.

Violence and Migration.

Annual Meeting
for the Society for Applied Anthropology. Seattle,
Washington. (March 2011) With Scott Whiteford.

Violence and Migration. Annual Meeting
for the Association for Borderlands Studies. Salt
Lake City, Utah. (April 2011) With Scott Whiteford

24. 2011.

25. 2010. Datos y características de los migrantes repatriados a Nogales, Sonora. Presented at the Binational Colloquium on Transborder Human Development in the Arizona-Sonora Region. Nogales,

Sonora, Mexico.
Vandervoet

(May

2010)

with

Prescott

26. 2010. Niveles de acceso al agua en Nogales, Sonora durante la época del Cambio Climático. Presented at the Binational Colloquium on Transborder
Human Development in the Arizona-Sonora Region.

Nogales, Sonora, Mexico.

May 2010.

27. Slack, Jeremy. 2010. Power and Post-Structural
Violence: The Ethics of Labeling and Defining
Populations. Border Research Ethics and Methodology in Migration. Tucson, Arizona. May 2010.
28. 2010. Bajador, Burrero o Migrante? MexicoU.S. Migration and Post-Structural Violence.
Presented at the Annual Meeting for the Society for
Applied Anthropology. Mérida, Yucatán, México.

March, 2010.

29. 2010. Acceso al agua durante la época del cambio
climático: Nogales, Sonora. Presented at Primer
Congreso de la Red de Investigadores Sociales Sobre
el Agua Sede centro de capacitación del Instituto

823
Mexicano de Tecnología del Agua.

los, Mexico.

March 2010.

Jiutepec, More-

30. 2009. “El maltrato de migrantes indocumentados
en tránsito por la frontera Arizona—Sonora.”
Encuentro internacional migración y niñez miColegio de Sonora, Hermosillo.
May
grante.
2010. with Dan Martinez and Prescott Vandervoet

“Migrant Border Crossing Survey.” Social
Justice in Health Symposium. Tucson, Az. March
2010. with Dan Martinez

31. 2009.

32. 2009. “Fueling the Drug War: Repatriation Procedures and Violence on the Border.” Annual
Meeting of the Society for Applied Anthropology.
Santa Fe, New Mexico. March 2009. with Scott
Whiteford

33. 2008 “Urbanization on the U.S. Mexico Border: A
Case Study of Invasion, Eviction and Resettlement” Association for Borderlands Studies Conference. Denver, CO. April 2008.
34. 2008 “Preliminary Results from Migrant Border
Crossing Experience Survey” Social Justice in
Health. Tucson, AZ. April 2008. with Dan Martinez, Kraig Beyerlein, Prescott Vandervoet, Paola
Molina, Kylie Walzak

35. 2008 “Land Rights in Mexico: A Case Study of
Land Invasion and Eviction on the U.S. Mexico
Border” Rocky Mountain Consortium on Latin
American Studies. Santa Fe, New Mexico. Session Chair. April 2008.

824

36. 2007 “Living in the City of God: Senior Citizens’
Perspectives of Community, Identity and Notoriety in Contemporary Rio de Janeiro” Tinker Symposium on Latin American Studies. Tucson, AZ.
(November 2007)
Invited Presentations (Selected):

37. Deported to Death: How drug violence has reshaped migration. Neil A. Weiner Distinguished
Speaker Series. Vera Institute for Justice. New
York, New York. January 2019.
38. Deported to Death: How drug violence has reshaped migration. California State University:
Long Beach. Understanding Border Colloquim Series. Long Beach, CA. April, 2018

39. Author meets critics. Reece Jones: Violent Borders. Association of American Geography Annual
Meeting. Boston, MA. April 2017.
40. Las Pertenencias de los migrantes: una problema
sistemática. The American Civil Liberties Union:
Migrant Belongings Workshop. Mexico City, Mx.
January 2015.
41. Fire and Ice: Human Trafficking on the U.S.
Mexico Border. The University of Texas, El Paso.
El Paso, Texas. October 2014.
42. Seminario sobre los derechos del ninez migrante.
Colegio de la Frontera Norte, Tijuana, Baja California, Mexico. June 2014.
43. Migración y Derechos Humanos. Centro de Estudios Legales y Sociales. Buenos Aires, Argentina.
June, 2014

825

44. “Preliminary Data from the Migrant Border
Crossing Study: Families, Deportation and Violence.” Woodrow Wilson Center, Mexico Institute,
(May, 2013) Washington, D.C.

45. Ad Hoc Congressional Hearing on Family Reunification and Immigration Reform, Chaired by Rep.
Raúl Grijalva (D-AZ). 113th United States ConWashington, D.C. (Presented by Daniel
gress.
Martinez, drafted jointly)
46. Customs and Border Protections, CBP Headquarters.

Washington, D.C. (May 2013)

47. “Illicit Geographies.” Panel Discussion at the Annual Meeting for the Association of American Geographers. Los Angeles, CA. (April 2013) Organizer
with Jeffery Banister and Geoffrey Boyce.

48. Round Table Discussion on Immigration Reform.
Latin American Studies, University of Arizona.
Tucson, AZ. (April, 2013)
49. Women’s Refugee Commission, (March, 2013)
Washington, D.C.
50. 2012. Captive Bodies: Migrant Kidnapping on
the U.S. Mexico Border.
Borderline Slavery:
Contemporary Issues in Border Security and Human
Trade. The University of New Mexico. Albu-

querque, NM. (October 2012)

51. 2012. The Consequence Delivery System: Decision to Return among Deportees. Bi-National Migration Institute. Tucson, AZ. (November 2012)
with Dan Martinez.
52. 2012. The Use of Social Media as a Tool for Collaborative Research on the U.S. Mexico Border.

826
Presented at the Puentes Consortium for Binational
Research, Rice University, Houston, Texas. (November, 2012) with Alison Elizabeth Lee

53. 2012.
Migrant Experiences with Repatriation
and Violence.
Immigration Policy Conference.
New Mexico State University, Las Cruces, NM.
(June 2012) with Scott Whiteford
54. Border Safety in Journalism, Nogales, Arizona.
April 2013

55. 2010. Corruption on the Border: Violence and
Security Concerns. Presented at the Puentes Consortium for Binational Research, Rice University,
Houston, Texas.
February 2010.
With Scott
Whiteford

56. 2009 “Manifestaciones de violencia: tres proyectos con los migrantes en tránsito.” Seminario Migración y Derecho “Violencia y Vulnerabilidad Legal.” Universidad de Sonora. Hermosillo, Son.
December, 2009 with Prescott Vandervoet
Community Presentations (Selected):

57. Alianza Indígena sin Fronteras.
2013) with Scott Whiteford

Tucson, AZ (July,

58. Comisión de los Derechos Humanos Tucson, AZ.
(June, 2013)
59. Tucson Samaritans.

Tucson, AZ (May, 2013)

60. Catalina High School, English Language Learners,
Tucson, AZ. (April, 2013)
61. Green Valley Samaritans.
2013)

Tucson, AZ. (March,

827
Research Experience

•

The Migrant Border Crossing Study (MBCS), Center
for Latin American Studies, U.S. Mexico Border

August,
Present

2007

-

http://las.arizona.edu/mbcs

•

2007 – 2009 Interviewer
with Department of Sociology in Nogales, Sonora
(PIs Daniel Martínez and
Kraig Beyerlein). 2009—
the expansion for wave two
funded by the Ford Foundation, which added five
additional cities in Mexico.
Pls - Jeremy Slack, Scott
Whiteford and Daniel E.
Martínez
August, 2009
NOAA-SARP, Climate Ad- August 2010
aptation in the Sonoran Desert, Climate Assessment
for the Southwest. Ambos

Nogales

http://udallcenter.arizona.
edu/sarp/
Project lead for the
Nogales case study on climate adaptation to water
scarcity. In charge of interviews with officials, archival work on past

–

828

droughts, focus group interviews and ride-alongs
with water truck drivers.
•

ARAN—Association of Re- June, 2004 - May,
forestation
in
Ambos 2007, June
Nogales, Bureau of Applied
Research in Anthropology, 2008 – October

Tucson, AZ,

http://bara.arizona.edu
2004-2005 Student Employee, 2006 Staff, coordinating and assisting in office duties for a grant project; 2006-Graduate Research Assistant:
PI Dr. Diane Austin, Funded
by EPA Border 2012 program, AZDEQ, BECC and
MMS; Web Page Development; Transcribing Interviews and Data Base
Work; Development Work
with Alternative Heating,
Cooking and Housing
Strategies; Giving Informative Workshops to
Community; Developing
and Implementing research
plans, June-October 2008 –
building rainwater harvesting systems in Nogales, Sonora for monitoring and

2008

829

evaluation as a water saving strategy
Teaching Experience

• Violence and the State (Graduate)
• Border Research Methods (Graduate)
• Drug Use Abuse and Trafficking
• Intro to Cultural Geography
• Sociological Theory
• Qualitative Research
Seminar–Soc5233

Methods

Graduate

• Research Methods – Sociology 3311
• Drugs and Violence in Mexico – Las354
• Geography of Mexico – Geog311
• Border Field Studies Course (with University
of Maynooth)
• Introduction
to
International
(Preceptor)–INTS250

Studies

Affiliations/Memberships

• Visiting Student (Movilidad Fall 2013Estudiantil), El Colegio de
Spring 2014
la Frontera Norte (COLEF)
Nuevo Laredo and Tijuana
campuses
• Association of American Geographers

Fall, 2010-

830

• Political Geography
cialty Group

Spe-

Fall, 2010-

o Elected Student Representative, 2012-2013
Spe-

Fall, 2010-

• Consortium of Latin American Geographers

Fall, 2010-

• Latin American Studies Association

Spring, 2012-

• Society for Applied Anthropology

Fall, 2007-

• Association for Borderlands
Studies

Spring, 2008-

• Cultural Geography
cialty Group

Miscellaneous Skills

• Language:
Fluency in Spanish and Portuguese; experience translating at group presentations and with simultaneous translation
equipment; have conducted research in both
languages and published in Spanish
• Computer: Proficient with Microsoft and Mac
operating systems, Windows Office suite:
Word, Excel, Access, PowerPoint; Databases
through EndNote; Limited Web Development
knowledge with Dreamweaver, Microsoft
Frontpage, Wordpress; Familiarity with NVivo,
SPSS, Stata, Blackboard, D2L and ArcGIS
• Research Methods: Surveying Design, Implementation and Coding, Focus Group Interviews, Ethnographic methods, Field Notes,

831

Participant Observation, Interview Techniques,
Content Analysis, Rapid Appraisal Techniques
• Experiential Learning and Study Abroad:
Field trips with groups of students and community members on border tours ranging from day
trips to several weeks. This includes acquiring external funding to take my classes to the
border as well as a three week field school run
in conjunction with the University of Maynooth
and Dr. Lawrence Taylor.
• Expert Witness Experience: I have served as
an expert witness including asylum cases from
Mexico, and criminal cases involving blind mules,
and coercion by drug cartels.
• Media Appearances: Significant experience
working with the media, writing and presenting
press releases, holding press conferences, and
being interviewed for print, radio and television. As a result of these efforts, our report
“In the Shadow of the Wall” was featured in
over 140 news outlets in the United States,
Mexico, Argentina, Venezuela and Brazil. I
have appeared on television and documentary
segments for:
60 Minutes, The Situation
Room with Wolf Blitzer on CNN, PBS’ Need to
Know, CBS, Al Jazeera Faultlines, Univision,
Dan Rather Reports, all Southern Arizona news
broadcasts as well as NPR, Morning Edition
and CBS radio. My work has been featured in
the New York Times, the Washington Post,
USA Today, the Associated Press and Reforma
(Mexico). I have also appeared on 60 Minutes.

832

833
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

834

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

835

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

836
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CBP OFFICER [REDACTED]
(Signature and Title of officer)

837

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBP OFFICER

838
Protocolos de Protección del Migrante
Informacion de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada [San Ysidro Ped West], localizado
en [El Chaparral], en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

839

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
de Marzo 2019, para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de remoción). El Gobierno de los Estados Unidos Le proporcionará transportación desde el puerto de entrada designado hasta la corte el dia de su audiencia.
Si usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

840

•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios leg
ales también está disponible en el sitio web de
la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación
remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados

841

Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]

842
Migrant Protection Protocols
Initial Processing Information

•

You have been identified for processing under the
Migrant Protection Protocols and have been issued
a Form I-862 Notice to Appear (NTA) for proceedings before an immigration court where you may apply for all forms of relief available under the Immigration and Nationality Act. Pursuant to U.S. law,
including section 240 of the Immigration and Nationality Act and implementing regulations, an immigration judge will determine whether you are removable from the United States, and if you are,
whether you are eligible for relief or protection
from removal. While you will be able to pursue
such relief or protection under the same terms and
conditions as any alien in section 240 proceedings,
pursuant to U.S. law, you will be returned to Mexico
and may not attempt to enter the United States until you return to the appropriate port of entry on the
date of your hearing before an immigration judge.

•

The NTA provides the date and time of your first
hearing before an immigration judge in the United
States at the court identified on your NTA. On the
date of your hearing, you must report to the [SYS
PED West] port of entry, located at [EL Chaparral], at the date and time listed below. If your case
cannot be completed in one hearing, the immigration court will provide you with a Notice of Hearing
in Removal Proceedings, indicating the date and
time for any subsequent hearings.
o

You may call the immigration court at 1-800-8987180 to obtain case status information 24 hours

843

a day, 7 days a week. If you are calling from
outside of the United States, you should dial 001880-898-7180.
•

•

You should arrive at the port of entry listed above
at [REDACTED] a.m./p.m. on [REDACTED] [MAR
2019] to ensure that you have time to be processed,
transported to your hearing and meet with attorney
or accredited representative (if you arrange to be
represented during your removal proceedings).
The U.S. Government will provide transportation
for you from the designated port of entry to the
court on the day of your hearing. If you fail to arrive at the appropriate date and time, you may be
ordered removed in absentia.
o

When you arrive at the designated port of entry
for your hearing, you should bring your NTA or
Notice of Hearing in Removal Proceedings and
any available government-issued identification
and/or travel documents.

o

When you arrive at the designated port of entry
for your hearing, you should bring any minor
children or other family members who arrived
with you to the United States and received an
NTA for the same date and time.

You have the statutory privilege of being represented by an attorney or accredited representative
of your choosing who is authorized to practice before the immigration courts of the United States, at
no expense to the U.S. Government.
o

You have been provided with a List of Legal Service Providers, which has information on low
cost or free legal service providers practicing

844

near the immigration court where your hearing(s) will take place.
o

•

A list of legal service providers is also available
on the Executive Office for Immigration Review
website at https://www.justice.gov/eoir/list-probono-legal-service-providers.

If you choose to be represented, you may consult
with counsel at no expense to the U.S. Government
through any available mechanism, including the following, as applicable:
o

You may consult with your counsel by telephone,
email, video conference, or any other remote
communication method of your choosing.

o

You may arrange to consult with your counsel in
person at a location in Mexico of your choosing.

o

On the day of your immigration hearing, you
may arrange to meet with your counsel in-person,
in the United States, at your assigned court facility, prior to that hearing.

845

846
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

847

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.
htm. You must surrender within 30 days from the date

848

the order becomes administratively final, unless you obtain an order from a Federal court, immigration court,
or the Board of Immigration Appeals staying execution
of the removal order. Immigration regulations at 8
CFR 241.1 define when the removal order becomes administratively final. If you are granted voluntary departure and fail to depart the United States as required,
fail to post a bond in connection with voluntary departure, or fail to comply with any other condition or term
in connection with voluntary departure, you must surrender for removal on the next business day thereafter.
If you do not surrender for removal as required, you will
be ineligible for all forms of discretionary relief for as
long as you remain in the United States and for ten
years after departure or removal. This means you will
be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimm
igrant status, registry, and related waivers for this period. If you do not surrender for removal as required,
you may also be criminally prosecuted under section 243
of the Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

849
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CBP OFFICER [REDACTED]
(Signature and Title of officer)

850

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBP OFFICER

851

852
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

853

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

854

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

855
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CBP OFFICER [REDACTED]
(Signature and Title of officer)

856

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBPO

857
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada San Ysidro Ped West, localizado
en El Chaparral, en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

858

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
de Marzo 2019, para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de remoción). El Gobierno de los Estados Unidos le proporcionará transportación desde el puerto de entrada
designado hasta la corte el dia de su audiencia. Si
usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

859

•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación
remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados

860

Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]

861

862
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

863

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

864

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

865
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
[REDACTED]
(Signature and Title of officer)

866

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBPO

867
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada San Ysidro Ped West, localizado
en El Chaparral, en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

868

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
de Marzo 2019, para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de remoción). El Gobierno de los Estados Unidos le
proporcionará transportación desde el puerto de entrada designado hasta la corte el dia de su audiencia.
Si usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

869

•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación
remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunion en
persona con su consejero en los Estados

870

Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]

871
Migrant Protection Protocols
Initial Processing Information

•

You have been identified for processing under the
Migrant Protection Protocols and have been issued
a Form I-862 Notice to Appear (NTA) for proceedings before an immigration court where you may apply for all forms of relief available under the Immigration and Nationality Act. Pursuant to U.S. law,
including section 240 of the Immigration and Nationality Act and implementing regulations, an immigration judge will determine whether you are removable from the United States, and if you are,
whether you are eligible for relief or protection
from removal. While you will be able to pursue
such relief or protection under the same terms and
conditions as any alien in section 240 proceedings,
pursuant to U.S. law, you will be returned to Mexico
and may not attempt to enter the United States until you return to the appropriate port of entry on the
date of your hearing before an immigration judge.

•

The NTA provides the date and time of your first
hearing before an immigration judge in the United
States at the court identified on your NTA. On the
date of your hearing, you must report to the SYS
PED West POE port of entry, located at EL Chaparral, at the date and time listed below. If your
case cannot be completed in one hearing, the immigration court will provide you with a Notice of Hearing in Removal Proceedings, indicating the date and
time for any subsequent hearings.
o

You may call the immigration court at 1-800-8987180 to obtain case status information 24 hours

872

a day, 7 days a week. If you are calling from
outside of the United States, you should dial 001880-898-7180.
•

•

You should arrive at the port of entry listed above
at [REDACTED] a.m./p.m. on [REDACTED] MAR
2019 to ensure that you have time to be processed,
transported to your hearing and meet with attorney
or accredited representative (if you arrange to be
represented during your removal proceedings).
The U.S. Government will provide transportation
for you from the designated port of entry to the
court on the day of your hearing. If you fail to arrive at the appropriate date and time, you may be
ordered removed in absentia.
o

When you arrive at the designated port of entry
for your hearing, you should bring your NTA or
Notice of Hearing in Removal Proceedings and
any available government-issued identification
and/or travel documents.

o

When you arrive at the designated port of entry
for your hearing, you should bring any minor
children or other family members who arrived
with you to the United States and received an
NTA for the same date and time.

You have the statutory privilege of being represented by an attorney or accredited representative
of your choosing who is authorized to practice before the immigration courts of the United States, at
no expense to the U.S. Government.
o

You have been provided with a List of Legal Service Providers, which has information on low
cost or free legal service providers practicing

873

near the immigration court where your hearing(s) will take place.
A list of legal service providers is also available on the Executive Office for Immigration
Review website at https://www.justice.gov/
eoir/list-pro-bono-legal-service-providers.
•



If you choose to be represented, you may consult
with counsel at no expense to the U.S. Government
through any available mechanism, including the following, as applicable:
o

You may consult with your counsel by telephone,
email, video conference, or any other remote
communication method of your choosing.

o

You may arrange to consult with your counsel in
person at a location in Mexico of your choosing.

On the day of your immigration hearing, you may
arrange to meet with your counsel in- person, in the
United States, at your assigned court facility, prior
to that hearing.
[REDACTED]

874

875
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

876

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

877

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

878
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CBPO [REDACTED]
(Signature and Title of officer)

879

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS190
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBPO

880
Migrant Protection Protocols
Initial Processing Information

•

You have been identified for processing under the
Migrant Protection Protocols and have been issued
a Form I-862 Notice to Appear (NTA) for proceedings before an immigration court where you may apply for all forms of relief available under the Immigration and Nationality Act. Pursuant to U.S. law,
including section 240 of the Immigration and Nationality Act and implementing regulations, an immigration judge will determine whether you are removable from the United States, and if you are,
whether you are eligible for relief or protection
from removal. While you will be able to pursue
such relief or protection under the same terms and
conditions as any alien in section 240 proceedings,
pursuant to U.S. law, you will be returned to Mexico
and may not attempt to enter the United States until you return to the appropriate port of entry on the
date of your hearing before an immigration judge.

•

The NTA provides the date and time of your first
hearing before an immigration judge in the United
States at the court identified on your NTA. On the
date of your hearing, you must report to the SAN
Ysidro, CA port of entry, located at SYS Ped
West/EL Chaparral, at the date and time listed below. If your case cannot be completed in one hearing, the immigration court will provide you with a Notice of Hearing in Removal Proceedings, indicating
the date and time for any subsequent hearings. o
You may call the immigration court at 1-800-8987180 to obtain case status information 24 hours a

881

day, 7 days a week. If you are calling from outside of the United States, you should dial 001-880898-7180.
•

•

You should arrive at the port of entry listed above
at [REDACTED] a.m./p.m. on [REDACTED] MAR
[REDACTED] 2019 to ensure that you have time to
be processed, transported to your hearing and meet
with attorney or accredited representative (if you
arrange to be represented during your removal proceedings).
The U.S. Government will provide
transportation for you from the designated port of
entry to the court on the day of your hearing. If
you fail to arrive at the appropriate date and time,
you may be ordered removed in absentia.
o

When you arrive at the designated port of entry
for your hearing, you should bring your NTA or
Notice of Hearing in Removal Proceedings and
any available government-issued identification
and/or travel documents.

o

When you arrive at the designated port of entry
for your hearing, you should bring any minor
children or other family members who arrived
with you to the United States and received an
NTA for the same date and time.

You have the statutory privilege of being represented by an attorney or accredited representative
of your choosing who is authorized to practice before the immigration courts of the United States, at
no expense to the U.S. Government. o You have
been provided with a List of Legal Service Providers, which has information on low cost or free legal

882

service providers practicing near the immigration
court where your hearing(s) will take place.
† A list of legal service providers is also available on the Executive Office for Immigration Review website at https://www.justice.
gov/eoir/list-pro-bono-legal-service-providers.
•

If you choose to be represented, you may consult
with counsel at no expense to the U.S. Government
through any available mechanism, including the following, as applicable: o You may consult with your
counsel by telephone, email, video conference, or
any other remote communication method of your
choosing.
o

You may arrange to consult with your counsel in
person at a location in Mexico of your choosing.

o

On the day of your immigration hearing, you
may arrange to meet with your counsel inperson, in the United States, at your assigned
court facility, prior to that hearing.

[REDACTED]

[REDACTED]

Jan. 25, 2019

883

884
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

885

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

886

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

887
Certificate of Service

This Notice To Appear was served on the respondent
by me on February 3, 2019 in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CPBO [REDACTED]
(Signature and Title of officer)

888

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
February 3, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality a required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBPO

889
Migrant Protection Protocols
Initial Processing Information

•

You have been identified for processing under the
Migrant Protection Protocols and have been issued
a Form I-862 Notice to Appear (NTA) for proceedings before an immigration court where you may apply for all forms of relief available under the Immigration and Nationality Act. Pursuant to U.S. law,
including section 240 of the Immigration and Nationality Act and implementing regulations, an immigration judge will determine whether you are removable from the United States, and if you are,
whether you are eligible for relief or protection
from removal. While you will be able to pursue
such relief or protection under the same terms and
conditions as any alien in section 240 proceedings,
pursuant to U.S. law, you will be returned to Mexico
and may not attempt to enter the United States until you return to the appropriate port of entry on the
date of your hearing before an immigration judge.

•

The NTA provides the date and time of your first
hearing before an immigration judge in the United
States at the court identified on your NTA. On the
date of your hearing, you must report to the PEDESTRIAN WEST port of entry, located at EL
CHAPARRAL, at the date and time listed below.
If your case cannot be completed in one hearing, the
immigration court will provide you with a Notice of
Hearing in Removal Proceedings, indicating the
date and time for any subsequent hearings.
o

You may call the immigration court at 1-800-8987180 to obtain case status information 24 hours

890

a day, 7 days a week. If you are calling from
outside of the United States, you should dial 001880-898-7180.
•

•

You should arrive at the port of entry listed above
at [REDACTED] a.m./p.m. on [MARCH [REDACTED] 2019] to ensure that you have time to be
processed, transported to your hearing and meet
with attorney or accredited representative (if you
arrange to be represented during your removal proceedings).
The U.S. Government will provide
transportation for you from the designated port of
entry to the court on the day of your hearing. If
you fail to arrive at the appropriate date and time,
you may be ordered removed in absentia.
o

When you arrive at the designated port of entry
for your hearing, you should bring your NTA or
Notice of Hearing in Removal Proceedings and
any available government-issued identification
and/or travel documents.

o

When you arrive at the designated port of entry
for your hearing, you should bring any minor
children or other family members who arrived
with you to the United States and received an
NTA for the same date and time.

You have the statutory privilege of being represented by an attorney or accredited representative
of your choosing who is authorized to practice before the immigration courts of the United States, at
no expense to the U.S. Government.
o

You have been provided with a List of Legal Service Providers, which has information on low
cost or free legal service providers practicing

891

near the immigration court where your hearing(s) will take place.
A list of legal service providers is also available on the Executive Office for Immigration Review website at https://www.justice.
gov/eoir/list-pro-bono-legal-service-providers.
•

If you choose to be represented, you may consult
with counsel at no expense to the U.S. Government
through any available mechanism, including the following, as applicable:
o

You may consult with your counsel by telephone,
email, video conference, or any other remote
communication method of your choosing.

o

You may arrange to consult with your counsel in
person at a location in Mexico of your choosing.

o

On the day of your immigration hearing, you
may arrange to meet with your counsel inperson, in the United States, at your assigned
court facility, prior to that hearing.

[REDACTED]

Date:

[3/2/19]

January 25, 2019

892
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada San Ysidro Ped West, localizado
en El Chaparral, en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

893

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
de Marzo 2019, para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de remoción). El Gobierno de los Estados Unidos le proporcionará transportación desde el puerto de entrada designado hasta la corte el dia de su audiencia.
Si usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de Remoción, así como cualquier identificación emitida
por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su

894

elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.

•

o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

895

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados
Unidos en la localidad de su corte asignada,
previo a su audiencia.

[REDACTED]

Fecha:

[3/2/19]

25 de Enero del 2019

896

897
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

898

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

899

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

900
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CPBO [REDACTED]
(Signature and Title of officer)

901

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBPO

902
Migrant Protection Protocols
Initial Processing Information

•

You have been identified for processing under the
Migrant Protection Protocols and have been issued
a Form I-862 Notice to Appear (NTA) for proceedings before an immigration court where you may apply for all forms of relief available under the Immigration and Nationality Act. Pursuant to U.S. law,
including section 240 of the Immigration and Nationality Act and implementing regulations, an immigration judge will determine whether you are removable from the United States, and if you are,
whether you are eligible for relief or protection
from removal. While you will be able to pursue
such relief or protection under the same terms and
conditions as any alien in section 240 proceedings,
pursuant to U.S. law, you will be returned to Mexico
and may not attempt to enter the United States until you return to the appropriate port of entry on the
date of your hearing before an immigration judge.

•

The NTA provides the date and time of your first
hearing before an immigration judge in the United
States at the court identified on your NTA. On the
date of your hearing, you must report to the [EL
CHAPARRAL] port of entry, located at TIJUANA,
at the date and time listed below. If your case cannot be completed in one hearing, the immigration
court will provide you with a Notice of Hearing in
Removal Proceedings, indicating the date and time
for any subsequent hearings.
o

You may call the immigration court at 1-800-8987180 to obtain case status information 24 hours

903

a day, 7 days a week. If you are calling from
outside of the United States, you should dial 001880-898-7180.
•

You should arrive at the port of entry listed above
at [REDACTED] a.m./p.m. on MARCH [REDACTED] 2019 to ensure that you have time to be
processed, transported to your hearing and meet
with attorney or accredited representative (if you
arrange to be represented during your removal proceedings).
The U.S. Government will provide
transportation for you from the designated port of
entry to the court on the day of your hearing. If
you fail to arrive at the appropriate date and time,
you may be ordered removed in absentia.

•

o

When you arrive at the designated port of entry
for your hearing, you should bring your NTA or
Notice of Hearing in Removal Proceedings and
any available government-issued identification
and/or travel documents.

o

When you arrive at the designated port of entry
for your hearing, you should bring any minor
children or other family members who arrived
with you to the United States and received an
NTA for the same date and time.

You have the statutory privilege of being represented by an attorney or accredited representative
of your choosing who is authorized to practice before the immigration courts of the United States, at
no expense to the U.S. Government.


You have been provided with a List of Legal Service Providers, which has information on low
cost or free legal service providers practicing

904

near the immigration court where your hearing(s) will take place.
A list of legal service providers is also available on the Executive Office for Immigration Review website at https://www.justice.
gov/eoir/list-pro-bono-legal-service-providers.
•

If you choose to be represented, you may consult
with counsel at no expense to the U.S. Government
through any available mechanism, including the following, as applicable:
o

You may consult with your counsel by telephone,
email, video conference, or any other remote
communication method of your choosing.

o

You may arrange to consult with your counsel in
person at a location in Mexico of your choosing.

o

On the day of your immigration hearing, you
may arrange to meet with your counsel inperson, in the United States, at your assigned
court facility, prior to that hearing.

[REDACTED]

Date:

[30/1/19]

January 25, 2019

905
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada San Ysidro Ped West, localizado
en El Chaparral, en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

906

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
de Marzo 2019, para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de
remoción). El Gobierno de los Estados Unidos le
proporcionará transportación desde el puerto de entrada designado hasta la corte el dia de su audiencia.
Si usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

907

•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación
remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados

908

Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]

Date:

[30/1/19]

25 de Enero del 2019

909

910
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

911

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

912

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

913
Certificate of Service

This Notice To Appear was served on the respondent
by me on February 4, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
Cbpo [REDACTED]
(Signature and Title of officer)

Alien’s Name
[REDACTED]

File Number:
[REDACTED]

Date
February 4, 2019

914

SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]
ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Title

Signature
[REDACTED]

[REDACTED]

CBPO

915
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada [PED WEST/EL CHAPARRAL], localizado en [405 VIRGINIA AVE, SAN DIEGO, CA 92173], en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

916

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
[de Marzo 2019], para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de
remoción). El Gobierno de los Estados Unidos le
proporcionará transportación desde el puerto de entrada designado hasta la corte el dia de su audiencia.
Si usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

917

•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación
remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados

918

Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]

25 de Enero del 2019

919

920
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

921

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

922

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

923
Certificate of Service

This Notice To Appear was served on the respondent
by me on February 4, 2019, in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CPB OFFICER [REDACTED]
(Signature and Title of officer)

924

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
February 4, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBP OFFICER

925
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada San Ysidro Ped West, localizado
en El Chaparral, en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

926

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
de Marzo 2019, para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de remoción). El Gobierno de los Estados Unidos le proporcionará transportación desde el puerto de entrada designado hasta la corte el dia de su audiencia.
Si usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

927

•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados

928

Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]

25 de Enero del 2019

929

930
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

931

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

932

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

933
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019 in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CBP OFFICER [REDACTED]
(Signature and Title of officer)

[CBPO]

934

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature

Title

[REDACTED]

cbp officer

935
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada San Ysidro Ped West, localizado
en El Chaparral, en la fecha y hora listada más
abajo. Si su caso no puede completarse en una sola
audiencia, la corte de inmigración le proveerá una
Notificación de Audiencia en Procedimientos de

936

Remoción, que indica la fecha y hora de cualquier
audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [REDACTED]
de Marzo 2019, para asegurarse de tener tiempo
para ser procesado, transportado a su audiencia y
para que pueda reunirse con su abogado o representante acreditado (si usted hace arreglos para ser
representado durante sus procedimientos de remoción). El Gobierno de los Estados Unidos le proporcionará transportación desde el puerto de entrada
designado hasta la corte el dia de su audiencia. Si
usted falla en llegar en la fecha y hora apropiadas,
podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados
Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.

937

•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación
remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados

938

Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]

25 de Enero del 2019

939
Migrant Protection Protocols
Initial Processing Information

•

You have been identified for processing under the
Migrant Protection Protocols and have been issued
a Form I-862 Notice to Appear (NTA) for proceedings before an immigration court where you may apply for all forms of relief available under the Immigration and Nationality Act. Pursuant to U.S. law,
including section 240 of the Immigration and Nationality Act and implementing regulations, an immigration judge will determine whether you are removable from the United States, and if you are,
whether you are eligible for relief or protection
from removal. While you will be able to pursue
such relief or protection under the same terms and
conditions as any alien in section 240 proceedings,
pursuant to U.S. law, you will be returned to Mexico
and may not attempt to enter the United States until you return to the appropriate port of entry on the
date of your hearing before an immigration judge.

•

The NTA provides the date and time of your first
hearing before an immigration judge in the United
States at the court identified on your NTA. On the
date of your hearing, you must report to the San
Ysidro Ped West port of entry, located at El Chaparral, at the date and time listed below. If your
case cannot be completed in one hearing, the immigration court will provide you with a Notice of Hearing in Removal Proceedings, indicating the date and
time for any subsequent hearings.
o

You may call the immigration court at 1-800-8987180 to obtain case status information 24 hours

940

a day, 7 days a week. If you are calling from
outside of the United States, you should dial 001880-898-7180.
•

•

You should arrive at the port of entry listed above
at [REDACTED] a.m./p.m. on [REDACTED] de
Marzo 2019 to ensure that you have time to be processed, transported to your hearing and meet with
attorney or accredited representative (if you arrange to be represented during your removal proceedings).
The U.S. Government will provide
transportation for you from the designated port of
entry to the court on the day of your hearing. If
you fail to arrive at the appropriate date and time,
you may be ordered removed in absentia.
o

When you arrive at the designated port of entry
for your hearing, you should bring your NTA or
Notice of Hearing in Removal Proceedings and
any available government-issued identification
and/or travel documents.

o

When you arrive at the designated port of entry
for your hearing, you should bring any minor
children or other family members who arrived
with you to the United States and received an
NTA for the same date and time.

You have the statutory privilege of being represented by an attorney or accredited representative
of your choosing who is authorized to practice before the immigration courts of the United States, at
no expense to the U.S. Government.
o

You have been provided with a List of Legal Service Providers, which has information on low
cost or free legal service providers practicing

941

near the immigration court where your hearing(s) will take place.
A list of legal service providers is also available on the Executive Office for Immigration
Review website at https://www.justice.gov/
eoir/list-pro-bono-legal-service-providers.
•

If you choose to be represented, you may consult
with counsel at no expense to the U.S. Government
through any available mechanism, including the following, as applicable:
o

You may consult with your counsel by telephone,
email, video conference, or any other remote
communication method of your choosing.

o

You may arrange to consult with your counsel in
person at a location in Mexico of your choosing.

o

On the day of your immigration hearing, you
may arrange to meet with your counsel inperson, in the United States, at your assigned
court facility, prior to that hearing.

[REDACTED]

January 25, 2019

942

943
Notice to Respondent
Warning: Any statement you make may be used against
you in removal proceedings.
Alien Registration:

This copy of the Notice to Appear
served upon you is evidence of your alien registration
while you are under removal proceedings. You are required to carry it with you at all times.
Representation : If you so choose, you may be represented in this proceeding, at no expense to the Government, by an attorney or other individual authorized and
qualified to represent persons before the Executive Office for Immigration Review, pursuant to 8 CFR 3.16.
Unless you so request, no hearing will be scheduled earlier than ten days from the date of this notice, to allow
you sufficient time to secure counsel. A list of qualified
attorneys and organizations who may be available to
represent you at no cost will be provided with this notice.
Conduct of the hearing:

At the time of your hearing,
you should bring with you any affidavits or other documents, which you desire to have considered in connection with your case. If you wish to have the testimony
of any witnesses considered, you should arrange to have
such witnesses present at the hearing.
At your hearing you will be given the opportunity to admit or deny any or all of the allegations in the Notice to
Appear and that you are inadmissible or removable on
the charges contained in the Notice to Appear. You
will have an opportunity to present evidence on your
own behalf, to examine any evidence presented by the
Government, to object, on proper legal grounds, to the
receipt of evidence and to cross examine any witnesses

944

presented by the Government. At the conclusion of
your hearing, you have a right to appeal an adverse decision by the immigration judge.
You will be advised by the immigration judge before
whom you appear of any relief from removal for which
you may appear eligible including the privilege of departure voluntarily. You will be given a reasonable opportunity to make any such application to the immigration
judge.
Failure to appear:

You are required to provide the
DHS, in writing, with your full mailing address and telephone number. You must notify the Immigration
Court immediately by using Form EOIR-33 whenever
you change your address or telephone number during
the course of this proceeding. You will be provided
with a copy of this form. Notices of hearing will be
mailed to this address. If you do not submit Form
EOIR-33 and do not otherwise provide an address at
which you may be reached during proceedings, then the
Government shall not be required to provide you with
written notice of your hearing. If you fail to attend the
hearing at the time and place designated on this notice,
or any date and time later directed by the Immigration
Court, a removal order may be made by the immigration
judge in your absence, and you may be arrested and detained by the DHS.
Mandatory Duty to Surrender for Removal: If you become subject to a final order of removal, you must surrender for removal to one of the offices listed in 8 CFR
241.16(a). Specific addresses on locations for surrender can be obtained from your local DHS office or over
the internet at http://www.ice.gov/about/dro/contact.htm.
You must surrender within 30 days from the date the

945

order becomes administratively final, unless you obtain
an order from a Federal court, immigration court, or the
Board of Immigration Appeals staying execution of the
removal order. Immigration regulations at 8 CFR
241.1 define when the removal order becomes administratively final. If you are granted voluntary departure
and fail to depart the United States as required, fail to
post a bond in connection with voluntary departure, or
fail to comply with any other condition or term in connection with voluntary departure, you must surrender
for removal on the next business day thereafter. If you
do not surrender for removal as required, you will be ineligible for all forms of discretionary relief for as long as
you remain in the United States and for ten years after
departure or removal. This means you will be ineligible for asylum, cancellation of removal, voluntary departure, adjustment of status, change of nonimmigrant status, registry, and related waivers for this period. If
you do not surrender for removal as required, you may
also be criminally prosecuted under section 243 of the
Act.
Request for Prompt Hearing

To expedite a determination in my case, I request an immediate hearing. I waive my right to a 10-day period
prior to appearing before an immigration judge.
Before:

(Signature of Respondent)
Date:

(Signature and Title of Immigration Officer)

946
Certificate of Service

This Notice To Appear was served on the respondent
by me on January 30, 2019 in the following manner
and in compliance with section 239(a)(1)(F) of the Act.
☒ in person

☐ by certified mail, returned
receipt requested

☐ by regular mail

☐

Attached is a credible fear
worksheet

☒ Attached is a list of organization and attorneys
which provide free legal services.
The alien was provided oral notice in the SPANISH
language of the time and place of his or her hearing
and of the consequences of failure to appear as provided in section 240(b)(7) of the Act
[REDACTED]
(Signature of Respondent if Personally Served)
CBP OFFICER [REDACTED]
(Signature and Title of officer)

[CBPO]

947

Alien’s Name
[REDACTED]

File Number:
Date
[REDACTED]
January 30, 2019
SIGMA Event:
[REDACTED]
Event No: SYS19
[REDACTED]

ON THE BASIS OF THE FOREGOING, IT IS
CHARGED THAT YOU ARE SUBJECT TO REMOVAL FROM THE UNITED STATES PURSUANT TO THE FOLLOWING PROVISION(S) OF
LAW:
**********************************************
212(a)(7)(A)(i)(I) of the Immigration and Nationality
Act (Act), as amended, as an immigrant who, at the
time of application for admission, is not in possession
of a valid unexpired immigrant visa, reentry permit,
border crossing card, or other valid entry document
required by the Act, and a valid unexpired passport,
or other suitable travel document, or document of
identity and nationality as required under the regulations issued by the Attorney General under section
211(a) of the Act.
Signature
[REDACTED]

Title
[REDACTED]

CBP OFFICER

948
Migrant Protection Protocols
Initial Processing Information

•

You have been identified for processing under the
Migrant Protection Protocols and have been issued
a Form I-862 Notice to Appear (NTA) for proceedings before an immigration court where you may apply for all forms of relief available under the Immigration and Nationality Act. Pursuant to U.S. law,
including section 240 of the Immigration and Nationality Act and implementing regulations, an immigration judge will determine whether you are removable from the United States, and if you are,
whether you are eligible for relief or protection
from removal. While you will be able to pursue
such relief or protection under the same terms and
conditions as any alien in section 240 proceedings,
pursuant to U.S. law, you will be returned to Mexico
and may not attempt to enter the United States until you return to the appropriate port of entry on the
date of your hearing before an immigration judge.

•

The NTA provides the date and time of your first
hearing before an immigration judge in the United
States at the court identified on your NTA. On the
date of your hearing, you must report to the [SAN
YSIDRO PED WEST] port of entry, located at [EL
CHAPARRAL], at the date and time listed below.
If your case cannot be completed in one hearing, the
immigration court will provide you with a Notice of
Hearing in Removal Proceedings, indicating the
date and time for any subsequent hearings.
o

You may call the immigration court at 1-800-8987180 to obtain case status information 24 hours

949

a day, 7 days a week. If you are calling from
outside of the United States, you should dial 001880-898-7180.
•

•

You should arrive at the port of entry listed above
at [REDACTED] a.m./p.m. on [MARCH] [REDACTED] [2019] to ensure that you have time to be
processed, transported to your hearing and meet
with attorney or accredited representative (if you
arrange to be represented during your removal proceedings).
The U.S. Government will provide
transportation for you from the designated port of
entry to the court on the day of your hearing. If
you fail to arrive at the appropriate date and time,
you may be ordered removed in absentia.
o

When you arrive at the designated port of entry
for your hearing, you should bring your NTA or
Notice of Hearing in Removal Proceedings and
any available government-issued identification
and/or travel documents.

o

When you arrive at the designated port of entry
for your hearing, you should bring any minor
children or other family members who arrived
with you to the United States and received an
NTA for the same date and time.

You have the statutory privilege of being represented by an attorney or accredited representative
of your choosing who is authorized to practice before the immigration courts of the United States, at
no expense to the U.S. Government.
o

You have been provided with a List of Legal Service Providers, which has information on low
cost or free legal service providers practicing

950

near the immigration court where your hearing(s) will take place.
A list of legal service providers is also available on the Executive Office for Immigration
Review website at https://www.justice. gov/eoir/
list-pro-bono-legal-service-providers.
•

If you choose to be represented, you may consult
with counsel at no expense to the U.S. Government
through any available mechanism, including the following, as applicable:



o

You may consult with your counsel by telephone,
email, video conference, or any other remote
communication method of your choosing.

o

You may arrange to consult with your counsel in
person at a location in Mexico of your choosing.
On the day of your immigration hearing, you
may arrange to meet with your counsel inperson, in the United States, at your assigned
court facility, prior to that hearing.

[REDACTED]

January 25, 2019

951
Protocolos de Protección del Migrante
Información de Procesamiento Inicial

•

Usted ha sido identificado para procesamiento bajo
los Protocolos de Protección del Migrante y se le ha
expedido un Formulario I-862, Citatorio (NTA, por
sus siglas en inglés), para procedimientos ante una
corte de inmigración, donde podrá solicitar todas las
formas de alivio de inmigración disponibles bajo la
Ley de Inmigración y Nacionalidad. Cumpliendo
con las leyes de los Estados Unidos, incluso la sección 240 de la Ley de Inmigración y Nacionalidad y
la implementación de regulaciones, un juez de inmigración determinará si usted es sujeto a remoción
de los Estados Unidos, y en caso de serlo si es elegible o no a alivio o protección de remoción. Aunque
usted podrá buscar ese alivio o protección bajo los
mismos términos y condíciones de cualquier extranjero, en los procedimientos de la sección 240, de
acuerdo a las leyes de los Estados Unidos, usted
será devuelto a México y no podrá intentar entrar
a los Estados Unidos hasta que regrese al puerto de
entrada apropiado en la fecha de su audiencia ante
un juez de inmigración.

•

La NTA, proporciona la fecha y hora de su primera
audiencia ante un juez de inmigración en los Estados Unidos en la corte identificada en su NTA. En
la fecha de su audiencia, usted debe presentarse al
puerto de entrada [SAN YSIDRO PED WEST], localizado en [EL CHAPARRAL], en la fecha y hora
listada más abajo. Si su caso no puede completarse
en una sola audiencia, la corte de inmigración le

952

proveerá una Notificación de Audiencia en Procedimientos de Remoción, que indica la fecha y hora de
cualquier audiencia subsecuente.
o

•

Usted puede llamar a la corte de inmigración
al teléfono 1-800-898-7180 para obtener información de su caso las 24 horas al día, los 7 días
de la semana. Si está llamando desde fuera
de Estados Unidos, usted debe marcar 001880-898-7180.

Usted debe llegar al puerto de entrada listado arriba a las [REDACTED], a.m./p.m. el [MARCH]
[REDACTED] [2019], para asegurarse de tener
tiempo para ser procesado, transportado a su audiencia y para que pueda reunirse con su abogado o
representante acreditado (si usted hace arreglos
para ser representado durante sus procedimientos
de remoción). El Gobierno de los Estados Unidos
le proporcionará transportación desde el puerto de
entrada designado hasta la corte el dia de su audiencia. Si usted falla en llegar en la fecha y hora
apropiadas, podría ordenarse su remoción en ausencia.
o

Al llegar al puerto de entrada designado para
su audiencia, debe traer consigo la NTA o Notificación de Audiencia en Procesos de
Remoción, así como cualquier identificación
emitida por el gobierno y/o documentos de viaje.

o

Al llegar al puerto de entrada designado para
su audiencia, debe traer cualquier menor o
otro familiar que haya entrado a los Estados

953

Unidos con usted y que recibieron una NTA
par a la misma fecha y hora.
•

•

Usted tiene el privilegio legal de ser representado
por un abogado o representante acreditado de su
elección, que esté acreditado para ejercer la práctica de inmigración ante una corte de inmigración de
los Estados Unidos, sin cargo al gobierno estadounidense.
o

A usted se le proporcionó anteriormente un
Listado de Proveedores de Servicios Legales,
la cual contiene información acerca de servicios de bajo costo o gratuitos de parte de los
proveedores legales que practican cerca de la
corte de inmigración donde su audiencia(s)
tendrá lugar.

o

Un listado de los proveedores de servicios legales también está disponible en el sitio web
de la Oficina Ejecutiva para la Revisión de
Imnigración en https://www.justice.gov/eoir/
list-pro-bono-legal-service-providers

Si usted elige ser representado, puede consultar con
un consejero sin cargo al Gobierno de los Estados
Unidos por medio de cualquier mecanismo que incluyen los siguientes, si aplica:
o

Usted puede consultar con su consejero por
teléfono, correo electrónico, videoconferencía
o cualquier otro método de comunicación
remota de su elección.

o

Usted puede hacer arreglos para consultar
con su consejero en persona en una localidad
de su elección en México.

954

o

El día de su audiencia de inmigración, usted
puede hacer los arreglos pra una reunión en
persona con su consejero en los Estados
Unidos en la localidad de su corte asignada,
previo a su audiencia.
[REDACTED]
25 de Enero del 2019

